APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the First Circuit
(November 12, 2020) . . . . . . . . . . . App. 1
Appendix B Findings of Fact and Conclusions of
Law in the United States District
Court District of Massachusetts
(September 30, 2019) . . . . . . . . . App. 99
Appendix C Judgment in a Civil Case in the
United States District Court District
of Massachusetts
(September 30, 2019) . . . . . . . . App. 271
Appendix D Memorandum and Order on CrossMotions for Summary Judgment in
the United States District Court
District of Massachusetts
(September 28, 2018) . . . . . . . . App. 273
Appendix E Memorandum and Order Granting
Motion for Partial Judgment on the
Pleadings in the United States
District Court District of Massachusetts
(June 2, 2017) . . . . . . . . . . . . . . App. 326
Appendix F Memorandum and Order Denying
Motion to Dismiss in the United
States District Court District of
Massachusetts
(June 2, 2017) . . . . . . . . . . . . . . App. 328

App. 1

APPENDIX A
United States Court of Appeals
For the First Circuit
No. 19-2005
[Filed: November 12, 2020]
_______________________________________
STUDENTS FOR FAIR
)
ADMISSIONS, INC.,
)
)
Plaintiff, Appellant,
)
)
v.
)
)
PRESIDENT AND FELLOWS OF
)
HARVARD COLLEGE,
)
)
Defendant, Appellee.
)
_______________________________________)
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Allison D. Burroughs, U.S. District Judge]
Before
Howard, Chief Judge
and Lynch, Circuit Judge.*
*

Judge Torruella heard oral argument in this matter and
participated in the semble, but he did not participate in the

App. 2
William S. Consovoy, with whom Thomas R.
McCarthy, J. Michael Connolly, Cameron T. Norris,
Patrick Strawbridge, Consovoy McCarthy PLLC, Adam
K. Mortara, John M. Hughes, and Bartlit Beck LLP
were on brief, for appellant Students for Fair
Admissions, Inc.
Eric S. Dreiband, Assistant Attorney General, with
whom Elliott M. Davis, Acting Principal Deputy
Assistant Attorney General, Thomas E. Chandler, and
Matthew J. Donnelly were on brief, for the United
States, amicus curiae.
Gordon M. Fauth, Jr., Litigation Law Group, Lee C.
Cheng, and Asian American Legal Foundation on brief
for the Asian American Coalition for Education and the
Asian American Legal Foundation, amici curiae.
Wencong Fa, Joshua P. Thompson, and Pacific
Legal Foundation on brief for Pacific Legal Foundation,
Reason Foundation, Center for Equal Opportunity,
Individual Rights Foundation, and the Chinese
American Citizens Alliance - Greater New York, amici
curiae.
Randall B. Clark, C. Boyden Gray, Adam R.F.
Gustafson, James R. Conde, T. Elliot Gaiser, and
Boyden Gray & Associates on brief for Economists
Michael Keane, Hanming Fang, Christopher Flinn,
Stefan Hoderlein, Yingyao Hu, Joseph Kaboski, Glenn
Loury, Thomas Mroz, John Rust, and Matthew Shum,
amici curiae.

issuance of the panel’s decision. The remaining two panelists
therefore issued the opinion pursuant to 28 U.S.C. § 46(d).

App. 3
Jun Xiao, Yong Li, Xiaoying Yu, and Haiying Li, on
brief pro se.
Timothy J. Perry, Perry Krumsiek, LLP, T. Russell
Nobile, Robert D. Popper, and Judicial Watch, Inc. on
brief for Judicial Watch, Inc., amicus curiae.
Cody J. Wisniewski on brief for Mountain States
Legal Foundation, amicus curiae.
Dwight Duncan and Dennis J. Saffran on brief for
National Association of Scholars, amicus curiae.
Seth P. Waxman, with whom Paul R.Q. Wolfson,
Danielle Y. Conley, Brittany Blueitt Amadi, William F.
Lee, Felicia H. Ellsworth, Andrew S. Dulberg, Debo P.
Adegbile, Michelle Liszt Sandals, Greg Schmidt, Emma
Simson, Alex Hemmer, Wilmer Cutler Pickering Hale
and Dorr LLP, Ara B. Gershengorn, and Harvard
University, Office of the General Counsel were on brief,
for appellee President and Fellows of Harvard College.
David Hinojosa, with whom Jon M. Greenbaum,
Genevieve Bonadies Torres, Lawyers’ Committee for
Civil Rights Under Law, Lawrence E. Culleen,
Elisabeth S. Theodore, Nancy L. Perkins, Janine M.
Lopez, Emma Dinan, Camille Heyboer, Arnold &
Porter Kaye Scholer LLP, Niyati Shah, Marita
Etcubanez, Eri Andriola, Asian Americans Advancing
Justice, Oren M. Sellstrom, and Lawyers for Civil
Rights were on brief, for Students, Alumni, and
Prospective Students of Harvard College, amici curiae.
Jin Hee Lee, with whom Sherrilyn Ifill, Janai
Nelson, Samuel Spital, Rachel Kleinman, Cara
McClellan, Michaele N. Turnage Young, Jennifer A.

App. 4
Holmes, NAACP Legal Defense and Educational Fund,
Inc., Kate R. Cook, Kenneth N. Thayer, and Sugarman,
Rogers, Barshak & Cohen, P.C. were on brief, for
Coalition for a Diverse Harvard, Association of Black
Harvard Women, First Generation Harvard Alumni,
Fuerza Latina of Harvard, Harvard Asian American
Alumni Alliance, Harvard Asian American
Brotherhood, Harvard Black Alumni Society, Harvard
Islamic Society, Harvard Japan Society, Harvard
Korean Association, Harvard Latino Alumni Alliance,
Harvard Minority Association of Pre-Medical Students,
Harvard Phillips Brooks House Association, Harvard
Progressive Jewish Alumni, Harvard South Asian
Association, Harvard University Muslim Alumni,
Harvard Vietnamese Association, Harvard-Radcliffe
Asian American Association, Harvard-Radcliffe Asian
American Women’s Association, Harvard-Radcliffe
Black Students Association, Harvard-Radcliffe Chinese
Students Association, Kuumba Singers of Harvard
College, Native American Alumni of Harvard
University, Native Americans at Harvard College, Task
Force for Asian American Progressive Advocacy and
Studies, and 21 Colorful Crimson, amici curiae.
Jessica L. Ellsworth, Stephanie J. Gold, Jo-Ann
Tamila Sagar, Hogan Lovells US LLP, Peter
McDonough, and American Council on Education on
brief for American Council on Education and 40 Other
Higher Education Organizations, amici curiae.
Samuel P. Groner, Harrison D. Polans, Fried,
Frank, Harris, Shriver & Jacobson, LLP, Steven M.
Freeman, and Amy Feinman on brief for
Anti-Defamation League, amicus curiae.

App. 5
Madeleine K. Rodriguez, Dean Richlin, Hemmie
Chang, Sarah Burg, Rachel Hutchinson, Jacqueline
Chávez, Foley Hoag LLP, Kenneth Kimerling, and
Asian American Legal Defense and Education Fund on
brief for Asian American Legal Defense and Education
Fund and Other Asian American Education and
Youth-Serving Organizations and Higher Education
Faculty.
Jaime A. Santos, Sabrina M. Rose-Smith, William
Evans, and Goodwin Procter LLP, on brief for the
National Association of Basketball Coaches, Women’s
Basketball Coaches Association, Geno Auriemma,
James A. Boeheim, John Chaney, Tom Izzo, Michael W.
Krzyzewski, Joanne P. McCallie, Nolan Richardson,
Bill Self, Sue Semrau, Orlando Smith, Tara
Vanderveer, Roy Williams, Jay Wright, and 326
Additional Current or Former College Head Coaches,
amici curiae.
Matthew S. Hellman, Ishan K. Bhabha, and Jenner
& Block LLP, on brief for Brown University, Columbia
University, Cornell University, Dartmouth College,
Duke University, Emory University, Johns Hopkins
University, Massachusetts Institute of Technology,
Princeton University, Stanford University, University
of Chicago, University of Pennsylvania, Vanderbilt
University, Washington University in St. Louis, and
Yale University, amici curiae.
Maura Healey, Attorney General of Massachusetts,
Elizabeth N. Dewar, State Solicitor, Ann E. Lynch,
Assistant Attorney General of Massachusetts, David
Ureña, Assistant Attorney General of Massachusetts,
Xavier Becerra, Attorney General of California, Philip

App. 6
J. Weiser, Attorney General of Colorado, Kathleen
Jennings, Attorney General of Delaware, Karl A.
Racine, Attorney General for the District of Columbia,
Clare E. Connors, Attorney General of Hawai’i, Kwame
Raoul, Attorney General of Illinois, Aaron M. Frey,
Attorney General of Maine, Brian E. Frosh, Attorney
General of Maryland, Keith Ellison, Attorney General
of Minnesota, Aaron D. Ford, Attorney General of
Nevada, Hector Balderas, Attorney General of New
Mexico, Letitia James, Attorney General of New York,
Josh Shapiro, Attorney General of Pennsylvania, Peter
Neronha, Attorney General of Rhode Island, and Mark
R. Herring, Attorney General of Virginia, on brief for
Massachusetts, California, Colorado, Delaware, the
District of Columbia, Hawai’i, Illinois, Maine,
Maryland, Minnesota, Nevada, New Mexico, New York,
Pennsylvania, Rhode Island, and Virginia, amici
curiae.
Derek T. Ho, Bradley E. Oppenheimer, Minsuk
Han, Joseph L. Wenner, and Kellogg, Hansen, Todd,
Figel & Frederick P.L.L.C. on brief for Professors of
Economics, amicus curiae.
Sarah E. Harrington and Goldstein & Russell, P.C.
on brief for 678 Social Scientists and Scholars on
College Access, Asian American Studies, and Race,
amici curiae.
Anton Metlitsky, Patrick D. McKegney, Apalla U.
Chopra, Bradley N. Garcia, Anna O. Mohan, and
O’Melveny & Myers LLP on brief for Walter Dellinger,
amicus curiae.

App. 7
Mark S. Davies, Thomas M. Bondy, Katherine M.
Kopp, Sheila A. Baynes, Sarah H. Sloan, E. Joshua
Rosenkranz, Darren S. Teshima, and Orrick,
Herrington & Sutcliffe LLP on brief for Amgen Inc.,
Apple Inc., Applied Materials, Inc., Cisco Systems, Inc.,
Cummins Inc., General Electric Company, Gilead
Sciences, Inc., GlaxoSmithKline LLC, Intel
Corporation, Micron Technology, Inc., Microsoft
Corporation, Twitter, Inc., and ViiV Healthcare
Company, amici curiae.
Keefe B. Clemons on brief for Verizon Services
Corp., amicus curiae.
November 12, 2020
LYNCH, Circuit Judge. Students for Fair
Admissions, Inc. (“SFFA”) brought suit on November
17, 2014, against the President and Fellows of Harvard
College and the Board of Overseers (collectively,
“Harvard”). The suit alleged that Harvard College’s
admittedly race-conscious undergraduate admissions
process violates Title VI of the Civil Rights Act of 1964,
42 U.S.C. § 2000d et seq. (“Title VI”) by discriminating
against Asian American applicants in favor of white
applicants.
SFFA asserts that Harvard fails to meet the
Supreme Court’s standards for the use of race in
admissions which are asserted to be justified by
diversity in these ways: (1) it engages in racial
balancing of its undergraduate class; (2) it
impermissibly uses race as more than a “plus” factor in
admissions decisions; (3) it considers race in its process
despite the existence of workable race-neutral

App. 8
alternatives; and (4) it intentionally discriminates
against Asian American applicants to Harvard College.
SFFA seeks a declaratory judgment, injunctive relief,
attorneys’ fees, and costs.
The district court denied Harvard’s motion to
dismiss SFFA’s suit for lack of Article III standing. See
Students for Fair Admissions, Inc. v. President &
Fellows of Harvard Coll. (“SFFA I”), 261 F. Supp. 3d
99, 111 (D. Mass. 2017).
After a fifteen-day bench trial at which thirty
witnesses testified, the district court issued a 130-page
opinion with findings of fact and conclusions of law. See
Students for Fair Admissions, Inc. v. President &
Fellows of Harvard Coll. (“SFFA II”), 397 F. Supp. 3d
126, 132 (D. Mass. 2019). It made numerous factual
findings, including as to competing expert witness
testimony and credibility determinations about the
testimony of witnesses. See id. at 158-83. The district
court found that Harvard had met its burden of
showing its admissions process did not violate Title VI.
See id. at 197, 199, 201, 204. It entered judgment for
Harvard on all counts. See id.
SFFA appeals from this judgment, and Harvard
renews its argument that SFFA lacks standing.1

1

The district court dismissed two of SFFA’s original claims before
trial: that Harvard uses race to fill more than just the last few
places in its class and that Harvard considers race in its
admissions process generally. SFFA does not challenge the
dismissal of these claims on appeal.

App. 9
After careful review of the record, we hold that
SFFA has associational standing to bring its claims
and that under governing Supreme Court law
Harvard’s race-conscious admissions program does not
violate Title VI.2
I. Facts
We recount the relevant basic facts before we turn
to our legal analysis.

2

We acknowledge and thank all of the amici curiae for their
helpful submissions in this matter. The following amici submitted
briefs in support of SFFA: the United States; the Asian American
Coalition for Education and the Asian American Legal Foundation;
the Pacific Legal Foundation and the four other institutions on the
brief; Michael Keane and the nine other economists on the brief;
Jun Xiao and the three other individuals on the brief; Judicial
Watch, Inc.; the Mountain States Legal Foundation; and the
National Association of Scholars. The following amici filed briefs
in support of Harvard: Students, Alumni, and Prospective
Students of Harvard College; the American Council on Education
and the forty other higher education organizations on the brief; the
Anti-Defamation League; the Asian American Legal Defense Fund
and the forty-five other Asian American education and
youth-serving organizations and faculty on the brief; the National
Association of Basketball Coaches, the Women’s Basketball
Coaches Association, and the 339 current and former coaches on
the brief; Brown University and the fourteen other colleges and
universities on the brief; Massachusetts and the fifteen other
states on the brief; the eighteen Professors of Economics; the 678
Social Scientists and Scholars on College Access, Asian American
Studies, and Race; Walter Dellinger; and the Coalition for a
Diverse Harvard and the twenty-five other organizations on the
brief. Amgen, Inc. and thirteen other corporations submitted a
brief in favor of preserving diversity and inclusion efforts like those
previously approved by the Supreme Court.

App. 10
1) SFFA
SFFA is a validly incorporated 501(c)(3) nonprofit
organization. Its bylaws state that it was formed to
“defend human and civil rights secured by law,
including the right of individuals to equal protection
under the law, through litigation and any other lawful
means.”
SFFA was incorporated on July 30, 2014. Its
original board of directors had three self-appointed
members: Edward Blum, President, Abigail Fisher,
Secretary, and Richard Fisher, Treasurer. In November
2014, when it filed suit against Harvard, SFFA’s
bylaws also provided for “affiliate members” who
“support[ed] the purposes and mission of the
Corporation.” All members of SFFA were affiliate
members. Membership was free, but affiliate members
could not vote for any officers or directors of the
organization. SFFA had forty-seven affiliate members
when it sued Harvard, including Asian American
members who had applied to and been rejected by
Harvard. Several of these members submitted
declarations stating that they voluntarily joined SFFA,
supported its mission, had been in contact with SFFA,
received updates about this litigation, and were able to
express their views on it.
In June 2015, SFFA amended its bylaws to
eliminate “affiliate members” and replace them with
“general members.” Unlike affiliate members, general
members have the right to vote for a member-elected
director and must pay membership dues to SFFA. As of
2017, SFFA’s membership had increased to
approximately 20,000 members.

App. 11
2) Harvard’s Admissions Process
Harvard’s admissions process is complex and highly
competitive. Each year, Harvard College attempts to
admit a class of roughly 1,600 students. For its class of
2019, Harvard received around 35,000 applications.
Because of the size of the applicant pool relative to
Harvard’s available slots, Harvard cannot admit all
applicants who would succeed academically. Harvard
has determined that academic excellence alone is not
sufficient for admission. Rather, Harvard seeks
students who are not only academically excellent but
also compelling candidates on many dimensions.
Harvard’s application process3 is accurately
described as having six components: (1) Harvard’s
pre-application recruitment efforts; (2) students’
submission of applications; (3) Harvard’s “first read” of
application materials; (4) admissions officer and
alumni interviews; (5) subcommittee meetings of
admissions officers to recommend applicants to the full
admissions committee; and (6) full admissions
committee meetings to make and communicate final
decisions to applicants. Harvard also uses a system of
“tips” for certain applicants. Tips may be considered
during or after the third stage.

3

Because SFFA’s allegations of discrimination relate only to
United States citizens or permanent residents, the following
discussion is limited to the application process for domestic
applicants. The statistical analyses performed by the parties’
experts exclude data from foreign applicants.

App. 12
a) Pre-Application Recruitment Efforts by Harvard
Harvard engages in significant recruitment efforts.
Each admissions cycle, it buys the names and contact
information of students who do well academically and
on standardized tests from ACT and the College Board,
the two main organizations that administer
standardized tests used in college admissions. Harvard
uses this information to assemble a “search list.” That
list in relevant years has had more than 100,000
students. Students on the search list receive
communications encouraging them to consider applying
to Harvard. A student’s presence on the search list has
no effect on whether Harvard will admit them.4
Harvard purchases information about high school
students of all races, including Asian Americans. It
purchases information for some groups of students,
such as African American or Hispanic students and for
students from states Harvard has labeled “Sparse

4

Students on the search list are twice as likely to be admitted to
Harvard as students who are not on the search list. But correlation
does not imply causation. Because the search list mechanically
includes students who do well academically and have high test
scores -- students who would be stronger applicants to Harvard
than those who have less impressive academic and testing
credentials -- it does not follow that being on the search list causes
these students to be admitted at higher rates.

App. 13
Country,”5 who have lower standardized test scores
than other students.
Harvard specifically recruits minority students -including African American, Hispanic, and Asian
American students -- through its Undergraduate
Minority Recruitment Program (“UMRP”). Low-income
applicants and those who are the first in their family to
go to college are encouraged to apply through the
Harvard Financial Aid Initiative (“HFAI”). Despite
these efforts to expand its applicant pool, the
demographics of Harvard’s applicants and its admitted
students do not mirror those of the United States on
many criteria, including race.
b) Information Contained in Submitted Applications
Applicants apply to Harvard by Early Action or
Regular Decision. The review process is identical for
both. Early Action students receive admissions
decisions more quickly.
Harvard uses the Common Application, a
standardized application that applicants fill out once to
apply to different colleges and universities of their
choice. As part of the Common Application, students
submit a great deal of information, including about
their standardized test scores, transcripts,
extracurricular and athletic activities, awards, parents’
5

Harvard uses “Sparse Country” as a shorthand for areas of the
United States that are sparsely populated. Sparse Country
includes twenty states: Alabama, Alaska, Arizona, Arkansas,
Idaho, Louisiana, Maine, Mississippi, Montana, Nebraska,
Nevada, New Hampshire, New Mexico, North Dakota, Oklahoma,
South Dakota, Utah, Vermont, West Virginia, and Wyoming.

App. 14
and siblings’ educational information, parents’
occupations and marital status, teacher and guidance
counselor recommendations, intended field of study,
personal statement, and additional supplemental
essays or academic material. Some information -- like
racial identity -- can, but need not, be submitted.
c) Consideration of Submitted Applications: Harvard’s
“First Read” of Application Materials
During the admissions cycles directly challenged by
SFFA, Harvard’s admissions office was led by William
Fitzsimmons, the Dean of Admissions and Financial
Aid, Marlyn McGrath, the Admissions Director, and
Sally Donahue, the Financial Aid Director. Harvard
staffs its admissions office with approximately seventy
people, forty of whom are admissions officers.
Admissions officers read applications and decide which
applicants will be offered admission. New admissions
officers are trained and supervised by more
experienced admissions officers. This training includes
instruction on how to consider race.
All admissions officers are given a copy of Harvard’s
reading procedures, which explain how to evaluate
applications.6 The reading procedures include
guidelines for assigning numerical ratings to applicants
in certain categories. The guidelines detail the factors

6

The following descriptions reflect the reading instructions given
to admissions officers for the class of 2018 and were in effect
during the period analyzed via statistical analysis in this lawsuit.
Harvard has since revised them for later class years. Any relevant
changes are discussed below.

App. 15
admissions officers should consider when assigning
these numerical ratings.
Before admissions officers begin reading
applications, they divide the applications based on
geography. Admissions officers are organized into
subcommittees dedicated to reviewing applications
from specific regions.7 Within each subcommittee,
admissions officers further specialize by reading all
applications from certain high schools. Each high
school has a dedicated “first reader” for applications
from that high school. First readers do not always have
an applicant’s complete application when reviewing a
file. For example, an application might be missing an
alumni interview report or a teacher recommendation
when it is first reviewed. Every application has a set of
numerical ratings assigned by the first reader. Some
applications are also given additional rounds of ratings
by additional readers.8 Faculty members might also
review files.9
7

To limit inter-geographic discrepancies in application
evaluations, each admissions officer serves on at least two
subcommittees.
8

New admissions officers have their first fifty applications
reviewed by second readers. Otherwise, second readers are rare
and used if the case is complex, if the case raises issues of policy,
or if the case would be helped by a second reader’s subject-matter
knowledge or geographic expertise. The chair of the docket may
also serve as a third reader. This title is a misnomer, as an
application need not receive a second read to be given a third read.
9

Faculty members review files if they have specific expertise
relevant to an application. For example, a Visual and
Environmental Studies professor might review an applicant’s film.

App. 16
There are six types of ratings assigned during the
reading stage: academic ratings, extracurricular
ratings, athletic ratings, school support ratings,
personal ratings, and overall ratings. Each rating is
numeric. Higher numbers often, but not always,10
indicate a worse rating. Each of the six categories has
subjective components and none are formulaically
assigned. Admissions officers fine tune their ratings
with “+” and “-” marks. For example, an applicant with
a “3+” academic rating would be stronger than an
applicant with a “3”, who would in turn be stronger
than an applicant with a “3-” rating. Ratings of “1” are
exceedingly rare and are predictive of admission in
most categories.11 These ratings are preliminary and do
not dictate a student’s admission to Harvard. It is not
uncommon for students with worse ratings to be
admitted over students with better ratings. We

Some faculty members also volunteer to review files from certain
regions.
10

In some categories, ratings of five or six denote special
circumstances (e.g., home or employment responsibilities that
preclude participation in extracurricular activities) and are not
necessarily worse than lower numbers.
11

During the period analyzed by the parties’ experts, .07% of
applicants received an overall rating of 1 and all were admitted. Of
the .45% of applicants who received an academic rating of 1, 68.9%
were admitted. Of the .31% of applicants who received an
extracurricular rating of 1, 49.1% were admitted. Of the .82% of
applicants who received an athletic rating of 1, 86% were admitted.
And of the .03% of students who received a personal rating of 1,
69.6% were admitted. School support ratings of 1 are relatively
more frequent and less predictive of admission.

App. 17
describe the six categories to which these numeric
ratings are assigned.
1) Academic Rating
The academic rating is designed to quantify a
student’s academic ability and is based largely, though
not exclusively, on grades and standardized test scores.
Other factors that go into the rating include less
quantifiable characteristics like a student’s
demonstrated love of learning, potential for future
academic improvement, teacher and guidance
counselor letters and, if available, academic or faculty
evaluations.
An academic rating of “1” signifies “summa cum
laude” potential. Harvard’s reading procedures describe
“1” applicants as genuine scholars with near-perfect
standardized test scores and grades. They may have
even demonstrated an ability to produce original
scholarship. “2” applicants have “magna cum laude”
potential and are excellent students with top grades. If
they submit SAT scores, they are typically in the midto high-700s in each testing area. ACT scores for “2”
students are typically at or above 33. “3” students have
“cum laude” potential and have SAT scores in the
mid-600s to low-700s or ACT scores between 29 and 32.
Finally, “4,” “5,” and “6” applicants have “adequate
preparation,” “marginal potential,” and “marginal or
worse” achievement, respectively, with lower grades
and standardized test scores.
2) Extracurricular Rating
The extracurricular rating measures a student’s
commitment to non-academic pursuits, broadly defined.

App. 18
A score of “1” indicates “truly unusual achievement,” a
score of “2” reflects “strong secondary school
contribution in one or more areas such as class
president, newspaper editor, etc.,” a score of “3”
represents “solid participation but without special
distinction,” and a score of “4” corresponds to little or
no participation. The reading procedures instruct
admissions officers to give scores of “5” or “6” if special
circumstances precluded the applicant from engaging
in more traditional extracurriculars.
3) Athletic Rating
The athletic rating measures an applicant’s
commitment to athletic pursuits. “1” ratings are
reserved for recruited varsity athletes. A “2” rating
represents a “[s]trong secondary school contribution in
one or more areas” of athletics with “possible
leadership role(s).” A “3” is “active participation,” and
“4” indicates little to no participation. Unlike “4”
ratings in other categories, an athletic rating of “4” is
not a negative. “5” or “6” ratings indicate circumstances
that hinder or prevent participation in athletics.
4) School Support Ratings
Admissions officers also assess the strength of an
applicant’s high school support by reading teacher and
guidance counselor recommendations. Each
recommendation receives its own rating. “1” indicates
“strikingly unusual support,” typically indicated by
phrases in recommendations like “the best ever.” A “2”
corresponds to “very strong support,” a “3” is “above
average positive support,” “4” is “somewhat neutral or
slightly negative,” and a “5” is “negative or worrisome.”

App. 19
Admissions officers assign general school support
ratings, but teacher and guidance counselor
recommendations can also affect other rating scores
(e.g., the academic and personal ratings).
5) Personal Rating
The personal rating features heavily in this
litigation. It attempts to measure the positive effects
applicants have had on the people around them and the
contributions they might make to the Harvard
community. Factors considered include an applicant’s
perceived leadership, maturity, integrity, reaction to
setbacks, concern for others, self-confidence, likeability,
helpfulness, courage, kindness, and whether the
student is a “good person to be around.” Admissions
officers generally assess an applicant based on the
applicant’s admissions essays, teacher and guidance
counselor recommendations, accomplishments, and
alumni interview report, but almost any information in
a student’s application can factor into the personal
rating.
According to Harvard’s written reading procedures,
a score of “1” is “outstanding,” a score of “2” is “very
strong,” and a score of “3” is “generally positive.”
Applicants who receive ratings of “4,” “5,” or “6” are
typically described as “bland or somewhat negative or
immature,” having “questionable personal qualities,”or
having “worrisome personal qualities,” respectively.12
12

These descriptions were updated in 2018 to be more descriptive.
For example, in the updated instructions, an applicant with a “1”
personal rating is described as follows: “Truly outstanding
qualities of character; student may display enormous courage in

App. 20
Harvard maintains that race itself does not play a
role in a student’s numerical personal score. It does
admit that experiences tied to an applicant’s race -- for
example, experiences with prejudice or discrimination
and how the applicant has overcome this adversity -could inform their personal rating. Before 2018, the
reading procedures Harvard distributed to its
admissions officers did not mention whether race
should be included in assigning the personal rating.
After SFFA brought this suit, Harvard modified these
instructions to explicitly say that “an applicant’s race
or ethnicity should not be considered in assigning the
personal rating.” These updated instructions took effect
beginning with the class of 2023.
6) Overall Rating
Before the admissions officers take a candidate to
the committee stage, they assign an overall rating to
each applicant. This rating takes all available
information into account and is not a formulaic
weighting of the other ratings. Harvard’s reading
procedures include guidelines for assigning an overall
rating: a “1” signifies an “exceptional” candidate with
>90% chance of admission; a “2” is a strong student
with a 50-90% chance of admission; a “3” is a “solid
contender” with a 20-40% chance of admission, a “4” is
a “neutral” candidate with respectable credentials, and
a “5” is an applicant with below-average credentials.
the face of seemingly insurmountable obstacles in life. Student
may demonstrate a singular ability to lead or inspire those around
them. Student may exhibit extraordinary concern or compassion
for others. Student receives unqualified and unwavering support
from their recommenders.”

App. 21
Unlike the other ratings, Harvard acknowledges
that admissions officers can and do take an applicant’s
race into account when assigning an overall rating.
Race can be, but need not be, a basis for a “tip.” So can
other factors. We discuss tips later, after a description
of interviews and the committee deliberations.
d) Admissions Officer and Alumni Interviews
Concurrent with the admissions office’s review of
applications, Harvard uses its alumni and admissions
officers to interview applicants. Harvard provides all
interviewers with an Interview Handbook. The
Handbook provides guidance about what information
interviewers should not discuss (e.g., the applicant’s
chance of admission) or questions they should not ask
(e.g., interviewers “should not ask questions that
suggest students are being ethnically screened or go
through a ‘special’ admissions process”). Alumni
interviewers have access to some of the same
information as Harvard’s admissions officers. The
information they receive does not include teacher and
guidance counselor recommendations or transcripts.
After conducting an interview, alumni give written
comments and assign applicants numerical scores that
are broadly similar to the scores assigned by an
admissions officer. However, alumni only assign
academic, personal, extracurricular, and overall scores.
They do not assign athletic or school support ratings.
e) Subcommittee Meetings and Recommendations to
Full Committee
After reading applications, assigning preliminary
scores, and gathering any additional information from

App. 22
faculty and alumni, Harvard decides those applicants
to whom it will offer admission. Admissions
subcommittees meet to discuss the applicants in their
region over three to five days. First readers typically
serve as advocates for applicants they believe should be
admitted. Not every applicant is discussed, but it is
common for members of the committee to discuss
candidates not singled out by first readers.
The subcommittees make recommendations to the
full admissions committee. Their recommendations are
not dispositive. The final decisions are made only at the
full committee meeting. It is not uncommon for
applicants who were not recommended for admission
by a subcommittee to later be admitted (and vice
versa). The subcommittees consider a variety of factors,
including race, when making their recommendations.
f) Full Committee Meetings and Final Decisions on
Offers to Admit
Harvard then holds a full committee meeting -comprised of forty members -- to finalize decisions. Any
applicant may be discussed at the full committee
meeting, though the focus is typically on those
recommended by the various subcommittees. All
committee members have access to each student’s
application. This application frequently includes
additional information that was not available when the
first reader assigned ratings to the applicant. The
applicants presented are discussed one by one, and
every member of the full committee votes on admission.
An applicant must secure a majority of the full
committee’s vote to be offered admission.

App. 23
After the full committee votes on applications, it
typically has a pool of more than 2,000 tentative
admits, more than can be admitted. To finalize the
class, it conducts a “lop process” to winnow down the
pool even further. Before deciding which applications
will be lopped, members of the admissions committee
are informed of various demographic characteristics of
the admitted applicants, including race. Admissions
officers then compile a “lop list” of applicants who
might be lopped. This list includes information about
tentative admits -- race, athletic rating, legacy status,
and socioeconomic status -- relating to some of
Harvard’s admissions tips. After enough applicants
have been lopped, Harvard sends decisions to
applicants.
g) “Tips” Given to Benefit ALDC Applicants and
Non-ALDC Applicants
Since at least 1990, Harvard has used a system of
“tips” in its application review process. Tips are plus
factors that might tip an applicant into Harvard’s
admitted class. The tip system is an overlay of
Harvard’s process and tip factors can be considered at
multiple points in Harvard’s review. Tips can be
incorporated in Harvard’s ratings and during the
committee review stage.
Harvard has memorialized a non-exhaustive list of
tip factors in a handbook it gives to admissions officers
and alumni interviewers. The factors contained in
Harvard’s written materials are outstanding and
unusual intellectual ability, unusually appealing
personal qualities, outstanding capacity for leadership,
creative ability, athletic ability, legacy status, and

App. 24
geographic, ethnic, or economic factors. Harvard
admits that race is considered.
1. Harvard’s Consideration of Race
Harvard’s use of tips that take race into account is
the focus of many of SFFA’s claims. We consider how
and when Harvard claims to consider race. It admits
that race can be considered during Harvard’s “first
read” of application materials only when assigning an
applicant’s overall rating. It also admits that an
applicant’s race can be considered in both
subcommittee and full committee meetings. Harvard
denies that race is considered in assigning an
applicant’s personal rating during the “first read.”
We describe the background against which
Harvard’s tip taking race into account is used.
Admissions officers are provided, from time to time,
with summaries containing demographic information.
These “one-pagers” provide a snapshot of various
demographic characteristics of Harvard’s applicant pool
and admitted class and compares them to the previous
year. In addition to race, these sheets summarize the
applicant pool on a variety of other dimensions (e.g.,
gender, geographic region, intended concentration,
legacy status, whether a student applied for financial
aid, etc.). Information from this sheet is periodically
shared with the full admissions committee, and the
committee uses this information in part to ensure that
there is not a dramatic drop-off in applicants with
certain characteristics -- including race -- from year to
year. Harvard keeps abreast of the racial makeup of its
admitted class in part because doing so is necessary to
forecast yield rates. The yield rate is the percent of

App. 25
admitted applicants who accept an offer of admission.13
Empirically, Asian American and white students accept
offers of admission at higher rates than African
American, Hispanic, Native American, and multiracial
applicants.
2. ALDCs: Athletes, Legacy Applicants, Dean’s
Interest List Applicants, and Children of Faculty or
Staff
Harvard also provides tips to ALDC (recruited
athletes, legacy applicants, applicants on the Dean’s
Interest List,14 and children of faculty or staff)
applicants. ALDC applicants make up less than 5% of
applicants to Harvard but around 30% of the applicants
admitted each year. These applicants have a
significantly higher chance of being admitted than
non-ALDC applicants. SFFA does not challenge the
admission of this large group of applicants who can and
do receive tips.
The racial makeup of ALDC applicants is different
than non-ALDC applicants. Around 67.8% are white,
11.4% are Asian American, 6.0% are African American,
and 5.6% are Hispanic. In contrast, only 40.3% of
non-ALDC applicants are white, 28.3% are Asian
13

An alternative interpretation of “yield rate by race” is the
number of students of a particular race admitted divided by the
total number of students admitted. We discuss this statistic when
reviewing the district court’s findings of fact.
14

The Dean’s Interest list is a list of applicants the Dean of
Admissions gives special attention to. It primarily includes the
children or relatives of donors, and it includes a rating of how
important the donor is to Harvard.

App. 26
American, 11% are African American, and 12.6% are
Hispanic.
3. Prior Analyses of Harvard’s Use of Race in
Harvard’s Admissions Process
Because SFFA argues, and Harvard denies, that its
claims are supported by prior reviews of Harvard’s
admissions policies, we describe those analyses.
a) 1990 U.S. Department of Justice Office of Civil
Rights (“OCR”) Report
In 1990, OCR investigated potential claims of
anti-Asian bias in Harvard’s admissions process but
concluded there was no difference in the numeric
ratings given to white and Asian American applicants.
At the time, Harvard reviewed applications using a
process like the one challenged in this lawsuit in the
sense that it used a rating system and tips for race and
ALDC applicants. OCR’s report stated that
“descriptions of Asian American applicants were found
that could have implications for the stereotyping of
Asian American applicants.” But “[t]hey could not be
shown to have negatively impacted the ratings given to
these applicants.” The OCR report concluded that
Harvard did not use a quota system for Asian
Americans, that its rating system was not designed or
implemented to harm Asian Americans, and that,
“taken as a whole, there was no significant difference
between the treatment of Asian American applicants
and the treatment of white applicants.”

App. 27
b) Harvard’s Office of Institutional Research Studies
Harvard has conducted its own studies of its
admissions process in the past decade.
The first of these -- commissioned in part due to a
widely publicized November 2012 article by Ron Unz in
The American Conservative titled “The Myth of the
American Meritocracy” -- was conducted by Harvard’s
Office of Institutional Research (OIR). This review
started in December 2012 and went through several
stages. OIR’s initial rough, preliminary logistic
regression models, which omitted many variables
actually considered in Harvard’s admission process
(like socioeconomic or family circumstances), showed
that Harvard was better able to predict the racial
makeup of its admitted class if it included race as an
explanatory variable in the regression.
After this analysis by OIR, Harvard’s Dean of
Admissions requested further analysis on Harvard’s
use of low-income tips. OIR’s next analysis used
application data for the classes of 2009 to 2016 and
found that “low income students clearly receive a ‘tip’
in the admissions process” but that “the tip for legacies
and athletes is larger” than for low income applicants.
It also found that “there are demographic groups that
have negative effects.” The admittedly limited model
suggested but did not conclude that Asian American
applicants were statistically significantly less likely to
be admitted to Harvard than white applicants. OIR
explained that the model “has several limitations” and
that expanding the set of explanatory variables in the
model “might result in a better fitting model, one that
accounts for more of the variation in individual

App. 28
applicants and their potentially unique contributions to
the entering class.”
Harvard’s Dean of Admissions then asked OIR to
investigate whether Harvard’s tip for low-income
applicants was consistently applied across applicants
of different races. Specifically, given the concerns
raised about Harvard’s treatment of Asian American
applicants, he wanted an analysis of the effect of being
both Asian American and low-income. OIR inserted an
interaction term into the logistic regression model used
in its previous report in order to capture the effect of
being both Asian American and low income.15 This term
had a statistically significant positive coefficient,
suggesting that, holding all else constant, being both
Asian American and low income results in an applicant
having a higher chance of admission than the sum of
the effect of being Asian American or low-income alone
suggests. This model, however, admittedly suffered
from the same problems and limitations as OIR’s
earlier models in that it omitted many variables that
Harvard actually considered in its admissions process.

15

An interaction term between two categorical (i.e., non-numeric)
variables in a logistic regression model captures whether the effect
of having one characteristic changes when another characteristic
is also present. See Reference Manual on Scientific Evidence
[hereinafter, “FJC Reference Manual”] (3d ed. 2011) at 316-17.
Here, the interaction term measures whether being both Asian
American and low-income simultaneously results in a greater or
lower change in an applicant’s admission chances beyond the
effects of being either Asian American or low-income
independently.

App. 29
4) Harvard’s Articulation of Its Justification for Its
Use of Race to Accomplish Diversity
a) The Khurana Committee
In 2015, Harvard created the “Committee to Study
the Importance of Student Body Diversity” (the
“Khurana Committee”). This committee was chaired by
Rakesh Khurana, the dean of Harvard College. The
report it issued (the “Khurana Report”) was part of
Harvard’s effort to explain the benefits Harvard
derives from diversity, including racial diversity, as
required by Supreme Court precedent. Indeed, the
Khurana Committee recognized that “[t]he question
before [it] is one the Supreme Court has asked public
institutions of higher education to answer in connection
with the consideration of an applicant’s race” in
admissions.
The Khurana Committee sought input from a
variety of sources at Harvard. In reaching its
conclusions, it relied on discussions with students,
alumni, faculty, athletic coaches, extracurricular
advisors, the deans of admissions and student life,
residential faculty deans, and other committees on
admissions, financial aid, and educational policy. Based
on its findings, it “emphatically embrace[d] and
reaffirm[ed] the University’s long-held . . . view that
student body diversity -- including racial diversity -- is
essential to [Harvard’s] pedagogical objectives and
institutional mission.”
The Khurana Report began by reiterating the
mission of Harvard College: “to educate the citizenry
and citizen leaders for our society.” It detailed how

App. 30
Harvard has pursued this mission over time and how
student body diversity is essential to achieving it. At its
founding, Harvard’s student body was limited by the
socioeconomic, geographic, and political factors of the
17th century. Harvard educated the small subset of
men who had completed high school, had the means to
travel to Harvard, and wanted to pursue
post-secondary education.
Leading up to the Civil War, Harvard’s President
called for increased diversity. In a report to Harvard’s
Board of Overseers, he recognized the “disastrous
condition of public affairs.” He wrote that Harvard
must assemble a student body “from different and
distant States” to “remove prejudices, by bringing them
into friendly relations.”
Successive presidents of Harvard reaffirmed the
importance of diversity. In the late 19th century,
President Charles William Eliot revised the Harvard
curriculum to promote tolerance, mutual
understanding, and camaraderie. He wrote that
diversity “promotes thought on great themes, converts
passion into resolution, cultivates forbearance and
mutual respect, and teaches . . . candor, moral courage,
and independence of thought.” A century later,
President Neil Rudenstine praised these reforms in his
own 1996 evaluation of diversity at Harvard. He wrote
that President Eliot recognized that a diverse student
body was “capable of shaping lifelong attitudes and
habits” and “indispensable to the healthy functioning
of a democratic society.” In 2015, then-President Drew
Gilpin Faust said at the beginning of Harvard’s
academic year that diversity is “an integral part of

App. 31
everyone’s education.” She said she meant not just
racial diversity but also other types, including
religious, ethnic, national, political, and gender
diversity. By “everyone,” she said she meant not just
students but also the wider Harvard community,
including faculty and staff.
The Khurana Report made Harvard’s reasons for
accomplishing diversity by its limited use of race even
more explicit. In our view, at least these specific goals
are articulated in this report: (1) training future
leaders in the public and private sectors as Harvard’s
mission statement requires; (2) equipping its graduates
and itself to adapt to an increasingly pluralistic society;
(3) better educating its students through diversity; and
(4) producing new knowledge stemming from diverse
outlooks.
The Khurana Report recognized that Harvard,
historically and currently, trains leaders. Signers of the
Declaration of Independence attended Harvard. Today,
Harvard College graduates “are founding and running
global companies in technology, retail, finance, and
healthcare, among others.” Graduates will become
leaders not just in the United States but throughout
the world. The Khurana Report stated that global
companies want to hire and promote graduates who
have been educated in diverse settings. Businesses
have internalized diversity and inclusion as core
values. It concluded that if Harvard does not provide
its students with the opportunity to engage with other
students in a diverse undergraduate environment,
“[its] students likely would be constrained in their
pursuit of excellence, and [Harvard] would be remiss in

App. 32
failing to provide them with the skills they need to
flourish after graduation.”
The Khurana Report also stated that providing a
diverse learning environment is necessary not only for
Harvard to prepare its students to become leaders but
also for it to train leaders at all. It quoted the Supreme
Court in Grutter v. Bollinger: “In order to cultivate a
set of leaders with legitimacy in the eyes of the
citizenry, it is necessary that the path to leadership be
visibly open to talented and qualified individuals of
every race and ethnicity.” 539 U.S. 306, 332 (2003). The
Khurana Report said that Harvard “must demonstrate
to the world that individuals of all races, ethnicities, all
backgrounds may thrive, succeed, and lead” to continue
to train leaders. If Harvard cannot produce a diverse
set of graduates, it may no longer produce leaders.
Next, the Khurana Committee said that Harvard’s
students graduate into a world that has become
increasingly diverse. The Khurana Report quoted from
the amicus brief Harvard filed in Fisher II: “Whatever
their field of endeavor, Harvard’s graduates will have
to contend with a society that is increasingly complex
and influenced by developments that may originate far
from their homes. To fulfill their civic and other
responsibilities, Harvard’s graduates cannot be blind
either to the challenges facing our increasingly
pluralistic country or to the unresolved racial divisions
that stubbornly persist despite decades of substantial
efforts to resolve them.” The Khurana Report said
student body diversity encourages students to
“examine ways of processing the world dissimilar to
their own” and that through classroom discussion with

App. 33
others “one learns to negotiate pluralism.” The
Khurana Report said that racial diversity in particular
is important because Harvard’s graduates enter a
society where “negative life experiences attributable to
differences in racial and ethnic heritage” are still
commonplace. It concluded that Harvard “would fail in
a foundational aspect of [its] mission if [it] disregarded
that fact as [it] prepare[s] [its] students for such a
complex and heterogeneous society.”
Third, the Khurana Committee detailed how
diversity is important to Harvard’s goal of educating
students, faculty, and staff. One of these goals is
transformational. In addition to encouraging students
to embrace their own identities, Harvard wants its
students to take on an additional, complementary one.
It wants them to become members of “the community
of educated men and women.” Harvard views this
identity as “inclusive of but not bounded by race or
ethnicity.” It “is sensitive to and understanding of the
rich and diverse range of others’ identities” and “opens
empathic windows to imagining how other identities
might feel.” To achieve this transformation, Harvard
creates opportunities for students to interact with
others who are unlike themselves.
The Khurana Report cited a book, Making the Most
of College, by Professor Richard J. Light, a professor at
Harvard’s Graduate School of Education. The book,
based on in-depth interviews of thousands of Harvard
students, provided examples of how diversity, including
racial diversity, can promote learning, empathy, and
understanding. The Khurana Report observed that
certain conversations described in the book “likely

App. 34
could not have occurred as candidly as [they] did” at
Harvard had “any or all of [the students involved] been
white.” The Khurana Committee recognized that
certain learning environments are not possible unless
some students “share[ ] a relationship to the issue that
[others] simply [do] not have.” And the educational
benefits of diversity cannot be obtained “[i]f the only
contact students had with others’ lived experiences was
on the page or on the screen” because “it would be far
too easy to take short cuts in the exercise of empathy,
to keep a safe distance from the ideas, and the people,
that might make one uncomfortable.” Personal contact
is essential. It also said that the conversations in the
book make clear that students who have some
characteristics in common can and do have different
perspectives from each other. The Khurana Report
drew two conclusions: (1) race “plays an irreplaceable
role in [Harvard’s] conception of a diverse student
body” and (2) Harvard cannot and does not treat race
monolithically because students of the same race do not
“share the same views, experiences, or other
characteristics.”
Finally, the Khurana Committee said that diversity
is important to producing new knowledge. Its report
quoted from an amicus brief filed by Harvard and other
colleges and universities in Regents of the University
of California v. Bakke: diversity “broadens the
perspectives of teachers and thus tends to expand the
reach of the curriculum and the range of scholarly
interests of the faculty.” The Khurana Report said that
entirely new fields of study, like Women’s Studies,
Latin American Studies, and Labor Studies, were
created in part because universities like Harvard

App. 35
admitted more women, Latinx, and low-income
students. It also said that older fields -- like Classics
and Philosophy -- were reshaped by “new perspectives
on gender and sexuality, race, ethnicity, and social
class.” And it said that the social sciences, natural
sciences, and medicine have all been transformed by a
more diverse student body. A homogeneous research
community leads to “shared blind spots” that different
perspectives can reveal. It concluded that diversity is
necessary to create knowledge.
5. Harvard’s Committees to Study Race-Neutral
Alternatives
a) The Ryan Committee
In 2014, in response to the creation of an external,
unaffiliated website accusing its admissions process of
being unfair, Harvard formed a committee to examine
race-neutral alternatives to its race-conscious
admissions process (the “Ryan Committee”). The Ryan
Committee was chaired by Professor James Ryan, then
the Dean of Harvard’s Graduate School of Education.
This committee met only a few times before disbanding
in December 2014.
b) The Smith Committee
In June 2017, Harvard established the “Committee
to Study Race Neutral Alternatives in Harvard College
Admissions” (the “Smith Committee”). This committee
was chaired by Michael Smith, then the Dean of
Harvard’s Faculty of Arts and Sciences. Like the
Khurana Committee, the Smith Committee was part of
Harvard’s effort to ensure compliance with Supreme
Court precedent. It issued a report (the “Smith Report”)

App. 36
examining whether Harvard could achieve its interest
in diversity without considering race in its admissions
process.
The Smith Report began with a summary of the
ways Harvard already recruits diverse applicants.
Harvard identifies low-income students and encourages
them to apply with informational mailings highlighting
Harvard’s financial aid program. Harvard’s admissions
process is need-blind, which means that an applicant’s
inability to pay tuition will not harm their chances of
being admitted. It sends representatives -- admissions
officers, current undergraduates, and alumni -- to
conduct recruitment events throughout the United
States. These events include secondary schools and
regions that have not historically sent students to
Harvard. It has created a “First Generation” program
to encourage students who would be the first in their
family to attend college to apply. As part of this
program, it connects current first-generation Harvard
students with potential applicants to answer their
questions. As discussed earlier, Harvard encourages
racially diverse applicants to apply through UMRP and
low-income applicants to apply through HFAI.
Once it has admitted diverse applicants, Harvard
encourages them to matriculate. It provides admitted
students with a price calculator so that they can
determine if Harvard is affordable. And it has worked
to make Harvard affordable. Since 2004, Harvard has
steadily reduced the effective tuition that low-income
students pay. Since 2012, Harvard has expected no
parental contribution from families earning less than
$65,000 a year and a parental contribution limited to

App. 37
10% of family income for students from families
earning less than $150,000 a year. It widely publicizes
this information. Harvard also hosts a weekend-long
on-campus event for admitted students. It provides
financial aid to low-income admitted applicants to
ensure that they can attend the event. Admittees are
encouraged to meet each other and current students,
including those with similar backgrounds. To facilitate
this, Harvard hosts an Economic Diversity and First
Generation Students Reception and a multicultural
reception.
1. Expanding Recruitment or Modifying Admissions
Criteria
The Smith Committee then considered six of SFFA’s
race-neutral proposals to increase diversity by
expanding Harvard’s recruitment efforts or modifying
its admissions criteria: (1) increasing efforts to recruit
racially and socioeconomically diverse students;
(2) expanding partnerships with schools or
organizations that serve applicants of modest
socioeconomic backgrounds; (3) increasing financial aid;
(4) adopting place-based preferences; (5) increasing
transfer admissions; and (6) increasing the weight for
socioeconomic background.
The Smith Report concluded that Harvard already
devotes significant resources to recruitment efforts and
that expanding them further would not increase
diversity. It said that a more racially diverse applicant
pool is itself not helpful. Harvard needs a recruitment
process that is directed at students who are likely to be
accepted. Expanding the applicant pool beyond those
students would increase the number of disappointed

App. 38
applicants and could even discourage younger students
from applying in the future. Harvard also reevaluates
these programs at least twice a year to determine how
they can be improved or expanded.
It also concluded that expanding partnerships with
schools or organizations that serve applicants of
modest socioeconomic means would be insufficient for
it to meet its diversity goals. Harvard already engages
in significant outreach. The Report concluded that
Harvard’s “current efforts are so substantial that we do
not believe that seeking out additional partnerships of
this nature, or deepening current partnerships could
yield more than an incrementally small number of
applicants who would be admitted to Harvard and
would not otherwise have applied.”
Next, the Committee determined that increasing
financial aid further would not increase diversity.
According to Harvard’s financial aid office, 90% of
families already pay the same or less to send their child
to Harvard than they would pay to send their child to
a state school. 70% of African American students’
families and 60% of Hispanic students’ families qualify
for zero parental contribution under Harvard’s
financial aid program. The Committee found no
evidence that “members of any racial or ethnic group
are choosing to attend other schools instead of Harvard
on the basis of the need-based financial aid available at
those institutions.” It relied on statistical evidence
showing that Harvard’s previous expansions of
financial aid did not result in significant increases in
the number of African American or Hispanic applicants

App. 39
or admitted students. It concluded that increasing
financial aid was not a viable race-neutral alternative.
The Smith Committee also rejected place-based
preferences like admitting the top student from each
zip code or high school. It found such preferences
“fundamentally incompatible with the core mission of
the Harvard admissions process, which is to recruit,
admit, and enroll the most extraordinary students in
the world, wherever they may be found.” Such
preferences were also practically impossible to
implement, as Harvard “does not have room to admit
even one student” from every high school or zip code in
the United States. And even if Harvard did have room,
the committee found that it would be impossible to
identify the best student from each area because
Harvard does not rank applicants on a single
dimension.
The Smith Committee found that increasing the
number of transfer students would also not increase
diversity. Harvard’s ability to admit transfer students
is limited by the space it has. 98% of undergraduate
students live on campus. Some years, it does not have
space for any transfer students at all. To increase the
transfer students it admits, Harvard would need to
admit fewer freshmen to reserve spots for transfer
students. This would only increase diversity if the
transfer applicant pool were more diverse than
Harvard’s freshman applicant pool. But the Smith
Committee found that the transfer pool is “less diverse
and less impressive than the pool of freshman
applicants.”

App. 40
Finally, the Smith Committee found that increasing
the weight it places on socioeconomic background in
admissions would not further Harvard’s diversity goals.
Harvard “believes that excellence can and should be
found in all backgrounds” and determined that “[a]
focus on socioeconomic circumstances that outweighed
all other factors could equally reduce the depth and
breadth of the Harvard class as well as its excellence in
many dimensions.” In order to reach a level of racial
diversity similar to what it currently achieves, Harvard
would need to give applicants from lower socioeconomic
backgrounds such an extreme tip that it would
“overwhelm other considerations in the admissions
process” and result in “significant changes in the
composition of the admitted class.” Harvard would
admit substantially fewer students with the highest
academic, extracurricular, personal, and athletic
ratings. As academic excellence “remains an
institutional imperative” at Harvard, the Smith Report
concluded that these changes were not feasible. The
Smith Committee also found that using socioeconomic
status as a proxy for race would result in many
non-white students in Harvard’s class coming from
modest socioeconomic circumstances. Achieving racial
diversity in this way would come “at the cost of other
forms of diversity, undermining rather than advancing
Harvard’s diversity-related educational objectives.”
2. Eliminating Admissions Practices
Next, the Smith Committee evaluated whether
Harvard should eliminate three of its core admissions
practices: (1) early action; (2) deferred admission and

App. 41
tips for ALDC applicants; and (3) consideration of
standardized test scores.
Harvard already tried eliminating Early Action.
Harvard thought that eliminating Early Action would
“encourage an even greater number of diverse students
to apply and matriculate” and eliminated Early Action
from 2007 to 2011. It found that doing so “reduced [its]
ability to attract a broadly diverse and academically
excellent class.” Considering Harvard’s “direct
experience and experimentation with Early Action, the
committee [did] not believe that abolishing Early
Action again would contribute to diversity on campus.”
The Smith Committee next concluded that
eliminating ALDC tips and deferred admission would
not be adequate race-neutral alternatives. If Harvard
were to eliminate its consideration of race and make no
other changes, the Smith Report says that the share of
African American admitted students would be 5.6%
and the share who are Hispanic or Other would be
8.9%. If it were to eliminate the consideration of race
and eliminate deferred admission and ALDC tips, the
report says that the share of African American
admitted students would be 5.3% and the share who
are Hispanic or Other would be 9.3%. The Smith
Committee found that eliminating these admissions
practices resulted in negligible, and sometimes
negative, changes to diversity.
The Smith Committee also defended Harvard’s use
of deferred admission and ALDC tips. It found them
consistent with Harvard’s values. Deferred admission
allows Harvard to admit students who would benefit
from a gap year. Giving tips to athletes allows Harvard

App. 42
to admit students who have demonstrated “discipline,
resilience, and teamwork” and allows Harvard to field
competitive athletic teams, which fosters a sense of
community on campus. Preferencing legacy applicants
“helps to cement strong bonds between the university
and its alumni,” fosters community-building, and
encourages alumni to donate their time and money to
support Harvard. Harvard’s tip for “Dean’s List”
students is “far too small for the cessation of any such
practice to contribute meaningfully to campus
diversity.” Finally, giving tips to the children of faculty
and staff is important to workforce retention.
Eliminating this tip would disadvantage Harvard
relative to other schools in recruiting faculty and staff.
Finally, the Smith Committee found that
eliminating consideration of standardized test scores
would come at a significant cost to Harvard’s other
educational objectives. Relative to Harvard’s current
admitted classes, “the proportion of students with the
highest academic ratings would decline by 17%, and
the proportion of students with the highest
extracurricular or personal ratings would decline by
7%.” The Smith Committee also found that
standardized tests are imperfect measures but “provide
useful information that the committee would lose if it
excluded any consideration of them.”
After considering all of the race-neutral alternatives
proposed by SFFA, the Smith Committee concluded
that “they will not work at Harvard [ ] at this time.”
The Smith Committee recommended that Harvard
revisit race-neutral alternatives in 2023.

App. 43
II. Procedural History and Descriptions of the
District Court’s Rulings
The district court conducted a fifteen-day bench
trial from October 15, 2018 to November 2, 2018.
Closing arguments were held on February 13, 2019.
Below, we describe the district court’s rulings. As to all
of its conclusions, we provide further descriptions
during our legal analysis. Our description of the
district court’s legal conclusions is brief because we
review those conclusions de novo. See, e.g., AcBel
Polytech, Inc. v. Fairchild Semiconductor Int’l, Inc., 928
F.3d 110, 116 (1st Cir. 2019).
1. The District Court Held That SFFA Had Article III
Standing
Before trial, the district court held that SFFA had
associational standing to sue Harvard under Hunt v.
Washington State Apple Advertising Commission, 432
U.S. 333 (1977). See SFFA I, 261 F. Supp. 3d at 111. It
held that SFFA satisfied Hunt’s requirements because
SFFA included members who had standing to sue
Harvard themselves, because the lawsuit was germane
to SFFA’s purpose, and because the injunctive relief
sought by SFFA does not require the participation of its
members who have standing. See id. at 110-11. It
rejected Harvard’s argument that it had to apply an
additional test from Hunt -- the “indicia of
membership” test -- to determine if SFFA was a
traditional voluntary membership organization capable
of having associational standing because it found that
SFFA “adequately represents the interests of its
current members without needing to test this further
based on the indicia-of-membership factors.” Id. at 109.

App. 44
Harvard challenges SFFA’s standing in defense of
the outcome reached.
2) The District Court Held That Harvard’s Limited
Use of Race in Its Admissions Program Survives
Strict Scrutiny
The district court utilized Supreme Court precedent
to apply strict scrutiny to evaluate Harvard’s
race-conscious admissions program. SFFA II, 397 F.
Supp. 3d at 189. Specifically, the district court
articulated the requirements in Fisher v. University of
Texas at Austin (“Fisher II”), 136 S. Ct. 2198 (2016),
Fisher v. University of Texas at Austin (“Fisher I”), 570
U.S. 297 (2013), Parents Involved in Community
Schools v. Seattle School District No. 1, 551 U.S. 701
(2007), Gratz v. Bollinger, 539 U.S. 244 (2003), Grutter
v. Bollinger, 539 U.S. 306 (2003), and Regents of the
University of California v. Bakke, 438 U.S. 265 (1978).
To survive strict scrutiny, Harvard’s use of race must
further a compelling interest and be narrowly tailored
to do so. See Fisher II, 136 S. Ct. at 2208, 2210.
The court held that Harvard had a compelling
interest in student body diversity that was sufficiently
precise to permit judicial scrutiny. SFFA II, 397 F.
Supp. 3d at 192. It credited the Khurana Report and
the witness testimony at trial. Id. at 134, 192.
It held that Harvard met its burden under strict
scrutiny and Supreme Court precedent to show its use
of race in admissions was narrowly tailored. It held
that Harvard did not engage in racial balancing, did
not use race as a mechanical plus factor, and did not

App. 45
have workable race-neutral alternatives. SFFA II, 397
F. Supp. 3d at 192-201.
a) The District Court Held That Harvard Did Not
Engage in Racial Balancing
A race-conscious admissions program cannot be
narrowly tailored if it implements a quota or racial
balancing. See Fisher I, 570 U.S. at 311; Grutter, 539
U.S. at 334. The district court found that Harvard’s
admissions program “intends to treat every applicant
as an individual,” that “[e]very applicant competes for
every seat,” and that Harvard has no target numbers
for members of certain races or permissible levels of
fluctuation. SFFA II, 397 F. Supp. 3d at 196. It found
that Harvard’s admissions office’s use of “one-pagers”
did not evidence racial balancing. Id. at 197.
SFFA did not offer expert testimony to support its
racial balancing claim. Id. at 177. The court found that
“the racial composition of Harvard’s admitted classes
has varied in a manner inconsistent with the
imposition of a racial quota or racial balancing.” Id. at
176. It found that the share of Asian American
applicants admitted to Harvard has increased roughly
five-fold since 1980 and roughly two-fold since 1990. Id.
at 177. It also found that there had been more
year-over-year variation in Asian American applicants
admitted to Harvard than there had been in Asian
American applicants to Harvard. Id.
b) The District Court Held That Harvard Did Not Use
Race as a Mechanical Plus Factor
If a university considers race, it cannot do so in a
mechanical way. See Gratz, 539 U.S. at 270-71. The

App. 46
district court found that there was no evidence of any
mechanical use of tips in Harvard’s individualized,
holistic review process. SFFA II, 397 F. Supp. 3d at
198. It found that Harvard considers race contextually.
Id. Harvard’s tip was “comparable to the size and
effect” of tips sanctioned by the Supreme Court in
Grutter and Fisher II. See id.
c) The District Court Held That Harvard Had No
Workable Race Neutral Alternatives
A race-conscious admissions program is not
narrowly tailored if a university uses it despite
workable race-neutral alternatives. See Fisher I, 570
U.S. at 312. The district court found that eliminating
race as a factor in admissions, without taking any
remedial measures, would reduce African American
representation at Harvard from 14% to 6% and
Hispanic representation from 14% to 9%. SFFA II, 397
F. Supp. 3d at 178. It found that at least 10% of
Harvard’s class would not be admitted if Harvard did
not consider race and that race is a determinative tip
for approximately 45% of all admitted African
American and Hispanic students. Id.
The court examined six race-neutral alternatives
proposed by SFFA and statistically modeled by the
parties’ experts: (1) eliminating Early Action;
(2) eliminating ALDC tips; (3) improving recruiting
efforts and financial aid; (4) admitting more transfer
applicants; (5) eliminating standardized testing; and
(6) instituting place-based quotas. See id. at 179. The
court also considered combinations of these
alternatives. Id. It held that none of these race-neutral
alternatives were workable. Id. at 183.

App. 47
3) The District Court Held That Harvard Did Not
Intentionally Discriminate Against Asian
Americans
At trial, the parties presented non-statistical and
statistical evidence on whether Harvard intentionally
discriminated against Asian American applicants. See
id. at 153, 203.
On the non-statistical evidence, the court found that
Harvard’s pre-application search list was primarily a
marketing tool, that the 1990 OCR report did not
evidence racial bias, and that the trial testimony
showed that Harvard’s admissions officers were not
biased and did not stereotype Asian Americans. Id. at
154-58.
The statistical evidence presented at trial was
extensive. The parties’ experts16 reviewed descriptive
statistics17 related to Harvard’s admissions process,
presented logistic regression models18 of Harvard’s
16

Harvard relied on the expert testimony of David Card, an
economics professor at the University of California, Berkeley. See
SFFA II, 397 F. Supp. 3d at 158-59 n.40. SFFA relied on the expert
testimony of Peter Arcidiacono, an economics professor at Duke
University. Id.
17

The term “descriptive statistics” refers generally to statistics
that summarize data (like the mean, median, or standard
deviation). They are often “building blocks” in statistical analyses.
See FJC Reference Manual at 213, 230.
18

Logistic regression models can be used to measure the effect of
one explanatory variable (here, race) on a response variable (here,
depending on the model, Harvard’s numerical ratings or admission
to Harvard) while controlling for other explanatory variables (e.g.,

App. 48
academic, extracurricular, athletic, school support, and
personal ratings, and created logistic regression models
of Harvard’s admissions process. See id. at 158-77.
Both Professors Card and Arcidiacono used
applicant-level admissions data19 for applicants to
Harvard’s classes of 2014 through 2019 to build their
models. Id. at 159, 162. The dataset included “hundreds
of variables relating to each applicant’s demographic
characteristics, personal background, geographic
information, test scores, high school grades, ratings
assigned by Harvard’s admissions officers, and
Harvard’s admissions decision.” Id. at 159. The experts
had access to aggregate information for the classes of
2000 to 2017 and a sample of actual application files for
applicants from the classes of 2018 and 2019. Id.
Harvard also presented statistics on the racial make-up
of its admitted classes from 1980 to 2019. Id. at 160.
The district court first made factual findings related
to the descriptive statistics. It found that Asian
Americans were admitted to Harvard at a lower rate
(between 5% and 6%) than white applicants (between
7% and 8%) to the classes of 2014 through 2017. Id. It

standardized tests scores, grades, parental income, etc.). See
generally Alan Agresti, Foundations of Linear and Generalized
Linear Models 165, 202 (2015). Professors Card and Arcidiacono
agreed that logistic regressions are the most useful tool to
understand the effect of race on Harvard’s admissions process.
SFFA II, 397 F. Supp. 3d at 165.
19

Their dataset contained only domestic applicants and did not
consider transfer applicants or incomplete applications. Id. at 159
n.41.

App. 49
found that Asian Americans tended to score better on
Harvard’s academic and extracurricular ratings than
white applicants but had worse personal ratings than
non-Asian American applicants. Id. at 161-62. Both
experts presented non-regression explanations for
these statistics. Id. at 162-65. The court found
problems with both and determined that logistic
regression models were the most useful tools to
determine whether Harvard discriminated against
Asian Americans because these models can isolate the
effects of race by controlling for other variables
affecting the modeled outcome. Id. at 165-66.
The court analyzed two sets of logistic regression
models: the first set measured the effect of race on
Harvard’s numerical ratings, while the second set
measured the effect of race on the probability of
admission to Harvard. Id. at 167-72. One of the
purposes of the first set of models was to determine
whether Harvard’s numerical ratings -- like the
personal rating, which SFFA argues was influenced by
race -- should be included in the second set of models.
Id. at 169. The court recognized that variables that are
influenced by race should be excluded from the second
set of models. Id. at 166. But variables that are not
influenced by race and include information that the
second set of models would not otherwise capture
should be included. Id.
To determine whether the personal rating was
influenced by race, the court considered a model of it.20

20

The court also considered logistic regression models for
Harvard’s other ratings and found that the academic,

App. 50
Id. at 169-71. This logistic regression model showed
that there was a negative correlation between an
applicant’s personal rating and Asian American
identity even when controlling for various factors
related to admission. Id. at 169. The court found that
correlation does not imply causation. It found that the
correlation between race and the personal rating did
not mean that race influences the personal rating. Id.
at 170.
The district court then found that Harvard’s
expert’s model including the personal rating “results in
a more comprehensive analysis.” Id. at 173.
Nonetheless, it considered a model including the
personal rating and a model excluding it. Id. at 175.
The model including the personal rating showed that
Asian American identity has no statistically significant
effect on an applicant’s chance of admission to
Harvard. Id. The model excluding the personal rating
showed that Asian American identity had a slightly
negative effect on an applicant’s chance of admission to
Harvard. Id. The district court found the statistical
evidence “inconclusive” and held that it did “not
demonstrate any intent by admissions officers to
discriminate based on racial identity.” Id. Based on the
non-statistical and statistical evidence, it held that
there was no intentional discrimination. Id. at 203-04.
extracurricular, athletic, and school support ratings should be
included in the models because they were not influenced by race.
Id. at 167-72.
The court made other findings related to the differences in the
experts’ modeling assumptions, but the court’s decision on the
personal rating is the only modeling choice SFFA challenges on
appeal.

App. 51
III. Legal Analysis
When, as here, the district court conducts a bench
trial, we review its findings of fact for clear error. See,
e.g., Sawyer Brothers, Inc. v. Island Transporter, LLC,
887 F.3d 23, 29 (1st Cir. 2018). Under this standard,
“we will set aside a trial court’s factual findings only if
‘after careful evaluation of the evidence, we are left
with an abiding conviction that those determinations
and findings are simply wrong.’” Id. (quoting N. Ins.
Co. of N.Y. v. Point Judith Marina, LLC, 579 F.3d 61,
67 (1st Cir. 2009)). We also “remain mindful that the
trial court ‘sees and hears the witnesses at first hand
and comes to appreciate the nuances of the litigation in
a way which appellate courts cannot hope to replicate.’”
Paraflon Investments, Ltd. v. Fullbridge, Inc., 960 F.3d
17, 24 (1st Cir. 2020) (quoting Calandro v. Sedgwick
Claims Mgmt. Servs., Inc., 919 F.3d 26, 33 (1st Cir.
2019)). We review the district court’s legal conclusions
de novo. See, e.g., AcBel Polytech, 928 F.3d at 116.
1) SFFA Has Standing to Bring This Suit, Contrary to
Harvard’s Assertion
A federal court’s power to decide a suit is limited by
Article III of the U.S. Constitution, which restricts
federal courts’ jurisdiction to cases or controversies.
See, e.g., Warth v. Seldin, 422 U.S. 490, 498 (1975).
Federal courts have “an independent obligation to
assure that standing exists, regardless of whether it is
challenged by any of the parties.” Summers v. Earth
Island Inst., 555 U.S. 488, 499 (2009).
The “prerequisites for associational standing ensure
that Article III’s case or controversy requirement is

App. 52
satisfied.” United States v. AVX Corp., 962 F.2d 108,
116 (1st Cir. 1992). “An association has standing to sue
on behalf of its members when three requisites have
been fulfilled: (1) at least one of the members possesses
standing to sue in his or her own right; (2) the interests
that the suit seeks to vindicate are pertinent to the
objectives for which the organization was formed; and
(3) neither the claim asserted nor the relief demanded
necessitates the personal participation of affected
individuals.” Id. (citing Hunt, 432 U.S. at 343).
Harvard does not dispute that SFFA satisfies these
requirements, and, for the reasons stated in the district
court’s opinion, we agree that it does. See SFFA I, 261
F. Supp. 3d. at 109-11.
Instead, Harvard argues that SFFA lacks standing
because it is not a “genuine” membership organization
as required by Hunt and in doing so misreads the
Supreme Court’s decision in Hunt. Its argument hinges
on the resolution of two issues: (1) whether this Court
must apply the “indicia of membership” test to
determine whether SFFA is a traditional voluntary
membership organization and (2) if so, whether SFFA
satisfies this test. Because we hold that the indicia of
membership test does not apply to SFFA, we do not
address whether SFFA satisfies it.
In Hunt, the Court addressed whether the
Washington State Apple Advertising Commission -- “a
state agency, rather than a traditional voluntary
membership organization” -- could claim associational
standing. 432 U.S. at 344. To resolve the issue, it
introduced a threshold hurdle that certain
organizations must clear before invoking associational

App. 53
standing. Id. Dubbed the “indicia of membership” test
by later courts, see, e.g., Friends of the Earth, Inc. v.
Chevron Chem. Co., 129 F.3d 826, 829 (5th Cir. 1997),
this test requires courts to determine if organizations
that are not voluntary membership organizations, “for
all practical purposes, perform[ ] the functions of a
traditional trade association.” 432 U.S. at 344. The
Court identified a number of factors to consider:
whether the organization’s purpose is to protect and
promote the interests of its non-members, whether
these non-members are “the primary beneficiar[ies] of
its activities,” and whether non-members elect its
members, are the only people who may be members, or
finance the organizations’ activities, including
litigation costs, through assessments levied upon them.
Id. at 344–45. If these indicia of membership are
present, non-membership organizations are deemed
sufficiently similar to traditional voluntary
membership organizations and can claim associational
standing (provided that they also satisfy the traditional
three-part test). Id.
Harvard argues that we must apply the indicia of
membership test to SFFA to determine whether it is, in
fact, a traditional voluntary membership organization.
SFFA argues that because it is, on its face, a
traditional voluntary membership organization, the
indicia of membership test is inapplicable. We agree
with SFFA.
Harvard cites a number of cases applying the
indicia of membership test. However, none support the
proposition that the indicia of membership test must be
met here. These cases hold the indicia of membership

App. 54
test is used in certain factual circumstances which are
not present in this case. See Sorenson Commc’ns, LLC
v. Fed. Commc’ns Comm’n, 897 F.3d 214, 225 (D.C. Cir.
2018) (applying the indicia of membership test when it
was “unclear if [the plaintiff was] the sort of
organization that would qualify as a ‘membership
association,’” id. at 225, and concluding that it was not
because the plaintiff was an unincorporated online
“information forum” where users could sign up for
e-mail updates, id. 223); Heap v. Carter, 112 F. Supp.
3d 402, 418 (E.D. Va. 2015) (noting that the indicia of
membership test is used to determine whether an
organization is the functional equivalent of a
membership organization and determining that the
plaintiff lacked associational standing because it
“provided no details about who the membership is or
whether [it] truly can be considered a voluntary
membership organization or a functional equivalent”);
Package Shop, Inc. v. Anheuser-Busch, Inc., CIV. A.
No. 83-513, 1984 WL 6618, at *8 (D.N.J. Sept. 25, 1984)
(applying the indicia of membership test when the
plaintiff was a self-described trade association but its
membership list was outdated and handwritten and it
had refused to follow corporate formalities). Further,
this Court has routinely applied the three-part
associational standing test without also applying the
indicia of membership test. See, e.g., Merit Const. All.
v. City of Quincy, 759 F.3d 122, 126–27 (1st Cir. 2014).
Harvard’s reading of Hunt is at odds with decades
of decisions21 since Hunt that have not applied the
21

Other courts have explicitly refused to hold that every
organization claiming associational standing must pass the indicia

App. 55
indicia of membership test to organizations which, on
their face, are voluntary membership organizations.
When suit was filed in November 2014,22 SFFA was
a validly incorporated 501(c)(3) nonprofit with
forty-seven members who joined voluntarily to support
its mission of “defend[ing] human and civil rights
secured by law, including the right of individuals to
equal protection under the law.” We have already
described its bylaws and membership structure and do
not repeat this description. These facts are sufficient to
conclude that SFFA is a valid membership organization
and applying an indicia of membership test to SFFA is
unwarranted. SFFA has associational standing to
pursue its claims.

of membership test. See Brady Campaign to Prevent Gun Violence
v. Salazar, 612 F. Supp. 2d 1, 29 (D.D.C. 2009) (finding that “[t]he
[defendant’s] standing argument is based upon a flawed reading of
Hunt” because “[t]he inquiry into the ‘indicia of membership’ . . .
is necessary only when an organization is not a ‘traditional
membership organization’”); California Sportfishing Prot. All. v.
Diablo Grande, Inc., 209 F. Supp. 2d 1059, 1066 (E.D. Cal. 2002)
(“[T]he ‘indicia of membership’ requirement in Hunt applies only
to situations in which an organization is attempting to bring suit
on behalf of individuals who are not members.”).
22

Harvard argues that SFFA amended its bylaws after filing suit
to make itself appear more like a traditional voluntary
membership organization. Because standing must be established
when a suit is filed, we consider whether SFFA was a traditional
voluntary membership organization as of November 2014. See
Davis v. Fed. Election Comm’n, 554 U.S. 724, 734 (2008) (“[T]he
standing inquiry remains focused on whether the party invoking
jurisdiction had the requisite stake in the outcome when the suit
was filed.”).

App. 56
2) Harvard’s Limited Use of Race in its Admissions
Program Survives Strict Scrutiny
Because Harvard accepts federal funds, it is subject
to Title VI. 42 U.S.C. § 2000d (“No person in the United
States shall, on the ground of race, color, or national
origin, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance.”). Title VI’s protections are coextensive with
the Equal Protection Clause of the Fourteenth
Amendment. See Bakke, 438 U.S. at 287 (“Title VI
must be held to proscribe only those racial
classifications that would violate the Equal Protection
Clause or the Fifth Amendment.”); Alexander v.
Sandoval, 532 U.S. 275, 280 (2001) (describing the
preceding language in Bakke as “[e]ssential to the
Court’s holding”). Harvard is subject to the same
limitations on its use of race in admissions as state-run
institutions.
When Title VI applies, a university is prohibited
from considering race in its admission process “unless
the admissions process can withstand strict scrutiny.”
Fisher I, 570 U.S. at 309. Harvard admits that it
considers race in its admissions process and at times
provides tips to applicants based on their race. Strict
scrutiny applies regardless of racial animus. See id.
Strict scrutiny requires that the university’s use of race
must further a compelling interest. See Grutter, 539
U.S. at 326.
The Supreme Court has held that attaining student
body diversity may be a compelling interest. Fisher I,
570 U.S. at 310. Whether an asserted interest in

App. 57
diversity is a constitutionally acceptable compelling
interest requires that a university have made certain
showings. And even once those showings are made, the
university must also show that the means utilized to
further that interest are narrowly tailored, which
means that the university must make additional
showings. SFFA argues that Harvard fails strict
scrutiny because it engages in racial balancing, uses
race as a mechanical plus factor, and has race-neutral
alternatives.23
a) Compelling Interest
When assessing a university’s interest in student
body diversity, it has long been the law that a school
“bears the burden to prove ‘that the reasons for any
[racial] classification [are] clearly identified and
unquestionably legitimate.’” Id. (quoting City of
Richmond v. J.A. Croson Co., 488 U.S. 469, 505 (1989)).
“[T]he decision to pursue ‘the educational benefits that
flow from student body diversity’ . . . is, in substantial
measure, an academic judgment to which some, but not
complete, judicial deference is proper.” Id. (quoting
Grutter, 539 U.S. at 330). But “asserting an interest in
the educational benefits of diversity writ large is
insufficient.” Fisher II, 136 S. Ct. at 2211. A
university’s goals “must be sufficiently measurable to
23

It is not entirely clear how SFFA’s arguments about Harvard’s
use of race to benefit African American and Hispanic applicants
relate to SFFA’s central allegation that Harvard discriminates
against Asian American applicants in favor of white applicants.
We understand SFFA’s arguments as attacking the use of race to
admit African American and Hispanic candidates, to the detriment
of Asian American and white applicants.

App. 58
permit judicial scrutiny of the policies adopted to reach
them.” Id. SFFA’s appellate challenge to us does not
contest that Harvard has a compelling interest in
diversity. Nonetheless, Supreme Court precedent
compels us to assess whether Harvard’s interest in
diversity is both clearly identified, definite, and precise.
The Fisher II majority held that that the University
of Texas’s interest in diversity was definite and precise
when it identified the educational values it sought to
realize through its race-conscious admissions program.
Id. These values included promoting cross-racial
understanding, breaking down racial stereotypes,
fostering a robust exchange of ideas, cultivating “a set
of leaders with legitimacy in the eyes of the citizenry,”
exposing them to different cultures, and preparing
them for the challenges of an increasingly diverse
workforce. Id. The University of Texas commissioned a
year-long study and issued a thirty-nine-page proposal
giving a reasoned explanation for its decision to pursue
its diversity goals. Id. The Fisher II majority also held
that record evidence from admissions officers
reiterating this same explanation for the university’s
use of race further supported the precision and
particularity of the program. Id.
Harvard has identified specific, measurable goals it
seeks to achieve by considering race in admissions.
These goals are more precise and open to judicial
scrutiny than the ones articulated by the University of
Texas and approved by the Fisher II majority.
Harvard’s interest in diversity is established both by
the Khurana Report and other statements and
testimony at trial.

App. 59
We rely on the Khurana Report described before
and do not repeat its description. The articulated
purpose of the Khurana Report was to enable courts to
assess whether Harvard’s interest was sufficiently
compelling to comply with strict scrutiny and Supreme
Court precedent. The Khurana Committee produced
the report after a thoughtful, rigorous study of the
importance of diversity to Harvard.
As for process, the Khurana Committee relied on
input and data from students, alumni, faculty and
staff, and other stakeholders in Harvard’s admissions
process. It considered how a diverse environment
prepares Harvard’s graduates to enter the public and
private sectors and how those sectors prefer graduates
who have been exposed to a wide range of ideas and
people. In our view, at least these specific goals were
articulated in the Khurana Report: (1) training future
leaders in the public and private sectors as Harvard’s
mission statement requires; (2) equipping Harvard’s
graduates and Harvard itself to adapt to an
increasingly pluralistic society; (3) better educating
Harvard’s students through diversity; and
(4) producing new knowledge stemming from diverse
outlooks. These goals make clear that Harvard’s
interest in diversity “is not an interest in simple ethnic
diversity, in which a specified percentage of the student
body is in effect guaranteed to be members of selected
ethnic groups,” but “a far broader array of
qualifications and characteristics of which racial or
ethnic origin is but a single though important element.”
Parents Involved, 551 U.S. at 722 (quoting Grutter, 539
U.S. at 324-25). Race is one piece of Harvard’s interest
in diversity. It is “considered as part of a broader effort

App. 60
to achieve ‘exposure to widely diverse people, cultures,
ideas, and viewpoints.’” Id. at 723 (quoting Grutter, 539
U.S. at 330).
Testimony at trial also supported Harvard’s interest
in diversity. The district court made a factual finding
that “Harvard values and pursues many kinds of
diversity within its classes, including different
academic interests, belief systems, political views,
geographic origins, family circumstances, and racial
identities.” SFFA II, 397 F. Supp. 3d at 133. It found
that “Harvard tries to create opportunities for
interactions between students from different
backgrounds and with different experiences to
stimulate both academic and non-academic learning.”
Id. at 134. It based these findings on the testimony of
“all of the Harvard admissions officers, faculty,
students, and alumni that testified at trial.” Id. at 133.
Harvard’s interest in student body diversity and its
consideration of race to attain it is also not unique.
Many other colleges and universities consider an
applicant’s race, in addition to many other factors,
in admissions.24 And the business community has

24

According to the College Board’s profiles of colleges and
universities, the schools that consider race are diverse on
numerous dimensions, including in terms of religious affiliation,
location, size, and courses of study offered. For example, the
University of Notre Dame, Georgetown University, Boston College,
Villanova University, Catholic University, Lafayette College,
Gonzaga University, Marquette University, the College of the Holy
Cross, and Fordham University all consider race in their
admissions process. See College Board: BigFuture, https://big
future.collegeboard.org/. The following colleges and universities
submitted an amicus brief in support of Harvard and also consider

App. 61
communicated its interest in having a well-educated,
diverse hiring pool both in this case and in the prior
governing Supreme Court cases.25
Harvard has sufficiently met the requirements of
Fisher I, Fisher II, and earlier cases to show the
specific goals it achieves from diversity and that its
interest is compelling.
We turn to the heart of SFFA’s challenge. To
survive strict scrutiny, Harvard’s use of race must also
be narrowly tailored and consistent with Supreme
Court precedent.
b) Narrow Tailoring
Narrow tailoring requires that “[t]he means chosen
to accomplish the [university’s] asserted purpose must
be specifically and narrowly framed to accomplish that
purpose.” Fisher I, 570 U.S. at 311 (quoting Grutter,
539 U.S. at 333). “[N]o deference is owed when
determining whether the use of race is narrowly
tailored to achieve the university’s permissible goals.”

race in their admissions process: Brown University, Columbia
University, Cornell University, Dartmouth College, Duke
University, Emory University, Johns Hopkins University, the
Massachusetts Institute of Technology, Princeton University,
Stanford University, the University of Chicago, the University of
Pennsylvania, Vanderbilt University, Washington University in St.
Louis, and Yale University.
25

An amicus brief filed by 14 leading American companies says
that “policies like those approved by the Supreme Court in
Grutter are essential to [their] ongoing efforts to attract and
benefit from the best possible people.”

App. 62
Fisher II, 136 S. Ct. at 2208 (citing Fisher I, 570 U.S.
at 311).
Accordingly, we give no deference to Harvard.
Under the Supreme Court’s precedent, a university’s
admissions program cannot be narrowly tailored if it
(1) involves racial balancing or quotas, see Fisher I, 570
U.S. at 311,26 (2) uses race as a mechanical plus factor,
see id. at 312, or (3) is used despite workable
race-neutral alternatives, see Fisher II, 136 S. Ct. at
2208.27 “[I]t remains at all times the University’s
obligation to demonstrate, and the Judiciary’s

26

Grutter says that “[t]o be narrowly tailored, a race-conscious
admissions program cannot use a quota system” and that racial
balancing is an “unlawful interest.” 539 U.S. at 323, 334. Because
the substance of these claims is similar, we review them together
under the narrow tailoring prong of strict scrutiny.
27

There is some tension in the Supreme Court’s precedent about
how extensively Harvard can consider race. If Harvard’s use of
race is too extensive, it could be impermissibly mechanical under
Gratz or used beyond the “factor of a factor of a factor” in the
holistic review process approved in Fisher II. See Gratz, 539 U.S.
at 272; Fisher II, 136 S. Ct. at 2207. But if Harvard’s use of race is
not extensive enough, it cannot reach its diversity goals, thus
undercutting the rationale for using race at all. See Fisher II, 136
S. Ct. at 2212 (addressing petitioner’s argument that “considering
race was not necessary because such consideration has had only a
‘“minimal impact” in advancing the [University’s] compelling
interest’”) (citation omitted). To address this tension, the Fisher II
majority held that “it is not a failure of narrow tailoring for the
impact of racial consideration to be minor” and that “[t]he fact that
race consciousness played a role in only a small portion of
admissions decisions should be a hallmark of narrow tailoring, not
evidence of unconstitutionality.” Id.

App. 63
obligation to determine, that admissions processes” are
narrowly tailored. See Fisher I, 570 U.S. at 311-12.
1. There Was No Error in Holding That Harvard Did
Not Engage in Racial Balancing
SFFA first argues that Harvard’s admissions policy
is not narrowly tailored because Harvard engages in
racial balancing. The United States, as an amicus in
support of SFFA, makes a similar argument. Under the
Supreme Court’s precedent, racial balancing is
impermissible. See, e.g., id. at 311. A university “is not
permitted to define diversity as ‘some specified
percentage of a particular group merely because of its
race or ethnic origin.’” Id. (quoting Bakke, 438 U.S. at
307). “Racial balancing is not transformed from
‘patently unconstitutional’ to a compelling state
interest simply by relabeling it ‘racial diversity.’”
Parents Involved, 551 U.S. at 732. However,
universities may pay “some attention to numbers”
without “transform[ing] a flexible admissions system
into a rigid quota.” Grutter, 539 U.S. at 336 (quoting
Bakke, 438 U.S. at 323).
SFFA argues that, focusing on the classes of 2009 to
2018,28 “the percentage of [Harvard’s] class by race
always fell within a narrow range.” For these classes,
the share of Asian Americans admitted ranged from a
low of 17.5% in 2013 to a high of 20.3% in 2016 with
various percentages in between.
28

SFFA chooses to start its analysis with Harvard’s class of 2009
and end with the class of 2018 because Grutter was decided in
2003 and it argues this is the “ten-year period between Grutter
and this suit.”

App. 64
SFFA also argues that Harvard uses “one-pagers”
displaying the racial makeup of the admitted class to
ensure racial balancing and to “closely monitor the
racial makeup of [its] class.” In support of this
argument, it cites one Harvard admissions officer’s
testimony that Harvard uses its one-pagers to prevent
“a dramatic drop-off in some group [from] last year.”
First considering the broader context, the share of
admitted Asian American applicants for the classes of
1980 to 2019 has increased from a low of 3.4% in 1980
to a high of 20.6% in 2019. The share of Asian
American applicants has ranged from a low of 4.1% in
1980 and a high of 22.5% in 2014 over the same period.
The level of variation in the share of admitted Asian
American applicants is inconsistent with a quota, as is
the fact that the share of admitted Asian Americans
co-varies almost perfectly with the share of Asian
American applicants.
Even if we were to restrict the analysis to the period
SFFA favors, the same pattern holds. The amount by
which the share of admitted Asian American applicants
fluctuates is greater than the amount by which the
share of Asian American applicants fluctuates. This is
also true for Hispanic and African American
applicants. It is the opposite of what one would expect
if Harvard imposed a quota. The fact that Harvard’s
admitted share of applicants by race varies relatively
little in absolute terms for the classes of 2009 to 2018
is unsurprising and reflects the fact that the racial
makeup of Harvard’s applicant pool also varies very
little over this period. The district court properly

App. 65
concluded that Harvard does not utilize quotas and
does not engage in racial balancing.
Next, SFFA’s argument on the impermissibility of
one-pagers is foreclosed by Grutter and Fisher II. The
Grutter majority held that the “consultation of the
‘daily reports,’ which keep track of the racial and ethnic
composition of the class” does not “‘sugges[t] there was
no further attempt at individual review save for race
itself’ during the final stages of the admissions
process.” Id. (quoting id. at 392 (Kennedy, J.,
dissenting)).
The Grutter Court also pointed to two additional
factors -- present here -- supporting its conclusion that
the university’s admissions program did not function as
an unconstitutional quota: (1) the variation in the
percent of minority applicants admitted each year and
(2) the uncontradicted testimony by admissions officers
“that they never gave race any more or less weight
based on the information contained in these reports.”
Id.
Harvard’s witnesses testified that they used
one-pagers for three main reasons: (1) to assess how
well its diversity recruitment efforts (e.g., via UMRP
and HFAI) were working; (2) to manage its yield rates;
and (3) to avoid drop offs in students with particular
characteristics due to inadvertence or lack of care.
Harvard may permissibly use one-pagers to assess
the effectiveness of its pre-application recruitment
efforts. Given the Fisher II majority’s command that
universities must “continue to use . . . data to
scrutinize the fairness of its admissions program [and]

App. 66
to assess whether changing demographics have
undermined the need for a race-conscious policy,”
Harvard’s use of one-pagers for this purpose evidences
narrow tailoring because it allows Harvard to assess
whether its race-conscious admissions policy is still
necessary. 136 S. Ct. at 2214.
Managing yield rates is also permissible. Harvard
is a residential college with a limited number of beds.
It needs to carefully monitor the number of applicants
it admits to avoid becoming overcrowded. Applicants
with different demographics accept offers of admission
at different rates. For example, applicants from
“Sparse Country” accept offers of admission at lower
rates than other applicants. Engineering admittees
yield at lower rates. And applicants of different races
also enroll at differing rates. To help manage its class
size, Harvard includes geographic data, intended
concentration, and race -- in addition to many other
factors, like gender, ALDC status, and economic status
-- on its one-pagers. This is permissible.
One-pagers also avoid drop-offs in admitted
students with certain characteristics, including race,
due to inadvertence or lack of care. An admissions
officer testified that if Harvard did observe a dramatic
decrease in representation of members of a particular
race in its admitted class that was not due to
inadvertence or lack of care, “[s]ome things can’t be
avoided.” Harvard’s use of race in this way has been
approved by the Supreme Court. See Grutter, 539 U.S.
at 335 (finding Harvard’s “flexible use of race”
instructive and refusing to characterize its use of race
as a quota when “Harvard certainly had minimum

App. 67
goals for minority enrollment, even if it had no specific
number firmly in mind”).
2. There Was No Error in Holding That Harvard Did
Not Use Race as a Mechanical Plus Factor
Next, SFFA argues that Harvard’s admissions
program is not narrowly tailored because, in its view,
Harvard’s consideration of race is mechanical. The
Supreme Court has found race-conscious admissions
policies unconstitutional as mechanical when they give
pre-defined boosts to applicants solely because of race,
when they preclude individualized consideration of
applicants, and when race becomes the decisive factor
in admission. See Gratz, 539 U.S. at 271-72; see also
Fisher II, 136 S. Ct. at 2207 (holding that consideration
of race “does not operate as a mechanical plus factor for
underrepresented minorities” when it is contextual).
In Gratz, the University of Michigan’s
undergraduate program graded applicants using a
point system. Id. at 255. Applicants scoring over 100
points were guaranteed admission. Id. The school
automatically awarded “every applicant from an
underrepresented racial or ethnic minority group . . .
20 points.” Id. at 256. The Court found this system
impermissible because it did not allow for
individualized consideration of applicants, as required
by Bakke, and because automatically distributing a
fifth of the points required for admission “mak[es] ‘the
factor of race . . . decisive’ for virtually every minimally
qualified underrepresented minority applicant.” Id. at
272 (quoting Bakke, 438 U.S. at 317). In contrast, the
Court has found race to be sufficiently non-mechanical
when its consideration is individualized and can benefit

App. 68
any applicant. See Fisher II, 136 S. Ct. at 2207
(explaining that “the consideration of race, within the
full context of the entire application, may be beneficial
to any UT Austin applicant -- including whites and
Asian–Americans” (quoting Fisher v. Univ. of Texas at
Austin, 645 F. Supp. 2d 587, 606 (W.D. Tex. 2009))).
SFFA argues that Harvard’s race-conscious
admissions process does not pursue student-body
diversity, places too much weight on race, and that
Harvard’s use of race has no defined end point.
SFFA’s contention that Harvard elevates racial
diversity above other types of diversity is not supported
by the evidence. Harvard has demonstrated that it
values all types of diversity, not just racial diversity.
Harvard’s use of race in admissions is contextual and
it does not consider race exclusively.
Next, Harvard’s process does not weigh race so
heavily that it becomes mechanical and decisive in
practice. Harvard’s undergraduate admissions program
considers race as part of a holistic review process. This
use was previously praised by the Supreme Court as a
way of considering race in a non-mechanical way.
Unlike the program in Gratz, Harvard does not award
a fixed amount of points to applicants because of their
race.
The district court made a number of pertinent
factual findings against SFFA’s arguments, all of which
are supported by the evidence. SFFA counters by
pointing to evidence that Asian American applicants
with high grades and test scores are admitted at lower
rates than applicants of other races. The district court

App. 69
considered this evidence and found that it “likely over
emphasizes grades and test scores and undervalues
other less quantifiable qualities and characteristics
that are valued by Harvard and important to the
admissions process.” SFFA II, 397 F. Supp. 3d at 165.
It credited other evidence showing that the effect of
race on a student’s chance of admission is “not
disproportionate to the magnitude of other tips
applicants may receive.” Id. at 199.
The Supreme Court has also approved admissions
programs where race has a larger effect on a student’s
chances of admission than Harvard’s use of race. In
Grutter, the Supreme Court upheld the University of
Michigan Law School’s race-conscious admission
program that, if eliminated, would have reduced the
underrepresented minority population of the admitted
class from 14.5% to 4%, a 72.4% decrease. See 539 U.S.
at 320. Here, without considering race, the share of
African American and Hispanic or Other students
enrolled at Harvard would decrease by 45%. See SFFA
II, 397 F. Supp. at 198. The impact of Harvard’s use of
race on the makeup of its class is less than the one at
issue in Grutter.29

29

The United States attempts to make the impact of Harvard's use
of race appear more significant than it is. It argues that Harvard
“inflicts an 11.1% penalty” on Asian Americans because, absent the
consideration of race, their representation would increase from
24% to 27%. It then claims that Harvard provides a 133% bonus to
African Americans because their representation increases from 6%
to 14%. While these calculations are correct, similar calculations
show that race was used about as extensively in the program
approved in Grutter. That program, using the government's
language and calculations, inflicted a penalty of 10.9% on

App. 70
In Harvard’s holistic admissions process, tips are
used for athletic ability, legacy status, geographic and
economic factors, race at times, and perhaps other
reasons. But the outcomes of Harvard’s admissions
process do not indicate that race is impermissibly
“‘decisive’ for virtually every minimally qualified
underrepresented minority applicant” within it. Gratz,
539 U.S. at 272 (quoting Bakke, 438 U.S. at 317).
According to SFFA’s own expert’s analysis, Harvard
rejects more than two-thirds of Hispanic applicants and
slightly less than half of all African American
applicants who are among the top 10% most
academically promising applicants to Harvard in terms
of standardized test scores and GPA. Gratz precludes
programs where race is decisive for minimally qualified
candidates. Harvard’s admissions process is so
competitive that race is not decisive for highly qualified
candidates. The district court also found that some
Asian American applicants are advantaged by
Harvard’s use of race. See SFFA II, 397 F. Supp. 3d at
178 (“The policy of considering applicants’ race may
improve the admission chances of some Asian
Americans who connect their racial identities with
particularly compelling narratives.”).
Relatedly, the United States argues that Harvard
“considers race at virtually every step of its admission

applicants who were not underrepresented minorities (because
their representation would increase from 85.5% to 96% absent the
consideration of race) while simultaneously giving a 263% bonus
to underrepresented minority applicants (because their
representation increased from 4% to 14.5% with the consideration
of race). See Grutter, 539 U.S. at 320.

App. 71
process.” It reads Fisher II as mandating that race only
be considered at one step in a university’s admissions
process because race was considered at only one point
in the University of Texas at Austin’s process. This
argument is not persuasive for several reasons. Its
premise is questionable. The Fisher II majority does
say that “race enters the admissions process . . . at one
stage and one stage only.” 136 S. Ct. at 2207. But the
pervasiveness of the University of Texas’s
consideration of race was one of Justice Alito’s chief
criticisms in his dissent, which was joined by Chief
Justice Roberts and Justice Thomas. Justice Alito cited
the district court’s finding that “[b]ecause an
applicant’s race is identified at the front of the
admissions file, reviewers are aware of it throughout
the evaluation,” Fisher v. Univ. of Texas at Austin, 645
F. Supp. at 597, before writing that “[c]onsideration of
race therefore pervades every aspect of UT’s
admissions process,” Fisher II, 136 S. Ct. at 2220
(Alito, J., dissenting). It is difficult to imagine how a
school could both consider an applicant’s race and
holistically review their application, as required by
Supreme Court precedent, at only a single point in the
admissions process. This is true because the
applications themselves frequently contain racially
identifiable information, as we have described earlier.
Regardless, there is nothing in Fisher II suggesting
that a university can only consider race once or that
only a single use of race is a necessary component of a
narrowly tailored policy. The Court made clear that as
long as race is “considered in conjunction with other
aspects of an applicant’s background” and is “but a
‘factor of a factor of a factor’ in the holistic-review

App. 72
calculus,” it will not be considered impermissibly
mechanical. Fisher II, 136 S. Ct. at 2207. Harvard has
shown that its holistic consideration of race is not
impermissibly extensive.
Finally, SFFA and the United States argue that
Harvard’s use of race has no end point because
Harvard has not identified a stopping point for its use
of race. It derives this argument from Grutter’s
statement that the “use of race must have a logical end
point,” 539 U.S. at 342, and its hope that “25 years
from now, the use of racial preferences will no longer be
necessary to further the interest approved today,” id. at
343. This argument is also not persuasive and is
insensitive to the achievement of the university’s
legitimate goals once it has met the requirements
established by the Supreme Court. Indeed, the
Supreme Court never mentioned Grutter’s 25-year
timeline in Fisher I or Fisher II.
Harvard’s failure to identify a specific level of
diversity it would need to achieve before it stopped
using any consideration of race is not fatal to its
admissions program. The Fisher II majority held that
because “the University is prohibited from seeking a
particular number or quota of minority students, it
cannot be faulted for failing to specify the particular
level of minority enrollment at which it believes the
educational benefits of diversity will be obtained.” 136
S. Ct. at 2210. Importantly, the evidence is that
Harvard has periodically reviewed its use of race in the
past, has periodically and recently considered raceneutral alternatives, and has made it clear that it will
continue to do so in the future. See Grutter, 539 U.S. at

App. 73
342 (requiring that universities conduct “periodic
reviews to determine whether racial preferences are
still necessary”). The same committee that reaffirmed
Harvard’s need to pursue racial diversity in admissions
emphasized that “it will be important to reassess,
periodically, the necessity of considering race and
ethnicity in the admissions process.” No Supreme
Court precedent requires Harvard to identify a specific
end point for its use of race.
3. There Was No Error in Holding That Harvard
Considered Race-Neutral Alternatives and
Legitimately Concluded That the Alternatives Were
Not Workable
SFFA argues that Harvard’s use of race fails the
narrow tailoring prong of strict scrutiny because
Harvard has disregarded race-neutral ways to achieve
its diversity goals. See Fisher I, 570 U.S. at 312
(“Narrow tailoring . . . . involves a careful judicial
inquiry into whether a university could achieve
sufficient diversity without using racial
classifications.”). Courts must not defer to a
university’s consideration of workable race-neutral
alternatives. Id. They must “be satisfied that no
workable race-neutral alternatives would produce the
educational benefits of diversity.” Id. Universities have
an “ongoing obligation to engage in constant
deliberation and continued reflection” on whether
workable race-neutral alternatives exist. Fisher II, 136
S. Ct. at 2215.
The Supreme Court has distinguished “conceivable”
alternatives from “workable” alternatives, requiring
only the use of workable alternatives. Id. at 2208.

App. 74
Harvard has met its burden, including through the
Smith Report, to show that it has carefully considered
all alternatives. It has concluded that they are not
workable and would undercut its educational
objectives. “Narrow tailoring does not . . . require a
university to choose between maintaining a reputation
for excellence or fulfilling a commitment to provide
educational opportunities to members of all racial
groups.” Grutter, 539 U.S. at 339 (citations omitted).
Harvard has implemented many of the policies
SFFA proposes, like eliminating Early Action and
increasing financial aid and outreach, but found those
policies insufficient.30 This accords with Fisher II. 136
S. Ct. at 2212-13 (finding race-neutral alternatives
unworkable when the university had introduced
scholarship programs and “submitted extensive
evidence of the many ways in which it already had
intensified its outreach efforts”).
Harvard has increased the financial aid it offers to
low-income applicants since it instituted its HFAI
program in 2004. It made multiple changes over the
years to increase the affordability of a Harvard
education. When this case went to trial, Harvard’s
budget for undergraduate financial aid was around
$200 million dollars and more than half of Harvard
undergraduates received financial aid. About 90% of
30

Some policy changes backfired. Harvard abandoned its Early
Action program for the classes of 2012 through 2015 but
reinstated it after finding that “many highly talented students,
including some of the best-prepared low-income and
underrepresented minority students, were choosing programs [at
other schools] with an early-action option.”

App. 75
Harvard students pay the same or less in tuition as
they would at a state school. The initial introduction of
HFAI and Harvard’s first increase of the zero parental
contribution limit to $60,000 did have positive effects
on Harvard’s ability to attract and admit racially
diverse applicants. But later changes to the program
had little to no effect on the racial makeup of Harvard’s
applicants or admitted class. As the district court
found, Harvard “has already reached, or at least very
nearly reached, the maximum returns in increased
socioeconomic and racial diversity that can reasonably
be achieved through outreach and reducing the cost of
a Harvard education.” SFFA II, 397 F. Supp. 3d at 180.
Further, the Smith Report, while not entitled to any
deference, does show that Harvard has carefully
considered and rejected race-neutral alternatives. The
Smith Report was supported by the testimony of
Harvard officials. It was also supported by the
testimony of Harvard’s economic expert.
SFFA focuses its argument on “Simulation D,”31 one
of its proposed race-neutral alternatives. Under this
scenario, Harvard would eliminate its consideration of
race, eliminate LDC tips, and increase the tip for
low-income applicants.
If Harvard were to adopt Simulation D, its analysis
shows that the admitted share of white and African
American applicants would decrease (from 40% to 33%
and 14% to 10%, respectively) and the share of Asian
American and “Hispanic and Other” applicants would
increase (from 24% to 31% and 14% to 19%,
31

Simulation D is also called Simulation 7 elsewhere in the record.

App. 76
respectively). The average student’s high school grade
point average would remain unchanged, but the
average SAT score would decrease from 2244 to 2180.
Harvard proved that Simulation D was not a
workable alternative. Not only would SAT scores drop,
but the fraction of applicants with academic,
extracurricular, personal, and athletic ratings of 1 or 2
would decrease by more than 10% (ranging from an
11% decrease for the personal rating to a 22% decrease
for the athletic rating). If Harvard were to increase its
tip based on socioeconomic status, it would make
sacrifices on almost every dimension important to its
admissions process, including one designed to measure
a student’s academic excellence. As the Fisher II
majority held when it found the plaintiff’s alternative
of “altering the weight given to academic and
socioeconomic factors in the University’s admissions
calculus” unworkable, “the Equal Protection Clause
does not force universities to choose between a diverse
student body and a reputation for academic excellence.”
Fisher II, 136 S. Ct. at 2213.
Next, the district court made a factual finding that
removing LDC tips “would adversely affect Harvard’s
ability to attract top quality faculty and staff and to
achieve desired benefits from relationships with its
alumni and other individuals who have made
significant contributions to Harvard.” SFFA II, 397 F.
Supp. 3d at 180. The loss of top faculty would
negatively affect the educational experience of students
at Harvard and its reputation for excellence. See
Grutter, 539 U.S. at 339. The loss of the ability to
cultivate relationships with donors and alumni through

App. 77
LDC tips would harm Harvard’s ability to raise funds,
and the staffing changes needed to accommodate a
drastic shift in student concentrations would present
Harvard with sizeable administrative expenses. SFFA
II, 397 F. Supp. 3d at 179-80, 182. Under Simulation D,
the number of humanities applicants admitted would
drop by 14%. See id. at 182. The number of engineering
applicants admitted would rise by 8%. See id.
Finally, African American representation in
Harvard’s admitted class would decrease by about 32%
under Simulation D. Harvard’s consideration of race is
not impermissibly extensive, but considering race is
meaningful to Harvard’s admissions process because it
prevents diversity from plummeting. Harvard’s raceconscious admissions program ensures that Harvard
can retain the benefits of diversity it has already
achieved.32 The district court found that the dramatic
decline in diversity under Simulation D could adversely
affect the educational experience at Harvard and
increase feelings of isolation and alienation among
32

Dean Smith testified about how his committee evaluated
race-neutral alternatives and what it considered to be an
acceptable level of racial and ethnic diversity. He said that, having
seen the progress Harvard has already made in achieving racial
diversity and the benefits it has had, one consideration was
whether Harvard would be “moving backwards from where [it is]
today.” Regarding any decline in African American representation
specifically, he testified that alienation and isolation is already a
problem among African American students at Harvard and that
Harvard is “not looking to make that worse.” He also testified that
Harvard does not view underrepresented minorities
interchangeably. The increase in representation among Hispanic
and Other students under Simulation D would not cure the
decrease in African American representation.

App. 78
Harvard’s students. Id. at 183. Similarly, the Fisher II
majority found that the University of Texas’s
compelling interest could not be met with race-neutral
alternatives when it had introduced “evidence that
minority students admitted [under a race-neutral
regime] experienced feelings of loneliness and
isolation.” 136 S. Ct. at 2212.
Ample testimony in the record, including from
Harvard students and alumni, supported this
finding.33As these witnesses’ testimony makes clear, a
meaningful reduction in representation -- and a 32%
reduction in African American representation is clearly
meaningful -- would make Harvard less attractive and
hospitable to minority applicants while limiting all
students’ opportunities to engage with and learn from
students with different backgrounds from their own.

33

As an example, one student testified that, when choosing which
school to attend, she “wanted to make sure that there would be
other students who were people of color like myself . . . so that I
could have a more safe environment, a more welcoming
environment, and a better . . . learning environment.” After
arriving at Harvard, she found that “students of color were a huge
minority in almost every space” and that walking into a class with
few or no people of color made her nervous and reticent; she would
hold back in discussions to avoid being “seen or stereotyped as
someone who . . . is just talking about communities of color because
that’s where I came from.” And she described how a large
reduction in the number of Black or Latinx students would be
“catastrophic” because “there are so few students of color and
under-represented minority groups at Harvard as it is” and that
“any sort of reduction in any of those groups would be really
detrimental to the community at Harvard, both for students of
color [and] students in general.” At trial, other students and recent
alumni expressed similar viewpoints.

App. 79
Enabling students to understand, relate to, and learn
from people of different backgrounds is one of the main
goals of Harvard’s race-conscious admissions program.
It is a compelling interest, but under Simulation D
Harvard cannot achieve it. Harvard has carried its
burden of showing that no workable race-neutral
alternatives exist.
3) The District Court Did Not Err in Finding Harvard
Does Not Intentionally Discriminate Against Asian
American Applicants
SFFA’s final claim is that Harvard’s admissions
policy intentionally discriminates against Asian
Americans. It argues that the district court “could not
rule out that Asian Americans are penalized in
Harvard’s admissions process” and says both the
non-statistical and statistical evidence showed that
Harvard discriminates against Asian Americans. From
this premise, it argues that Harvard cannot carry its
burden of disproving intentional discrimination under
strict scrutiny.34

34

SFFA’s intentional discrimination claim does not fit neatly into
the strict scrutiny framework. Harvard disputes whether strict
scrutiny applies to this claim. It admits to using race in its
admissions process. But it has never admitted to discriminating
against Asian American applicants and denies doing so.
SFFA argues that strict scrutiny applies to any challenge
related to a university’s race-conscious admission policy and that,
under strict scrutiny, Harvard bears the burden of disproving
SFFA’s intentional discrimination claim. Harvard argues that
SFFA’s intentional discrimination claim does not get the benefit of
strict scrutiny until SFFA has established that Harvard has
discriminated against Asian Americans and acted with racial

App. 80
To make out a prima facie case of intentional
discrimination on the basis of race under Title VI, a
plaintiff must show that the defendant treated
members of one race differently and less favorably than
members of another race and that the defendant did so
with a racially discriminatory purpose. See Washington
v. Davis, 426 U.S. 229, 239-40 (1976) (describing the
intentional discrimination standard applicable under
the Equal Protection Clause of the Fourteenth
Amendment); Sandoval, 532 U.S. at 280 (finding the
protections of Title VI coextensive with those of the
Equal Protection Clause); accord Goodman v. Bowdoin
Coll., 380 F.3d 33, 43 (1st Cir. 2004) (citing Tolbert v.
Queens Coll., 242 F.3d 58, 69 (2d Cir. 2001)).
Assuming arguendo that SFFA is correct that strict
scrutiny operates on its intentional discrimination
claim by shifting the burden to Harvard to disprove
intentional discrimination, Harvard can succeed only
if it disproves any of these elements. Harvard must
show that it did not discriminate on the basis of race or
that its discrimination was not intentional (i.e., it did
not act with animus or “stereotyped thinking or other
forms of less conscious bias”). Thomas v. Eastman
Kodak Co., 183 F.3d 38, 42 (1st Cir. 1999). We hold, as
did the district court, that Harvard has carried this
burden.
animus against them. See Vill. of Arlington Heights v. Metro.
Hous. Dev. Corp., 429 U.S. 252, 265 (1977) (“Proof of racially
discriminatory intent or purpose is required to show a violation of
the Equal Protection Clause.”). The district court adopted SFFA’s
view. See SFFA II, 397 F. Supp. 3d at 190. We need not decide this
issue because we hold that Harvard prevails even applying the
more demanding standard advanced by SFFA.

App. 81
a) The District Court Did Not Err in Concluding That
the Non-Statistical Evidence Did Not Show
Discrimination Against Asian American Applicants
SFFA argues that three pieces of non-statistical
evidence show intentional discrimination. First, it says
that Harvard’s admissions process as a whole -- and its
use of a personal rating in particular -- is highly
subjective, which makes it susceptible to stereotyping
and bias. Next, it argues that Harvard ignored
warnings that its process might be racially biased,
citing the 1990 OCR Report that, as the district court
acknowledged, “found recurring characterizations of
Asian American applicants that were broadly
consistent with stereotypes.” SFFA II, 397 F. Supp. 3d
at 154. SFFA says that because Harvard took no steps
to remedy these characterizations, its process is biased
against Asian Americans. Finally, SFFA says that
Harvard’s “post-filing conduct” evidences past
discrimination because, in response to this lawsuit,
Harvard amended its written handbook on reading
procedures to explicitly instruct admissions officers
that they should not consider race when assigning a
personal rating and increased the number of Asian
Americans it admitted.
Supreme Court precedent makes clear that the fact
that Harvard’s application process is subjective is
insufficient to overcome other evidence in the record
that Harvard is not biased against Asian Americans
and does not stereotype them. First, there is no
requirement that universities use entirely objective

App. 82
criteria when considering race to admit applicants.35
Cf. Bakke, 438 U.S. at 317-18 (describing, and
approving of, Harvard’s subjective, “flexible”
admissions system where “the weight attributed to a
particular quality may vary from year to year
depending upon the ‘mix’ both of the student body and
the applicants for the incoming class”). Harvard
presented testimony from multiple admissions officers
that its admissions process, though subjective, did not
facilitate bias or stereotyping. The district court found
that the “testimony of the admissions officers that
there was no discrimination against Asian American
applicants with respect to the admissions process as a
whole and the personal ratings in particular was
consistent, unambiguous, and convincing.” SFFA II,
397 F. Supp. 3d at 203. No witness who testified “had
seen or heard anything disparaging about an Asian
American applicant.” Id. The district court was
permitted to assess the credibility of witnesses and
credit the testimony of Harvard’s admissions officers.
See Cooper v. Harris, 137 S. Ct. 1455, 1478 (2017)
(upholding a district court’s credibility determination
that a witness “skirted the truth . . . when he claimed
to have followed only race-blind criteria in drawing
district lines” because a reviewing court “cannot
35

Indeed, it is unclear whether Harvard could even adopt a more
objective system and still comply with the Supreme Court’s
precedent.
A more objective system could be viewed as
mechanically taking race into account. Cf. Gratz, 539 U.S. at 270
(“[T]he University’s policy, which automatically distributes 20
points, or one-fifth of the points needed to guarantee admission,
to every single ‘underrepresented minority’ applicant solely
because of race, is not narrowly tailored to achieve the interest in
educational diversity.”).

App. 83
disrespect such credibility judgments”); Cumpiano v.
Banco Santander Puerto Rico, 902 F.2d 148, 158-59
(1st Cir. 1990) (finding, in a discrimination case, that
“whether or not to credit [defendant’s employee’s]
testimony as to his knowledge and intent was
predominantly a credibility question” and that
“[a]ppellate courts should always be reluctant to erase
the trial judge’s answer to such a query”).36
The nature of Harvard’s admissions process, as the
district court recognized, offset any risk of bias. SFFA
II, 397 F. Supp. 3d at 203. An applicant must secure a
majority of votes at a full-body admissions committee
meeting with forty admissions officers to be admitted
to Harvard, which mitigates the risk that any
individual officer’s bias or stereotyping would affect
Harvard’s admissions process.
Nor was there error in the district court’s fact
finding that earlier reports did not show that Harvard
discriminated against or stereotyped Asian American
applicants. The district court acknowledged that the
1990 OCR Report “found recurring characterizations of
Asian American applicants that were broadly
consistent with stereotypes.” Id. at 154. This same
report also concluded that “Harvard did not
discriminate against Asian American applicants.” Id.
The court also considered SFFA’s contention that
Harvard referred to Asian American applicants as

36

SFFA did not present any evidence to the contrary or “present
a single Asian American applicant who was overtly discriminated
against or who was better qualified than an admitted white
applicant.” SFFA II, 397 F. Supp. 3d at 203.

App. 84
“quiet,” “flat,” “shy,” and “understated,” and that this
showed stereotyping. Id. at 157. The district court
found that using these words “with regard to such an
applicant would be truthful and accurate rather than
reflective of impermissible stereotyping.” Id. It found
that Harvard considers applicants holistically and that
the evidence did not show “that any applicant was
referred to by these types of descriptors because of
their race or that there was any sort of systemic
reliance on racial stereotypes.” Id. at 157, 193. To the
contrary, the evidence showed that admissions officers
referred to applicants of all races using similar
language, not just Asian Americans. Id. at 157.
SFFA’s last two arguments on this point are that it
was only after it filed its lawsuit that Harvard both
updated its written reading procedures to say that race
should not be considered when assigning the personal
rating and increased the number of Asian American
applicants it admitted. As to the first argument,
Harvard updates its reading procedures annually. The
district court found that “Harvard has made clear to its
admissions officers in more recent years that they
should not use race in assigning the profile ratings.” Id.
at 156.
As to SFFA’s second argument, while the share of
Asian American applicants admitted to Harvard did
increase from 19.1% for the class of 2018 to 20.6% for
the class of 2019 after this lawsuit was filed, the
argument made ignores the broader context. Asian
Americans constituted 20.3% of the admitted class of
2016, showing that the 20.6% share of Asian American
admittees for the class of 2019 was not anomalous.

App. 85
Neither was the post-filing increase from 19.1% for the
class of 2018 to 20.6% for the class of 2019. The share
of Asian Americans similarly increased from 17.6% for
the class of 2010 to 19.5% for the class of 2011 and
from 19.3% for the class of 2015 to 20.3% for the class
of 2016 before this lawsuit was filed. Indeed, the
number of Asian Americans admitted to Harvard has
been steadily increasing for decades.
Because statistical evidence can “generate an
inference of intentional discrimination,” Haidak v.
Univ. of Massachusetts-Amherst, 933 F.3d 56, 75 (1st
Cir. 2019), we now turn to the parties’ statistical
evidence.
b) The District Court Did Not Err in Concluding That
the Statistical Evidence Did Not Show
Discrimination Against Asian American Applicants
SFFA’s main argument with respect to the
statistical evidence revolves around whether to include
an applicant’s personal rating in the model of
Harvard’s admissions process. If the personal rating is
included, as done by Harvard’s expert, being Asian
American has a statistically insignificant effect on an
applicant’s chance of admission. If the personal rating
is excluded, as done by SFFA’s expert, it shows that
being Asian American has a statistically significant37

37

An explanatory variable has a “statistically significant” effect if,
assuming the effect of the explanatory variable on the response
variable were actually zero, the effect observed in the model is
different enough from zero that it is unlikely to be due to chance.
“Different enough” is quantified using a significance level. The
experts in this case used a significance level of 5%. For example,

App. 86
negative effect on an applicant’s chance of admission to
Harvard. SFFA argues that it was clear error for the
district court to consider a model including the
personal rating. It also says the district court erred
when it concluded that Harvard had disproved
intentional discrimination after it credited one model
including the personal rating and another excluding it.
We find no error.
1. The District Court Did Not Err in Finding the
Statistical Evidence Did Not Show the Personal
Rating Was Influenced by Race
As a matter of basic principles of statistical
analysis, whether the personal rating used in the
admissions process should be included in the regression
model hinges on whether the personal rating is
influenced by race and whether that rating includes
information that is not otherwise controlled for in the
experts’ admissions models. See FJC Reference Manual
at 313-16, 322-24 (explaining that experts typically
assume that “changes in explanatory variables affect
the dependent variable, but changes in the dependent
variable do not affect the explanatory variables” and
the concept of omitted variable bias)
SFFA argues that race influences the personal
rating and should be excluded, while Harvard argues

the experts called the effect of Asian American identity on the
chance of admission to Harvard statistically significant if,
assuming being Asian American actually had no effect on
admission chances, the probability of observing an effect of Asian
American identity at least as extreme as the effect observed in the
model was less than 5%. We use the same terminology.

App. 87
to the contrary that race is only correlated with the
personal rating and excluding the personal rating
would introduce omitted variable bias into the model.
The district court acknowledged that the model
without the personal rating was “econometrically
reasonable” and “provide[d] evidence that is probative
of the effect of race on the admissions process” but
made a factual finding that “including the personal
rating results in a more comprehensive analysis” and
so was more accurate. SFFA II, 397 F. Supp. 3d at 173.
Considering all of the evidence, it concluded that “the
majority of the disparity in the personal rating between
white and Asian American applicants was more likely
caused by race-affected inputs to the admissions
process . . . or underlying differences in the attributes
that may have resulted in stronger personal ratings”
than Harvard admissions officers’ biases. See id. at
171.
There is a clear and important distinction between
race being correlated with the personal rating and race
influencing the personal rating. Race correlating with
the personal rating means that there is a statistical
relationship between race and the personal rating.
Race influencing the personal rating means that this
statistical relationship is causal. It means that
Harvard assigns applicants higher or lower personal
scores because of their race. The distinction between
correlation and influence is very important.38 See

38

SFFA implies throughout its brief that to see a negative
correlation between Harvard’s personal rating and Asian American
ethnicity and not attribute it to racial bias is to conclude that

App. 88
Samaan v. St. Joseph Hosp., 670 F.3d 21, 33 (1st Cir.
2012) (“Correlation is not causation.”); Wessmann v.
Gittens, 160 F.3d 790, 804 (1st Cir. 1998) (“Even strong
statistical correlation between variables does not
automatically establish causation.”). If race is only
correlated with the personal rating, excluding it from
regression models could make it appear as if Harvard
discriminates when it does not. If race influences the
personal rating, including it in the experts’ regression
models could make it appear as if Harvard does not
discriminate when it does.
“maybe the stereotypes about Asian Americans are true.” This is
a false dichotomy. SFFA ignores the possibility that factors
external to Harvard's admissions process but correlated with race
could account for the racial disparity in personal ratings.
Racial differences in Harvard’s other ratings help illustrate
SFFA’s logical error. For example, Asian Americans do better than
any other racial group on Harvard’s academic rating. No one looks
at this correlation and concludes that there are only two
possibilities: either Asian American students are smarter than
everyone else or Harvard thinks they are and assigns them higher
ratings accordingly. Instead, it is more likely that factors external
to Harvard’s admissions process but correlated with race account
for Asian American’s higher academic ratings. For this reason,
everyone agreed that Harvard’s academic rating should remain in
the logistic regression model even though Professor Arcidiacono
showed that -- even when controlling for obvious variables like
grades and test scores and other factors like demographics,
parental education, geographic region, and characteristics of
applicants’ high schools -- there is a positive correlation between
Asian American identity and Harvard’s academic rating. Indeed,
when asked what could account for the statistical relationship
between the academic rating and race even when controlling for
other factors, Professor Arcidiacono replied: “We don’t think it’s
because of race. We think it’s because of these unobservable
factors.”

App. 89
The district court found that even when controlling
for a number of other factors, race is correlated with
the personal rating. SFFA II, 397 F. Supp. 3d at
169-70. Based on this fact, SFFA argues that the court
was required to find that race influences the personal
rating. The district court disagreed, and we hold that
the district court did not clearly err in concluding that
the more accurate statistical model includes the
personal rating.
The district court gave three reasons why the
personal rating should be included in the model. First,
it credited Harvard’s witnesses’ testimony that they did
not consider race in assigning the personal rating as
evidence that race did not influence the personal
rating. Id.
Second, the district court found that Professor
Arcidiacono’s analysis establishing a statistical
correlation between race and the personal rating
explains only a portion of the variation in personal
ratings. Id. Professor Card testified at trial that
Professor Arcidiacono’s model had a low pseudo-R2
value, indicating a poor fit.39 A low pseudo-R2 value
alone is not sufficient to reject Professor Arcidiacono’s
model of the personal rating. But it is evidence that

39

In linear regression analyses, the R2 value “is a statistic that
measures the percentage of variation in the dependent variable
that is accounted for by all the explanatory variables.” FJC
Reference Manual at 345. For technical reasons not relevant for
our purposes, statisticians cannot calculate R2 statistics for logistic
regression models and instead typically report an analogous
quantity -- the pseudo-R2 value -- as one estimate of a model’s
goodness of fit.

App. 90
important explanatory variables may have been
omitted from it.
Third, this evidence of poor fit properly led the
district court to inquire into what these omitted
variables might be. See id.; FJC Reference Manual at
314 n. 31 (“A very low R-squared (R2) is one indication
of an unexplained portion of the multiple regression
model that is unacceptably high. However, the
inference that one makes from a particular value of R2
will depend, of necessity, on the context of the
particular issues under study and the particular
dataset that is being analyzed.”) It concluded that
Harvard had not discriminated on the basis of race. See
SFFA II, 397 F. Supp. 3d at 171.
Professor Card testified that non-quantifiable
aspects of an applicant’s personal essay could
contribute to the correlation between race and the
personal rating identified by Professor Arcidiacono. He
also presented statistical evidence showing that Asian
American applicants receive lower teacher and
guidance counselor recommendation ratings than white
applicants. Both personal essays and teacher and
guidance counselor recommendations factor heavily
into applicants’ personal ratings, justifying the court’s
inquiry into what could account for any correlation
between these factors and race. If factors external to
Harvard -- like personal essays and recommendations
-- correlate with race, affect the personal rating, but
are not controlled for in Professor Arcidiacono’s model
of the personal rating, this calls into question SFFA’s
contention that race influences (and is not just
correlated with) the personal rating.

App. 91
The district court then analyzed whether these
external factors -- personal essays and teacher and
guidance counselor recommendations -- correlate with
race. Id. at 169. It found that non-quantifiable aspects
of applicants’ personal statements might be correlated
with race but are not controlled for in Professor
Arcidiacono’s model. Id.
For instance, in Harvard’s experience, applicants
do choose to write about how “their racial identities
have shaped their pre-college experiences” and
admissions officers might read these essays40 as
evidence of an applicant’s “abilit[y] to overcome
obstacles” and therefore infer their “leadership ability
or other personal strengths.” Id. at 169-70 & n.48.
Turning to the teacher and guidance counselor
recommendations, the district court opined that they
sometimes “seemingly presented Asian Americans as
having less favorable personal characteristics than
similarly situated non-Asian American applicants” and
detailed why teacher and guidance counselor
recommendation letters might correlate with race for
reasons unrelated to Harvard. Id. at 170-71.

40

Record evidence supported this conclusion. One admissions
officer testified that the ability to overcome obstacles -- including
racial ones -- is a factor in assessing submitted essays and
assigning personal ratings. In addition, a student who had been
admitted to Harvard testified about her application essay
discussing how her “ethnoracial identity had impacted every
decision [she] had made, every experience that [she] had had” and
that she “wanted to write about it because [she] felt like it was
something important and something of value that [she] could bring
to a school like Harvard.”

App. 92
Whether or not the applicant came from a privileged
background was one likely factor. Privileged students
likely have better access to schools with low
student-to-teacher ratios and teachers and guidance
counselors with more time to write strong,
individualized recommendations. See id. at 170.
Privileged students likely receive better
recommendations than less privileged students. See id.
Privilege is correlated with race. One of Harvard’s
amici expands on this point, citing research that Asian
American students are more likely than white students
to attend public high schools where overloaded teachers
and guidance counselors may provide more perfunctory
recommendations. Likewise, the district court reasoned
that a “student that works part time and a student that
does not may receive different recommendations even
with the same academic performance and without
reference to race.” Id. at 170-71. Because working part
time likely correlates with race, it is plausible that race
is also correlated with the quality of
recommendations.41 The finding that teacher and

41

The district court’s reasoning does not itself imply that teachers
and guidance counselors are racially biased and should not be so
understood. Nor does it imply that Harvard must accept such a
characterization. Because race likely correlates with privilege
(resulting in applicants in some racial groups having teachers that
are stretched thinner than applicants in others) or participation in
school-sponsored extracurricular activities (resulting in applicants
in some racial groups having less teacher interaction than
applicants in others), teachers or guidance counselors do not have
to be biased to write more generic or less enthusiastic letters for
applicants based on race. An alternative explanation is that race
correlates with how well teachers or guidance counselors know
their students.

App. 93
guidance counselor recommendations correlate with
race but were not accounted for in Professor
Arcidiacono’s model was not erroneous.42
SFFA also argues that the district court engaged in
speculation with “zero evidentiary basis” by considering
how these omitted variables could be correlated with
race and affect the validity of Professor Arcidiacono’s
model. The argument is based on a misperception of
the requirements for statistical analysis. The district
court credited Professor Card’s testimony and analysis
that the omitted variables discussed above -- the
qualitative components of teacher and guidance
counselor recommendations and personal essays -called Professor Arcidiacono’s analysis of the personal
rating into question. Id. It was not erroneous for the
district court to find that the personal rating was not
influenced by race in a way that precluded its use in a
logistic regression model.
2. The District Court Did Not Err by Crediting
Harvard’s Expert’s Logistic Regression Model
Including the Personal Rating
Because the court did not err in concluding that the
personal rating was not influenced by race, it was not
erroneous to consider a logistic regression model of

42

Contrary to SFFA’s argument, the school support ratings that
Professor Arcidiacono included as control variables in his model do
not account for these biases because they reflect assessments of
teacher and guidance counselor recommendations as a whole. As
Professor Card testified, Professor Arcidiacono cannot control for
the specific portions of recommendation letters that inform the
personal rating specifically and might be correlated with race.

App. 94
Harvard’s admissions process including it. Because all
parties agree that Harvard considers the personal
rating in its admission decisions, it should be included
in any model of Harvard’s admissions process unless
there is a strong reason to exclude it. See FJC
Reference Manual at 313-14. As Professor Card and
Harvard’s admissions officers testified, the personal
rating includes information that is not accounted for
elsewhere in the experts’ models but is important to
Harvard’s admissions process. And since race is
correlated with the personal rating but not influenced
by it, excluding it would increase the risk of misleading
regression results. See FJC Manual at 314 (“Failure to
include a major explanatory variable that is correlated
with the variable of interest in a regression model may
cause an included variable to be credited with an effect
that actually is caused by the excluded variable.”).
Without the personal rating, the model would suffer
from omitted variable bias. The court properly credited
a logistic regression model including the personal
rating.
3. The District Court Did Not Err by Concluding That
the Statistical Evidence Did Not Show That
Harvard Intentionally Discriminated Against Asian
Americans
We repeat that the statistical model using the
personal rating showed no discrimination against
Asian Americans. Rather, it shows that Asian
American identity has a statistically insignificant

App. 95
overall average marginal effect43 on admissions
probability of -.08%. This means that, on average, the
model shows that an Asian American student has a
.08% lower chance of admission to Harvard than a
similarly situated white student and that this effect is
statistically insignificantly different from zero.
SFFA relies on one aspect of the statistical analysis
presented. SFFA’s preferred model without the
personal rating shows a statistically significant overall
average marginal effect of -0.34%. This means that, on
average, the model shows that an Asian American
student has a .34% lower chance of admission to
Harvard than a similarly situated white student and
that this effect is statistically significantly different
from zero. But because the average marginal effect is
calculated using all applicants to Harvard, including
many applicants whom Harvard is unlikely to admit,
this number does not establish that being Asian
American matters for the small subset of applicants

43

The “average marginal effect” of Asian American identity is
computed by first taking every applicant in the sample and
calculating two probabilities using the logistic regression model:
their probability of admission if they were Asian American and
their probability of admission if they were not Asian American.
The difference in the two probabilities is called the marginal effect
of being Asian American for that applicant. The marginal effect of
being Asian American differs for every applicant depending on
other aspects of their application. The average marginal effect is
the average of the marginal effects across all applicants.
The overall average marginal effect uses data from all six
admissions cycles analyzed by the experts. The experts also
analyzed the average marginal effect in each admissions cycle.

App. 96
who have a realistic chance of being admitted to
Harvard.
The statistically significant negative overall average
marginal effect of Asian American identity in SFFA’s
preferred model is also not robust.44 In addition to
disappearing entirely when the personal rating is
included in the model, it is almost undetectable on a
year-by-year basis even within SFFA’s preferred model.
The average marginal effect of Asian American identity
in the model excluding the personal rating is only
statistically significantly negative in one of the six
years analyzed.45 In five of the six admissions cycles,
the effect is statistically indistinguishable from zero.
Indeed, in two years, the model shows that Asian
American identity actually has a positive effect on an
applicant’s chance of admission to Harvard.
Based on this evidence, the district court found that
regardless of whether the personal rating is included or
not, the average marginal effect on Asian American
identity is close to zero. Id. at 175. It found that the
effect of Asian American identity varies by admissions
44

We use the word “robust” in the technical sense. A statistic or
procedure is robust when it “does not change much when data or
assumptions are modified slightly.” FJC Reference Manual at 295;
see also id. at 295, 322 (defining “robust” and explaining that “[t]he
issue of robustness . . . is of vital importance”).
45

For the classes of 2014, 2015, and 2016, Asian American identity
had a negative but statistically insignificant average marginal
effect on admissions chances. For the classes of 2017 and 2019,
Asian American identity had a positive but statistically
insignificant average marginal effect. It is only in 2018 that the
average marginal effect is statistically significantly negative.

App. 97
cycle and is not always negative in each admission
cycle. Id. Indeed, it found that Asian American identity
could be a positive factor if the model “was better able
to account for unobserved factors.” Id. It reasoned that
“[i]t is also possible that the negative coefficient and
average marginal effect reflect a very slight implicit
bias that could have played a modest role in lowering
Asian Americans’ admissions probability in some of the
2014–2019 admissions cycles” but that, if there were
any implicit bias, “the effect was so slight that it went
unnoticed by careful and conscientious observers
within the Admissions Office.” Id.
Finally, SFFA argues that “the district court
recognized that one likely explanation for why Asian
Americans are penalized in the admissions process is
Harvard’s ‘implicit bias’” and that “calling the bias
‘implicit’ does not make it legal.” First, the district
court called this effect “possible,” not likely. Id. Next, as
the court recognized, this possibility was “unsupported
by any direct evidence” before it. Id. at 171. Indeed,
there was ample non-statistical evidence suggesting
that Harvard admissions officers did not engage in any
racial stereotyping, and the court determined that “no
credible evidence . . . corroborates the improper
discrimination suggested” by SFFA’s preferred model.
Id. at 203. The district court’s speculation about what
might have caused a statistically significant effect in
one of the two models it considered does not transform
its finding that there was no “intent by admissions
officers to discriminate based on racial identity” into
clear error. Id. at 175.

App. 98
The district court did not clearly err in finding that
Harvard did not intentionally discriminate against
Asian Americans. See Torres-Lazarini v. United States,
523 F.3d 69, 72 (1st Cir. 2008) (“When the evidence
presented at a bench trial supports plausible but
competing inferences, the court’s decision to favor one
inference is not clearly erroneous.”); see Cape Fear, Inc.
v. Martin, 312 F.3d 496, 500 (1st Cir. 2002).
IV.
Harvard has an “ongoing obligation to engage in
constant deliberation and continued reflection
regarding its admissions policies.” Fisher II, 136 S. Ct.
at 2215. The issue before us is whether Harvard’s
limited use of race in its admissions process in order to
achieve diversity in the period in question is consistent
with the requirements of Supreme Court precedent.
There was no error.
Affirmed. No costs are awarded.

App. 99

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No. 14-cv-14176-ADB
[Filed: September 30, 2019]
__________________________________________
STUDENTS FOR FAIR ADMISSIONS,
)
INC.,
)
)
Plaintiff,
)
)
v.
)
)
PRESIDENT AND FELLOWS OF
)
HARVARD COLLEGE (HARVARD
)
CORPORATION),
)
)
Defendant.
)
__________________________________________)
FINDINGS OF FACT AND
CONCLUSIONS OF LAW

App. 100
Table of Contents
I.

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . 4

II.

PROCEDURAL HISTORY . . . . . . . . . . . . . . . 4

III.

FINDINGS OF FACT: DIVERSITY,
ADMISSIONS PROCESS, AND
LITIGATION . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Diversity at Harvard . . . . . . . . . . . . . . . . . 6
1. Harvard’s Interest in Diversity . . . . . . 6
2. Admissions Office’s Efforts to Obtain
a Diverse Applicant Pool . . . . . . . . . . . 8
B. The Admissions Process. . . . . . . . . . . . . . 11
1. The Application. . . . . . . . . . . . . . . . . . 12
2. Alumni and Staff Interviews . . . . . . . 13
3. Application Review Process . . . . . . . . 16
i.

Admissions Office and Personnel
. . . . . . . . . . . . . . . . . . . . . . . . . 16

ii.

Reading Procedures . . . . . . . . . 18

iii.

Committee Meetings and
Admissions Decisions
. . . . . . . . . . . . . . . . . . . . . . . . . 23

4. Harvard’s Use of Race in Admissions
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
C. Prelude to this Lawsuit . . . . . . . . . . . . . . 31
1. The Unz Article. . . . . . . . . . . . . . . . . . 31

App. 101
2. Analysis by Office of Institutional
Research . . . . . . . . . . . . . . . . . . . . . . . 32
i.

Mark Hansen’s Admissions
Models. . . . . . . . . . . . . . . . . . . . 32

ii.

Low-Income Admissions Models
. . . . . . . . . . . . . . . . . . . . . . . . . 35

3. The Ryan Committee . . . . . . . . . . . . . 38
4. The Khurana Committee . . . . . . . . . . 39
5. The Smith Committee . . . . . . . . . . . . 40
IV.

FINDINGS OF FACT: NON-STATISTICAL
EVIDENCE OF DISCRIMINATION . . . . . . 41
A. Sparse Country. . . . . . . . . . . . . . . . . . . . . 41
B. The OCR Report . . . . . . . . . . . . . . . . . . . . 43
C. More Recent Allegations of Stereotyping
and Bias . . . . . . . . . . . . . . . . . . . . . . . . . . 45

V.

FINDINGS OF FACT: STATISTICAL
ANALYSIS. . . . . . . . . . . . . . . . . . . . . . . . . . . 50
A. Sources of Statistical Evidence . . . . . . . . 50
B. Admission Rates and Ratings by Race . . . . 53
C. Descriptive Statistics . . . . . . . . . . . . . . . . 57
1. Professor Card’s Multidimensionality
Analysis. . . . . . . . . . . . . . . . . . . . . . . . 57
2. Professor Arcidiacono’s Academic
Index Decile Analysis . . . . . . . . . . . . . 60

App. 102
D. Overview of Logistic Regression Models
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62
E. Regression Models of School Support,
Profile, and Overall Ratings . . . . . . . . . . 67
1. Relationship Between Race and School
Support Ratings . . . . . . . . . . . . . . . . . 67
2. Relationship Between Race and
Personal Ratings. . . . . . . . . . . . . . . . . 68
3. Regression Models of the Academic,
Extracurricular, and Overall Ratings
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
F. Regression Models of Admissions
Outcome . . . . . . . . . . . . . . . . . . . . . . . . . . 74
G. Absence of Statistical Support for Racial
Balancing or Quotas. . . . . . . . . . . . . . . . . 80
VI.

FINDINGS OF FACT: RACE-NEUTRAL
ALTERNATIVES. . . . . . . . . . . . . . . . . . . . . . 83
A. Eliminating Early Action. . . . . . . . . . . . . 85
B. ALDC Tips . . . . . . . . . . . . . . . . . . . . . . . . 86
C. Augmenting Recruiting Efforts and
Financial Aid . . . . . . . . . . . . . . . . . . . . . . 87
D. Increasing Diversity by Admitting More
Transfer Students . . . . . . . . . . . . . . . . . . 88
E. Eliminating Standardized Testing . . . . . 88
F. Place-Based Quotas . . . . . . . . . . . . . . . . . 89

App. 103
G. SFFA’s Proposed Combinations of Various
Race-Neutral Alternatives. . . . . . . . . . . . 90
VII.

CONCLUSIONS OF LAW . . . . . . . . . . . . . . 92
A. Overview. . . . . . . . . . . . . . . . . . . . . . . . . . 92
B. SFFA Has Standing . . . . . . . . . . . . . . . . . 93
C. The Supreme Court and Race-Conscious
Admissions . . . . . . . . . . . . . . . . . . . . . . . . 94
D. Harvard’s Admission Program and Strict
Scrutiny . . . . . . . . . . . . . . . . . . . . . . . . . 102
1. Compelling Interest . . . . . . . . . . . . . 106
2. Narrowly Tailored. . . . . . . . . . . . . . . 107
E. Count II: Harvard Does Not Engage in
Racial Balancing . . . . . . . . . . . . . . . . . . 112
F. Count III: Harvard Uses Race as a
Non-Mechanical Plus Factor . . . . . . . . . 116
G. Count V: No Adequate, Workable, and
Sufficient Fully Race-Neutral
Alternatives Are Available . . . . . . . . . . 119
H. Count I: Harvard Does Not Intentionally
Discriminate . . . . . . . . . . . . . . . . . . . . . . 122

VIII. CONCLUSION . . . . . . . . . . . . . . . . . . . . . . 127

App. 104
BURROUGHS, D.J.
I.

INTRODUCTION

Plaintiff Students for Fair Admissions, Inc.
(“SFFA”) alleges that Defendant President and Fellows
of Harvard College (“Harvard”) discriminates against
Asian American applicants in the undergraduate
admissions process to Harvard College in violation of
Title VI of the Civil Rights Act of 1964, 42 U.S.C.
§§ 2000d et seq. (“Title VI”).1 Harvard acknowledges
that its undergraduate admissions process considers
race as one factor among many, but claims that its use
of race is consistent with applicable law.
II.

PROCEDURAL HISTORY

On November 17, 2014, SFFA initiated this lawsuit
by filing a complaint that alleged that Harvard violates
Title VI by intentionally discriminating against Asian
Americans (“Count I”), using racial balancing (“Count
II”), failing to use race merely as a “plus” factor in
admissions decisions (“Court III”), failing to use race
merely to fill the last “few places” in the incoming
1

There is considerable variation in the terminology individuals use
to describe their racial and ethnic identities. This opinion uses the
terms Hispanic, African American, Asian American, and white to
describe the four racial or ethnic identities that account for the
majority of applicants to Harvard because those are the terms the
parties have used in litigating this case. The term Asian American,
as opposed to Asian, is used because SFFA alleges that Harvard
discriminates against United States citizens who identify as Asian
American. Where “Asian” alone is used, this generally reflects the
language used by others in their own analyses which are referred
to herein and may include Asian applicants who would not identify
as Asian American.

App. 105
freshman class (“Count IV”), using race where there
are available and workable race-neutral alternatives
(“Count V”), and using race as a factor in admissions
(“Count VI”). [ECF No. 1 ¶¶ 428–505]. SFFA seeks
declaratory judgment, injunctive relief, attorneys’ fees,
and costs. Id. at 119. On February 18, 2015, Harvard
filed its answer, in which it denied any liability. See
[ECF No. 17]. On April 29, 2015, several prospective
and then-current Harvard students filed a motion to
intervene. [ECF No. 30]. Although the Court denied the
motion to intervene, it allowed the students to
participate in the action as amici curiae (friends of the
court). Students for Fair Admissions, Inc. v. President
& Fellows of Harvard Coll., 308 F.R.D. 39, 51–53 (D.
Mass.), ECF No. 52, aff’d, 807 F.3d 472 (1st Cir. 2015).
On September 23, 2016, Harvard moved (1) to
dismiss the lawsuit for lack of standing and (2) for
judgment on the pleadings as to Counts IV and VI.
[ECF Nos. 185, 187]. On June 2, 2017, the Court found
that SFFA had the associational standing required to
pursue this litigation, because it was an organization
whose membership included Asian Americans who had
applied to Harvard, been denied admission, and were
prepared to apply to transfer to Harvard. Students for
Fair Admissions, Inc. v. President & Fellows of
Harvard Coll. (Harvard Corp.), 261 F. Supp. 3d 99, 111
(D. Mass. 2017), ECF No. 324. On the same date, the
Court granted Harvard’s motion for judgment on the
pleadings and dismissed Counts IV and VI, namely the
failure to use race only to fill the last few places in the
incoming freshman class and the use of race as a factor
in admissions. Students for Fair Admissions, Inc. v.
President & Fellows of Harvard Coll. (Harvard Corp.),

App. 106
No. 14-CV-14176-ADB, 2017 WL 2407254, at *1 (D.
Mass. June 2, 2017), ECF No. 325.2
Following the conclusion of discovery, on June 15,
2018, the parties filed cross motions for summary
judgment on the four remaining counts, [ECF Nos. 412,
417], which the Court denied on September 28, 2018.
Students for Fair Admissions, Inc. v. President &
Fellows of Harvard Coll., 346 F. Supp. 3d 174, 180 (D.
Mass. 2018), ECF No. 566. The case proceeded to trial
on Counts I (intentional discrimination), II (racial
balancing), III (failure to use race merely as a “plus”
factor), and V (race-neutral alternatives), and from
October 15 through November 2, 2018, the Court heard
testimony from eighteen current and former Harvard
employees, four expert witnesses, and eight current or
former Harvard College students who testified as amici
curiae. On February 13, 2019, following the parties’
submissions of proposed findings of fact and
conclusions of law and responses to each other’s
respective submissions, see [ECF Nos. 619, 620], the
Court heard final closing arguments.
The Court now makes the following findings of fact
and conclusions of law in accordance with Federal Rule
of Civil Procedure 52(a).

2

Although discovery ended on May 1, 2018, [ECF Nos. 363, 364],
the Court ordered supplemental document productions during trial
when it became apparent that Harvard had modified its
admissions procedures to provide admissions officers with more
explicit guidance on the use of race despite seemingly
contradictory testimony by various witnesses. See [ECF No. 645 at
7:20–19:24].

App. 107
III.

FINDINGS OF
ADMISSIONS
LITIGATION

FACT:
DIVERSITY,
PROCESS,
AND

A. Diversity at Harvard
1. Harvard’s Interest in Diversity
It is somewhat axiomatic at this point that diversity
of all sorts, including racial diversity, is an important
aspect of education. See Brown v. Bd. of Educ., 347
U.S. 483 (1954).3 The evidence at trial was clear that a

3

On October 30, 2018, the Court heard testimony from Dr. Ruth
Simmons, the current President of Prairie View A&M University.
President Simmons was born in a sharecropper’s shack on a
plantation in Grapeland, Texas. She attended primary and
secondary school in a completely segregated environment in
Houston, and then Dillard University, an African American
institution supported by the Methodist Church in New Orleans.
President Simmons was selected to spend her junior year of college
at Wellesley, where she studied alongside white students in the
United States for the first time. After graduating from Dillard
University, President Simmons traveled to France, where she
studied as a Fulbright Scholar. She then returned to the United
States and earned a Ph.D. from Harvard’s Department of Romance
Languages and Literatures. President Simmons held positions at
Princeton University, Spelman College, and Smith College before
becoming President of Brown University. She retired from Brown
University after eleven years and returned to Texas, where she
worked on nonprofit projects in the Houston area before being
persuaded to come out of retirement to serve as the president of
Prairie View A&M. President Simmons offered expert testimony
on Harvard’s interest in diversity. Her testimony and her life
story, perhaps the most cogent and compelling testimony
presented at this trial, demonstrate the extraordinary benefits
that diversity in education can achieve, for students and
institutions alike. See [Oct. 30 Tr. 6:11–70:23].

App. 108
heterogeneous student body promotes a more robust
academic environment with a greater depth and
breadth of learning, encourages learning outside the
classroom, and creates a richer sense of community.
See [Oct. 19 Tr. 185:23–187:24; Oct. 23 Tr. 24:13-20,
31:2–34:11, 59:8–14; Oct. 30 Tr. 27:20–28:8]. The
benefits of a diverse student body are also likely to be
reflected by the accomplishments of graduates and
improved faculty scholarship following exposure to
varying perspectives. See [Oct. 30 Tr. 28:9–30:11].
Harvard College’s mission, as articulated in its
mission statement, is “to educate the citizens and
citizen-leaders for our society” and it seeks to
accomplish this “through . . . the transformative power
of a liberal arts and sciences education.” [DX109 at 1].4
In aid of realizing its mission, Harvard values and
pursues many kinds of diversity within its classes,
including different academic interests, belief systems,
political views, geographic origins, family
circumstances, and racial identities. See [Oct. 17 Tr.
182:17–183:7; Oct. 23 Tr. 24:13–20]. This interest in
diversity and the wide-ranging benefits of diversity
were echoed by all of the Harvard admissions officers,
faculty, students, and alumni that testified at trial.
SFFA does not contest the importance of diversity in
education, but argues that Harvard’s emphasis on
racial diversity is too narrow and that the full benefits
of diversity can be better achieved by placing more
emphasis on economic diversity. See [ECF No. 620
¶¶ 216, 231].

4

“DX” refers to an exhibit offered by Harvard.

App. 109
Consistent with Harvard’s view of the benefits of
diversity in and out of the classroom, Harvard tries to
create opportunities for interactions between students
from different backgrounds and with different
experiences to stimulate both academic and
non-academic learning. [Oct. 23 Tr. 39:3–17; Oct. 30 Tr.
25:11–26:6, 27:20–28:8]. As examples, student living
assignments, the available extracurricular
opportunities, and Harvard’s athletic programs are all
intended to promote a sense of community and
encourage exposure to diverse individuals and
viewpoints. [Oct. 23 Tr. 39:18–41:23].
Harvard has evaluated and affirmed its interest in
diversity on multiple occasions. See [Oct. 17 Tr.
182:4–14]; see, e.g., [PX302; DX26; DX53].5 Most
recently, in 2015, Harvard established the Committee
to Study the Importance of Student Body Diversity,
which was chaired by Dean Rakesh Khurana6 (the
“Khurana Committee”). [Oct. 23 Tr. 34:12–22]. The
Khurana Committee reached the credible and
well-reasoned conclusion that the benefits of diversity
at Harvard are “real and profound.” [PX302 at 17]. It
endorsed Harvard’s efforts to enroll a diverse student
body to “enhance[ ] the education of [its] students of all
races and backgrounds [to] prepare[ ] them to assume
leadership roles in the increasingly pluralistic society

5

6

“PX” refers to an exhibit offered by SFFA.

Dean of Harvard College Rakesh Khurana attended
SUNY-Binghamton and Cornell University for his undergraduate
studies. He received a Ph.D. in organizational behavior from
Harvard University. [Oct. 22 Tr. 192:17–193:11].

App. 110
into which they will graduate,” achieve the “benefits
that flow from [its] students’ exposure to people of
different backgrounds, races, and life experiences” by
teaching students to engage across differences through
immersion in a diverse community, and broaden the
perspectives of teachers, to expand the reach of the
curriculum and the range of scholarly interests. [PX302
at 1–2, 6]; see also [Oct. 23 Tr. 37:14–38:17]. The
Khurana Committee “emphatically embrace[d] and
reaffirm[ed] the University’s long-held view that
student body diversity – including racial diversity – is
essential to [its] pedagogical objectives and
institutional mission.” [PX302 at 22].
2. Admissions Office’s Efforts to Obtain a
Diverse Applicant Pool
Harvard’s Office of Admissions and Financial Aid
(the “Admissions Office”) is tasked with deciding which
students to accept to the College and which to reject or
waitlist. [Oct. 15 Tr. 64:1–70:8]. Deciding which
applicants to admit is challenging given the overall
talent and size of the applicant pool. For example,
there were approximately 35,000 applications for
admission to the class of 2019. [Oct. 17 Tr. 184:2–4].
Harvard, targeting a class size of roughly 1,600
students, admitted only about 2,000 of those
applicants, based on its expectation that approximately
80% of admitted students would matriculate. [Id. at
184:22–185:11]. 7 Among the applicants for that class,
approximately 2,700 had a perfect verbal SAT score,

7

Harvard admitted 5.8% of applicants to its class of 2017 and 5.7%
to its class of 2018. [Oct. 15 Tr. 157:21–25].

App. 111
3,400 had a perfect math SAT score, and more than
8,000 had perfect GPAs. [Id. at 184:14–21]. Clearly,
given the size and strength of its applicant pool,
Harvard cannot admit every applicant with exceptional
academic credentials. To admit every applicant with a
perfect GPA, Harvard would need to expand its class
size by approximately 400% and then reject every
applicant with an imperfect GPA without regard to
their athletic, extracurricular, and other academic
achievements, or their life experiences. Because
academic excellence is necessary but not alone
sufficient for admission to Harvard College, the
Admissions Office seeks to attract applicants who are
exceptional across multiple dimensions or who
demonstrate a truly unusual potential for scholarship
through more than just standardized test scores or
high school grades. [Id. at 181:12–183:7].
To help attract exceptionally strong and diverse
annual applicant pools, Harvard engages in extensive
and multifaceted outreach efforts. Each year, roughly
100,000 students make it onto Harvard’s “search list”
through data, including test scores, that the college
purchases from ACT8 which administers the ACT, and
the College Board, which administers the PSAT and
the SAT. [Oct. 15 Tr. 130:2–131:1; Oct. 17 Tr.
146:2–16]. High school students who make the search
list receive a letter that encourages them to consider
Harvard and may also receive follow-up
communications. See [Oct. 15 Tr. 131:5–134:16; Oct. 17
Tr. 146:3–12; PX55]. Harvard also uses the search list
8

The American College Testing Company changed its name to
ACT in the 1990s.

App. 112
to target students as part of its extensive in-person
recruiting efforts, which includes Harvard admissions
officers travelling to over 100 locations across the
United States to speak with potential applicants and
encourage them to consider Harvard. [Oct. 15 Tr.
131:13–20; Oct. 17 Tr. 146:7–12, 179:8–21]. The search
list is also sent to Harvard’s “schools committee,” which
is comprised of more than 10,000 alumni who help
recruit and interview applicants and help persuade
admitted students to attend Harvard. [Oct. 15 Tr.
131:21–132:7].
In addition to recruiting students based largely on
test scores, Harvard places particular emphasis on
communicating with potential low-income and minority
applicants whose academic potential might not be fully
reflected in their scores. Since the 1970s, Harvard has
recruited minority students, including Asian
Americans, through its Undergraduate Minority
Recruitment Program (“UMRP”). [Oct. 24 Tr.
95:15–21]. The UMRP writes letters, calls, and sends
current Harvard undergraduates to their hometowns to
speak with prospective applicants. [Id. at 95:12–102:3].
The program, led by a full-time director and an
assistant director, employs between two and ten
Harvard students for most of the year, with twenty-five
to thirty students working for the program during its
peak season. [Id. at 201:1–204:22].
Despite these efforts, African American and
Hispanic applicants remain a relatively modest portion
of Harvard’s applicant pool, together accounting for
only about 20% of domestic applicants to Harvard each
year, even though those groups make up slightly more

App. 113
than 30% of the population of the United States. See
[PX623; DX713]; U.S. Census Bureau, QuickFacts,
Census.gov, https://www.census.gov/quickfacts/fact/tab
le/US/RHI225218. In contrast, Asian American high
school students have accounted for approximately 22%
of total applicants in recent years, although Asian
Americans make up less than 6% of the national
population. See [DX713]; U.S. Census Bureau,
QuickFacts, Census.gov, https://www.census.gov/quick
facts/fact/table/US/RHI225218.
Harvard’s recruiting efforts also target low-income
and first-generation college students irrespective of
racial identity through a recruiting program that
operates in conjunction with the Harvard Financial Aid
Initiative (“HFAI”). Harvard’s financial aid program
guarantees full funding of a Harvard education for
students from families earning $65,000 or less per year
and also caps contributions at 10% of income for
families making up to $150,000 per year. [Oct. 24 Tr.
102:10–104:19; PX316 at 6]. Harvard, through the
HFAI recruitment program, employs students who
return to their hometowns and visit high schools to talk
about the affordability of Harvard and other colleges
with need-blind admissions programs. [Oct. 24 Tr.
144:1–22]. Today, more than half of Harvard students
receive need-based aid. [Id. at 150:3–6].
B. The Admissions Process
Several Harvard admissions officers testified
generally about reviewing application files as well as
about their review of specific files. The Court credits
this testimony. They each described a time-consuming,
whole-person review process where every applicant is

App. 114
evaluated as a unique individual. See, e.g., [Oct. 17 Tr.
205:6–223:10; Oct. 24 Tr. 174:19–175:23]; see also
[DD1].9 Admissions officers attempt to make collective
judgments about each applicant’s personality,
intellectual curiosity, character, intelligence,
perspective, and skillset and to evaluate each
applicant’s accomplishments in the context of his or her
personal and socioeconomic circumstances, all with the
aim of making admissions decisions based on a more
complete understanding of an applicant’s potential
than can be achieved by relying solely on objective
criteria. [Oct. 16 Tr. 16:15–22; Oct. 17 Tr.
182:17–183:7, 209:16–223:10]; see, e.g., [Oct. 18 Tr.
22:9–48:4; DX293].
1. The Application
Students apply to Harvard either through the early
action program or the regular decision program.10 All
applications are reviewed in the same way regardless
of whether a student has applied for early action or

9

“DD” refers to demonstrative evidence presented by Harvard.

10

Harvard eliminated its early action program for the classes of
2012 through 2015, in part to improve the socioeconomic diversity
of its students. [PX316 at 15]; see [DX728]. Eliminating early
action, however, did not have the expected effect on class diversity,
and Harvard’s peer institutions largely continued with their early
action and early decision programs. [PX316 at 15]. Harvard
became concerned that it was losing some of the most competitive
applicants to other colleges that offered early decision or early
action and decided to reverse course and reinstate its early action
program for the class of 2016. [Oct. 17 Tr. 163:9–164:1; Oct. 18 Tr.
89:13–91:19; Oct. 22 Tr. 100:6–101:15, 185:2–186:8; Oct. 23 Tr.
158:14–160:19; DX39 at 4].

App. 115
regular decision. [Oct. 18 Tr. 15:5–10]; see [PX1]. The
Admissions Office may accept, reject, or waitlist
applicants, or, in the case of early action applicants,
defer them into the regular decision applicant pool.
[Oct. 18 Tr. 124:14–125:9]. Students who apply for
early action are admitted at a higher rate than regular
decision applicants. [Oct. 25 Tr. 242:19–243:17].
Students apply to Harvard by submitting the
Common Application or the Universal College
Application. [Oct. 17 Tr. 186:1–10; Nov. 1 Tr.
27:13–19]. A complete application generally includes
standardized test scores, high school transcript(s),
information about extracurricular and athletic
activities, intended concentration and career, a
personal statement, supplemental essays, teacher and
guidance counselor recommendations, and other
information about the applicant, including high school
and personal and family background, such as place of
birth, citizenship, disciplinary or criminal history, race,
siblings’ names and educations, and parents’ education,
occupation, and marital status. See, e.g., [DX195,
DX262, DX276, DX293, DX527, SA1, SA2, SA3, SA4].11
Applicants can also supplement their applications with
samples of their academic or artistic work, which may
be reviewed and evaluated by Harvard faculty. [Oct. 17
Tr. 189:5–14; Oct. 18 Tr. 31:21–32:13]; see, e.g., [DX276
at 41; DX293 at 42]. Applicants may, but are not
required to, identify their race in their application by
discussing their racial or ethnic identity in their
personal statement or essays or by checking the box on
the application form for one or more preset racial
11

“SA” refers to evidence offered by student amici.

App. 116
groups (e.g. American Indian or Alaskan Native, Asian,
Black or African American, Native Hawaiian or Other
Pacific Islander, or White) and may also select or
indicate a subcategory of these groups. See [Oct. 18 Tr.
52:8–14; Oct. 26 Tr. 98:2–6; SA2 at 4; SA3 at 8].12 If
applicants disclose their racial identities, Harvard may
take race into account, regardless of whether
applicants write about that aspect of their backgrounds
or otherwise indicate that it is an important component
of who they are. [Oct. 26 Tr. 91:17– 92:1].
2. Alumni and Staff Interviews
Most applicants interview with a Harvard alumnus.
[Oct. 15 Tr. 128:2–6]. Harvard selects alumni to
interview candidates based predominantly on
geographic considerations. Alumni interviewers are
provided with an Interviewer Handbook that describes
the admissions process. [Id. at 127:9–128:1]; see [DX5].
Although interviewers have broad discretion in
deciding where to conduct the interview, what
information to request in advance, and what to ask,
Harvard specifies several questions that alumni
interviewers should not ask and also instructs alumni
not to advise applicants on their chances of admission,
given that “this analysis can only be accomplished with
full access to all the material in an applicant’s file and
12

Harvard could elect not to receive information about applicants’
race for all applicants or some racial subgroups. In fact, Harvard
no longer receives information about applicants’ religious
affiliation, [Oct. 19 Tr. 186:7–187:18], although it does continue to
receive some information about applicants’ religions and beliefs
from applicants who choose to write about their religious identities
in their essays or their personal statements, [id. at 246:25–247:17].

App. 117
through the extensive discussions shared and
comparisons made through the Committee process.”
[DX5 at 30–34]. Alumni interviews generally last from
45 minutes to an hour. [Oct. 17 Tr. 218:25–219:9].
Alumni interviewers do not have all of the
information that is available to admissions officers at
the time of admissions decisions, but their evaluations
can be uniquely helpful to admissions officers, as
alumni interviews are often an applicant’s sole
in-person interaction with a Harvard representative.
[Id. at 219:17–220:10]. 13 Alumni interviewers complete
an evaluation form that requests numerical ratings for
applicants in academic, personal, and overall categories
that align with the rating categories later used by
Harvard admissions officers. See [PX88 at 50–52].14
Alumni interviewers also score applicants in a single
category that captures extracurricular and athletic
activities, community involvement, employment, and
family commitments, while admissions officers score
applicants in separate extracurricular and athletic
categories. See [PX88 at 51; SA1 at 29]; see also infra

13

Alumni interviewers may ask students about their standardized
test scores, interests, and high schools, but alumni generally do not
have access to teacher recommendations, counselor reports, and
transcripts, all of which are critical to admissions officers’
evaluation of applicants. [Oct. 17 Tr. 218:25–219:9].
14

Alumni ratings for applicants’ personal and overall qualities
may be reprinted by admissions officers on the summary sheets
that sit at the front of application files. See [Oct. 17 Tr. 219:10–13;
DD1 at 15]; e.g. [DX276 at 1]. Some applicants are scored by
admissions officers before alumni ratings are available. See [Oct.
24 Tr. 119:7–25].

App. 118
Section III.B.3. Ratings generally fall between 1 and 4,
with 1 being the strongest. The ratings criteria used by
alumni (i.e. when to rate applicants 1, 2, 3, 4, or worse
for the various rating categories) roughly correspond to
the criteria used by the admissions officers. Compare
[PX1 at 5–7], with [PX88 at 50–52].
Beyond providing numerical ratings, alumni
interviewers write comments explaining their ratings
on the interview evaluation form, which is then placed
in the applicant’s file. See, e.g., [SA1 at 29]. Although
the Interviewer Handbook contains a section on
distinguishing excellences including “ethnic . . .
factors,” alumni interviewers are not explicitly told to
boost the ratings they assign to applicants based on
race or ethnicity. [DX5 at 11]. Alumni interviewers are,
however, told to “[b]e aware of, and suspect, your own
biases” and that awareness of one’s biases is important
because “no one can really be ‘objective’ in attempting
to evaluate another person . . . .” [Id. at 35].
In addition to alumni interviews, which are offered
to most applicants, a small percentage of applicants
interview with an Admissions Office staff member.
[Oct. 19 Tr. 177:14–19]. Although some staff interviews
are offered on a first come, first served basis, many
applicants secure staff interviews because they are
well-connected or particularly attractive candidates, or
because they are from a part of the country where an
alumni interview may be unavailable. [Oct. 17 Tr.
219:14–220:12; Oct. 19 Tr. 175:8–181:14]. Students who
have staff interviews tend to be among the strongest
applicants and are admitted at a comparatively high

App. 119
rate. See [Oct. 19 Tr. 178:24–182:18]. 15 Asian American
applicants are less likely to have a staff interview than
white, African American, or Hispanic applicants.
[PX619]. Among applicants who receive a staff
interview, 59% of African Americans, 48% of Hispanics,
53% of whites and 44% of Asian Americans are
admitted. [Id.]. The lower admission rate for
staff-interviewed Asian Americans is driven primarily
by the fact that Asian American applicants are less
likely than African American and Hispanic applicants,
and far less likely than white applicants, to be
recruited Athletes, Legacies, on the Dean’s or Director’s
interest list, or Children of faculty and staff (“ALDCs”),
all of whom are advantaged in Harvard’s admissions
process. See [id.].16
3. Application Review Process
i. Admissions Office and Personnel
The Admissions Office is tasked with deciding
which applicants to admit and which to reject or
waitlist. See [Oct. 19 Tr. 160:1–11]. Dean of Admissions

15

Less than 3% of all applicants, but more than 20% of recruited
athletes, legacies, applicants on the dean’s or director’s interest
lists, and children of faculty or staff (“ALDCs”) receive a staff
interview. [PX619]. Approximately 52% of all applicants and 79%
of ALDC applicants who receive staff interviews are admitted.
[Id.].
16

ALDCs are disproportionately white, with 8% of white
applicants being ALDCs compared to 2.7% of African American,
2.2% of Hispanic, and 2% of Asian American applicants. [PX619].

App. 120
and Financial Aid William Fitzsimmons,17 Admissions
Director Marlyn McGrath,18 and Financial Aid Director
Sally Donahue19 oversee the Admissions Office, which
has approximately seventy employees, including the
forty admissions officers who read applicant files and
directly participate in the process of deciding which
applicants to admit (the “Admissions Committee”).
[Oct. 17 Tr. 180:3–13; Oct. 19 Tr. 232:18–20]. Harvard’s
admissions staff is a diverse group of individuals that
includes Asian Americans. [Oct. 18 Tr. 20:22–21:2].
Several admissions officers testified at trial and
forcefully denied the suggestion that racial animus or
conscious prejudice against Asian Americans infect
Harvard’s admissions process. See, e.g., [Oct. 24 Tr.
175:11–17]. Consistent with this, the Court finds no
persuasive documentary evidence of any racial animus
or conscious prejudice against Asian Americans.

17

Dean Fitzsimmons began working in the Admissions Office in
1972 as an Assistant Director of Admissions. He later served as
Director of Admissions and worked for the Harvard Fund, before
becoming Dean of the Admissions Office in 1986. [Oct. 15 Tr.
123:6–124:13].
18

Director McGrath received a Ph.D. in 1978 and became a
Residential Dean at Harvard the same year. She also worked in
academic planning for the Faculty of Arts and Sciences at
Harvard, before becoming the Director of Admissions in 1987. [Oct.
19 Tr. 156:6–157:8].
19

Director Donahue recently retired from her leadership role but
continues to assist the Admissions Office, including by reading
applications. [Oct. 19 Tr. 242:11–17]. Director Donahue did not
testify at trial.

App. 121
There is significant turnover in the Admissions
Office, which frequently hires relatively young
admissions officers who leave to pursue other
opportunities after a few years. [Oct. 19 Tr.
233:4–240:3]; see [DX25 at 117–20]. New admissions
officers go through an orientation process that includes
training on evaluating applicants and how to consider
race. [Oct. 18 Tr. 187:13–188:18; Oct. 19 Tr.
43:18–44:2; Oct. 24 Tr. 139:7–24, 222:12–223:14]. The
training utilizes a casebook that contains lightly edited
application files from past years, and new admissions
officers are guided on how to evaluate and score
applicants based on those files. See [Oct. 19 Tr.
257:2–20]. The first fifty or one hundred application
files reviewed by a new admissions officer are also
reviewed by a more senior admissions officer who gives
feedback to the less-experienced colleague as part of
the training process. See [Oct. 16 Tr. 13:16–20; Oct. 24
Tr. 139:18–22]. The Admissions Office holds an annual
retreat that sometimes includes professional
development sessions on evaluating applicants, and
admissions officers receive an annual training from
Harvard’s general counsel that covers the permissible
use of race in the admissions process. [Oct. 19 Tr.
45:12–47:10]. The Admissions Office has not
historically provided new admissions officers with any
written guidance on how to consider race in the
admissions process, although Harvard amended its
admissions reading procedures in 2018 for the class of
2023 to explicitly instruct admissions officers that they
“should not take an applicant’s race or ethnicity into
account in making any of the ratings other than the
Overall rating” and that for the overall rating “[t]he
consideration of race or ethnicity may be considered

App. 122
only as one factor among many.” [PX723 at 3 (emphasis
omitted)]; see [Oct. 16 Tr. 19:12–17].
ii. Reading Procedures
Applications are divided into geographic dockets
based on high school location. [Oct. 16 Tr. 8:2–20; DX5
at 16]. A subcommittee of the full Admissions
Committee is responsible for the initial evaluation of
applications within each docket. [DX5 at 16–17].
Docket subcommittees generally include a senior
admissions officer who serves as docket chair and three
to six additional admissions officers. [Id. at 17]. Each
subcommittee member is responsible for reading all
applications from a subset of the docket’s high schools.
[Oct. 17 Tr. 204:6–205:5]. Because the same reader and
subcommittee review all applicants from the same high
school, admissions officers develop a familiarity with
their respective high schools’ grading practices,
academic rigor, and recommendation styles, all of
which help them to fairly and consistently evaluate
applicants, both from particular high schools and
across high schools within their docket. [Id.]; see [Oct.
24 Tr. 110:17–111:17].
Applications are initially reviewed by an admissions
officer or “first reader” who assigns the applicant
ratings based on reading procedures that are updated
on an annual basis. See [PX1; DX5 at 17]. Except for
the recent changes to the reading procedures to provide
more explicit guidance on the use of race, the
substantive guidance on rating applicants has
remained largely the same in recent years. [Nov. 1 Tr.
123:19–124:21, 128:19–129:10, 168:16–172:25]; see
[PX720; PX721; PX722; PX723; DX742; DX743;

App. 123
DX744]. First readers, and any subsequent readers,
assign an overall rating; four profile ratings:
(1) academic, (2) extracurricular, (3) athletic, and
(4) personal; and at least three school support ratings
that reflect the strength of each teacher and guidance
counselor recommendation submitted on behalf of an
applicant. [Oct. 17 Tr. 206:14–209:8, 217:15–218:3].
Application readers may also rate the strength of any
additional recommendations submitted by an
applicant. [Id. at 218:4–10]. The ratings generally
range from 1 to 4, with 1 being the strongest rating.
[Oct. 16 Tr. 10:19–11:17; Oct. 17 Tr. 207:13–16].
Ratings of 5 and 6 are also available and indicate
either weakness or special circumstances, for example
where family responsibilities prevent the applicant
from participating in extracurricular activities. [Oct. 16
Tr. 10:21–11:1; PX1 at 5–7]. Admissions officers may
also use “+” (stronger) and “–” (weaker) signs to fine
tune a rating, with a rating of 2+ being stronger than
a rating of 2, which is stronger than a rating of 2–.
[Oct. 16 Tr. 11:11–17]; see [Oct. 18 Tr. 31:2–8]. Each of
the profile ratings assigned by the first reader and any
subsequent readers are preliminary and used as a
starting point for any later consideration of the
applicant by a docket subcommittee or the full
Admissions Committee. [Oct. 17 Tr. 221:6–19].
The academic rating reflects the applicant’s
academic strength and potential based on grades,
standardized test scores, letters of recommendation,
academic prizes, any submitted academic work, and the
strength of the applicant’s high school. See [id. at
209:16–210:14; Oct. 19 Tr. 55:4–9; Oct. 24 Tr.
113:5–12]. An academic rating of 1 indicates summa

App. 124
cum laude potential, a genuine scholar, and
near-perfect scores and grades (in most cases)
combined with unusual creativity and possible evidence
of original scholarship; an academic rating of 2
indicates magna cum laude potential, superb grades,
and mid- to high-700 SAT scores or a score above 33 on
the ACT; an academic rating of 3 indicates cum laude
potential, excellent grades, and mid-600 to low-700
SAT scores or an ACT score of 29 to 32; and an
academic 4 indicates adequate preparation, respectable
grades, and low- to mid-600 SAT scores or an ACT
score of 26 to 29. [PX1 at 5–6].
The extracurricular rating is an assessment of an
applicant’s involvement in activities during high school
and his or her potential to contribute to the
extracurricular student life at Harvard. [Oct. 17 Tr.
212:4–213:1]. It may also account for family or personal
circumstances that have limited the applicant’s
participation in extracurricular activities. [Id. at
207:13–23]. An extracurricular rating of 1 indicates
national-level, professional or other truly unusual
achievement that suggests an applicant may be a major
contributor at Harvard; an extracurricular rating of 2
indicates strong contributions to an applicant’s high
school in one or more areas, such as being class
president or achieving recognition for extracurricular
accomplishments on a local or regional level; an
extracurricular rating of 3 indicates solid participation
but without special distinction; and an extracurricular
rating of 4 indicates little or no participation. [PX1 at
6].

App. 125
An athletic rating of 1 indicates that an applicant is
a recruited athlete, an athletic rating of 2 indicates
strong high school contribution and possibly leadership
roles in athletics, an athletic rating of 3 indicates active
participation, and an athletic rating of 4 indicates little
or no participation in athletics. [Id.].
The personal rating reflects the admissions officer’s
assessment of what kind of contribution the applicant
would make to the Harvard community based on their
personal qualities. [Oct. 17 Tr. 213:22–216:1; Oct. 18
Tr. 39:1–25]. Although the reading procedures have not
historically provided detailed guidance on what
qualities should be considered in assigning a personal
rating, relevant qualities might include integrity,
helpfulness, courage, kindness, fortitude, empathy,
self-confidence, leadership ability, maturity, or grit. See
[Oct. 17 Tr. 213:22–214:19; Oct. 19 Tr. 227:6–228:2;
Oct. 24 Tr. 117:4–24]. For the application cycles that
were the subject of the statistical analysis performed in
this case, the reading procedures specified that a
personal rating of 1 meant “outstanding,” 2 meant
“very strong,” 3 meant “generally positive,” and 4
meant “bland or somewhat negative or immature.”
[PX1 at 6; PX71 at 6]. The personal rating criteria,
perhaps in response to this lawsuit, were overhauled
for the class of 2023, and the reading procedures now
explicitly state that “an applicant’s race or ethnicity
should not be considered in assigning the personal
rating” and encourage admissions officers to consider
“qualities of character” such as “courage in the face of
seemingly insurmountable obstacles,” “leadership,”
“maturity,” “genuineness, selflessness[,] humility,”

App. 126
“resiliency,” “judgment,” “citizenship,” and “spirit and
camaraderie with peers.” [PX723 at 5].
The overall rating reflects the admissions officer’s
impression of the strength of the application, taking
account of all information available at the time the
rating is assigned. [Oct. 18 Tr. 186:12–15; Oct. 19 Tr.
49:3–15; PX1 at 5]. An overall rating of 1 is exceptional
and a clear admit, an overall 2 reflects strong
credentials, an overall 3 indicates good credentials, and
an overall 4 indicates respectable credentials. [PX1 at
5; DX744 at 3].20 Admissions officers are permitted to
take an applicant’s race into account when assigning
the overall rating. [Oct. 17 Tr. 221:3–5].
Applicants are also assigned school support ratings
that indicate the strength of their teacher and guidance
counselor recommendations. [Oct. 17 Tr. 217:15–
218:10; Oct. 18 Tr. 204:3–22]. A school support rating
of 1 indicates strikingly unusual support, a 2 indicates
very strong support, a 3 indicates above average
positive support, and a 4 indicates somewhat neutral or
slightly negative support. [PX1 at 7]. Teacher and
guidance counsel recommendations may inform the
profile ratings, for example if a teacher discusses a
student’s academic or extracurricular commitments,
but the school support ratings are distinct from the
profile ratings and do not impact the profile ratings in
a formulaic manner. See [Oct. 31 Tr. 36:10–37:16].

20

The summaries here reflect the Class of 2018 reading
procedures. Although the ratings guidelines are routinely revised,
the guidelines and reading procedures for the classes of 2014
through 2019 do not differ in material respects.

App. 127
Harvard also considers whether applicants will offer
a diverse perspective or are exceptional in ways that do
not lend themselves to quantifiable metrics. Harvard
may give applicants a “tip” for “distinguishing
excellences,” such as capacity for leadership, creative
ability, and geographic, economic, and racial or ethnic
factors. See [Oct. 17 Tr. 191:8–200:20; DX5 at 9–11].
The Admissions Committee gives some applicants large
tips for non-academic reasons where an individual’s
talents or background suggests that admitting them
will be especially beneficial to the Harvard community.
See [DX5 at 11]. ALDCs are the four most notable
groups of applicants, other than racial minorities, who
receive such tips. [Oct. 17 Tr. 12:10–14:23,
198:22–201:17; Oct. 18 Tr. 48:14–21; Oct. 23 Tr.
204:10–16; PX104; PX106; PX111]. Recruited athletes
receive a tip in the admissions process because they are
being recruited by one of Harvard’s varsity sports
teams and are presumably exceptionally talented, but
legacy applicants, those on the dean’s or director’s
interest lists, and children of faculty and staff obtain
an admissions tip that is primarily or exclusively a
product of family circumstances. Harvard’s objective in
giving tips to applicants based on criteria other than
individual merit, such as to legacies and the children of
its faculty and staff, is to promote the institution and
is unrelated to the racial composition of those applicant
groups. [Oct. 17 Tr. 198:22–200:11].
When reviewing an application, “first readers”
generally begin with the application summary sheet,
which is a two to three page document that is
prepopulated with much of the key information about
an applicant, including the applicant’s high school,

App. 128
citizenship, test scores, GPA, class rank, and race. E.g.
[DX195 at 2]. The summary sheet also contains blank
spaces for ratings and notes, to be filled in by the first
reader and a potential second reader. [Oct. 18 Tr.
22:18–23:3]; e.g. [DX195 at 2–4]. After reviewing an
application file, the first reader rates the strength of
the teacher and guidance counselor letters of
recommendation, assigns the academic,
extracurricular, athletic, personal, and overall ratings
to the applicant, and writes any notes about the
applicant. [Oct. 17 Tr. 206:24–207:12]. The reader then
sends the application to the docket chair if it merits
further review, at which point the docket chair will
review the file, record his or her own ratings of the
applicant based on the same criteria, and add written
comments. See [Oct. 19 Tr. 250:12–251:2]; e.g. [DX195
at 2–3]. Even if the first reader does not pass an
application on for further review, the application and
the first reader’s scoring remain available to all
admissions officers and may be discussed later in the
admissions process. [Oct. 18 Tr. 12:1–13, 16:7–17:5].
Although docket chairs are frequently the “second
reader,” other admissions officers may also serve as a
second reader as circumstances require, for example
when the first reader is new to the Admissions Office.
[Oct. 17 Tr. 206:1–13].

App. 129
iii.

Committee
Meet i ng s
Admissions Decisions

and

After the application files for the early action or
regular decision cycle have been reviewed by the early
readers, the docket subcommittees meet as a group to
collectively evaluate the applications in their dockets
and come up with a list of recommended admits for the
full Admissions Committee. [Id. at 204:10–12; Oct. 18
Tr. 12:14–13:5]. The subcommittees consider early
admission applicants in November and meet again to
consider regular decision applicants in late January or
February. See [DX41]. First readers act as the advocate
for the applicants whose applications they initially
reviewed. [Oct. 16 Tr. 8:7–9:2; Oct. 17 Tr. 204:10–12].
Subcommittees generally go through their docket of
applications high school by high school, with the first
readers for each high school presenting the applicants
they view as legitimate contenders for admission. [Oct.
18 Tr. 9:20–10:7]. All applications on a subcommittee’s
docket, including those that the first readers view as
legitimate contenders and those that they do not intend
to present to the subcommittee, are included in a
binder which helps the subcommittee members
compare and contrast applicants. [Id. at 108:8–11:25].
In some subcommittee meetings, summary information
about the applicant under discussion, including race, is
projected on a screen so that it can be easily viewed by
all subcommittee members during the discussion of
that applicant. [Oct. 24 Tr. 191:23–192:24]. The
subcommittees make recommendations on applicants,
including to admit, waitlist, and reject, and may also
place applications on hold to await additional
information or defer an early decision applicant to the

App. 130
regular admissions pool. [Oct. 18 Tr. 12:14–13:5].
Subcommittees may take race into account in making
these initial recommendations. [Oct. 24 Tr. 128:12–25].
The initial recommendations are not final, and the
application review process is fluid. It is common for
some applicants who are not initially recommended for
admission by a subcommittee to be admitted, and for
some applicants who are initially recommended for
admission to be waitlisted or rejected, especially where
more information about an applicant becomes available
later in the admissions process. [Oct. 18 Tr. 13:6–15].
As the process progresses and after the
subcommittees decide more definitively which
applicants to recommend for admission, the full
Admissions Committee, comprised of all forty
admissions officers who read applications, meets to
collectively decide which applicants to admit. [Id. at
13:18–21]. Additionally, there is a standing committee,
which includes faculty members, that assists the
Admissions Office in its review and evaluation of
applications, and those faculty members are also
invited to attend the full Admissions Committee
meetings. [Id. at 13:19–14:8]. The full committee meets
in late November and early December to discuss early
action applicants and in March to consider regular
decision applicants. [Id. at 14:9–11; DX41].
Almost all applicants who are recommended for
admission by the subcommittees are discussed by the
full committee. [Oct. 18 Tr. 15:17–19]. Additionally,
every admissions officer has access to every application
file and may call the full committee’s attention to
applicants who have not been recommended by a

App. 131
subcommittee. [Id. at 12:1–13, 16:7–9]. Applications are
projected on a screen while the full committee
discusses the applicant, and the full application file is
available to committee members electronically. [Id. at
17:6–11]. At the time of the full committee meeting,
there is often more information available to the full
committee than was available to the application’s
earlier readers and the applicable subcommittee
because additional high school grades, alumni
interview evaluations, and other information
frequently becomes available later in the admissions
process. [Id. at 17:12–20]. The full Admissions
Committee makes decisions by in-person majority
votes. [Id. at 17:21–18:2].
In making admissions decisions, Harvard’s goal is
to admit the best freshman class for Harvard College,
not merely a class composed of the strongest applicants
based solely on academic qualifications. [DX5 at 9–10].
Although the reading procedures reflect the traits that
Harvard looks for in applicants, Harvard does not
decide which applicants to admit based on any formula.
See [Oct. 17 Tr. 221:20–223:6]. As the Interviewer
Handbook describes:
The Admissions Committee values objective
criteria, but holds a more expansive view of
excellence. Test scores and grades indicate
students’ academic aptitude and achievement.
The Committee also scrutinizes applications for
extracurricular distinction and personal
qualities. Students’ intellectual imagination,
strength of character, and their ability to
exercise good judgment—these are other, critical

App. 132
factors in the admissions process, and they are
revealed not by test scores but by students’
activity outside the classroom, the testimony of
teachers and guidance counselors, and by
alumni/ae interview reports. Seeking evidence of
these three criteria—academic excellence,
extracurricular distinction, and personal
qualities—the Committee reads with care all the
components of each applicant’s file: the high
school transcript, standardized test scores,
extracurricular activities, personal statement,
teacher and secondary school recommendations,
and the personal interview report.
Attempts to define and to identify precise
elements of character, and to determine how
much weight they should be given in the
admissions process, require discretion and
judiciousness. But the Committee believes that
the “best” freshman class is more likely to result
if we bring evaluation of character and
personality into decisions than if we do not. We
believe that a diversity of backgrounds,
academic interests, extracurricular talents, and
career goals among students who live and learn
together affects the quality of education as much
as a great faculty or vast material resources.
[DX5 at 10].
The Admissions Office sets a target number of
students to admit based on the roughly 1,600 spots
available each year and the expected matriculation or
yield rate for admitted applicants. See [Oct. 15 Tr.
160:18–161:5]. After the full committee completes its

App. 133
review of all applicants recommended for admission,
Harvard often needs to remove some students from the
admit list to reach its target number of admitted
students. [Oct. 23 Tr. 191:1–4]. When it becomes
necessary to reduce the list of prospective “admits”, the
Admissions Committee uses a “lop process” in the
closing days of the full committee meetings that
involves discussing candidates again and then
“lopping” some from the admit list. [Oct. 24 Tr.
130:22–131:10; Nov. 1 Tr. 244:3–245:15]. 21 In aid of
this, a potential lop list is prepared that may contain
the HFAI status, athletic rating, legacy status, gender,
and race of the applicants whom the committee is
expected to consider lopping. [Oct. 24 Tr. 131:16–24].
Dean Fitzsimmons then informs the Admissions
Committee of the characteristics of the admitted class,
which may include racial composition, and the
committee decides, as a group, which students to lop off
the admit list based on many factors, which may
include race. See [id. at 196:1–200:16].
After the Admissions Committee concludes the full
committee meetings, applicants are notified whether
they have been admitted, wait-listed, or rejected, or in
the case of early action students, whether they have
been deferred into the regular decision process. See
[Oct. 18 Tr. 124:16–125:9]. Additionally, some
applicants may be offered deferred admission or
“z-listed,” meaning they are offered a spot in the class

21

Some subcommittees engage in a similar lop process, as they
select students to be recommended to the full committee for
admission. [Oct. 24 Tr. 130:22–131:6].

App. 134
following the class year for which they applied. [Oct.
19 Tr. 167:25–168:23].
Application Review Process [DD1 at 4].

App. 135
4. Harvard’s Use of Race in Admissions
Throughout the admissions process, the Admissions
Office leadership tracks the racial composition of the
applicant pool, the students recommended for
admission to the full committee, and the students
admitted by the full committee. The composition of
applicants and admitted students helps the Admissions
Office see how well its efforts to achieve a diverse class
are working by showing, for example, whether Harvard
is seeing increases in applications from students with
the backgrounds that it has placed a special emphasis
on recruiting, and whether minority students have
been admitted in numbers that will likely lead to a
racially diverse entering class. See [Oct. 18 Tr.
81:20–82:18].
To do this tracking, Dean Fitzsimmons, Director
McGrath, and a few other admissions officers receive
“one-pagers” that provide a snapshot of the projected
class and compare it to the prior year. [Id. at 80:2–5;
Oct. 23 Tr. 178:21–179:10]. The one-pagers contain
statistics on applications and admission rates by
gender, geography, academic interest, legacy status,
financial aid circumstances, citizenship status, racial
or ethnic group, and on recruited athlete status and
applicants flagged as disadvantaged. [Oct. 18 Tr. at
77:5–78:2]; e.g. [PX165 at 2]. The racial breakdown
shown on the one-pagers is provided based on three
methodologies, the “old methodology,” the “new
methodology,” and the federal government’s
“Integrated Postsecondary Educational Data System”
(“IPEDS”), [Oct. 18 Tr. 78:3–13]; e.g. [PX165 at 3], with

App. 136
the Admissions Office preferring the
methodology.22 [Oct. 18 Tr. 81:6–19, 85:5–7].

new

Dean Fitzsimmons shares the breakdown of the
admitted class as reflected on the one-pagers with the
full committee from time to time. [Id. at 80:6–18; Oct.
19 Tr. 195:21–196:16]. For example, at the start of the
full Admissions Committee meetings, he usually states
how many students are being recommended for
admission by the subcommittees and how the
breakdown of the class compares to the prior year in
terms of racial identities and other demographics. [Oct.
24 Tr. 83:7–16; Oct. 26 Tr. 104:22–106:14]. The
leadership of the Admissions Office monitors the
breakdown of the class as the full committee meetings
progress and through the lop process. See [Oct. 23 Tr.
181:4–23]. Although there are no quotas for
subcategories of admitted students, if at some point in
the admissions process it appears that a group is
notably underrepresented or has suffered a dramatic
drop off relative to the prior year, the Admissions
Committee may decide to give additional attention to

22

The new methodology better reflects the racial diversity that
results from students who identify with multiple racial groups
than the IPEDS methodology. [Oct. 18 Tr. 83:17–84:9]. Harvard
has found the IPEDS methodology less reflective of the actual
diversity of its class because, for example, it classifies all
applicants who identify as Hispanic as only Hispanic irrespective
of other racial groups they may also identify with. [Id. at
84:10–24]. This avoids double counting but results in the
underreporting of the representation of minority racial and ethnic
groups because many students identify with two or more racial
groups. [Id. at 84:10–85:7].

App. 137
applications from students within that group. [Oct. 19
Tr. 198:23–200:10]. 23
In addition to giving the Admissions Office some
perspective on whether it is admitting a diverse class,
the collective racial composition of applicants and
admitted students helps Harvard better forecast its
overall yield rate because different racial groups
historically accept offers to attend Harvard at differing
rates. [Oct. 15 Tr. 160:18–162:7]. As examples,
admitted Asian American students usually matriculate
at a higher rate than white students, while admitted
Hispanic, African American, Native American, and
multiracial applicants matriculate at a lower rate. [Oct.
18 Tr. 80:21–81:5]; see [PX324]. Because of these
variations in yield rates by racial group, Harvard uses
the racial makeup of admitted students to help
determine how many students it should admit overall
to avoid overfilling or underfilling its class. See [Oct. 15
Tr. 162:1–15].
In addition to monitoring the likely racial makeup
of the admitted class, admissions officers use race in
evaluating applicants and assigning an overall rating.
[Oct. 17 Tr. 221:3–5; Oct. 18 Tr. 49:20–50:3,
186:16–25]. Although race may act as a tip or plus
factor when making admissions decisions, it is only
ever one factor among many used to evaluate an
applicant. [Oct. 18 Tr. 49:10–16, 167:2–169:24]; see

23

Harvard also shares statistics on admissions by race with the
Association of Black Admission and Financial Aid Officers at the
Ivy League and Sister Schools to learn about the practices of other
schools. [Oct. 24 Tr. 83:17–85:17].

App. 138
[DX5 at 11]. Race is only intentionally considered as a
positive attribute. [Oct. 16 Tr. 22:18–23:4; Oct. 18 Tr.
197:5–11]; see [Oct. 30 Tr. 80:1–23].
Admissions officers are not supposed to, and do not
intentionally, take a student’s race directly into
account when assigning ratings other than the overall
rating, but Harvard’s reading procedures did not
instruct readers not to consider race in assigning those
ratings until 2018, when Harvard amended the reading
procedures for the class of 2023 to provide more explicit
guidance on the appropriate use and non-use of race.
See [Oct. 18 Tr. 49:20–50:3; Oct. 19 Tr. 252:21–253:13;
Oct. 24 Tr. 121:21–122:4, 140:6–25; Nov. 1 Tr.
124:3–125:11; PX723 at 1, 3]. Further, some admissions
officers may take an applicant’s race into account
indirectly, for example when an applicant’s race has
influenced other personal qualities that the admissions
officer believes will add to the Harvard community.
[Oct. 19 Tr. 48:11–49:1; Oct. 24 Tr. 138:1–10].
No admission officer who testified perceived
Harvard to be engaged in discrimination against Asian
Americans. For example, Senior Admission Officer
Charlene Kim24 was asked what her reaction was to the
allegation that Harvard discriminated against Asian
Americans. She responded:

24

Ms. Kim is a senior admissions officer, the assistant director of
financial aid, and the director of Harvard’s first-generation
program. She graduated from the University of California at
Berkeley and received a master’s degree from New York
University. She began working in the Admissions Office in 2008.
[Oct. 24 Tr. 125:12–25, 141:18–142:1].

App. 139
I think now just concern. It’s not what I know
our office to be. It’s not who I am. . . . I would
never be part of a process that would
discriminate against anybody, let alone people
that looked like me, like my family, like my
friends, like my daughter. And so I’m actually
really grateful to be able to be here to share my
little bit of my experience on the admissions
committee . . . . I’m not here to say that it’s
perfect, but I know that we don’t discriminate
against anyone.
[Oct. 24 Tr. 175:11–22].
To summarize the use of race in the admissions
process, Harvard does not have a quota for students
from any racial group, but it tracks how each class is
shaping up relative to previous years with an eye
towards achieving a level of racial diversity that will
provide its students with the richest possible
experience. It monitors the racial distribution of
admitted students in part to ensure that it is admitting
a racially diverse class that will not be overenrolled
based on historic matriculation rates which vary by
racial group. Although racial identity may be
considered by admissions officers when they are
assigning an applicant’s overall rating, including when
an applicant discloses their race but does not otherwise
discuss it in their application, race has no specified
value in the admissions process and is never viewed as
a negative attribute. Admissions officers are not
supposed to, and do not intentionally, consider race in
assigning ratings other than the overall rating.

App. 140
C. Prelude to this Lawsuit
1. The Unz Article
This lawsuit followed magazine and news articles
that raised the specter of Asian American students
being penalized in college admissions based on their
racial identity. Harvard’s response to that controversy
demonstrates Harvard’s concern about the perception
that its admissions process was racially biased but also
the complexity of the statistical evidence upon which
the allegations here are based.
On or about November 28, 2012, Ron Unz, a
Harvard alumnus, published an article titled “The
Myth of American Meritocracy” in The American
Conservative (the “Unz Article”).
[PX218]. Unz
asserted that elite universities were biased against
Asian Americans and employed “de facto Asian quotas”
as evidenced by a gap between Asian American
representation among America’s most academically
accomplished high school students and their
comparatively low representation at elite colleges. [Id.
at 9]. The Unz Article, which itself included language
that suggested certain unsavory biases,25 did not
attract much attention until approximately one month
later when David Brooks of the New York Times
25

The article relies in part on data based on perceptions about the
proportion of national merit scholarship semifinalists from
California whose “names seem to be Jewish.” [PX218 at 12].
Although the Court recognizes that this article might have
interested some sociologists, it was not unreasonable for some
Harvard admissions officials to view the article as “profoundly
anti-Semitic” and, as a result, to view it as less than serious
scholarship. [Oct. 17 Tr. 158:2–159:10].

App. 141
published an article that promoted the Unz Article as
one of the best magazine articles of the year and
argued that stagnant Asian American representation
at Harvard between 1995 and 2011 smelled like a
quota system. See [Oct. 17 Tr. 24:19–25:17]. The two
articles together and their allegations of racial bias
sparked concern among Harvard’s leadership and some
of its alumni, who encouraged Harvard to respond to
the allegations. See [id. at 25:8–37:25; PX227; PX238].
2. Analysis by
Research

Office

of

Institutional

i. Mark Hansen’s Admissions Models
Following the 2012 Christmas and 2013 New Year’s
holidays, Dean Fitzsimmons attempted to develop a
response to the Unz Article, including soliciting input
from Harvard’s Office of Institutional Research (“OIR”).
[Oct. 17 Tr. 37:14–38:16; Oct. 23 Tr. 208:13–209:21;
PX230; PX236; PX238].26 As part of OIR’s initial
evaluation of the statistical evidence, research analyst

26

OIR is a university-wide office that provides statistical analysis
in response to requests from across Harvard University and
sometimes on its own initiative when it anticipates a need for such
work. During the relevant time period, the office typically had
approximately 30 ongoing projects and received numerous
additional ad hoc requests each year. [Oct. 19 Tr. 126:5–23]. OIR’s
objective was and remains to offer accurate, timely, and digestible
research that is tailored to diverse audiences with the goal of
promoting informed decision-making and furthering the core
missions of the university. [Oct. 18 Tr. 210:9–14; PX465].

App. 142
Mark Hansen27 prepared four rough logistic regression
models, using data on applicants and admission
outcomes for the classes of 2007 through 2016, to
project Harvard’s admitted classes using a limited set
of variables, including applicants’ race. [Oct. 24 Tr.
14:5–24]; see [PX12 at 32–35].28 His most expansive

27

Mr. Hansen studied mathematics at Boston University before
obtaining a master’s degree from Harvard’s Graduate School of
Education. He was hired as a management fellow by OIR in the
summer of 2010 and was promoted to research analyst in 2011. He
left OIR in the summer of 2013 to work for MIT’s Office of
Institutional Research. [Oct. 24 Tr. 10:19–11:25].
28

At trial, SFFA emphasized a 17-page draft presentation, replete
with blank spaces and typographical errors, that Mr. Hansen
prepared in February 2013 but did not circulate to others. See
[PX9]. In this draft presentation, Mr. Hansen summarized his
findings as follows:
•
•
•

•

Athletes and Legacies explain the difference in raw admit
rates for Asian and White applicants.
Asian applicants have higher average ratings and test
scores (excluding the personal rating).
Differences exist in the raw admit rates of Asian and
White students with similar test scores and academic
indices. Even top scores and ratings don’t guarantee
admission.
Personal rating is important in models of the admissions
process and drive some of the demographic differences we
see.

[Id. at 2]. Much of the information in the draft presentation,
including the above summary, was never shared with the
Admissions Office. See [PX12]. Further, it does not appear that
anyone affiliated with Harvard other than Mr. Hansen, saw the
draft report prior to this litigation. [Oct. 19 Tr. 111:14–22; Oct. 24
Tr. 50:9–14].

App. 143
model used applicants’ academic index,29 academic
rating, legacy and recruited athlete status, personal
rating, extracurricular rating, gender, and race as
inputs to predict the admitted class. See [PX12 at 33].
The classes projected by this model had racial
demographics that approximated the actual class based
on the probability of admission assigned to applicants
by the model. See [id. at 34–35]. Mr. Hansen’s less
complete models, which did not include variables for
racial identities, projected admitted classes with far
more Asian students than Harvard’s actual admitted
classes, suggesting either that racial tips resulted in
fewer Asian students being admitted or that factors
correlated with Asian identity that were not included
in Mr. Hansen’s models were significantly affecting
which applicants Harvard chose to admit. See [id. at
33–34].
Mr. Hansen’s models could lead a casual observer to
conclude that race plays a significantly larger role in
Harvard’s admissions process than it actually does. The
models incorporate far fewer variables than those
prepared by the parties’ economic experts for this
litigation and omit many variables that are important
to the admissions process. Compare [PX12 at 33], with
[PD38 at 26].30 Even Mr. Hansen’s most complete
model almost certainly suffers from considerable
omitted variable bias in light of the likely correlation

29

The academic index is a metric that provides an indication of
overall strength by taking account of standardized test scores and
high school grades. [Oct. 16 Tr. 84:9–23].
30

“PD” refers to demonstrative evidence presented by SFFA.

App. 144
between race and important variables that Mr. Hansen
did not include. Most notably, his models contain no
controls for socioeconomic and family circumstances
that correlate with race and also affect admissions
decisions. See [PX12 at 33]. Given these deficiencies in
the models, they are entitled to little weight for the
purpose of determining whether Harvard discriminates
against Asian American applicants, particularly given
the availability of the experts’ far more comprehensive
models and the testimony offered by fact witnesses in
this case. See [Oct. 19 Tr. 19:19–20:8]. Mr. Hansen’s
models do suggest, consistent with other evidence, that
Asian Americans applicants excel in academic metrics;
that tips for legacies and recruited athletes result in
more white students being admitted; that a projection
of Harvard’s class based only on the profile ratings,
academic metrics, and athlete and legacy statuses is
incomplete and results in a projected class that is
vastly less racially diverse than the one Harvard
achieves; and that, absent any consideration of race,
Harvard’s classes would have drastically fewer African
American and Hispanic students. See [PX12 at
33–34].31
A limited selection of slides depicting Mr. Hansen’s
logistic regression models were included in a February
25, 2013, presentation for Dean Fitzsimmons that
focused on and included much more information on the
reintroduction of Harvard’s early action program and
an analysis of issues related to the accessibility and
31

The Court notes that Mr. Hansen’s models suggest that any
increase in Asian American admits would come largely at the
expense of African Americans and Hispanics.

App. 145
affordability of a Harvard education. [Oct. 17 Tr.
83:24–84:16; PX12 at 32–37]. The slides on Mr.
Hansen’s models that were shared with Dean
Fitzsimmons included a statement that they were
“preliminary and for discussion,” and they were not
presented or understood as evidence of discrimination.
See [Oct. 17 Tr. 83:24–84:16; PX12 at 32–36]. Dean
Fitzsimmons concluded that Mr. Hansen’s models were
incomplete, and he elected not to discuss those slides or
the information they contained with Harvard’s
leadership at that time. [Oct. 17 Tr. 84:3–85:1]. More
than a year later, Mr. Hansen’s models were shared
with Dean Khurana, shortly after he became the dean,
in advance of a “high-level meet-and-greet type
meeting” that was intended to generally familiarize
Dean Khurana with OIR’s work. [Oct. 23 Tr. 44:3–8,
45:6–10, 46:12–17]; see [PX41 at 50]. Dean Khurana
also found Mr. Hansen’s models incomplete and viewed
them as a puzzling approach to understanding
Harvard’s admissions process. [Oct. 23 Tr. 47:4–49:18].
ii. Low-Income Admissions Models
Following the February 2013 meeting with OIR,
Dean Fitzsimmons requested that Dr. Erin
Driver-Linn32 and Ms. Erica Bever33 further analyze
the effect of low-income status, which Dean
32

During the relevant period, OIR was led by Dr. Driver-Linn, who
holds a Ph.D. in social psychology from Harvard. [Oct. 19 Tr.
69:9–70:7].
33

Ms. Bever joined OIR in 2007 and transitioned to the
Admissions Office where she now serves as a senior admissions
officer and the director of research. [Oct. 18 Tr. 200:7–201:1].

App. 146
Fitzsimmons hoped and expected would confirm that
Harvard was providing a tip to low-income applicants.
[Oct. 17 Tr. 172:22–173:21]. This analysis was intended
to respond, at least in part, to criticism that elite
colleges, like Harvard, were not doing enough to attract
low-income students. See [PX26 at 2]. On May 1, 2013,
Ms. Bever, Dr. Driver-Linn, and Mr. Hansen sent Dean
Fitzsimmons a summary of their initial findings in a
memorandum titled “Harvard College Admissions and
Low Income Students.” [Id.]. Their analysis found that
Harvard students from lower income backgrounds
generally have lower SAT scores but that they are
admitted at higher rates when controlling for their SAT
scores. [Id. at 2–3, 6–7].
After reviewing the distribution of SAT scores by
family income, OIR’s memorandum discussed the need
to model the admissions process to better evaluate
whether the Admissions Office was providing a tip to
low-income students, given that the relationship
between income and admission, controlling only for
SAT scores, could have been the result of a relationship
between income and other factors, such as race. [PX26
at 3–4]; see [PX28 at 4 (indicating that applicants with
family incomes of less than $60,000 accounted for 25%
of Hispanic, 24% of African American, 18% of Asian
American, and 10% of white applicants)]. As OIR’s
memo to Dean Fitzsimmons summarized:
The differences [in students’ SAT scores by
income] could be related to other factors
important in the admissions process. In order to
control for those potential issues, we implement
a logistic regression model to predict the

App. 147
probability of admission, controlling for
demographic characteristics and a variety of
metrics used to asses qualification for admission.
Demographic characteristics include gender and
race/ethnicity. Qualifications used in admission
include academic index, academic rating,
extracurricular rating, personal rating, athletic
rating, and legacy status.
This approach has several limitations; we picked
a small set of variables that would factor in
admissions decisions. The selection of a wider
set of variables might result in a better fitting
model, one that accounts for more of the
variation in individual applicants and their
potentially unique contributions to the entering
class. For example, the model does not capture
exceptional talent in art or music explicitly
(although ratings may capture some aspect of
these attributes). In addition, our model is
limited to main effects, not examining
interactions between variables. Our analysis
should not be considered exhaustive.
[PX26 at 3]. To the extent that OIR’s initial analysis
suggested that Harvard was providing an admissions
tip to applicants from low-income backgrounds, that tip
appeared less significant than tips for legacies and
recruited athletes. See [id. at 8–9]. OIR explained that:
To get a sense of the size of the admissions
advantage conferred to low-income applicants
relative to other groups of applicants, the
so-called “thumb on the scale,” we include
low-income status in a second logistic regression

App. 148
model. . . . The variables with the largest effects
on the probability of admission are athletic
rating, personal rating, and legacy status.
Compared to athletes and legacies, the size of
the advantage for low income students is
relatively small.
[Id. at 3].
The memorandum also noted that “Asian applicants
with an academic 1 or 2 are admitted 12% of the time
compared against an admit rate of 18% for non-Asian
applicants” and provided a chart illustrating this
disparity. [Id. at 4, 9]. Further, the memo stated that
certain “issues” should be considered before sharing the
analysis publicly, including that there are
“demographic groups that have negative effects,”
although the only demographic group for which OIR’s
analysis returned a negative coefficient was “Asian.”
[Id. at 4]. Although the model returned a negative
coefficient for Asian applicants, neither OIR nor Dean
Fitzsimmons viewed the report as indicative of
discrimination. [Oct. 17 Tr. 109:15–19; Oct. 19 Tr.
152:22–153:15].
After receiving the May 1, 2013 memorandum,
Dean Fitzsimmons asked OIR to examine the effect of
Asian racial identity on admissions outcomes to
confirm that the low-income tip was being fairly and
consistently applied to all groups, but he did not ask
OIR to further examine the effect of being Asian on
admissions outcomes across the board. [Oct. 17 Tr.
127:22–128:12, 129:13–17]. OIR added an interaction
term for Asian and Low Income which allowed the
model to return coefficients that accounted for the

App. 149
possibility that the tip for low income varied by race.
See [PX28 at 7–8]. On June 3, 2013, OIR shared with
Dean Fitzsimmons its additional analysis, [Oct. 17 Tr.
129:13–130:13], which showed a coefficient for the
interaction term of “Asian and Low Income” that was
positive and statistically significant but of a lesser
magnitude than the negative coefficient for Asian
identity, see [PX28 at 7; PX29]. This updated analysis
suggested that although low-income Asian American
applicants were provided a tip relative to their higher
income Asian American peers, the magnitude of that
tip might not overcome the negative relationship
between Asian racial identity and admissions outcome,
when holding constant some variation in the profile
ratings, gender, and applicants’ academic index. [Id. at
7]; see also [DD10 at 27]. Nevertheless, the data
reassured Dean Fitzsimmons that the Admissions
Office was “treating Asian Americans in an
evenhanded manner.” [Oct. 17 Tr. 134:3–11]. As with
Mr. Hansen’s February 2013 models, OIR’s May 2013
models suffer from significant omitted variable bias,
and the magnitude of the negative coefficient for Asian
applicants is relatively modest considering the number
and significance of omitted observable and
unobservable factors. See [PX28 at 7]. As a result, the
OIR analysis is weak evidence of bias against Asian
American applicants, particularly relative to the more
thorough econometric analysis that has been done by
the parties’ economic experts in connection with this
litigation.
Dean Fitzsimmons’ non-inference of actual
discrimination based on the relatively modest negative
Asian coefficient was reasonable given the limitations

App. 150
of OIR’s model and his own experience with and
confidence in the Admissions Office’s process. Dean
Fitzsimmons did not ask for additional analysis based
on OIR’s results, nor did he make any changes to
Harvard’s admissions process in response to that
analysis, because his review of the data did not lead
him to believe that the Admissions Office was biased
against Asian American applicants. [Oct. 17 Tr.
137:11–17, 138:7–24].
3. The Ryan Committee
In April 2014, Harvard learned of a website that
had launched with the url harvardnotfair.com.
Harvard’s staff recognized that the website was being
promoted by some of the same individuals who had
financed Fisher v. University of Texas at Austin, 570
U.S. 297 (2013) (“Fisher I”), and 136 S. Ct. 2198 (2016)
(“Fisher II”). [Oct. 23 Tr. 211:7–15]; see [PX283].
Apparently in response to the prospect of litigation,
Harvard University formed a committee to examine
race-neutral alternatives to its race-conscious
admissions practices (the “Ryan Committee”). See [Oct.
22 Tr. 13:14–19, 129:13–130:17]. The Ryan Committee,
chaired by Jim Ryan, the Dean of the Graduate School
of Education, included more than two dozen members
from across the university. [Oct. 16 Tr. 69:3–7; Oct. 22
Tr. 13:20–14:2]; see [PX300; PD19]. The committee’s
work never really got “off the ground,” owing at least in
part to its broad membership and the conflicting
scheduling demands of many committee members.
[Oct. 16 Tr. 69:10–70:15; Oct. 19 Tr. 76:8–77:10]. After
meeting only a few times, it disbanded in December
2014, shortly after this lawsuit was filed. [Oct. 16 Tr.

App. 151
70:2–6; PX316 at 2]; see [ECF No. 1]. No substantive
analysis of any race-neutral alternatives examined by
the Ryan Committee was entered into evidence. See
[Oct. 19 Tr. 77:14–24 (“I believe the team did some
work, under privilege. . . . Under direction of
counsel.”)].
4. The Khurana Committee
In 2015, following the filing of this lawsuit and the
disbandment of the Ryan Committee, Harvard
established the Khurana Committee, officially titled
“the Committee to Study the Importance of Student
Body Diversity,” which was chaired by Dean
Khurana.34 [Oct. 22 Tr. 210:23–211:21; PX302 at 22].
The Khurana Committee “sought to examine and
restate the benefits that the College derives – as an
institution, and for its students and faculty – from
student body diversity of all kinds, including racial
diversity.” [PX302 at 1]. The Khurana Committee’s
report, referenced supra at Part III.A, was prepared
with the assistance of counsel and in the face of
litigation, but nonetheless reflects an extensive and
thoughtful examination of the benefits of diversity to

34

In addition to Dean Khurana, the members of the Committee to
Study the Importance of Student Body Diversity included
Mahzarin R. Banaji, the Richard Clarke Cabot Professor of Social
Ethics; Emma Dench, the McLean Professor of Ancient and
Modern History and of the Classics; Yukio Lippit, the Harris K.
Weston Associate Professor of the Humanities; David R. Pilbeam,
the Henry Ford II Professor of Human Evolution; and, Jonathan
L. Walton, the Plummer Professor of Christian Morals and Pusey
Minister of the Memorial Church. [Oct. 23 Tr. 35:14–18; PX302 at
22].

App. 152
Harvard College. [Oct. 22 Tr. 211:10–212:11]. The
committee concluded its report by stating:
We emphatically embrace and reaffirm the
University’s long-held view that student body
diversity – including racial diversity – is
essential to our pedagogical objectives and
institutional mission. It enhances the education
of all of our students, it prepares them to
assume leadership roles in the increasingly
pluralistic society into which they will graduate,
and it is fundamental to the effective education
of the men and women of Harvard College.
[PX302 at 22]. In February 2016, Harvard’s Faculty of
Arts and Sciences voted unanimously to adopt the
report. [Nov. 1 Tr. 198:19–24]. Although the Khurana
Committee was keenly aware that it was addressing a
question that “the Supreme Court has asked public
institutions of higher education to answer in connection
with the consideration of an applicant’s race in the
admissions processes as one factor among many in an
individualized review,” its focus was limited to
Harvard’s interest in diversity, rather than the
viability of race-neutral alternatives. See [PX302 at 1].
5. The Smith Committee
In June 2017, Harvard established the “Committee
to Study Race Neutral Alternatives in Harvard College
Admissions,” chaired by Michael Smith, the Dean of
the Faculty of Arts and Sciences, with Dean
Fitzsimmons and Dean Khurana serving as the other
committee members (the “Smith Committee”). [PX316
at 1, 3]. The Smith Committee evaluated whether race-

App. 153
neutral means, singly or in combination, would enable
Harvard to achieve its diversity-related educational
objectives. [Id. at 8–9]. Prior to 2017, Harvard had
repeatedly expressed the importance of its
race-conscious admissions policy and its understanding
that diversity across multiple dimensions was critical.
See generally [id.]. Harvard had not, however,
conducted a detailed empirical analysis of the viability
of race-neutral alternatives for at least fifteen years.
See [Oct. 16 Tr. 66:21–67:6; Oct. 19 Tr. 194:3–195:3].
The Smith Committee worked with Harvard’s
attorneys and had access to the analyses done by the
experts in this case. [PX316 at 3]. The committee held
seven meetings between August 2017 and April 2018
and then issued a report that was drafted by Harvard’s
attorneys. [Oct. 23 Tr. 65:20–66:4; PX316 at 1, 3]. It
examined all of the race-neutral alternatives proposed
by SFFA, and additionally considered eliminating
preferences for athletes and the use of test scores in the
admissions process. See [PX316 at 6–18]. The Smith
Committee concluded that no workable race-neutral
admissions practices could, at that time, promote
Harvard’s diversity-related educational objectives
while also maintaining the standards of excellence that
Harvard seeks in its student body through its
whole-person, race-conscious admissions program, and
recommended that Harvard reexamine the issue in five
years. [Oct. 22 Tr. 133:21–134:15; Oct. 23 Tr.
126:25–127:6, 134:15–19; PX316 at 18–19].

App. 154
IV.

FINDINGS OF FACT: NON-STATISTICAL
EVIDENCE OF DISCRIMINATION

As will be more fully discussed, the parties rely
heavily on statistical evidence related to the
admissions process. Additionally, to corroborate its
statistical evidence, SFFA makes several other
arguments in support of its contention that Harvard
discriminates against Asian American applicants.
A. Sparse Country
First, as discussed above, Harvard uses a search
list, which is primarily compiled based on potential
applicants’ ACT, SAT, or PSAT test scores to help
Harvard market itself to a diverse array of high school
students. The ACT, SAT, or PSAT score that students
need to make the search list varies by gender, high
school GPA, geography, and race. See [Oct. 15 Tr.
136:5–139:21; PX2]. For example, to make Harvard’s
class of 2018 search list, a white male high school
student from outside “sparse country”35 needed an SAT
score of 1380, while black, Chicano, Hispanic, Native
American, and Puerto Rican students needed only an
1100. See [PX2]; see also [PX50].
As SFFA points out, there are some anomalies in
the search list selection criteria that are difficult to
explain. As an example, assuming an applicant
35

Sparse country for the purposes of the PSAT search includes
twenty predominantly rural states: Alabama, Alaska, Arizona,
Arkansas, Idaho, Louisiana, Maine, Mississippi, Montana,
Nebraska, Nevada, New Hampshire, New Mexico, North Dakota,
Oklahoma, South Dakota, Utah, Vermont, West Virginia, and
Wyoming. [Oct. 15 Tr. 144:25–147:20; PX2].

App. 155
reported a sufficiently high GPA, for the class of 2018,
Harvard lowered the SAT score required to make the
search list to 1310 for students from “sparse country”
who identified their race as white, other, or
unidentified while not simultaneously lowering the
required score for Asian American students from the
same states to the same level. Consequently, Asian
American students from the same states needed to
score 1350 or 1380, depending on their gender, to make
the search list. See [Oct. 15 Tr. 150:3–9; PX2; PX50].
Some Asian American students therefore did not make
the search list, when white students from the same
area who had similar grades and SAT scores did. See
[Oct. 15 Tr. 151:22–152:2]. SFFA, while recognizing
that the list is a marketing tool, would have the Court
consider this “sparse country” disparity between the
scores required for Asian Americans and whites to
make the search list as evidence of Harvard’s intent to
impose more selective admissions criteria on Asian
Americans for the purpose of artificially suppressing
Asian American representation at Harvard.
Notably, however, in some of the same years that
Harvard did not lower the sparse country SAT search
list score for Asian Americans commensurate with the
lower requirement for whites, it selected Asian
Americans for the search list based on lower ACT
scores than similarly situated white students from
more urban states. See [Oct. 17 Tr. 151:13–152:4; PX2].
Overall, the inconsistencies in the search criteria do
not seem to be linked to efforts to advantage or
disadvantage any particular racial group, and it was
unclear from the testimony at trial whether these
variations were accidental or intentional. At root,

App. 156
although being placed on the search list results in
recruitment and is correlated with a higher likelihood
of admission, the search list is fundamentally a
marketing tool that does not affect individual
admissions decisions. [Oct. 15 Tr. 129:24–132:25].
B. The OCR Report
SFFA next points out that the specter of Harvard
discriminating against Asian Americans in its
admission process has been raised before. The
argument is, at least in part, that repeated instances of
smoke should heighten concerns about a fire.
In the late 1980s, Harvard faced allegations of bias
against Asian American applicants in its admissions
process that culminated in a 1990 report by the United
State Department of Justice Office of Civil Rights
(“OCR”) (“OCR Report”). [PX555 at 2, 15–16]. The OCR
Report reached an “overall conclusion that Harvard did
not discriminate against Asian American applicants to
its undergraduate program in violation of Title VI of
the Civil Rights Act,” but its findings indicated that
some admissions officers took race into account when
assigning the personal rating during the period
preceding the 1990 report. See [id. at 45–46]. Further,
The OCR Report found recurring characterizations of
Asian American applicants that were broadly
consistent with stereotypes, noting that:
In addition to examining the ethnic reader’s
comments, OCR’s concern for the potential
stereotyping of Asian American applicants
prompted a review of reader comments for
negative characterizations which could have an

App. 157
impact on the admissions decision and ratings.
On its face, reader comments revealed several
recurring characterizations attributed to Asian
American applicants. Quite often Asian
American applicants were described as being
quiet/shy, science/math oriented, and hard
workers. For example, one reader’s comment
embraced all of these in describing an Asian
American applicant when she wrote:
“[A]pplicant seems like a reserved,
hard-working, aspiring woman scientist/
doctor.”
While such descriptions may not seem
damaging, OCR was conscious that problems of
“model minority” stereotypes could negatively
impact Asian American applicants as a whole.
This concern was also raised when OCR’s file
review came upon comments such as:
“He’s quiet and, of course, wants to be a
doctor . . .”
suggesting that most or all Asian American
applicants “want to be a doctor.” Or more
pointedly:
“[A]pplicant’s scores and application seem so
typical of other Asian applications I’ve read:
extraordinarily gifted in math with the
opposite extreme in English.”
OCR noted that in a number of cases, Asian
American applicants were described as “quiet,
shy, reserved, self-contained, soft spoken” and

App. 158
that these characteristics were underlined for
added emphasis by the reader. While white
applicants were similarly described, OCR found
such descriptions ascribed to Asian American
applicants more frequently. In some cases these
comments actually originated from the
interviews, teacher or counselor
recommendations, or self-descriptions given by
the applicant.
....
OCR recognized that reader comments were also
sometimes echoes of other reviewers’
commentaries related to the applicant. OCR also
noted a few cases in which the readers referred
to an applicant as “a classic V.N. [Vietnamese]
bootstrap case” or “a classic BC/NC (blue
collar/non-college background) Asian American
from the inner-city.” While it was clear from the
context of the statement that the readers were
not criticizing the applicants, and that there was
no negative intention, the comments do suggest
a tendency to stereotype by calling the
applicants “classic.”
[Id. at 24–25]. Following the conclusion that Harvard
did not discriminate against Asian American
applicants and despite some of the specific findings,
Harvard did not hold a meeting or otherwise require
that its admissions officers modify their evaluation
practices to avoid actual stereotyping or the
appearance of stereotyping. [Oct. 16 Tr. 59:17–24].

App. 159
In the instant case, the admissions officers who
testified at trial uniformly asserted that they do not
and have not directly considered race in assigning
ratings, other than the overall rating.36 The Court
credits the admissions officers’ testimony and
concludes that Harvard has made clear to its
admissions officers in more recent years that they
should not use race in assigning the profile ratings.
Harvard perhaps should have instituted an explicit
written policy stating which ratings could take race
into account before 2018, but that error has now been
remedied. See [PX723 at 3, 5].

36

Senior Admissions Officer Christopher Looby’s deposition
testimony is the sole instance in which an admissions officer
allegedly admitted that race was directly used in assigning a
personal rating between the 1990 OCR Report and the present.
SFFA relied on Mr. Looby’s deposition testimony in its opening
argument, stating, “he’ll tell the truth that he’s been using race in
the personal rating for ten years.” [Oct. 15 Tr. 27:22–24]. Mr.
Looby joined Harvard’s financial aid office in 2008 and has been
reading admissions files since approximately 2010. See [Oct. 18 Tr.
148:16–25]. When asked during his deposition if he would “take a
student’s race into account when assessing his or her personal
qualities,” Mr. Looby answered that “just like with the academic
rating, it’s one factor of many I consider.” [Id. at 182:8–19]; see also
[Looby Dep. 51:12–17, June 30, 2017]. Mr. Looby testified at trial
that he misunderstood the deposition question, and that he meant
to state that he used race as one factor in assessing an applicant’s
overall rating just as he considered the academic rating in
assigning the overall rating. [Oct. 18 Tr. 185:19–23]. His response
to the deposition question appears to have been a misstatement,
and the Court concludes that Mr. Looby meant to indicate at his
deposition that he would consider the academic rating and race in
assigning the overall rating, not the personal rating. See [id. at
182:18–184:8].

App. 160
C. More Recent Allegations of Stereotyping
and Bias
SFFA also points to more recent examples of
admissions officers referring to Asian American
applicants as “quiet,” “hard worker,” “bright,” but
“bland,” “flat,” or “not exciting.” See, e.g., [DX50 at
186, 178, 693, 1040, 1062].
Harvard’s admissions officers are tasked with
carrying out a particularly delicate job in that they are
instructed to consider race in the admissions process,
including for applicants who have indicated a race or
ethnicity but have not elaborated on the importance of
that identity, without engaging in unlawful
discrimination. This job is especially sensitive due to
the lengthy history of discrimination against many
racial minorities in the United States, including Asian
Americans, as well as Harvard’s own history of
discriminating against Jewish applicants beginning in
the 1920s. [Oct. 24 Tr. 188:17–25; Oct. 29 Tr.
34:22–35:13, 161:17–162:16]; see Korematsu v. United
States, 323 U.S. 214 (1944), abrogated by Trump v.
Hawaii, 138 S. Ct. 2392 (2018).
It is true that Asian American applicants continue
to face both positive and negative stereotypes, such as
perceptions that they are timid, hard-working, and are
inclined towards medicine and science. See [Oct. 29 Tr.
56:1–56:20]. It is also true that Asian Americans have
significantly higher median incomes (perhaps
indicative of the strong work ethic in many Asian

App. 161
American communities)37 and are more likely to hold
science, technology, engineering, and mathematics
occupations than the United States population more
broadly.38 Therefore, in reviewing applicant files and
comments made by admissions officers, the Court is
sensitive to the challenge of differentiating among
discriminatory comments that evidence actual
stereotyping, animus, or racism and comments about a
particular applicant that may incidentally reference a
stereotypical characteristic, like “hard working,” but
which may also reflect an actual strength or weakness
of that particular applicant.
SFFA has not shown that any applicant was
referred to by these types of descriptors because of
their race or that there was any sort of systemic
37

Although Asian Americans tend to have higher incomes than
Americans with other racial identities, the evidence suggests that
Asian American applicants to Harvard are more likely to come
from modest socioeconomic backgrounds than white applicants.
[PX28 at 2–5].
38

See Anthony Martínez & Asiah Gayfield, The Intersectionality
of Sex, Race, and Hispanic Origin in the STEM Workforce 8 (U.S.
Census Bureau, Social, Econ., and Hous. Statistics Div., Working
Paper No. 2018-27, Feb. 2019), https://www.census.gov/content/
d am/Ce nsus/lib r a r y / w o rking -p ape rs/2019/d e mo /se hsd wp2018-27.pdf; Kayla Fontenot, Jessica Semega & Melissa Kollar,
Income and Poverty in the United States: 2017 at 2–5, (U.S.
Census Bureau Current Population Reports, Sept. 2018),
h t tp s : / / w w w . c e n s u s . g o v / c o n t e n t / d a m / C e n s u s / l i b r a r y /
publications/2018/demo/p60-263.pdf; Liana C. Landivar,
Disparities in STEM Employment by Sex, Race and Hispanic
Origin at 2, 7, 12, 16 (U.S. Census Bureau Am. Cmty. Survey
Reports, Sept. 2013), https://www2.census.gov/library/publications
/2013/acs/acs-24.pdf.

App. 162
reliance on racial stereotypes. The docket binder that
contains notes to the effect that several Asian
American applicants were “quiet” or “flat” also includes
notes for white, African American, and Hispanic
applicants who were also described as “quiet,” “shy,” or
“understated.” [DX50 at 620, 975, 1054]. In the absence
of a pattern or a more pervasive use of stereotypes, the
Court accepts that there are Asian American
applicants who were “quiet” and that the use of this
word with regard to such an applicant would be
truthful and accurate rather than reflective of
impermissible stereotyping.
In addition to SFFA’s concerns about Asian
American applicants being referred to as “quiet” and
the like, SFFA also points out that there is a statistical
relationship between race and the use of the term
“standard strong,” which some admissions officers use
to indicate a strong applicant who is nonetheless
unlikely to be admitted because he or she is not
sufficiently distinguished within Harvard’s exceptional
applicant pool. [Oct. 25 Tr. 133:20–134:1]. Asian
Americans were labeled “standard strong” more
frequently than white applicants, and significantly
more frequently than African American or Hispanic
applicants. See [id. at 135:4–10]. In a sample of 10% of
the applicants to the class of 2018, admissions officers
noted that 255 students were “standard strong.” [Id. at
134:6–11]. Not one of the 255 standard strong
applicants in the sample was admitted. [Id. at
135:16–18]. The standard strong applicants included
126 white applicants, 114 Asian American applicants,
12 Hispanic applicants, and 3 African American
applicants. [Id. at 134:23–135:3]. Approximately 15% of

App. 163
Asian American applicants in the original 10% sample
were labeled standard strong, compared to 12% of
white applicants, 4% of Hispanic applicants, and 1% of
African American applicants. [Id. at 135:4–10; PD38 at
41]. Additionally, the Asian American applicants
considered standard strong averaged higher academic
indexes, math SAT scores and academic ratings than
standard strong applicants from other racial groups.
See [Oct. 25 Tr. 135:4–136:9]; see also [PD38 at 41].
These statistics on the use of “standard strong” are
consistent with the profile ratings Harvard admissions
officers assigned to Asian American applicants and
white applicants, which show that Asian American
applicants excelled, on average, on academic and
extracurricular ratings, but were weaker when
evaluated on personal and athletic criteria. See [PX621;
PX622]. There is not a significant difference, however,
between the white and Asian American applicants who
were labeled “standard strong” as reflected by the sum
of their profile ratings. See [Oct. 31 Tr. 94:16–97:18];
see also [DX709]. Further, the higher proportion of
standard strong Asian American applicants is
consistent with the fact that Asian American
applicants to Harvard’s class are disproportionately
unlikely to be among the weakest applicants: less than
21% of Asian American applicants received an overall
rating of 4 or worse, compared to 24% of white
applicants, 41% of Hispanic applicants, and 52% of
African American applicants. [PX621]. As such, it is not
surprising that a higher proportion of Asian Americans
than white applicants were labeled standard strong.

App. 164
In addition to the use of phrases that align with
stereotypes of Asian American applicants and the use
of the words “standard strong,” SFFA has identified a
few instances in which Harvard’s Admissions Office’s
leadership acted in a manner that SFFA argues shows
some degree of racial bias. Although the Court
concludes that none of these incidents reflects any
actual bias against Asian Americans by Harvard’s
admissions officers, they do merit brief mention.
In April 2012, Director McGrath was asked to
respond to a letter to President Drew Gilpin Faust from
an elderly alumnus. See [PX461 at 3–6]. The alumnus’
letter argued that Harvard should be admitting more
students from Massachusetts, proposed admissions
quotas based on religious affiliation and skin color, and
stated that Harvard has “a large number of oriental
students.” [Id. at 5]. Director McGrath wrote a polite
response, stating that the alumnus’ “comments on the
importance of attracting a strong representation of
students from Massachusetts resonates well in the
Admissions Committee,” but also that Harvard “has
become more representative of the ethnic and economic
diversity of the country and, the University believes,
better positioned to make significant contributions to
the country.” [Id. at 1]. Director McGrath’s carefully
crafted response rejected a proposal that was
inconsistent with Harvard’s values and did not endorse
the suggestions made in the letter, while seemingly
trying not to alienate its author.
In a January 2014 exchange, Director McGrath sent
her daughter, who served as an alumni interviewer for
Harvard, a list of the top applicants from Utah

App. 165
prepared by the alumni interviewers for that state,
noting that she was “sending this along for your
amusement. Pure Utah.” [PX265]. In responding,
Director McGrath’s daughter wrote back, “Hahaha.
Very Thorough!! I also love that the top-tier list is, as
you’ve told me before, all Asians except for a couple
. . . .” [Id.]. The email, which reflects amusement at the
unusual degree of thoroughness of the Utah alumni
interviewers, does not reflect a negative view of Asian
Americans.39
In sum, comments on application files and
Admissions Office correspondence do not suggest any
pervasive bias against Asian Americans among
Harvard’s admissions officers or its admissions
leadership, nor has the Court identified any individual
applicant whom it can determine was discriminated
against or intentionally stereotyped by an admissions
officer, including by the use of the words “standard
strong.”
V.

FINDINGS
ANALYSIS

OF

FACT:

STATISTICAL

A. Sources of Statistical Evidence
In addition to testimony based on the lived
experiences of witnesses, the parties introduced
statistics and econometric models through expert
witnesses. This statistical evidence is perhaps the most

39

Director McGrath testified that she thought it notable that the
Utah schools committee put all Asian Americans at the top of their
list because it “confounds the stereotype that many people have of
the population of Utah.” [Oct. 19 Tr. 221:3–11].

App. 166
important evidence in reaching a resolution of this
case, given SFFA’s heavy reliance on the data to make
out its claims. Harvard presented its statistical
evidence primarily through Professor David Card, and
SFFA presented its statistical evidence primarily
through Professor Peter Arcidiacono.40 Both Professors
Card and Arcidiacono are very well-qualified experts,
but they fundamentally disagree about whether the
statistics show that Asian Americans are discriminated
against in the Harvard admissions process. Their
disagreement results from differences in their
respective statistical models of admissions outcomes,
based on their inclusion of different applicants and use
of different control variables. Therefore, decisions by
the Court as to which applicants and control variables
belong in the admission outcome model are pivotal.
In sum, as discussed more fully below, Professor
Arcidiacono excludes ALDCs from his model despite
the fact that they make up about 30% of each admitted
class, analyzes the data in aggregate rather than
independently modeling each admissions cycle,
excludes certain variables that he contends are

40

Harvard’s expert, Professor David Card, and SFFA’s economist,
Professor Peter Arcidiacono, are both highly respected economists.
Professor Card is an economics professor at the University of
California at Berkeley, where he teaches undergraduate and
graduate level economic courses. He has published numerous
articles and books and is a winner of the John Bates Clark Prize.
[Oct. 30 Tr. 73:7–76:2; DX133]. Professor Arcidiacono is a professor
of labor economics at Duke University. He teaches undergraduate
and graduate-level economic courses and has published numerous
peer-reviewed articles. His research is focused on labor economics,
and more narrowly, higher education. [Oct. 25 Tr. 14:7–17:14].

App. 167
unreliable and have unexpected effects on the model,
selectively interacts certain variables, omits the
personal rating based on his finding that it is
influenced by race, and then, based on that data and
approach, concludes that Asian Americans are
discriminated against in the admissions process. See
[Oct. 26 Tr. 62:9–63:25; Oct. 30 Tr. 145:15–148:11;
DX695; PD38 at 45]. Professor Card creates an
independent model for each admissions cycle, includes
the personal rating because he concludes that it does
not reflect race and, in any event, includes information
that is important to the admissions process such that
omitting it skews the outcome, includes the other
variables that Professor Arcidiacono omits, and does
not interact variables. Using this approach, he comes
out with a very slight, and not statistically significant,
negative coefficient for Asian American identity and
concludes, based on that data and approach, that Asian
Americans are not discriminated against in Harvard’s
admissions process. See [Oct. 31 Tr. 172:19–173:15;
DX695; DD10 at 34–35].
The statistics and econometric models used by
Professors Arcidiacono and Card were generated using
primarily data produced by Harvard in this litigation.
Consistent with this Court’s orders, Harvard provided
applicant-by-applicant admissions data for more than
150,000 domestic applicants to Harvard’s classes of
2014 through 2019,41 as well as aggregate information

41

Because this lawsuit concerns only allegations of discrimination
against United States citizens or permanent residents, foreign
applicants were removed from the data set. Further, transfer
applicants and those who submitted incomplete applications or for

App. 168
for the classes of 2000 through 2017, and a sample of
actual application files and summary sheets from the
classes of 2018 and 2019. [Oct. 25 Tr. 23:8–26:13; PD38
at 1]. For each applicant to the classes of 2014 through
2019, Harvard’s database includes hundreds of
variables relating to each applicant’s demographic
characteristics, personal background, geographic
information, test scores, high school grades, ratings
assigned by Harvard’s admissions officers, and
Harvard’s admissions decision. [Oct. 25 Tr. 23:16–24:8;
Oct. 26 Tr. 73:22–74:2]. On behalf of SFFA, Professor
Arcidiacono supplemented this data by merging it with
College Board data on applicants’ high schools and
neighborhoods. [Oct. 25 Tr. 24:9–12].
The parties dispute whether ALDC applicants
should be included when computing admissions
statistics and modeling Harvard’s admissions process.
ALDC applicants are admitted at higher rates than the
applicant pool more broadly. SFFA argues that because
ALDC applicants are granted significant tips that are
not available to most applicants, they are not typical.
[Id. at 27:2–25, 29:4–30:7]. SFFA therefore presented
numerous statistics based on non-ALDC applicants
which it identifies as the “Baseline Dataset.” [Id. at Tr.
27:2–25]. The Baseline Dataset excludes approximately
7,400 ALDCs, leaving a total of 142,728 applicants in
whom Harvard’s database was for some other reason incomplete
were also removed. [Oct. 25 Tr. 25:3–26:24; Nov. 1 Tr.
99:12–100:10]. Statistics on “applicants” referred to by these
findings of fact are therefore based on data for the approximately
150,000 domestic applicants to Harvard’s 2014 to 2019 classes for
whom Harvard’s database contained a single, complete record. See
[PD38 at 1].

App. 169
the dataset. [Oct. 25 Tr. 30:8–31:3; PD38 at 1–2]. SFFA
has also presented data based on a subgroup of dataset
applicants that include legacies, dean’s and director’s
list applicants, and children of faculty and staff
(“LDCs”), but not recruited athletes, which SFFA refers
to as the “Expanded Dataset.” [Oct. 25 Tr. 40:17–41:7].
Although ALDCs represent only a small portion of
applicants and are admitted or rejected through the
same admissions process that applies to other
applicants, they account for approximately 30% of
Harvard’s admitted class. [Oct. 30 Tr. 153:6–154:8,
DX706; DD10 at 38, 40]. For reasons discussed more
fully infra at Section V.F, the Court agrees with
Professor Card that including ALDCs in the statistics
and econometric models leads to more probative
evidence of the alleged discrimination or lack thereof.
Nevertheless, the Court has referenced numerous
statistics based on data that excludes some or all
ALDCs because SFFA used those metrics at trial.
In addition to statistics based on Harvard’s
admissions database, Harvard presented statistics on
the racial make-up of its admitted classes from 1980 to
2019, [Oct. 31 Tr. 119:23–124:6; DX711; DX713; DD10
at 100–04], and SFFA used statistics based on an
analysis of 480 sample application files, two-thirds of
which were selected by SFFA and one-third by
Harvard, [Oct. 25 Tr. 24:21–24]. Both Harvard and
SFFA also relied on statistics and models that were
prepared by OIR before this lawsuit was filed. See, e.g.,
[PX9; PX12; PX21].

App. 170
B. Admission Rates and Ratings by Race
Asian Americans were admitted to Harvard at
slightly lower rates than white applicants in the years
leading up to this lawsuit, with between 5% and 6% of
Asian American and between 7% and 8% of white
applicants being admitted to the classes of 2014
through 2017. See [PX319 at 15–16]; see also [PD38 at
20].42 The admissions rates differ more significantly
among certain subgroups, but the admissions rates for
Asian American ALDCs are generally similar to or
higher than those for white ALDCs. 88.6% of Asian
American recruited athletes, 48.1% of Asian American
children of faculty or staff, and 47.7% of Asian
Americans on the dean’s or director’s interest lists are
admitted, compared to 88.1%, 47.9%, and 43.1% of
white applicants in those groups, respectively. [PX634].
Asian American legacies are admitted at a rate of
35.2%, as are white legacies. [Oct. 25 Tr. 121:7–122:4;
PX634]. SFFA’s economic expert, Professor
Arcidiacono, acknowledges that Asian American
ALDCs were likely not discriminated against.43 [Oct. 25
Tr. 122:16–123:17, 126:1–8]. Non-ALDC Asian

42

Overall admission rates for Asian American applicants are
lowered slightly because they are underrepresented among
ALDCs, who are admitted at a rate of 43.6% or nearly eight times
the 5.5% admissions rate for non-ALDC applicants. [Oct. 30 Tr.
154:17–155:19; DX679; DD10 at 39].
43

Although its expert agrees that Asian American ALDCs were
not discriminated against, SFFA continues to argue that they
were, but that the strength of their applications overcame the bias.
The Court ultimately finds that excluding ALDCs distorts the
analysis.

App. 171
American applicants have admission rates that are
similar to white applicants, although the admission
rates relative to whites varies by year from between 0.2
percentage points lower to 0.9 percentage points
higher. [Id. at 68:2–70:2; PD38 at 20].44 With the
exception of 2019 where the admission rates favored
Asian American applicants, the differences in
admission rates for non-ALDC white and Asian
American applicants was not statistically significant.
See [PD38 at 20]. The gist of SFFA’s argument,
however, is not that Asian Americans were excluded
altogether, but rather that the non-ALDC Asian
American applicants were stronger than the non-ALDC
white applicants and should have been admitted at a
higher rate.45
44

The highest annual admissions rate for Asian American
applicants relative to white applicants, and the only year for which
the admission rates for Asian American and white applicants
differed to a statistically significant degree, was the class of 2019,
which was selected after the allegations of discrimination that led
to this lawsuit emerged. [Oct. 25 Tr. 68:2–22; PD38 at 20].
45

As reflected by the data, Harvard does not systematically
exclude Asian Americans, nor does SFFA claim that it does. As of
2016, the United States population was approximately 60% white
and 5.9% Asian. U.S. Census Bureau, Quick Facts, Census.gov,
https://www.census.gov/quickfacts/fact/table/US/RHI225218.
Among applicants to Harvard’s class of 2019, 21.2% were Asian
American and 57.6% were white. [DX713]. Among those domestic
applicants who Harvard admitted, 40% of the class identified as
white and 24% identified as Asian American. It is entirely possible,
and not without historical precedent, that an admissions process
could discriminate against Asian Americans (or Jews) despite their
over-representation in a class as compared to the general
population. The Court nonetheless includes these numbers to give
some context to the overall admissions data.

App. 172
Asian Americans would likely be admitted at a
higher rate than white applicants if admissions
decisions were made based solely on the academic and
extracurricular ratings. Among Expanded Dataset
applicants, more than 60% of Asian American
applicants received academic ratings of 1 or 2,
compared to 46% of white applicants, 9% of African
American applicants, and 17% of Hispanic applicants.
[Oct. 25 Tr. 49:17–50:5; PX623]. Overall, strong
academic applicants are particularly abundant, with a
higher percentage of applicants (42%) scoring a 1 or 2
on the academic rating as compared to the percent that
score a 1 or 2 on any other rating. [DD10 at 4].46 Asian
American applicants’ stronger academic ratings
broadly align with their stronger performance across a
range of qualitative indicators of academic strength.
[Oct. 25 Tr. 41:18–46:9; PD38 at 4–7]. Asian American
applicants also average relatively high extracurricular
ratings. More than 28% of Expanded Dataset Asian
American applicants receive an extracurricular rating
of 1 or 2, compared to 25% of white applicants, 16% of
African American applicants, and 17% of Hispanic
applicants. [Oct. 25 Tr. 52:12–22; PX623].
Although Harvard admissions officers do not believe
that Asian American applicants, as a group, have
worse personal qualities than other applicants and
Harvard alumni interviewers assign personal ratings
of 1 or 2 to Expanded Dataset Asian American and

46

24% of applicants receive an extracurricular rating of 1 or 2,
21% of applicants receive a personal rating of 1 or 2, and 10% of
applicants receive an athletic rating of 1 or 2. [Oct. 30 Tr.
86:25–88:2; DD10 at 4].

App. 173
white applicants with a similar frequency, [Oct. 23 Tr.
204:1–9; Oct. 24 Tr. 138:11–16; Oct. 25 Tr. 55:7–12],
Harvard admissions officers assign Asian American
applicants personal ratings that are, on average,
slightly weaker than those assigned to applicants from
other racial groups, [PX623]. Among Expanded Dataset
applicants, 22.6% of white applicants receive a personal
rating of 1 or 2, compared to 18% of Asian Americans,
19.4% of African Americans, and 19.1% of Hispanics.
[Id.]. The statistics are similar for Baseline Dataset
applicants, with 17.6% of Asian Americans receiving a
personal rating of 1 or 2, compared to 18.7% of
Hispanics, 19% of African Americans, and 21.3% of
whites. [Oct. 25 Tr. 55:13–22; PX621].
At least a partial cause of the disparity in personal
ratings between Asian American and white applicants
appears to be teacher and guidance counselor
recommendations, with white applicants tending to
score slightly stronger than Asian Americans on the
school support ratings. [PX621; PX623; PD38 at 4–5,
8–10]. Among Expanded Dataset applicants, 31.9% of
white applicants received a “teacher 1” rating (the
rating for the first of two teacher recommendations
submitted) of 1 or 2 compared to 31.6% of Asian
American applicants. [PX 623]. For the “teacher 2”
rating (the rating for the second teacher
recommendation), 33.6% of white applicants received
a rating of 1 or 2 compared to 32.3% of Asian American
applicants. [Id.]. In the Expanded Dataset, 27.4% of
white applicants and 26.4% of Asian American
applicants receive a guidance counselor rating of 1 or 2.
[Id.]. Although these differences may appear slight,
they are significant in that the stronger high school

App. 174
academic and extracurricular performance of Asian
American applicants on average would lead one to
expect that those applicants would receive stronger
teacher and guidance counselor recommendations than
white applicants.
On average, Asian American applicants are also
assigned lower athletic ratings, particularly compared
to white applicants, who average especially strong
athletic ratings. See [PX621; PX623; DX692 at 2].
Among non-recruited athlete applicants, only 5% of
Asian Americans received an athletic rating of 2,
compared to 14% of whites, 7% of African Americans,
and 8% of Hispanics. [PX623]. When recruited athletes
are included in the calculation, the disparity between
white and Asian American applicants receiving strong
athletic ratings increases, with white applicants
receiving athletic ratings of 1 or 2 at roughly three
times the rate of Asian American applicants. [Oct. 30
Tr. 96:25–97:19; DX692 at 2; DD10 at 10].
C. Descriptive Statistics
In addition to the regression analyses used in this
case, Professors Card and Arcidiacono also offered
descriptive statistics that support their respective
arguments on the question of discrimination. In
constructing these statistics, both experts used the
same dataset consisting of applicants to the classes of
2014 through 2019 (except that Professor Arcidiacono
prefers to remove ALDCs). Professor Card uses the
dataset to compare admission rates by racial group for
applicants who scored 1s and 2s across similar
numbers of profile ratings. He, on behalf of Harvard,
uses this multidimensionality analysis to argue that

App. 175
the statistical evidence does not support a conclusion
that Harvard discriminates against Asian Americans
relative to whites. Meanwhile, Professor Arcidiacono
uses an academic decile analysis in which he divides
applicants into deciles based on applicant academic
index score and then shows that Asian Americans in
the top academic deciles are receiving strong personal
and overall ratings at lower rates than applicants from
other racial groups with similar academic
qualifications. He, on behalf of SFFA, argues that the
lower average overall and personal ratings for Asian
American applicants who have similar levels of
academic strength to non-Asian American applicants
suggest that Harvard is engaged in a discriminatory
admissions process.
1. Professor
Analysis

Card’s

Multidimensionality

Professor Card’s statistical analysis shows that the
students most likely to be admitted to Harvard are
those that do well across the profile and school support
ratings, rather than merely excelling on just one rating.
In coming to this conclusion, Professor Card analyzed
the relationship between race and applicant strength
across multiple profile ratings, which he terms an
analysis of “multidimensional accomplishments.” [Oct.
30 Tr. 89:3]. Only 7,000 applicants per year, or roughly
27%, receive a rating of 1 or 2 in at least two profile
ratings, and only 7% of applicants receive ratings of 1
or 2 in three or all four profile ratings. [Id. at
89:19–90:17; DX672; DD10 at 5]. The 7% of applicants
who score highly in three or four of the four profile
ratings are seemingly the most multidimensional

App. 176
under Harvard’s scoring system; 70% of those
applicants are admitted and make up 46% of all
admitted applicants. [Oct. 30 Tr. 93:15–94:12; DX672;
DD10 at 8]. The 20% of applicants who receive two
profile ratings of 1 or 2 account for 38% of admitted
students. [Oct. 30 Tr. 93:15–94:12; DX672; DD10 at 8].
Meanwhile, applicants with one or no ratings of 1 or 2
account for 73% of applicants but only 15% of admitted
students. [DX672; DD10 at 8]. White applicants are
slightly more likely than Asian American students to
receive three profile ratings of 1 or 2, with
approximately 900 or 9% of all white applicants
receiving three such scores relative to 500 or 8% of all
Asian American applicants. [Oct. 30 Tr. 95:18–96:10;
DX692 at 2; DD10 at 9].
Professor Card has also offered support for his
conclusion that white applicants are disproportionately
strong in non-academic traits by removing all academic
inputs from his model of admissions probability to rank
applicants to Harvard. See [Oct. 31 Tr. 69:20–71:5;
DD10 at 77]. By doing so, he creates a “non-academic
index,” and his analysis shows that white students do
disproportionately well in this metric, with 12% of
white applicants ranking in the top decile compared to
only 7.8% of Asian American applicants. See [Oct. 31
Tr. 70:17–19; DD10 at 77]. Professor Card’s
multidimensionality analysis thus suggests that a
partial cause of the race-related disparities in
admission rates, when controlling for academic
performance, is that Asian American applicants’
disproportionate strength in academics comes at the
expense of other skills and traits that Harvard values.
See [DX692 at 2–4].

App. 177
The Court notes, however, that the profile ratings
are not equally distributed in terms of the number of
1s, 2s, 3s, or 4s assigned, nor are they equally
correlated with an applicant’s chances of admission.
For example, being a recruited athlete (and therefore
receiving an athletic rating of 1) vastly improves an
applicant’s odds of admission, with 86% of recruited
athletes typically admitted and Asian Americans
especially underrepresented in that group. [Oct. 25 Tr.
31:11–23; PD38 at 2]. Although Harvard highly values
applicants who will contribute to its varsity sports, it
also admits a significant number of applicants who do
not participate in high school athletics, and who
therefore receive an athletic rating of 4 or lower. [Oct.
25 Tr. 28:21–29:8, 31:11–23; PD38 at 10]. Academic,
extracurricular, or personal ratings of 4 or lower are
relatively rare and more likely to result in rejection
than an athletic rating of 4 or lower. [Oct. 25 Tr.
52:6–54:12; PD38 at 8–10]. 39% of admitted non-ALDC
applicants are scored as athletic 4s or lower, while less
than 1% of admitted Baseline Dataset applicants are
scored as academic, extracurricular, or personal 4s.
[Oct. 25 Tr. 52:23–53:13; PD38 at 10]. Further,
personal ratings of 1 are exceptionally rare and are
awarded to fewer than 10 applicants in a typical year,
whereas athletic, extracurricular, and academic ratings
of 1 are more common, though they are still each
awarded to less than 1% of applicants. See [PX623;
PD38 at 2].
Although the profile ratings are not of equal
importance, are not assigned on a set curve, and do not
have any assigned mechanical weight, receiving
multiple ratings of 1 or 2 is strongly correlated with

App. 178
admission. [Oct. 30 Tr. 88:12–89:3, 90:18–92:12;
DX672; DD10 at 6, 8]. Because the number of 1s and
2s awarded in each of the four profile ratings every
year vastly exceeds the number of students Harvard
can admit, Harvard tends to admit applicants with
multiple profile ratings of 1 or 2 who are also
significantly distinguished in some other way—which,
as discussed supra at Part III.B.3, may include
accomplishments or characteristics that are
remarkable even when measured against a very
accomplished applicant pool or that are likely to be
underrepresented in Harvard’s class.
To summarize, Professor Card uses his
multidimensionality analysis to show that the Harvard
admissions process favors applicants who score well
across the profile and school support ratings and to
counter the argument that Harvard’s admissions
process is biased based on a comparison of admission
rates for students who are similarly-situated
academically. Professor Card is correct that an analysis
predicated on an applicant’s academic profile ignores
statistical disparities between racial groups across
other dimensions that favor non-Asian American
applicants. Most notably, white applicants are
significantly more likely to have made strong high
school contributions to athletics, and this disparity
counteracts the effect that Asian American applicants’
relative academic and extracurricular strength would
otherwise have on their admission rate. Professor
Card’s analysis shows that strength across multiple
dimensions is highly correlated with admission to
Harvard and results in fewer admitted Asian American
applicants.

App. 179
That being said, because Professor Card’s
multidimensional analysis gives equal weight to each
profile rating, it overvalues the athletic rating which
favors white applicants, despite the fact that it is
seemingly less important than the academic, personal,
and extracurricular ratings for obtaining admission to
Harvard, at least for applicants who are not recruited
athletes. See [DX692 at 2]. Further, because the
multidimensionality analysis uses all the profile
ratings, any bias in the ratings, including in the
personal rating, is baked into his analysis.
2. Professor Arcidiacono’s Academic Index
Decile Analysis
In contrast, for his descriptive statistics analysis,
Professor Arcidiacono compared applicants by
analyzing the relationship between race and various
ratings, including school support, academic,
extracurricular, personal, and overall ratings for
applicants who are academically similarly-situated—
that is who fall into the same academic index deciles.
For this analysis, he splits Baseline Dataset applicants
into ten equally sized groups based on their academic
index, which reflects the strength of an applicant’s
standardized test scores and high school grades, with
“Decile 10” containing the 10% of applicants to Harvard
who had the strongest academic index scores and
“Decile 1” containing the applicants with the weakest
scores. See [PD38 at 6]. The deciles reflect only
numerical academic metrics in contrast to the academic
ratings assigned by Harvard, which incorporate an
assessment of academic potential and other
non-numerical factors. [Oct. 22 Tr. 137:12–24].

App. 180
Professor Arcidiacono’s deciles show that Asian
American applicants are disproportionately
represented in the top academic deciles. See [Oct. 25
Tr. 44:12–48:8; PX624; PX626; PD38 at 6–8]. More
than a third of Baseline Dataset Asian American
applicants fall in the strongest two academic index
deciles, while African American and Hispanic
applicants are underrepresented among applicants
with the highest academic indexes. [Oct. 25 Tr.
47:22–48:5; PD38 at 8].
Professor Arcidiacono’s academic decile analysis
shows a racial disparity in applicants’ personal and
overall ratings that appears to favor white applicants
based on a comparison of applicants within the same
academic decile. See [PD38 at 16, 18–19]. For example,
among Baseline Dataset applicants, 22.2% of Asian
Americans in the top decile of applicants by academic
index (i.e. those with the strongest high school GPA
and standardized test scores) receive personal ratings
of 1 or 2, compared to 29.6% of whites, 34.2% of
Hispanics, and 47% of African Americans; similar
variances by race are also present for students in the
second and third strongest academic deciles. [Id. at 19].
Similarly, only 12.9% of Baseline Dataset Asian
Americans in the top academic index decile receive an
overall rating of 1 or 2, compared to 15.6% of whites,
27.4% of Hispanics, and 47% of African Americans.
[Id.].
Professor Arcidiacono’s decile analysis also shows
that the disparities between Asian American and white
applicants’ school support ratings are magnified when
comparing applicants within the same academic index

App. 181
deciles. Among non-recruited athletes, white applicants
are only approximately 1 percentage point more likely
to receive teacher or guidance counselor ratings of 1 or
2 than Asian American applicants. [PX623]. White
applicants in the top academic deciles, however, receive
school support ratings of 1 or 2 at a rate that is 4 to 6
percentage points higher than Asian Americans in the
same academic deciles. [Oct. 26 Tr. 37:25–40:17].
In sum, Professor Arcidiacono bases his decile
analysis on the academic index, which only accounts for
test scores and grades—criteria in which Asian
American applicants are, on average, especially strong.
He argues that the personal rating is compromised,
that the athletic rating is not that important, and that
Asian American applicants do well on the limited
measures that remain and should therefore be
admitted at a higher rate than they are. This approach
likely over emphasizes grades and test scores and
undervalues other less quantifiable qualities and
characteristics that are valued by Harvard and
important to the admissions process.
D. Overview of Logistic Regression Models
Professors Card and Arcidiacono both believe that
the descriptive statistics discussed above help to
provide context, but also agree that logistic regressions
are the most useful econometric tool in evaluating the
probable effect of race and other traits on Harvard’s
admissions process. See [Oct. 25 Tr. 79:11–83:24; Oct.
30 Tr. 101:5–17]. Their respective logistic regression
models seek to isolate the effects of race through
models that include, and thereby control for, other

App. 182
variables that affect the modeled outcome. [Oct. 25 Tr.
215:12–19; Oct. 30 Tr. 176:18–179:3].
The Court notes at the outset that although logistic
regression models are seemingly the best available
econometric tool, they cannot capture all of the factors
that Harvard considers and can therefore account for
only part of the variation in admissions decisions, or
other modeled outcomes. See [Oct. 25 Tr. 80:13–24;
Oct. 30 Tr. 114:10–23]. Further, no model is perfect,
and models can be affected by biases that are inherent
in the control variables that they use. See [Oct. 25 Tr.
91:17–92:11, 215:16–19]. To limit the impact of
variables affected by bias, variables that are
themselves impacted by the independent variable of
primary interest, which is race, should generally be
excluded from regression models. Including such
variables dilutes the implied effect of race by allowing
that effect to be partially captured by the
race-influenced variable itself. See [id. at 215:16–19;
Nov. 1 Tr. 77:22–78:4]. Excluding variables for this
reason may, however, make a model less accurate
because it also results in the removal of information
relevant to the modeled outcomes.
Here, although Professors Arcidiacono and Card
both endorse the use of regression models, they
disagree on whether the personal rating should be
included as a control variable. Professor Arcidiacono
contends that personal ratings are themselves affected
by race and that they should therefore not be used in
the admissions model. [Oct. 25 Tr. 99:11–18]. Professor
Card argues that the personal rating variable should be
included, and thereby implicitly contends that race

App. 183
correlates with personal qualities that affect personal
ratings, but that race does not itself affect the personal
ratings assigned by admissions officers, or at least that
any causal effect of race on the personal rating is
insignificant relative to the value of the variable in
controlling for a race-correlated, but not directly
race-caused, relationship. [Nov. 1 Tr. 79:9–14].47
Further, the personal rating captures other relevant
characteristics unrelated to race that will not be taken
into account at all by the modeling if the personal
rating is excluded, such as the extent to which an
applicant demonstrates character, leadership ability,
self-confidence, grit, or other distinctive qualities that
might benefit the Harvard community.
Logistic regressions result in two metrics that are
relevant here: “coefficient” and “marginal effect.”
Coefficients indicate how much weight the model
suggests each variable has in determining the modeled
variable (here, admissions outcome or an assigned
rating), holding the other included variables constant.
[Oct. 25 Tr. 76:22–78:8]. To generate a coefficient for a
discrete variable such as race (e.g. where an applicant
is white, Asian American, African American, or
Hispanic), a model omits one of those characteristics to
create a baseline group (e.g. white applicants) and the
coefficients that the model generates for the included
groups (e.g. Asian American, African American, and
Hispanic) then indicate the implied effect of each of
those characteristics on the dependent variable (e.g.
47

Directly race-caused means a cause internal to the Harvard
admissions process, as distinct from the potential for an effect of
race on inputs to that process.

App. 184
admissions outcome) relative to the baseline group,
holding constant the control variables that are included
in the model (e.g. academic rating, disadvantaged
status, parental occupation, etc.). [Id. at 77:24–78:8]. In
the experts’ models, a positive coefficient is associated
with a higher probability of admission or a stronger
rating, and a negative coefficient is associated with a
lower probability of admission or a weaker rating. [Id.
at 77:3–78:23]. The Court has and will continue to note
when race appears “statistically significant” in an
analysis, which indicates that the coefficient for some
racial group is of a magnitude that would occur
infrequently due to random variation if race and the
modeled variable were not related when controlling for
the other variables included in the model. It is critical
to understand that a statistically significant variable in
an econometric model is not proof of a causal
relationship. A statistically significant coefficient may
be the result of random variation, omitted variables, or
other flaws in the model.
A marginal effect is a measurement of the change in
the projected outcome of the model (e.g. odds of
admission to Harvard) that is associated with changing
a given variable, while holding other variables
constant. The magnitude of the change in probability
will depend on the other variables. For example, a
model might not suggest a large effect on an applicant’s
probability of being admitted based on being African
American, as opposed to being white, for a student who
is academically unprepared (i.e. race won’t make a
difference for an unprepared student), but might imply
a significantly increased probability of admission
associated with being African American rather than

App. 185
white for an applicant who is well-prepared. See [id. at
78:24–80:6; PD38 at 25]. An “average marginal effect”
is the average of the marginal effect associated with
the variable of interest for that group. For example, one
could calculate the average marginal effect of African
American racial identity relative to white identity on
the odds of admission or of achieving a given rating by
averaging the probability changes attributable to the
coefficient for African American identity in a relevant
model. See [Oct. 25 Tr. 21:18–22:17, 80:8–12,
96:19–97:24; PD38 at 24–25, 31]. Again, it must be
understood that the average marginal effect reflects an
average statistical relationship between a variable of
interest (such as race) and a modeled variable (such as
admissions outcome), and that relationship may or may
not be causal in nature.
Professors Card and Arcidiacono each prepared
models of the admissions process in which the
dependent variable is the admissions decision
(admitted or rejected). [Oct. 25 Tr. 216:22–217:7; Oct.
30 Tr. 101:15–17]. Their admissions models are broadly
similar and predict the probability of admission for
domestic non-transfer applicants by accounting for a
wide range of observable variables including gender,
disadvantaged status, first generation college applicant
status, fee waiver, whether the applicant applied for
financial aid, academic index, intended major,
secondary school type, indicators of parental education,
whether parents attended an Ivy League school,
whether parents are alive, geographic indicators, and
standardized test results. See [Oct. 30 Tr. 143:16–25];
see also [PD38 at 26].

App. 186
There are, however, several critical differences in
the structure and control variables utilized by
Professor Card’s and Professor Arcidiacono’s respective
models. As a result of these differences, Professors
Card’s model returns a coefficient for Asian American
identity that is negative but not statistically
significant, meaning that the model does not strongly
suggest that Asian American as opposed to white racial
identity affects an applicant’s chances of admission,
whereas Professor Arcidiacono’s model returns a
negative coefficient for Asian American identity that is
statistically significant, meaning that his model
suggests that Asian American identity is associated
with a lower chance of admission, when controlling for
the other variables he includes. [Oct. 25 Tr. 115:1–11;
Oct. 30 Tr. 129:9–16, 132:21–134:11]. The modeling
differences that result in these disparate conclusions
are discussed infra at Section V.F.
Professor Arcidiacono also prepared a series of
ordered logit estimates that SFFA contends show how
well the ratings assigned for the academic,
extracurricular, personal, overall, and school support
ratings can be predicted. [Oct. 25 Tr. 90:10–91:23,
150:2–6; Oct. 30 Tr. 101:15–17; Oct. 31 Tr.
188:22–189:1; Nov. 1 Tr. 76:3–11, 79:15–19; PD38 at
28]. These models are similar to Professor Arcidiacono’s
model of admissions decisions, except that they are
intended to be probative of the effect of race on the
ratings assigned by admissions officers rather than the
applicants’ probability of admission. [Oct. 25 Tr.
90:16–91:10]. Professor Arcidiacono’s preferred ordered
logit models control for application year, application
docket, academic index, SAT scores, SAT II scores, high

App. 187
school GPA, extremely low-grade applicants, parental
education level, including whether a parent attended
an Ivy League school, whether the applicant’s parents
are alive, expected college major, gender, high school
type, neighborhood, disadvantaged status, receipt of an
application fee waiver, first generation college
applicant status, whether the applicant applied for
financial aid, profile ratings other than the dependent
variable, teacher recommendation ratings, guidance
counselor rating, alumni ratings, and certain
interactions among those variables. See [id. at
82:13–85:3; PD38]. To the extent that Professor
Arcidiacono’s models imply that Asian American
identity is associated with the ratings assigned by
admissions officers, his models suggest that the
magnitude and direction of the relationship (bonus or
penalty) varies by rating and depends on whether an
Asian American applicant is male or female and
whether or not they are economically disadvantaged.
See [PD38 at 28–35].
E. Regression Models of School Support,
Profile, and Overall Ratings
Although the experts’ models of admissions
outcomes are most probative of whether Harvard has
engaged in discrimination against Asian Americans
relative to white applicants, there are also related
statistical relationships between race and the profile
and school support ratings. Because those ratings serve
as inputs for the proposed admissions outcome models,
the Court will briefly address the extent to which race
might appear to impact the ratings assigned by

App. 188
admissions officers before turning to the admissions
outcome models themselves.
1. Relationship Between Race and School
Support Ratings
As discussed supra at Section V.C, Asian American
applicants have lower average school support ratings
than white applicants. There are several conceivable
explanations for the disparity including actual
differences in non-academic strengths, a correlation
between the quality of the guidance counselor or
teacher recommenders and the racial makeup of high
schools, biased teachers and guidance counselors, or
biased Harvard admissions officers. Considering the
testimony of Harvard’s admissions officers and the
admissions process itself, the Court views Harvard
admissions officer bias as an unlikely explanation for
the disparity in school support ratings and concludes
that race-related variance in the school support ratings
result from some combination of the other potential
causes, all of which are beyond Harvard’s control.
Further, when considering regression analyses,
because school support ratings can be included in
admissions outcome models, any racial effect that
impacts admissions decisions through the school
support ratings can be controlled for.
Importantly, however, although the school support
ratings themselves provide only an overall numeric
evaluation of recommendations, the school support
materials are in fact more nuanced and the substance
of them informs perceptions about applicants across
numerous dimensions. [Oct. 31 Tr. 36:16–37:16].
Considering the stereotypes and biases that favor and

App. 189
disfavor Asian American applicants in different
evaluation dimensions, the impact of race on the school
support ratings could be understood to suggest that the
overall numeric score masks more subjective
disparities in how applicants from different racial
groups are presented by their recommenders. See [id.].
Therefore, to the extent Asian Americans are presented
by guidance counselors and high school teachers as
weaker in personal characteristics that Harvard values
and those presentations inform the personal rating,
omission of the personal rating results in an omitted
variable bias that cannot be fully captured by including
a school support rating control variable.
2. Relationship Between Race and Personal
Ratings
Professor Arcidiacono’s preferred model suggests
that Asian American identity reduced a Baseline
Dataset applicant’s probability of receiving a personal
rating of 2 or higher. The model implies that when
holding constant nearly all of the available observable
variables, Asian American identity is associated with
a lower probability of being assigned a strong personal
rating by an admission officer. More precisely, his
model suggests that an average Baseline Dataset Asian
American applicant has a 17.8% probability of
receiving a 2 or higher on the personal rating, which is
lower than the 21.6% chance that the model suggests
the applicant would have in the absence of any racial
preference. [Oct. 25 Tr. 96:24–97:24; PD38 at 31].
Harvard did not offer a competing regression model to
show that no statistically significant relationship
between Asian American identity and the personal

App. 190
rating exists, and the Court therefore concludes that
the data demonstrates a statistically significant and
negative relationship between Asian American identity
and the personal rating assigned by Harvard
admissions officers, holding constant any reasonable
set of observable characteristics.
The Court finds, however, that Professor
Arcidiacono’s preferred model likely overstates the
direct effect of Asian American identity on the personal
rating. First, as discussed supra at Section III.B.4,
Harvard’s witnesses credibly testified that they did not
use race in assigning personal ratings (or any of the
profile ratings) and did not observe any improper
discrimination in the admissions process. [Oct. 18 Tr.
49:17–19; Oct. 19 Tr. 48:24–49:19, 253:4–17; Oct. 23 Tr.
50:24–51:4, 219:21–24; Oct. 24 Tr. 122:5–8; Nov. 1 Tr.
246:18–247:4, 253:18–25]. The uniformity of these
observations is persuasive given the collective manner
in which admissions decisions are made, with all
members of the Admissions Committee participating in
all decisions and having real-time visibility into the
process for each applicant. Any causal relationship
between Asian American identity and the personal
rating must therefore have been sufficiently subtle to
go unnoticed by numerous considerate, diligent, and
intelligent admissions officers who were immersed in
the admissions process.
Second, Professor Arcidiacono’s model explains only
a portion of the variation in personal ratings and likely
suffers from considerable omitted variable bias. The
model does not include variables for several factors
that influence personal ratings and may correlate with

App. 191
race, such as the extent to which applicants’ essays and
personal statements demonstrated their abilities to
overcome obstacles or personal achievements that
might reasonably be perceived as an indication of
leadership ability or other personal strengths. [Oct. 31
Tr. 35:15–36:9]. 48
Third, as discussed supra at Section V.C, E, teacher
and guidance counselor recommendations seemingly
presented Asian Americans as having less favorable
personal characteristics than similarly situated
non-Asian American applicants, and the school support
ratings do not fully reflect more subtle racial
disparities. As the experts’ analyses demonstrate, some

48

Speculating on how unobserved variables may be influencing the
model’s implied effect of race on the personal ratings is fraught
with difficulty. Although the Court has not received statistical
evidence on the effect of race on specific high school achievements,
it is likely that some high school achievements are themselves
effected by racial biases. One might question the effect, positive or
negative, of being Asian American on the probability of being
selected to a leadership position such as class president, captain of
a sports, math, or debate team, or the likelihood of being identified
as an outspoken advocate, a natural leader, or an intellectual
superstar. Professor Arcidiacono’s models account for some of these
considerations, to some degree, through inclusion of the school
support ratings, but much of the variation in applicants’ qualities
cannot easily be boiled down to econometrically digestible
variables. [Oct. 31 Tr. 35:15–36:9]. It is possible that Asian
American applicants to Harvard are being disadvantaged by biases
in their high schools that affect their college applications.
Admissions officers have no easy mechanism to measure or correct
for these biases, except to carefully review individual applicants in
a holistic way and to recognize and consider applicants’ accounts
of how their racial identities have shaped their pre-college
experiences.

App. 192
race-correlated variation in teacher and guidance
counselor recommendations is likely a cause of at least
part of the disparity in the personal ratings. See supra
at Sections V.C, E. Professor Card’s analysis shows
that the school support ratings for Asian American
applicants are generally weaker than the ratings for
white students when comparing white and Asian
American students who receive the same academic
rating. [DX692 at 4]; see [DD10 at 68]. For example,
approximately 43% of white students who receive an
academic score of 2 have school support ratings (from
their two teacher and one guidance counselor
recommendations) that sum to 7 or less (indicating
very strong recommendations), while only about 37% of
Asian American applicants with an academic score of
2 receive similarly strong school support ratings. [Oct.
31 Tr. 55:11–56:2]. Because teacher and guidance
counselor recommendation letters are among the most
significant inputs for the personal rating, the apparent
race-related or race-correlated difference in the
strength of guidance counselor and teacher
recommendations is significant. See [id. at 54:6–56:2;
DD10 at 67–68]. The Court reiterates that to the extent
that disparities in the personal ratings are explained
by teacher and guidance counselor recommendation
letters, Harvard’s admissions officers are not
responsible for any race-related or race-correlated
impact that those letters may have.
Additionally, correlation between race and the
personal and school support ratings does not clearly
demonstrate a causal relationship, given the
correlation between race and numerous factors that
likely influence teacher and guidance counselor

App. 193
recommendations and admissions officers’ evaluation
of personal and overall strength. For example, a
privileged student and a disadvantaged student with
the same academic performance may well not receive
similar teacher and guidance counselor
recommendations. Similarly, a student that works part
time and a student that does not may receive different
recommendations even with the same academic
performance and without reference to race, but if
working outside of school correlates to race and informs
teacher, guidance counselor, and admissions officers’
evaluation of applicants, the school support and
personal ratings may correlate with race, although race
might not be the cause of the differential. In other
words, race-correlated disparities in personal ratings
for applicants who have similar academic qualifications
may reflect underlying differences in the backgrounds
and experiences of applicants that happen to correlate
with race but are not racially motivated. That being
said, it is not clear that these sorts of considerations
adequately explain the difference in personal ratings
between white and Asian American applicants in
Professor Arcidiacono’s decile analysis or the similar
analysis Professor Card has offered.
Overall, the disparity between white and Asian
American applicants’ personal ratings has not been
fully and satisfactorily explained. Because some of the
disparity in personal ratings is due to teacher and
guidance counselor recommendations, the issue
becomes whether the remaining disparity reflects
discrimination. The disparity in personal ratings
between Asian American and other minority groups is
considerably larger than between Asian American and

App. 194
white applicants and suggests that at least some
admissions officers might have subconsciously provided
tips in the personal rating, particularly to African
American and Hispanic applicants, to create an
alignment between the profile ratings and the
race-conscious overall ratings that they were assigning.
See [PD38 at 33]. It is also possible, although
unsupported by any direct evidence before the Court,
that part of the statistical disparity resulted from
admissions officers’ implicit biases that disadvantaged
Asian American applicants in the personal rating
relative to white applicants, but advantaged Asian
Americans over whites in the academic rating.
Further, the Court cannot accurately estimate what
portion of the difference in the personal ratings
resulted from the strength of the personal qualities
that Harvard seeks to measure or from differences in
how Asian American applicants are presented to
Harvard by high schools relative to other applicants, as
opposed to being the effect of implicit biases. Taking
account of all the available evidence, it is possible that
implicit biases had a slight negative effect on average
Asian American personal ratings, but the Court
concludes that the majority of the disparity in the
personal rating between white and Asian American
applicants was more likely caused by race-affected
inputs to the admissions process (e.g. recommendations
or high school accomplishments) or underlying
differences in the attributes that may have resulted in
stronger personal ratings.

App. 195
3. Regression Models of the Academic,
Extracurricular, and Overall Ratings
Unlike the personal ratings, the experts agree that
the academic and extracurricular variables should be
included in the admissions outcome model and that the
overall rating should not be included because Harvard
acknowledges that it is directly affected by racial
identity. See [PD38 at 26; DD10 at 46–47].
Nevertheless, because the profile ratings may all be
impacted by race in a very marginal manner, the Court
will briefly discuss the econometric models of these
variables. Professor Arcidiacono’s logistic regression
models for the academic, extracurricular, and overall
ratings suggest a non-uniform effect of Asian American
identity on those ratings. [Oct. 25 Tr. 91:11–92:20,
109:23–110:13; PD38 at 28–33]. The academic and
extracurricular ratings models return positive
coefficients for Asian American identity, while the
overall rating model returns a negative coefficient for
Asian Americans (with the exception of disadvantaged
Asian American females). See [Oct. 25 Tr. 92:24–94:10,
107:8–13, PD38 at 29, 32–33].
A comparison between the strength of Asian
American applicants on the observable characteristics
included in Professor Arcidiacono’s academic and
extracurricular rating models and the coefficients for
Asian American groups suggests that Asian Americans
have traits, other than their racial identity, that make
them likely to score well in academic and
extracurricular ratings. [Oct. 25 Tr. 107:8–110:17;
PD38 at 32–33]. This implies that the positive
coefficients for Asian American identity in the

App. 196
academic and extracurricular ratings models are likely
at least partially the result of unobservable
characteristics that correlate with race, and Professor
Arcidiacono has posited that is indeed likely the cause.
[Oct. 25 Tr. 108:24–109:8, 110:14–17]. The Court finds,
however, that although omitted variables are likely
partially responsible for the positive coefficients for
Asian American identity in Professor Arcidiacono’s
models for the academic and extracurricular ratings,
those coefficients could also partially be the result of
slight implicit bias that favors Asian Americans in
these areas.
Professor Arcidiacono’s model of the overall rating
yields negative coefficients for Asian American males
and non-disadvantaged Asian Americans females.
[PD38 at 29]. This suggests that Asian Americans who
are not also disadvantaged females might receive lower
overall ratings because of their racial identity relative
to similarly-situated white applicants, see [Oct. 25 Tr.
92:20–94:10; PD38 at 29], but the result is subject to
substantially the same criticism that Harvard lodges
against Professor Arcidiacono’s admissions outcome
model, namely that Professor Arcidiacono’s modeling
choices do not fully reflect the actual admissions
process and that his decision to exclude ALDC
applicants was results-driven. Regardless, the Court
finds it unnecessary to delve further into the overall
rating disparity because it is the odds of admission, not
an apparent disparity in the odds of receiving a high
overall rating, that is primarily at issue, and Harvard
acknowledges and intends that race may be factored
into the overall rating. See [Oct. 18 Tr. 167:17–168:6].

App. 197
F. Regression
Outcome

Models

of

Admissions

As noted supra at Section V.D, both Professors
Arcidiacono and Card prepared models of domestic
non-transfer applicants’ probability of admission to
Harvard based on a wide array of variables. [Oct. 25
Tr. 21:18–23:23, 215:12–15; Oct. 30 Tr. 176:18–177:7].
Professor Card’s preferred model returns a negative
coefficient for Asian American identity (suggesting a
lower likelihood of admission), but the relationship is
slight, not statistically significant, and is positive
(suggesting an increased likelihood of admission) for
some class years. [Oct. 30 Tr. 129:9–16, 132:21–134:11;
DX685; DD10 at 30].49 Professor Arcidiacono’s
preferred model returns a statistically significant
negative coefficient for non-ALDC Asian American
applicants, which implies a penalty for non-ALDC
Asian American applicants relative to non-ALDC white
applicants. [Oct. 25 Tr. 115:1–118:10; PD38 at 34].
Professors Card’s and Professor Arcidiacono’s
preferred models differ in the following significant
respects: (1) Professor Arcidiacono interacts race and
disadvantaged status; (2) Professor Arcidiacono
excludes the personal rating from the model;

49

Professor Card also modeled the admissions outcomes for two
subgroups of Asian Americans: females and applicants from
California. He found that Asian American identity within these
subgroups returned positive coefficients that were not statistically
significant. [Oct. 25 Tr. 154:7–155:3; Oct. 30 Tr. 136:8–137:8].
These models show that to the extent biases influenced the
admissions process, those biases were not uniform across the Asian
American applicant population.

App. 198
(3) Professor Arcidiacono excludes ALDC applicants;
(4) Professor Arcidiacono pooled the 2014–2019
applicant data into a single model with effects for class
years, whereas Professor Card used separate
year-by-year models and thereby allowed the effect of
variables to vary by admissions cycle; and (5) Professor
Arcidiacono excludes parental occupation, intended
career, and an indicator for whether applicants
interviewed with a staff member. See [Oct. 31 Tr.
88:21–91:23; DD10 at 84]. For the reasons discussed
below, the Court finds both experts’ approaches to be
econometrically defensible, but prefers Professor
Arcidiacono’s approach with respect to interacting race
and disadvantaged status and prefers Professor Card’s
inclusion of ALDC applicants, use of year-by-year
models, and inclusion of parental occupation, intended
career, and staff interview variables, and finds models
with and without the personal rating to be worthy of
consideration.
Professor Arcidiacono reasonably interacted race
and disadvantaged status. [Oct. 25 Tr. 150:11–19]. This
approach is consistent with the approach taken by OIR
in response to Dean Fitzsimmons’ request and reflects
the possibility of some interaction between race and
disadvantaged status. See [Oct. 17 Tr. 127:22–129:17;
Oct. 25 Tr. 150:11–151:1; PX26]. It was not
unreasonable, however, for Professor Card not to
interact the selected variables. The inclusion of these
interaction terms has only a modest impact on the
average marginal effects of Asian American identity
generated by the admissions models, and their
inclusion alone does not result in Asian American
identity having a statistically significant effect when

App. 199
the terms are added to Professor Card’s model. [Oct. 31
Tr. 89:11–18; DD10 at 84].
There is a reasonable econometric basis for
removing the personal ratings from the admissions
models given the possibility that the personal ratings
are affected by race. See [Oct. 25 Tr. 91:17–92:1].
Removing the personal rating, however, expands the
omitted variable bias because the relationship between
race and the personal rating is likely partially
reflective of biases external to the Admissions Office,
characteristics that are correlated with race, and life
experiences that are impacted by race. See supra at
Section V.C. Therefore, although the Court believes
that including the personal rating results in a more
comprehensive analysis, models with and without the
personal rating are econometrically reasonable and
provide evidence that is probative of the effect of race
on the admissions process.
Professor Card’s inclusion of ALDCs in the
admissions model is preferred by the Court. Although
ALDCs benefit from sizable tips owing to their
respective statuses as recruited athletes, legacies,
dean’s or director’s list members, or children of faculty
or staff, they are evaluated through the same basic
admissions process as other applicants and their
admission outcomes provide data that is probative of
whether Harvard is discriminating against Asian
Americans. [Oct. 17 Tr. 203:19–22; Oct. 25 Tr.
30:13–31:3, 233:25–234:3]. Including ALDCs in the
model is particularly warranted where they account for
approximately 30% of Harvard’s admitted students and

App. 200
therefore provide a significant portion of the datapoints
for admitted students. [DX706, DD10 at 38].
Professor Arcidiacono acknowledges that Asian
American ALDCs are not discriminated against. See
[Oct. 25 Tr. 120:23–126:8]. His corresponding
suggestion that only non-ALDC Asian Americans face
discrimination in the admissions process is
inadequately supported by non-statistical evidence.
Further, it does not seem likely that Harvard would
discriminate against non-ALDC Asian Americans, but
not discriminate against ALDC Asian American
applicants or that there would be a race-related
explanation for treating the two groups differently,
especially given the Court’s conclusion based on the
testimony of Harvard’s admission officers that any
race-related discrimination against Asian American
applicants relative to white applicants is unintentional.
Additionally, the tips that only ALDCs receive, for
example for being recruited athletes, can be adequately
accounted for through the inclusion of variables for
those characteristics. See [Oct. 30 Tr. 157:24–158:14].
Overall, including ALDCs leads to a model that more
accurately reflects how the admissions process works
and takes into account a larger percentage of the
admitted class. In the view of the Court, looking at only
a portion of a class or carving out the segments where
there is less likely to be discrimination distorts the
analysis just as carving out the segments where there
is mostly likely to be discrimination would do the same
but to the benefit of the other party. [Id. at
166:21–167:20].

App. 201
For similar reasons, Professor Card’s modelling of
each individual admissions cycle is preferable to
Professor Arcidiacono’s pooling of applicants from the
six admissions cycles of available data. Professor Card’s
year-by-year approach conforms to the reality that the
effect of various characteristics in the admissions
process may change slightly between years, as
Harvard’s institutional interests or admissions policies
shift or when the composition of the applicant pool
changes. [Id. at 167:25–170:15]; see, e.g., [DX703;
DX704]. Further, modeling each annual admission
cycle independently recognizes that having a class that
is 30% African American one year and 0% the next is
not the same as having 15% each of those years.
Professor Arcidiacono pooled the admissions cycles to
achieve a more precise estimate of the effect of Asian
American racial identity, but Professor Card’s model
achieves a lower standard error, which is an indication
of the precision of the model. [Oct. 30 Tr.
172:21–175:18; DD10 at 45].
Professor Arcidiacono omitted intended career, staff
interview indicator, and parental occupation from his
model. [Oct. 25 Tr. 145:21–148:12]. The Court prefers
a model that includes these variables because they play
a role in the admissions process. [Oct. 26 Tr. 8:25–
9:21, 10:17–11:6; Oct. 31 Tr. 9:3–7]. Further, these
variables correlate with race and therefore create a
significant potential for omitted variable bias if
excluded. [Oct. 31 Tr. 10:16–18, 11:15–12:21,
21:19–22:14; DX677; DX681; DD10 at 54]. Professor
Arcidiacono excluded these variables primarily because
of data issues, including unexplained year-to-year
fluctuations in the distribution of parental occupation

App. 202
and intended career categorizations. [Oct. 25 Tr.
145:21–148:12; DD10 at 50–52, 56]. As examples,
numerous parents who were categorized as having
low-skill jobs for the class of 2014 would likely have
been categorized as being self-employed for the class of
2015, and there is a substantial decrease in the number
of parents categorized as unemployed among
applicants to the class of 2017 versus the class of 2018.
[Oct. 25 Tr. 146:4–147:9; DD10 at 51–52]. Although the
data for parental education and intended career are not
as consistent year-to-year as would be ideal, including
the variables is preferable because their exclusion
results in omitted variable bias that exaggerates the
effect of race that is implied by the models. [Oct. 30 Tr.
146:18–147:6; DX695; DD10 at 35]. Professor Card’s
model deals effectively with data categorization
inconsistencies by treating each admission cycle
separately, and SFFA has not shown that the data is
unreliable within any admissions cycle. [Oct. 30 Tr.
169:12–24]. This data might well need to be excluded if
using one data pool for all admission years, but there
is no need to exclude it when modeling admissions
decisions year-by-year.
Professor Card included a staff interview indicator
variable, while Professor Arcidiacono excluded the
indicator based on his conclusion that the score from an
interview should matter, not whether an applicant was
interviewed. [Oct. 25 Tr. 148:13–18]. Interviewing with
an Admissions Office staff member seemingly affects
an applicant’s probability of admission to Harvard,
perhaps because it provides an applicant with a
potential advocate in the Admissions Office irrespective
of how well the applicant performs in that interview,

App. 203
and the Court concludes that including the indicator
variable is preferable. See [Oct. 31 Tr. 25:7–27:8].
The Court finds that Professors Card and
Arcidiacono each presented a viable econometric model
but will rely on Professor Card’s model with the
interaction terms utilized by Professor Arcidiacono and
then consider results both with and without the
personal rating variable included. This model would
return a slightly negative coefficient and average
marginal effect for Asian American identity, but that
coefficient is only statistically significant in the version
of the model where the personal rating variable is
excluded. See [Oct. 30 Tr. 146:6–17; DD10 at 35]. In
fact, without any modifications, Professor Card’s model
returns a slight positive average marginal effect for
Asian American identity in three of the six admission
cycles that the experts analyzed. [DD10 at 30].
Whether the personal rating variable is included or
not, the lower probability of admission to Harvard that
appears associated with Asian American identity is
slight, with an average marginal effect of Asian
American racial identity on admissions probability that
is well below minus one percentage point (i.e. closer to
zero). The model does not demonstrate any intent by
admissions officers to discriminate based on racial
identity, and the implied effect is so slight that it is
possible that the coefficient would be positive, at least
with the personal rating included, if the model was
better able to account for unobserved factors. It is also
possible that the negative coefficient and average
marginal effect reflect a very slight implicit bias that
could have played a modest role in lowering Asian
Americans’ admissions probability in some of the

App. 204
2014–2019 admissions cycles. If so, the effect was so
slight that it went unnoticed by careful and
conscientious observers within the Admissions Office.
The implied effect varies by admissions cycle and, with
the personal rating variable included, results in a
positive, statistically insignificant effect for the 2019
class year, which suggests, even though the change is
not statistically significant, that any implicit biases
against Asian Americans dissipated or were eliminated
after the Admissions Office was confronted with the
allegations at issue here. See [Oct. 30 Tr.
163:22–164:22; DD10 at 41].
G. Absence of Statistical Support for Racial
Balancing or Quotas
Harvard does not have any racial quotas and has
not attempted to achieve classes with any specified
racial composition. [Oct. 18 Tr. 112:1–21, 197:16–19;
Oct. 19 Tr. 65:13–25, 197:14–20; Oct. 24 Tr. 123:15–18,
174:10–18, 210:2–9; Nov. 1 Tr. 249:24–250:6]. As
discussed supra at Section III.B.4, Harvard evaluates
the likely racial composition of its class and provides
tips to applicants to help it achieve a diverse class.
Those tips are necessary to achieve a diverse class
given the relative paucity of minority applicants that
would be admitted without such a tip. In trying to
assure a diverse class, when reviewing an individual
applicant, the admissions officers consider various
qualitative and numerical indicators of diversity,
including the racial composition of the group of
students who are expected to be admitted.
Although Harvard tracks and considers various
indicators of diversity in the admissions process,

App. 205
including race, the racial composition of Harvard’s
admitted classes has varied in a manner inconsistent
with the imposition of a racial quota or racial
balancing. See [Oct. 31 Tr. 119:10–121:10; DX711]. As
Figures 1 and 2 show, there has been considerable
year-to-year variation in the portion of Harvard’s class
that identifies as Asian American since at least 1980.
See [DX711 at 2; DD10 at 100–101].

App. 206
Figure 1: Percent Change in Year-to-Year
Admittance of Students by Race.
[DD10 at 100; DX711].

App. 207
Figure 2: Percent of Applicants and Admitted
Students by Race 1980 through 2019.
[DD10 at 100; DX713].

App. 208
The demographic makeup of Harvard’s classes from
1980 through 2019 show significant changes to the
composition of each class, and there has been more
year-to-year variation in admitted Asian American
applicants than year-to-year variation in the number of
applicants. [DX713; DD10 at 104]. From 1980 to 2019,
Asian Americans went from 4.1% of applicants and
3.4% of admitted students to 21.2% of applicants and
20.6% of admitted students. [DX713]. Since 1980, the
Asian American proportion of the admitted class has
increased roughly five-fold, and since 1990 the Asian
American proportion of the admitted class has
increased roughly two-fold. [Id.]. SFFA did not offer
expert testimony on racial balancing and instead
asserts that the claim can be resolved without any
expert analysis. [Oct. 25 Tr. 202:6-203:1; ECF No. 627
§ 84].
The Court finds that the statistical evidence shows
that Harvard has not imposed racial quotas or
otherwise engaged in impermissible racial balancing.
VI.

FINDINGS OF FACT: RACE-NEUTRAL
ALTERNATIVES

Under the strict scrutiny rubric established by the
Supreme Court, Harvard may consider race to achieve
diversity only if there is no workable race-neutral
alternative to the consideration of race to ensure a
sufficiently diverse class. SFFA introduced models on
race-neutral alternatives through an expert, Richard
Kahlenberg.50 The Smith Committee’s conclusions and
50

Mr. Kahlenberg is a senior fellow at The Century Foundation,
where he has worked for the last twenty years. He graduated from

App. 209
the analysis performed by Professor Card and Mr.
Kahlenberg all convincingly establish that no workable
race-neutral alternatives will currently permit Harvard
to achieve the level of racial diversity it has credibly
found necessary for its educational mission.
Harvard’s race-conscious admissions policy has a
significant impact on the racial diversity of its class,
with African American and Hispanic applicants being
the primary beneficiaries in terms of their admissions
probabilities. The policy of considering applicants’ race
may improve the admission chances of some Asian
Americans who connect their racial identities with
particularly compelling narratives, but overall results
in fewer Asian American and white students being
admitted. See [Oct. 31 Tr. 127:22–128:15]. Any
race-neutral alternative will be deemed workable only
if it would allow Harvard to achieve the benefits that it
derives from its current degree of diversity within a
given class year, while also being practicable,
affordable, and not requiring a material decline in
academic quality or any of the other measures of
excellence valued by Harvard.
Currently, although always considered in
conjunction with other factors and metrics, race is a
determinative tip for approximately 45% of all
admitted African American and Hispanic applicants.
See [DX721 at 1]. At least 10% of Harvard’s admitted

Harvard College in 1985 and received a juris doctor from Harvard
Law School in 1989. Mr. Kahlenberg has published works on
numerous socioeconomic subjects, including the use of race-neutral
alternatives in college admissions. [Oct. 22 Tr. 7:15–12:10].

App. 210
class, including more than one third of the admitted
Hispanics and more than half of the admitted African
Americans, would most likely not be admitted in the
absence of Harvard’s race-conscious admissions
process. See [Oct. 31 Tr. 127:22–129:2; DX721; DD10 at
107].51 In the absence of any other adjustments to
Harvard’s admissions policy, eliminating consideration
of race would cause the African American
representation at Harvard to decline from
approximately 14% to 6% of the student population and
Hispanic representation to decline from 14% to 9%.
[Oct. 31 Tr. 126:21–129:2]. Over the course of four
years, the number of African American and Hispanic
students at Harvard would fall by nearly 1,000
students. See [Oct. 25 Tr. 167:20–168:4; PD38 at 39].
The Court notes that Harvard’s current admissions
policy does not result in under-qualified students being
admitted in the name of diversity—rather, the tip
given for race impacts who among the highly-qualified
students in the applicant pool will be selected for
admission to a class that is too small to accommodate

51

The econometric models fail to fully reflect the number of
students for whom race is determinative. Among other factors, the
increased Asian American representation that the models project
would likely not include all Asian American students who are
admitted under the current race-conscious approach. In the total
absence of a race-conscious policy, some Asian American
applicants who excelled on academic, athletic, or other metrics of
success would likely replace some number of Asian American
students from disproportionately less advantaged backgrounds
who tell compelling stories about their personal identities that
require an understanding of their race. See, e.g., [Oct. 18 Tr.
52:19–56:21; Oct. 29 Tr. 147:6–152:12].

App. 211
more than a small percentage of those qualified for
admission.52 Therefore, removing attention to race,
without a workable race-neutral alternative, would
cause a sharp decline in the percentage of African
American and Hispanic students at Harvard without
resulting in a particularly significant increase in the
overall academic strength of the class.53
The parties’ experts, as well at the Smith
Committee, examined numerous race-neutral
alternatives to determine if they, alone or in
combination, could conceivably limit the decline in
racial diversity in Harvard’s class in the absence of a
race-conscious admissions policy. See [Oct. 22 Tr.
18:1–11; Oct. 31 Tr. 129:3–130:4; PX316 at 6–18].
These alternatives included eliminating early action,
tips for ALDC applicants, the practice of offering
deferred admissions or z-listing applicants, and
consideration of standardized test scores, as well as
expanding recruiting and partnership efforts,
admitting more transfer students, utilizing a
place-based quota system, and expanding preferences
for economically disadvantaged applicants. [Oct. 22 Tr.
33:15–49:8; Oct. 31 Tr. 130:5–130:23, 133:10–20; PX316

52

Moreover, other tips in the admissions process, like so many
facets of modern-day American life, disproportionately benefit
individuals in the majority and more affluent group.
53

Similarly, removing the tips for recruited athletes would result
in a sharp decline in admitted athletes, removing the tips for
children of faculty or staff would reduce their representation, and
eliminating the tip for legacies would decrease their numbers as
well. In other words, removing any tips changes the make-up of the
admitted class, but not necessarily its overall quality.

App. 212
at 6–18; DD10 at 109]. As more fully set forth below,
Harvard has demonstrated that none of these
approaches, individually or in combination, would
allow it to reach the level of racial diversity that it
believes necessary to achieve its educational mission
without significant consequences to the strength of its
admitted class.
A. Eliminating Early Action
In an earlier effort to both increase diversity and
level the admissions playing field for less advantaged
applicants, Harvard eliminated its early action
program for the classes of 2012 through 2015, believing
that early action disproportionately benefitted affluent
applicants and hoping that other elite colleges would
follow its lead, which they largely did not. [PX316 at
15]. This actually had the unintended consequence of
decreasing matriculation rates among some categories
of African American and Hispanic applicants,
apparently because the most qualified of those
prospective applicants were choosing to attend other
colleges that offered early admission or early decision.
[Oct. 23 Tr. 156:17–157:22; DX39 at 2–4]. As a result,
Harvard reinstituted an early action program for the
class of 2016. [PX316 at 15; DX39 at 4]. Harvard’s
actual experience is more probative of the probable
result of such a change than econometric
prognostications and shows that the likely effect of
removing early action on African American and
Hispanic enrollment is negative or near zero. [Oct. 31
Tr. 133:20–135:24; DX728 at 3]. As such, eliminating
early action does not present a viable race-neutral
option for achieving student body diversity.

App. 213
B. ALDC Tips
Preferences or tips for ALDC applicants and related
deferred admissions also disproportionately benefit
socioeconomically advantaged applicants. See [PX316
at 16–17]. Although removing tips for these applicants
would improve socioeconomic diversity at Harvard and
increase the number of Asian American students, it
would not significantly increase the number of African
American and Hispanic students if implemented alone.
[Oct. 31 Tr. 131:8–133:8; DX720; DD10 at 112].
Professor Card reasonably estimated that eliminating
tips for race and ALDC status, along with eliminating
deferred admissions, would cause African American
enrollment to decline from 14% to 5% and Hispanic
enrollment to decline from 14% to 9%. [Oct. 31 Tr.
132:15–133:19; DX720; DD10 at 112]. Eliminating tips
for ALDC applicants would have the effect of opening
spots in Harvard’s class that could then be filled
through an admissions policy more favorable to
non-white students, but Harvard would be far less
competitive in Ivy League intercollegiate sports, which
would adversely impact Harvard and the student
experience. [Oct. 30 Tr. 40:12–41:21]. Eliminating tips
for legacies, applicants on the dean’s and director’s
interest lists, and children of faculty or staff would also
come at considerable costs, and would adversely affect
Harvard’s ability to attract top quality faculty and staff
and to achieve desired benefits from relationships with
its alumni and other individuals who have made
significant contributions to Harvard. [Oct. 23 Tr.
164:19–167:2; Oct. 30 Tr. 20:17–21:8, 35:25–43:13;
PX316 at 16–17].

App. 214
Therefore, eliminating tips for ALDC applicants and
related deferred admissions practices is not alone an
adequate race-neutral alternative given the limited
probable impact on racial diversity and the likely
adverse consequences for Harvard and student life. The
Court notes that reasonable minds can differ on the
importance of college athletics, alumni relations, and
admitting the children of faculty and staff, but takes no
position on these issues other than to note that these
are topics best left to schools to figure out for
themselves. As relevant here, eliminating these tips or
preferences is largely unrelated to the goal of diversity
or the issue of race, and in any event, is not a
race-neutral alternative that would obviate the need
for considering race in admissions.
C. Augmenting Recruiting Efforts and
Financial Aid
Harvard looked at expanding recruiting and
partnership efforts and providing more financial aid as
a way to increase diversity without having to consider
race in the application process. The college already
makes significant outreach efforts and provides
exceptionally generous financial aid. [PX316 at 9–11].
In addition to the HFAI and UMRP programs
discussed supra at Section III.A.2, the Smith
C o m m i t t e e ’s report descri b es a ddit i on a l
community-based outreach efforts and considered but
rejected the potential for pipeline programs that are
inconsistent with Harvard’s recruitment goals. [PX316
at 10]. Harvard has already reached, or at least very
nearly reached, the maximum returns in increased
socioeconomic and racial diversity that can reasonably

App. 215
be achieved through outreach and reducing the cost of
a Harvard education. See [Oct. 31 Tr. 158:15–161:2;
PX316 at 10–11; DD10 at 131–133].
D. Increasing Diversity by Admitting More
Transfer Students
Harvard might also increase diversity by admitting,
as transfers, students who might not have applied or
been accepted to Harvard at the outset. For example,
it is conceivable that if Harvard expanded its efforts to
attract and admit transfer students, it might be able to
admit some transfer applicants who did not have the
perspective to see attending Harvard as an option or
who excelled during two years at another college,
thereby demonstrating an academic prowess that
might not have been evident right out of high school.
Despite the facial appeal of these scenarios, Harvard
has demonstrated that accepting an increased number
of transfer applicants is also not a viable race-neutral
alternative because these applicants are, on average,
less diverse and less qualified than applicants to its
freshman class. [Oct. 31 Tr. 146:24–149:21; DX730;
DD10 at 124–125]. Further, Harvard operates as a
four-year residential college and the number of transfer
students that it can admit is constrained by the
number of available beds, meaning that there is not
room for transfer students unless other class members
drop out. [PX316 at 12–13].
E. Eliminating Standardized Testing
Eliminating consideration of standardized testing is
likewise not an adequate race-neutral alternative to
considering race in the admissions process. Harvard

App. 216
considers standardized tests to be reflective of
academic or intellectual strength and uses SAT and
ACT test scores in assigning academic ratings. [PX721
at 4]. Harvard has demonstrated that eliminating
consideration of standardized test scores in the
admissions process would lead to a reduction in the
academic qualifications of its admitted class, at least as
measured by the criteria Harvard presently uses. [Oct.
31 Tr. 143:23–146:11; DX722 at 3; DD10 at 121]. As the
Smith Committee found, standardized tests are
“imperfect measures,” but they can be a useful metric
when considered in tandem with an applicant’s
background. [PX316 at 18]. Although eliminating
consideration of standardized test scores might
improve diversity slightly, the effects on the academic
strength of Harvard’s admitted class makes
eliminating the consideration of standardized test
scores an unviable race-neutral alternative. See [Oct.
31 Tr. 153:4–154:17; DX723 at 3].
F. Place-Based Quotas
The Smith Committee considered place-based
quotas, such as admitting the top student from each
high school class or from each zip code. [PX316 at
11–12]. Harvard’s evaluation and rejection of these
ideas reflects the reality that Harvard is far too
selective and high schools and zip codes in the United
States too numerous for such an admissions policy to
be even close to workable. [Oct. 22 Tr. 107:6–108:2].
Harvard could achieve somewhat improved racial
diversity in the absence of a race-conscious admissions
policy by increasing the tips for students from
disadvantaged economic backgrounds and areas. Under

App. 217
any reasonable implementation, however, this
race-neutral approach would result in fewer African
Americans than are admitted under the current system
and would also come at the expense of traditional
measures of academic strength, such as SAT scores.
See [Oct. 22 Tr. 125:6–10, 126:17–127:23; PD27; PD29;
PD31; PD33].
Mr. Kahlenberg proposes a quota system where
Harvard commits to enrolling students from broad
neighborhood clusters constructed to generate more
representation from racially diverse and
disproportionately economically disadvantaged areas,
[Oct. 22 Tr. 35:23–36:16], but given the logistical
challenges of such an arrangement coupled with the
questionable legality of any sort of quota system, as
discussed infra at Section VII.G, place-based quotas are
not an available and workable race-neutral alternative.
G. SFFA’s Proposed Combinations
Various Race-Neutral Alternatives

of

Mr. Kahlenberg presented four simulations, labeled
A, B, C, and D, that model the combined effect of
various allegedly race-neutral alternatives on
Harvard’s class. [Oct. 22 Tr. 16:7–14, 29:20–47:6]. The
simulations, using the admissions models developed by
Professors Card and Arcidiacono with the models’
implied racial tips removed, project the diversity of
Harvard’s class with various modifications to the
models that are aimed at increasing racial diversity by
increasing the tip given to economically disadvantaged
applicants, further preferencing applicants from
disadvantaged geographic areas, and by removing
preferences currently used in Harvard’s admissions

App. 218
process for ALDC students or LDC students that
disproportionately benefit white applicants. [Oct 22 Tr.
27:11–27:7]. 54 These simulations show that Harvard
could achieve a significant increase in socioeconomic
diversity and an increase in the total representation of
African American, Hispanic and other (i.e. non-white
and non-Asian American) students in its classes but
only if it abandoned all preferences for legacies,
applicants on the dean’s or director’s interest lists, and
children of faculty or staff, and implemented a sizable
tip based on economic and geographic indicators of
disadvantage. See [PD27; PD29; PD31; PD33]. For
example, Simulation D projects that 49% of Harvard’s
class would be from an economically disadvantaged
background, relative to the 12% in the class of 2019.
[PD33].

54

In all of the simulations, the implied effects of tips given to
LDCs are removed. [Oct. 22 Tr. 34:17–35:9; PD32]. Simulation B,
which utilizes Professor Card’s model and simulation, projects the
effect of removing preferences for recruited athletes as well. [Id. at
41:3–42:9]. The simulations all impose some form of a
socioeconomic and/or geographic status boost. [PD32]. Model A
expands the boost associated with disadvantaged status such that
it is half the magnitude of the tip that the model suggests is
currently granted to recruited athletes and forces equal selection
of applicants from 33 neighborhood clusters, [Oct. 22 Tr.
35:23–36:16]; Model B boosts for socioeconomically disadvantaged
students based on census tract income, [id. at 41:20–42:1]; and
Simulations C and D modify the socioeconomic and census tract
boost used in Simulation B and consider whether an applicant
attended a disadvantaged high school, [id. at 43:7–44:16]. Models
A and C also remove the admissions models’ implied preference for
early action applicants, while models B and D include that
preference. [Id. at 42:2–3, 46:10–12; PD32].

App. 219
Mr. Kahlenberg’s changes to the admissions policy
would come at significant costs. In addition to the loss
of benefits provided by tips for ALDCs or LDCs, the
simulations show a 53 to 71-point decline in average
SAT scores. [PD27; PD29; PD31; PD33]. These declines
in average SAT score would be associated with more
significant declines in the expected strength of
Harvard’s class across the profile ratings, with the
amount of the expected decline varying depending on
the simulation selected. For example, under Simulation
C, the portion of the admitted class achieving a 1 or 2
in each profile rating falls by between 13% and 26%.
[DX729 at 11; DD10 at 141]. The simulations also
imply substantial changes to the academic interests of
Harvard’s admitted classes that would pose
administrative and staffing challenges. [DX729]. For
example, Mr. Kahlenberg’s models would likely lead to
more students being admitted who indicated an
intended concentration in engineering and fewer
admitted students who intend to concentrate in the
humanities, which would likely require Harvard to
expand and contract its academic programs
accordingly.
Finally, and perhaps most significantly for present
purposes, Mr. Kahlenberg’s simulations uniformly
suggest that African American representation in
Harvard’s incoming class would fall nearly one-third to
approximately 10% of the class. [Oct. 22 Tr. 127:16–23].
In order to achieve, without race-conscious policies,
comparable numbers of African American students in
its admitted classes to those Harvard currently
achieves, Harvard would likely need to eliminate all
ALDC preferences, eliminate consideration of

App. 220
standardized tests, significantly expand the tip for
disadvantaged applicants, and find a way to increase
the number of disadvantaged applicants so that more
of those disproportionately minority applicants could be
admitted. [Oct. 31 Tr. 153:4–154:3; DX723 at 1]. These
changes, even assuming they could be achieved, would
result in a significant decline in the strength of
Harvard’s admitted classes across multiple dimensions,
including its potential for academic and scholarly
achievement. See [Oct. 31 Tr. 154:2–24; DX723 at 3;
DD10 at 127].
Harvard plausibly concludes that reshaping its
incoming classes in this way would have negative
effects on Harvard’s attractiveness to potential
students, adversely affect the educational experience at
Harvard generally, and that the resulting decrease in
the number of African American students would
exacerbate “feelings of isolation and alienation among
racial minorities in Harvard’s community.” See supra
at Section III.A.1; [PX316 at 8].
The Court therefore concludes that Harvard has
demonstrated that there are no workable and available
race-neutral alternatives, singly or taken in
combination, that would allow it to achieve an
adequately diverse student body while still
perpetuating its standards for academic and other
measures of excellence. This conclusion is corroborated
by the work of the experts retained by both sides, none
of whom have proposed alternatives that would allow
Harvard to meet its diversity goals while not unduly
compromising on its other legitimate institutional
objectives.

App. 221
VII.

CONCLUSIONS OF LAW
A. Overview

The Court first affirms its previously expressed
view that SFFA has standing and then turns to SFFA’s
four pending Title VI claims: impermissible racial
balancing (Count II), failure to use race merely as a
“plus factor” (Count III) the availability of race-neutral
alternatives (Count V), and intentional discrimination
(Count I). Ultimately, the Court finds that Harvard has
met its burden of showing that its admissions process
complies with the principles articulated by the
Supreme Court in Fisher II, 136 S. Ct. at 2208, and
concludes that judgment must issue for Harvard on
each of the remaining claims.
B. SFFA Has Standing
The constitutional extent of federal court
jurisdiction is limited by Article III, which provides
that “judicial power” extends to “Cases” and
“Controversies” that, inter alia, arise “under this
Constitution [or] the Laws of the United States.” U.S.
Const. Art. III § 2, cl. 1. “Over the years, [Supreme
Court] cases have established that the irreducible
constitutional minimum of standing contains three
elements:” (1) “an injury in fact—an invasion of a
legally protected interest which is (a) concrete and
particularized and (b) actual or imminent, not
conjectural or hypothetical;” (2) “a causal connection
between the injury and the conduct complained of—the
injury has to be fairly traceable to the challenged
action of the defendant, and not the result of the
independent action of some third party not before the

App. 222
court;” and (3) “it must be likely, as opposed to merely
speculative, that the injury will be redressed by a
favorable decision.” Lujan v. Defenders of Wildlife, 504
U.S. 555, 561 (1992) (citations and modifying
punctuation omitted). “The party invoking federal
jurisdiction bears the burden of establishing these
elements.” Id.
Under the doctrine of associational standing, “an
association may have standing solely as the
representative of its members even in the absence of
injury to itself, in certain circumstances.” Camel Hair
& Cashmere Inst. of Am., Inc. v. Associated Dry Goods
Corp., 799 F.2d 6, 10 (1st Cir. 1986). As the Supreme
Court has held:
[A]n association has standing to bring suit on
behalf of its members when: (a) its members
would otherwise have standing to sue in their
own right; (b) the interests it seeks to protect are
germane to the organization’s purpose; and (c)
neither the claim asserted nor the relief
requested requires the participation of
individual members in the lawsuit.
Hunt v. Wash. State Apple Advert. Comm’n, 432 U.S.
333, 343 (1977).
During this litigation, SFFA demonstrated that its
members included individuals who had standing to
pursue this litigation on their own, that this litigation
was germane to SFFA’s purpose, and that the
injunctive relief SFFA seeks does not require the
participation of those members in this lawsuit. See
Students for Fair Admissions, 261 F. Supp. 3d at

App. 223
110–11. Harvard argued at the summary judgment
stage that the case had become moot because the SFFA
members who the Court found had individual standing
were no longer participating in the college admissions
process or seriously interested in transferring.
“Mootness usually results when a plaintiff has standing
at the beginning of a case, but, due to intervening
events, loses one of the elements of standing during
litigation . . . .” Wild Earth Guardians v. Pub. Serv. Co.
of Colo., 690 F.3d 1174, 1182 (10th Cir. 2012) (citing
Arizonans for Official English v. Arizona, 520 U.S. 45,
68 n.22 (1997)). At summary judgment, the Court
found that “Harvard ha[d] not established that the case
ha[d] become moot based on the [members’] alleged
disinterest in transferring.” Students for Fair
Admissions, 346 F. Supp. 3d at 191 (D. Mass. 2018).
Harvard now asserts that the Court should have
applied a more stringent standard, including requiring
SFFA to show that its members control its conduct and
possess certain “indicia of membership.” [ECF No. 619
¶¶ 326–30]. Harvard’s standing arguments are
preserved for appeal.
C. The Supreme Court and Race-Conscious
Admissions
Although this Court, as it must, relies principally on
the Supreme Court’s most recent guidance as set forth
in Fisher II, a brief synopsis of the case law which
culminated in Fisher II follows.
The Supreme Court directly confronted the issue of
affirmative action or race-conscious admissions in the
context of higher education for the first time in Regents
of University of California v. Bakke, 438 U.S. 265

App. 224
(1978) (plurality opinion). In that case, the Supreme
Court struck down an admissions policy at the
University of California at Davis Medical School
pursuant to Title VI and the Equal Protection Clause.
Bakke, 438 U.S. at 271 (1978). At that time, the
Medical School admitted most of its minority students
through a “special admissions program” that filled 16
of the class’ 100 spots with economically or
educationally disadvantaged applicants who were
members of a minority group. Id. at 272–75. White
applicants could compete for 84 of the seats in the
Medical School’s class, while all 100 seats were
potentially open to minority students. Id. at 289.
Justices Brennan, White, Marshall, and Blackmun
would have found Title VI coextensive with the Equal
Protection Clause and upheld the medical school’s
policy on the basis that the government may use race
to remedy disadvantages to minorities caused by past
racial prejudice. Id. at 355, 324–79 (concurring in part
and dissenting in part). Chief Justice Burger and
Justices Stevens, Stewart, and Rehnquist would have
found the special admissions program in violation of
Title VI, irrespective of the Equal Protection Clause.
Id. at 408–21. Justice Powell, who announced the
judgment of the Supreme Court, agreed with Justices
Brennan, White, Marshall, and Blackmun that Title VI
proscribes only those racial classifications that would
violate the Equal Protection Clause, but unlike his
fellow justices, concluded that diversity was an
asserted state interest that could withstand strict
scrutiny and that to satisfy strict scrutiny, the medical
school’s approach to diversity had to “encompass[ a
broad] array of qualifications and characteristics of

App. 225
which racial or ethnic origin is but a single though
important element.” Id. at 315. Although no majority
agreed on a particular rationale, the Supreme Court
determined that the medical school’s special
admissions program was unconstitutional because it
involved “the use of an explicit racial classification”
that told “applicants who are not Negro, Asian, or
Chicano that they [were] totally excluded from a
specific percentage of the seats in an entering class.”
Id. at 319.
Nevertheless, a majority of the Supreme Court
believed that race could be used in higher education
admissions, and it was understood that Justice Powell’s
opinion in Bakke permitted the use of race or ethnic
background as a “plus” factor to further the goal of
diversity in education. Justice Powell attached the
Harvard College Admissions Program as an appendix
to his opinion in Bakke and used it as a basis to
conclude that the “assignment of a fixed number of
places to a minority group is not a necessary means
toward” diversity. Id. at 316, 321–24. In contrast with
Harvard’s admissions process, which purported to treat
“each applicant as an individual in the admissions
process” and did not foreclose applicants from
competing for the last available seat “simply because
he was not the right color or had the wrong surname,”
id. at 318, the “fatal flaw” in the medical school’s
“preferential program” was its “disregard of individual
rights,” id. at 320.
Twenty-five years later, the Supreme Court
revisited the subject of racial preferences in higher
education admissions in a pair of cases concerning the

App. 226
University of Michigan’s Law School and its College of
Literature, Science, and the Arts. In Grutter v.
Bollinger, 539 U.S. 306 (2003), the Supreme Court
concluded that the admissions process at the
University of Michigan Law School was
constitutionally permissible. 539 U.S. at 325. The law
school considered applicants with a focus on academic
ability coupled with a flexible assessment of applicants’
talents, experiences, and potential to contribute to the
learning of those around them. Id. at 315. Admissions
officials were required to consider all the information
available in an applicant’s file, including a personal
statement, letters of recommendation, undergraduate
grades, admissions test scores, and an essay describing
the ways the applicant would contribute to the life and
diversity of the law school. Id. at 315. While not
restricting the types of diversity eligible for
consideration or defining diversity solely in terms of
racial or ethnic status, the law school was committed to
“racial and ethnic diversity with special reference to
the inclusion of students from groups which have been
historically discriminated against.” Id. at 316.
In deciding Grutter, the Supreme Court clarified
that strict scrutiny applies to the use of race in college
admissions, agreed that the law school had a
compelling interest in obtaining the educational
benefits that flow from a diverse student body, and
concluded that the law school’s race-conscious
admissions process was sufficiently narrowly tailored.
Id. at 333–34. The Supreme Court found that the law
school’s goal of “enroll[ing] a critical-mass of minority
students,” did not run afoul of the requirement that a
school not attempt to attain “some specified percentage

App. 227
of a particular group merely because of its race or
ethnic origin,” which would “amount to outright racial
balancing” and be “patently unconstitutional.” Id. at
329–30 (quoting Bakke, 438 U.S. at 307). Instead, as
distinct from a quota, the concept of “critical mass
[was] defined by reference to the educational benefits
that diversity is designed to produce,” including racial
understanding, breaking down stereotypes, advancing
learning outcomes, and preparing students for a
diverse workforce and society. Id. at 330. The Supreme
Court noted that the law school’s admissions program
bore the hallmarks of a narrowly tailored plan: truly
individualized consideration including the use of race
in a “flexible, nonmechanical way,” no quotas or
separate admissions tracks for members of certain
racial groups, and no insulating “applicants who belong
to certain racial or ethnic groups from the competition
for admission.” Id. at 334.
In upholding the law school’s admissions process in
Grutter, the Supreme Court again approved of “the
Harvard plan,” as described by Justice Powell in
Bakke. See id. at 335. Like Harvard, the University of
Michigan Law School did not have a “quota,” meaning
“a program in which a certain fixed number or
proportion of opportunities are ‘reserved exclusively for
certain minority groups.’” Id. (quoting Richmond v. J.A.
Croson Co., 488 U.S. 469, 496 (1989) (plurality
opinion)). Rather, the law school pursued a
“permissible goal” that “require[d] only a good-faith
effort to come within a range demarcated by the goal
itself,” and “permit[ed] consideration of race as a ‘plus’
factor in any given case while still ensuring that each
candidate ‘competes with all other qualified

App. 228
applicants.’” Id. (punctuation omitted) (first quoting
Sheet Metal Workers v. EEOC, 478 U.S. 421, 495
(1986) and then quoting Johnson v. Transp. Agency,
Santa Clara Cty., 480 U.S. 616, 638 (1987)). The Court
noted that the Harvard plan, previously endorsed by
Justice Powell in Bakke, “certainly had minimum goals
for minority enrollment, even if it had no specific
number firmly in mind,” but it reiterated that Justice
Powell had “flatly rejected the argument that
Harvard’s program was ‘the functional equivalent of a
quota’ merely because it had some ‘plus’ for race, or
gave greater ‘weight’ to race than to some other factors,
in order to achieve student body diversity.” Id. (quoting
Bakke, 438 U.S. 317–18, 323).
Further, like the Harvard plan, Michigan Law’s
admissions process was “flexible enough to consider all
pertinent elements of diversity in light of the particular
qualifications of each applicant, and to place them on
the same footing for consideration, although not
necessarily according them the same weight.” Id.
(quoting Bakke, 438 U.S. at 317). Although race was
given substantial weight in the admissions process, the
law school also considered “the broad range of qualities
and experiences that may be considered valuable
contributions to student body diversity,” including
fluency in several languages, a history of overcoming
personal adversity and family hardship, exceptional
records of extensive community service, and successful
careers in other fields, and “actually [gave] substantial
weight to diversity factors besides race.” Id. at 338.
While race may have been “‘outcome determinative
for many members of minority groups[]’ who do not fall

App. 229
within the upper range of LSAT scores and grades,”
that possibility was not dispositive given that “the
same could be said of the Harvard plan discussed
approvingly by Justice Powell in Bakke.” Id. at 338
(quoting Grutter, 539 U.S. at 389 (Kennedy, J.,
dissenting)). The Supreme Court noted in Grutter that
“all underrepresented minority students admitted by
the Law School [had] been deemed qualified,” although
minority applicants were “less likely to be admitted in
meaningful numbers on criteria that ignore[d]” race
and experiences with racial inequality, which were of
“particular importance to the Law School’s mission.” Id.
On the same day the Supreme Court decided
Grutter, it held in Gratz v. Bollinger, 539 U.S. 244
(2003), that the admissions process at the University of
Michigan College of Literature, Science, and the Arts
violated Title VI and the Equal Protection Clause.
Gratz, 539 U.S. at 275. The University of Michigan
admitted or rejected applicants to the College of
Literature, Science, and the Arts based on the number
of points that an applicant scored under a rubric that
offered points for high school GPA, standardized test
scores, the academic strength of the applicant’s high
school, the applicant’s high school curriculum, in-state
residency, alumni relationship, personal essay, and
other achievements. Id. at 255. Underrepresented
minority applicants received an additional 20 points
scored in a “miscellaneous” category which provided a
significant bump towards the 75 to 100 points that
were, depending on the year and the applicant’s
in-state residency status, generally required for
admission. Id. at 255–56, & n.8. The Supreme Court in
Gratz concluded that the admissions policy was

App. 230
impermissible under Justice Powell’s opinion in Bakke
because giving every underrepresented minority
applicant 20 points did not provide the necessary
“individualized consideration” and instead had “the
effect of making ‘the factor of race . . . decisive’ for
virtually every minimally qualified underrepresented
minority applicant.” Id. at 271–72 (quoting Bakke, 438
U.S. at 317). The university’s use of race was therefore
not narrowly tailored to achieve the asserted
compelling interest in diversity and thus violated the
Equal Protection Clause and Title VI. Id. at 275–76.
More recently, in the Fisher cases, the Supreme
Court reviewed the undergraduate admissions program
at the University of Texas at Austin (“UT Austin”),
which considered race as one factor among many in
assigning a personal achievement index which,
together with an academic index, determined whether
applicants who were not in the top 10% of their Texas
high school class would be admitted or rejected. Fisher
I, 570 U.S. at 304–07. In 2013 in Fisher I, the Supreme
Court vacated the Fifth Circuit’s decision upholding UT
Austin’s admissions program because the appeals court
had not properly conducted the strict scrutiny analysis.
Id. at 303. The Fifth Circuit had undertaken the
narrow tailoring analysis with a degree of deference to
the university, presuming that the school had made a
good-faith decision to use race and then imposing the
burden of rebutting that presumption on the plaintiff.
Id. at 311–15. The Supreme Court concluded that no
such deference to a university was permitted in
undertaking the narrow tailoring analysis. Id.

App. 231
Following remand, the Fifth Circuit found that UT
Austin had demonstrated that the use of race in its
admissions program was narrowly tailored to achieve
the rich diversity that contributed to UT Austin’s
academic mission and once again affirmed the district
court’s judgment that UT Austin’s admissions program
did not violate the Equal Protection Clause. Fisher v.
Univ. of Tex. at Austin, 758 F.3d 633, 657, 659–61 (5th
Cir. 2014). The Supreme Court granted certiorari once
more, and in 2016 it affirmed the Fifth Circuit’s ruling.
Fisher II, 136 S. Ct. at 2214–15.
In Fisher II, the Supreme Court stated the following
three controlling principles:
First, because racial characteristics so
seldom provide a relevant basis for disparate
treatment, race may not be considered . . . unless
the admissions process can withstand strict
scrutiny. Strict scrutiny requires the university
to demonstrate with clarity that its purpose or
interest is both constitutionally permissible and
substantial, and that its use of the classification
is necessary to the accomplishment of its
purpose.
Second, . . . the decision to pursue the
educational benefits that flow from student body
diversity is, in substantial measure, an academic
judgment to which some, but not complete,
judicial deference is proper. A university cannot
impose a fixed quota or otherwise define
diversity as some specified percentage of a
particular group merely because of its race or
ethnic origin. Once, however, a university gives

App. 232
a reasoned, principled explanation for its
decision, deference must be given to the
University’s conclusion, based on its experience
and expertise, that a diverse student body would
serve its educational goals.
Third, . . . no deference is owed when
determining whether the use of race is narrowly
tailored to achieve the university’s permissible
goals. A university . . . bears the burden of
proving a nonracial approach would not promote
its interest in the educational benefits of
diversity about as well and at tolerable
administrative expense. Though narrow
tailoring does not require exhaustion of every
conceivable race-neutral alternative or require a
university to choose between maintaining a
reputation for excellence and fulfilling a
com m i tment to provide educationa l
opportunities to members of all racial groups, it
does impose on the university the ultimate
burden of demonstrating that race-neutral
alternatives that are both available and
workable do not suffice.
Id. at 2208 (citations and modifying punctuation
omitted).
In applying these principles in Fisher II, the
Supreme Court determined that UT Austin had
provided a reasoned and principled articulation of
concrete and precise goals for its race-conscious
admissions program, including destroying racial
stereotypes, promoting cross-racial understanding,
preparing the student body for an increasingly diverse

App. 233
workforce and society, cultivating leaders with
legitimacy in the eyes of the citizenry, providing an
educational environment that fosters the robust
exchange of ideas, exposure to different cultures, and
the acquisition of the competencies required of future
leaders. Id. at 2211. The Supreme Court noted “that a
university bears a heavy burden in showing that it had
not obtained the educational benefits of diversity before
it turned to a race-conscious plan,” but found that UT
Austin had engaged in good faith studies from which it
reasonably “concluded that ‘[t]he use of race-neutral
policies and programs ha[d] not been successful in
achieving’ sufficient racial diversity at the University,”
and that this position was supported by both statistical
and anecdotal evidence. Id. at 2211–12 (quoting the
record). Lastly, none of the plaintiff’s proposed
race-neutral alternatives, or any of the other proposals
discussed in the course of the litigation, was shown to
have been an “‘available’ and ‘workable’ means through
which the University could have met its educational
goals, as it then understood and defined them” without
considering race, because “the Equal Protection Clause
does not force universities to choose between a diverse
student body and a reputation for academic excellence.”
Id. at 2213–14 (quoting Fisher I, 570 U.S. at 312).
Most significantly, the controlling principles
articulated by the Supreme Court in Fisher II reflect
the sum of its holdings in cases concerning higher
education admissions over the last forty years and now
guide the application of Title VI in this case.

App. 234
D. Harvard’s Admission
Strict Scrutiny

Program

and

Title VI provides, “No person in the United States
shall, on the ground of race, color, or national origin, be
excluded from participation in, be denied the benefits
of, or be subjected to discrimination under any program
or activity receiving Federal financial assistance.” 42
U.S.C. § 2000d. In the higher education admissions
context, the contours of Title VI claims are largely
shaped by the Equal Protection Clause of the
Fourteenth Amendment. The “intentional
discrimination proscribed by Title VI is discrimination
that violates the Equal Protection Clause of the
Fourteenth Amendment.” Weser v. Glen, 190 F. Supp.
2d 384, 396 (E.D.N.Y.), aff’d, 41 F. App’x 521 (2d Cir.
2002); see Bakke, 438 U.S. at 284, 286 (noting that
Title VI reflects a “congressional intent to halt federal
funding of entities that violate a prohibition of racial
discrimination similar to that of the Constitution,” but
“proscribe[s] only those racial classifications that would
violate the Equal Protection Clause or the Fifth
Amendment”); see also Grutter, 539 U.S. at 343
(adopting reasoning in Bakke); Gratz, 539 U.S. at 276
n.23 (“We have explained that discrimination that
violates the Equal Protection Clause of the Fourteenth
Amendment committed by an institution that accepts
federal funds also constitutes a violation of Title VI.”
(first citing Alexander v. Sandoval, 532 U.S. 275, 281
(2001), then citing United States v. Fordice, 505 U.S.
717, 732, n.7 (1992), and then citing Alexander v.
Choate, 469 U.S. 287, 293 (1985))).

App. 235
Although Harvard is not a state actor, Harvard
College is a component of Harvard University which
receives federal funds and intentionally provides tips in
its admissions process based on students’ race. See
[ECF No. 570 at 9–10]. Harvard College is therefore
subject to the same standards that the Equal
Protection Clause imposes upon state actors for the
purposes of a Title VI claim. See Students for Fair
Admissions, 346 F. Supp. 3d at 192 n.16 (“Harvard
does not identify any specific reasons for distinguishing
public universities from federally-funded private
universities, or explain how the analytical framework
would differ for private versus public litigants . . . .”).
Under Grutter, “strict scrutiny must be applied to any
admissions program using racial categories or
classifications.” Fisher I, 570 U.S. at 310; see also
Grutter 539 U.S. at 326. Because Harvard both accepts
federal funds and uses race in making admissions
decisions, its admissions program is subject to strict
scrutiny.
Harvard argues that the test for a “facially neutral
policy” should be applied,55 but Harvard’s admissions

55

The analysis of a facially neutral policy that has a disparate
impact by race is different from the analysis of a policy that
admittedly considers race. “In reviewing a uniformly applied
facially neutral policy, ‘[d]etermining whether invidious
discriminatory purpose was a motivating factor [in its adoption]
demands a sensitive inquiry into such circumstantial and direct
evidence of intent as may be available.’” Students for Fair
Admissions, Inc. v. President & Fellows of Harvard Coll., 346 F.
Supp. 3d 174, 193 (D. Mass. 2018) (quoting Anderson ex rel. Dowd
v. City of Boston, 375 F.3d 71, 83 (1st Cir. 2004)). Policies that do
not explicitly consider race are facially neutral and violate the

App. 236
process is not facially neutral. Fisher I, 570 U.S. at 307
(“It is . . . irrelevant that a system of racial preferences
in admissions may seem benign. Any racial
classification must meet strict scrutiny.”). Although
Harvard’s reading procedures do not explicitly
preference particular racial groups, Harvard pursues
its interest in diversity in part by considering the race
of applicants, and its admissions officers may take an
applicant’s race into account when making an
admissions decision even when the applicant has not
discussed their racial or ethnic identity in their
application. [Oct. 18 Tr. 52:15–53:13; 167:10–168:11].
Harvard’s acknowledged consideration of race is
unlike a facially neutral policy which requires plaintiffs
to prove racial discrimination. Cf. Vill. of Arlington
Heights v. Metro. Hous. Dev. Corp., 429 U.S. 252,
270–71 (1977) (plaintiffs “failed to carry their burden
of proving that discriminatory purpose was a
motivating factor” for a rezoning decision that did not
explicitly rely on race). Here, the use of race in and of
Equal Protection Clause based on statistical evidence only where
they form a clear pattern, unexplainable on grounds other than
race. See Yick Wo v. Hopkins, 118 U.S. 356, 374 (1886) (finding
unconstitutional the administration of a facially neutral policy for
licensing laundries where permits had been denied to 200 Chinese
applicants but granted to all but one of 80-odd others permit
applicants who were not Chinese); see also Gomillion v. Lightfoot,
364 U.S. 339 (1960) (finding unconstitutional an alteration to the
shape of Tuskegee, Alabama “to remove from the city all save four
or five of its 400 Negro voters while not removing a single white
voter or resident”). A policy that relies on race at least in part is
subject to strict scrutiny regardless of its impact. Therefore, cases
like Gomillion v. Lightfoot, 364 U.S. 339, 340–41 (1960) and Yick
Wo v. Hopkins, 118 U.S. 356 (1886) are inapposite.

App. 237
itself is admitted, and the issue becomes whether it is
permissible given the justification and the means used
to achieve the sought-after diversity—in other words,
whether Harvard’s use of race survives strict scrutiny.
Notably, the Supreme Court has consistently used
strict scrutiny when reviewing school admissions
programs that consider race.56

56

Where a school admissions program is subject to strict scrutiny,
the Court understands this to mean that the admissions program
in its entirety is subject to strict scrutiny and not just the
admissions decisions that involve the students that it seeks to
advantage. Here, Harvard presses the idea that its admissions
program is facially neutral and should be evaluated by a less
demanding standard than strict scrutiny. Harvard’s admissions
program is facially neutral in that it does not explicitly prioritize
any particular racial group over any other and permits its
admissions officers to evaluate the racial and ethnic identity of
every student in the context of his or her background and
circumstances. The policy cannot, however, be considered facially
neutral from a Title VI perspective given that admissions officers
provide tips to African American and Hispanic applicants, while
white and Asian American applicants are unlikely to receive a
meaningful race-based tip. In this circumstance, the standard for
facially neutral policies could arguably be applied in evaluating
any disparate outcomes as between whites and Asian Americans,
keeping in mind that the purpose of strict scrutiny is to ferret out
inappropriate racial classifications, and given that there is no
suggestion of a racially motivated classification involving whites
and Asian Americans. See Richmond v. J. A. Croson Co., 488 U.S.
469, 493 (1989) (plurality opinion) (noting that the purpose of
subjecting a racial classification to strict scrutiny is to determine
“what classifications are ‘benign’ or ‘remedial’ and what
classifications are in fact motivated by illegitimate notions of racial
inferiority or simple racial politics”); Grutter, 539 U.S. at 326 (“We
apply strict scrutiny to all racial classifications to smoke out
illegitimate uses of race by assuring that government is pursuing
a goal important enough to warrant use of a highly suspect tool.”

App. 238
Strict scrutiny requires that classifications used by
Harvard in its admissions program be narrowly
tailored to further a compelling interest.57 See id.
(“Strict scrutiny requires the university to demonstrate
(quotation marks omitted and modifying punctuation omitted)). In
the case of a facially neutral policy, “[p]roof of racially
discriminatory intent or purpose is required to show a violation of
the Equal Protection Clause.” Vill. of Arlington Heights v. Metro.
Hous. Dev. Corp., 429 U.S. 252, 265 (1977). Were that standard to
be applied here, the Court would easily find in favor of Harvard on
SFFA’s claim of intentional discrimination as there has been no
showing of discriminatory intent or purpose.
57

SFFA contends that it may also succeed on its intentional
discrimination claim by showing a “pattern or practice” of
discrimination through statistically significant evidence of
discrimination that then shifts to Harvard the burden of
disproving the alleged pattern or practice. [ECF No. 620
¶¶ 167–76]. This burden shifting framework, which is rooted in the
statutory provisions of Title VII, see 42 U.S.C. § 2000e-6, is
inapplicable to a non-class, private plaintiff such as SFFA, even
assuming that it could apply in a Title VI case. See Chin v. Port
Auth. of N.Y. & N.J., 685 F.3d 135, 149–50 (2d Cir. 2012) (holding
“that the pattern-or-practice method of proof is not available to
nonclass, private plaintiffs in cases such as the one before us” and
noting that “all of our sister circuits to consider the question have
held that the pattern-or-practice method of proof is not available
to private, nonclass plaintiffs”); see also Semsroth v. City of
Wichita, 304 Fed. Appx. 707, 715 (10th Cir. 2008); Davis v.
Coca-Cola Bottling Co. Consol., 516 F.3d 955, 967–69 (11th Cir.
2008); Bacon v. Honda of Am. Mfg., 370 F.3d 565, 575 (6th Cir.
2004); Celestine v. Petroleos de Venezuella SA, 266 F.3d 343,
355–56 (5th Cir. 2001), abrogated on other grounds by, Health v.
Bd. of Supervisors for the S. Univ. of Agric. & Mech. Coll., 850 F.3d
731 (5th Cir. 2017); Gilty v. Vill. of Oak Park, 919 F.2d 1247, 1252
(7th Cir. 1990); Lowery v. Circuit City Stores, Inc., 158 F.3d 742,
761 (4th Cir. 1998), vacated on other grounds, 527 U.S. 1031
(1999).

App. 239
with clarity that its ‘purpose or interest is both
constitutionally permissible and substantial, and that
its use of the classification is necessary . . . to the
accomplishment of its purpose.’” (quoting Bakke, 438
U.S. at 305)).
1. Compelling Interest
In Bakke, Justice Powell found that student body
diversity and the educational benefits that flow from a
diverse student body was a compelling interest that
could justify the consideration of race. 438 U.S. at 315
(“As the interest of diversity is compelling in the
context of a university’s admissions program,” the
remaining question is “whether the program’s racial
classification is necessary to promote this interest.”).
Importantly, he went on to explain that “[t]he diversity
that furthers a compelling state interest encompasses
a far broader array of qualifications and characteristics
of which racial or ethnic origin is but a single though
important element.” Bakke, 438 U.S. at 315.
Twenty-five years later, the Supreme Court, in Grutter,
reaffirmed that “student body diversity is a compelling
state interest that can justify the use of race in
university admissions.” Grutter, 539 U.S. at 325; see
also Fisher I, 570 U.S. at 308–09 (reiterating that prior
cases had found that “obtaining the educational
benefits of student body diversity is a compelling state
interest” (citation and internal quotation marks
omitted)).
Here, for the reasons discussed supra at Section
III.A.1, Harvard’s interest in student body diversity is
substantial and compelling. Its goals are not “elusory
or amorphous,” and are instead “sufficiently

App. 240
measurable to permit judicial scrutiny of the policies
adopted to reach them.” Fisher II, 136 S. Ct. at 2211.
These goals include “enhance[ing] the education of [its]
students of all races and background [to] prepare them
to assume leadership roles in the increasingly
pluralistic society into which they will graduate,”
achieving the “benefits that flow from [its] students’
exposure to people of different background, races, and
life experiences” by teaching them to engage across
differences through immersion in a diverse community,
and “broaden[ing] the perspectives of teachers[, and]
thus tend[ing] to expand the reach of the curriculum
and the range of scholarly interests of [its] faculty.”
[PX302 at 1–2, 9]. Harvard’s goals are similar in
specificity to goals the Supreme Court found “concrete
and precise” in Fisher II. See 136 S. Ct. 2211. Racial
categorizations are necessary to achieve those goals. In
the absence of such categorizations, racial diversity at
Harvard would likely decline so precipitously that
Harvard would be unable to offer students the diverse
environment that it reasonably finds necessary to its
mission. See infra at Section VII.G.
2. Narrowly Tailored
Even in the limited circumstance when drawing
racial distinctions is permissible to further a
compelling state interest, a university is still
“constrained in how it may pursue that end: ‘The
means chosen to accomplish the [university’s] asserted
purpose must be specifically and narrowly framed to
accomplish that purpose.’” Shaw v. Hunt, 517 U.S. 899,
908 (1996) (quoting Wygant v. Jackson Bd. of Ed., 476
U.S. 267, 280 (1986)). Therefore, to satisfy strict

App. 241
scrutiny, “a university must make a showing that its
plan is narrowly tailored to achieve the only interest
that this Court has approved in this context: the
benefits of a student body diversity that ‘encompasses
a . . . broa[d] array of qualifications and characteristics
of which racial or ethnic origin is but a single though
important element.’” Fisher I, 570 U.S. at 308 (quoting
Bakke, 438 U.S. at 315). “When race-based action is
necessary to further a compelling governmental
interest, such action does not violate the constitutional
guarantee of equal protection so long as the
narrow-tailoring requirement is also satisfied.”
Grutter, 539 U.S. at 327; see also J.A. Croson Co., 488
U.S. at 493 (plurality opinion) (“The purpose of strict
scrutiny is to ensure that “the means chosen ‘fit’ . . .
th[e] compelling goal so closely that there is little or no
possibility that the motive for the classification was
illegitimate racial prejudice or stereotype.”).
“To be narrowly tailored, a race-conscious
admissions program cannot use a quota system,”
Grutter, 539 U.S. at 334, but instead must “remain
flexible enough to ensure that each applicant is
evaluated as an individual and not in a way that makes
an applicant’s race or ethnicity the defining feature of
his or her application,” Fisher I, 570 U.S. at 309
(quoting Gratz, 539 U.S. at 337). “In other words, an
admissions program must be ‘flexible enough to
consider all pertinent elements of diversity in light of
the particular qualifications of each applicant.’”
Grutter, 539 U.S. at 334 (quoting Bakke, 438 U.S. at
317). Thus, individualized consideration in the context
of a race-conscious admissions program is paramount.
See id.; Bakke, 438 U.S. at 318 n.52 (identifying the

App. 242
“denial . . . of th[e] right to individualized
consideration” as the “principal evil” of the medical
school’s admissions program).
The Court finds that Harvard’s admissions program
“bears the hallmarks of a narrowly tailored plan” in
that “race [is] used in a flexible, nonmechanical way”
and considered “as a ‘plus’ factor in the context of
individualized consideration of each and every
applicant.” Grutter, 539 U.S. at 334. Like the
University of Michigan Law School in Grutter, Harvard
“engages in a highly individualized, holistic review of
each applicant’s file, giving serious consideration to all
the ways an applicant might contribute to a diverse
educational environment,” “this individualized
consideration [is afforded] to applicants of all races,”
and its “race-conscious admissions program adequately
ensures that all factors that may contribute to student
body diversity are meaningfully considered alongside
race in admissions decisions.” Id. at 337–38.
The nature of the allegations in this case however,
requires that the analysis go further.58 Given the
“serious problems of justice connected with the idea of
preference itself,” Bakke, 438 U.S. at 298, narrow
tailoring further requires “that a race-conscious
admissions program not unduly harm members of any
58

Even though Harvard has shown that its admissions policy must
consider race to serve its substantial and compelling interests, the
application of strict scrutiny requires a “a further judicial
determination that the admissions process meets strict scrutiny in
its implementation.” Fisher I, 570 U.S. at 311. Strict scrutiny
affords a plaintiff “close analysis to the evidence of how the
[admission] process works in practice.” Id. at 312–13.

App. 243
racial group,” Grutter, 539 U.S. at 341; see also Metro
Broad., Inc. FCC, 497 U.S. 547, 630 (1990) (O’Connor,
J., dissenting) (a race-conscious admissions program
must not “unduly burden individuals who are not
members of the favored racial and ethnic groups”).
The remaining issue is whether Harvard’s
admissions program unduly burdens Asian American
applicants. Based on Professor Card’s model and the
Court’s preferred model with the personal rating
included, there is not a statistically significant
difference between the chances of admission for
similarly situated Asian American and white
applicants. Under this rubric, the lack of a statistically
significant penalty against Asian American applicants
relative to white applicants suggests that the burden
Harvard’s race-conscious admissions policy places on
Asian American applicants is not undue. However,
Professor Arcidiacono’s analysis, and the Court’s
preferred model with the personal rating excluded,
imply that Asian American applicants are
disadvantaged relative to white applicants. The
questions in the context of this case then become: why
do Asian American applicants score lower on the
personal rating, does it unfairly affect their chances of
admission, and if so, is this an undue burden on them
when measured against Harvard’s compelling interest
in diversity?
It is possible that the self-selected group of Asian
Americans that applied to Harvard during the years
included in the data set used in this case did not
possess the personal qualities that Harvard is looking
for at the same rate as white applicants, just as it is

App. 244
possible that the self-selected white applicants tend to
have somewhat weaker academic qualifications than
Asian American applicants. In other words, assuming
Asian American and white applicants have the same
academic and extracurricular potential and the same
quality of personal attributes as demographic groups,
it could be that asymmetric portions of each of these
groups apply to Harvard. This would explain why
Asian American applicants to Harvard did better than
white applicants on the academic and extracurricular
ratings and why white applicants to Harvard did better
on the personal rating despite the likelihood that Asian
Americans are not inherently more intelligent and
white applicants are not inherently more personable.
This scenario has little evidentiary support, but it, like
Professor Card’s model and the Court’s preferred model
including the personal ratings, would result in a
finding of no undue burden and a narrowly tailored
process that satisfied strict scrutiny.59

59

There may be little evidentiary support for this hypothesis
because it was not in the interest of either party to develop this
scenario. SFFA was wedded to the idea that the Asian American
applicants were superior in two profiles and discriminated against
on a third, while Harvard was unwilling to overtly argue that
Asian American applicants were actually weaker in personal
criteria, notwithstanding their stronger average academic
performance and Harvard’s acknowledgment that Asian American
applicants tend to be stronger in their extracurricular pursuits.
The Court does not think, however, that demonstrable,
disproportionate strength of a racial group in one area necessarily
implies that the same racial group should be strong in all areas. If
one assumes that raw talent and race are unrelated, it would be
unsurprising to find that applicants that excel in one area, tend to
be somewhat weaker in other areas.

App. 245
Alternatively, it may be that there is overt
discrimination or implicit bias at work to the
disadvantage of Asian American applicants. To begin
at the end, the Court sees no evidence of discrimination
in the personal ratings save for the slight numerical
disparity itself. The statistical disparity is relatively
minor and can be at least partially explained by a
variety of factors including race-correlated inputs to
the rating such as teacher and guidance counselor
recommendations. Just as the Court cannot explain the
variations in the academic and extracurricular ratings,
it cannot definitively explain the difference in the
personal ratings, but it finds that the disparity is small
and reflects neither intentional discrimination against
Asian American applicants nor a process that was
insufficiently tailored to avoid the potential for
unintended discrimination.
Even if there is an unwarranted disparity in the
personal ratings, the Court is unable to identify any
individual applicant whose admissions decision was
affected and finds that the disparity in the personal
ratings did not burden Asian American applicants
significantly more than Harvard’s race-conscious
policies burdened white applicants. Further, there is no
evidence of any discriminatory animus or conscious
prejudice. To the contrary, certain statistics can be
interpreted to suggest that Harvard’s admissions
process unintentionally favored some subsets of Asian
Americans, including the ALDCs and certain other
discrete demographic groups like disadvantaged Asian
females. The most likely causes of these statistical
findings, however, is random variation in the
admissions process or omitted variable biases, not

App. 246
selective discrimination that favored some Asian
Americans and disfavored others.
In terms of burden, it is likely that eliminating
consideration of race would significantly disadvantage
at least some Asian American applicants, as evidenced
by the testimony of the amici at trial, all of whom
viewed their race or ethnicity as a critical aspect of
their life experiences and applications to Harvard.
Further, it is vital that Asian Americans and other
racial minorities be able to discuss their racial
identities in their applications. As the Court has seen
and heard, race can profoundly influence applicants’
sense of self and outward perspective. See, e.g., [Oct. 29
Tr. 30:23–33:17, 81:16–82:14, 85:24–90:3. 113:23–
117:6, 140:9–148:3, 166:19–172:18, 199:18–204:9].
Removing considerations of race and ethnicity from
Harvard’s admissions process entirely would deprive
applicants, including Asian American applicants, of
their right to advocate the value of their unique
background, heritage, and perspective and would likely
also deprive Harvard of exceptional students who
would be less likely to be admitted without a
comprehensive understanding of their background.
Further, throughout this trial, SFFA did not present a
single admissions file that reflected any discriminatory
animus, or even an application of an Asian American
who it contended should have or would have been
admitted absent an unfairly deflated personal rating.
There thus remains the distinct possibility that a
review of the available applications did not turn up a
rejected Asian American applicant who was clearly
more qualified than the white applicants who were
admitted, or an applicant who received an obviously

App. 247
unjustified personal rating. This would strongly
suggest that Asian American applicants were not
discriminated against relative to white applicants and
were therefore not unduly burdened by Harvard’s
admissions program.
Although the Court evaluates each of SFFA’s four
counts separately below, it concludes that Harvard’s
admissions program has been designed and
implemented in a manner that allows every application
to be reviewed in a holistic manner consistent with the
guidance set forth by the Supreme Court. Further, the
Court concludes that while the admissions process may
be imperfect, the statistical disparities between
applicants from different racial groups on which
SFFA’s case rests are not the result of any racial
animus or conscious prejudice and finds that Harvard’s
admissions program is narrowly tailored to achieve a
diverse class and the benefits that flow therefrom.
E. Count II: Harvard Does Not Engage in
Racial Balancing
Count II alleges that Harvard engaged in
impermissible racial balancing, that is, racial balancing
that does not adhere to the parameters established by
the Supreme Court. To maintain a permissible
race-conscious admissions policy, Harvard may not
“impose a fixed quota,” Fisher II, 136 S. Ct. at 2208, or
otherwise “‘assure within its student body some
specified percentage of a particular group merely
because of its race or ethnic origin,’” as such a practice
“would amount to outright racial balancing, which is
patently unconstitutional” under the Equal Protection
Clause and therefore prohibited by Title VI. Grutter,

App. 248
539 U.S. at 329–30 (quoting Bakke, 438 U.S. at 307).
The requirement that colleges and universities that
accept federal funds abstain from such quota systems
stems from the “simple command that the Government
must treat citizens as individuals, not as simply
components of a racial, religious, sexual or national
class.” Parents Involved in Cmty. Sch. v. Seattle Sch.
Dist. No. 1, 551 U.S. 701, 730 (2007) (quoting Miller v.
Johnson, 515 U.S. 900, 911 (1995)). Quota systems are
impermissible because they insulate some “category of
applicants with certain desired qualifications from
competition with all other applicants.” Grutter, 539
U.S. at 334 (quoting Bakke, 438 U.S. at 315); see
Wessmann v. Gittens, 160 F.3d 790, 798 (1st Cir. 1998)
(“A single-minded focus on ethnic diversity ‘hinder[s]
rather than further[s] attainment of genuine
diversity.’” (quoting Bakke, 438 U.S. at 315)).
Harvard’s admissions program intends to treat
every applicant as an individual. Harvard does not
employ a race-based quota, set aside seats for minority
students, or otherwise “define diversity as ‘some
specified percentage of a particular group merely
because of its race or ethnic origin.’” Fisher I, 570 U.S.
at 311 (quoting Bakke, 438 U.S. at 307). Every
applicant competes for every seat. See [Oct. 18 Tr.
112:1–21]. Although a university could run afoul of
Title VI’s prohibition on quotas even where it stopped
short of defining a specific percentage and instead
allowed some fluctuation around a particular number,
see Parents Involved, 551 U.S. at 712 (striking down
school district student allocation plan that allowed for
10% variation from the district’s overall white/
nonwhite racial balance), Harvard’s admissions policy

App. 249
has no such target number or specified level of
permissible fluctuation. As Justice Powell recognized in
Bakke and as was affirmed in Grutter, “minimum goals
for minority enrollment . . . [without a] specific number
firmly in mind” did not make Harvard’s program “the
functional equivalent of a quota merely because it had
some ‘plus’ for race, or gave greater ‘weight’ to race
than to some other factors, in order to achieve student
body diversity.” Grutter, 539 U.S. at 335 (quoting
Bakke, 438 U.S. 317–318, 323). As the Court also held
in Grutter:
The . . . goal of attaining a critical mass of
underrepresented minority students does not
transform its program into a quota. As the
Harvard plan described by Justice Powell
recognized, there is of course “some relationship
between numbers and achieving the benefits to
be derived from a diverse student body, and
between numbers and providing a reasonable
environment for those students admitted.”
Id. at 335–36 (quoting Bakke, 438 U.S. at 323).
SFFA argues that its racial balancing claim is
supported by non-statistical evidence, principally that
Harvard’s admissions leadership too frequently looked
at the “one-pagers” that showed the racial composition
of admitted applicants or applicants whom Harvard
was likely to admit and that Harvard placed students
on its “search list” and sent recruitment letters to
applicants based on criteria that disfavored Asian
American applicants. The recruitment letters, however,
did not affect admissions decisions, and SFFA cannot
maintain a viable claim for intentional discrimination

App. 250
based merely on the allegation that some limited
number of Asian American applicants did not receive
certain pieces of marketing mail. See Weser, 190 F.
Supp. 2d at 399 (holding that race-conscious recruiting
efforts do “not constitute discrimination”); see also
Allen v. Ala. State Bd. of Educ., 164 F.3d 1347, 1352
(11th Cir. 1999), vacated per stipulation, 216 F.3d 1263
(11th Cir. 2000) (“[W]here the government does not
exclude persons from benefits based on race, but
chooses to undertake outreach efforts to persons of one
race, broadening the pool of applicants, but
disadvantaging no one, strict scrutiny is generally
inapplicable.”); Lutheran Church-Mo. Synod v. FCC,
154 F.3d 487, 492 (D.C. Cir. 1998) (noting that “broad
outreach to, as opposed to the actual hiring of, a
particular race” would not necessarily trigger strict
scrutiny); Honadle v. Univ. of Vt. and State Agric. Coll.,
56 F. Supp. 2d 419, 428 (D. Vt. 1999) (distinguishing
“‘inclusive’ forms of affirmative action, such as
recruitment and other forms of outreach” from
“‘exclusive’ forms of affirmative action, such as quotas,
set asides and layoffs” and holding that monitoring
racial composition and encouraging recruitment of
diverse candidates were not discriminatory practices
subject to strict scrutiny). Even if non-receipt of an
invitation to apply to Harvard could constitute
discrimination, there was no evidence presented at
trial that any SFFA member fell into the group of
Asian American applicants who did not receive such an
invitation because of their race, nor is there any
evidence that they suffered an injury as a result.
Further, as in Grutter, consulting the one-pagers
“which keep track of the racial and ethnic composition

App. 251
of the class” (among other statistics) does not “sugges[t]
there was no further attempt at individual review save
for race itself during the final stages of the admissions
process.” 539 U.S. at 336 (quotation marks omitted).
Throughout the process, Harvard remains committed
to its holistic evaluation and its whole person review.
Harvard’s use of the one-pagers as part of its
admissions process and to evaluate whether it would be
able to achieve its “goals for minority enrollment” is
permissible and does not establish the existence of a
quota or impermissible racial balancing. Id. at 335
(emphasis in original). As the Supreme Court has held,
“‘[s]ome attention to numbers,’ without more, does not
transform a flexible admissions system into a rigid
quota.” Id. at 336 (quoting Bakke 438 U.S. at 323).60
Further, it may well be necessary to give attention
to numerical indicators of racial diversity when an
institution elects to adopt a race-conscious admissions
program so as to remain compliant with the dictates of
strict scrutiny, including monitoring the ongoing need
for a race-conscious admissions process and the
availability of race-neutral alternatives. See Fisher II,
136 S. Ct. at 2214–15 (requiring UT Austin to
“continue to use [] data to scrutinize the fairness of its
admissions program; to assess whether changing
60

In fact, the law requires a “reasoned, principled explanation” for
a decision to use race in admissions, and courts examine numerical
evidence when evaluating whether race-conscious plans are
narrowly tailored to serve a compelling interest. See, e.g., Fisher
II, 136 S. Ct. at 2211–12 (considering “anecdotal evidence”
including racial representation in enrolled classes and “more
nuanced quantitative data” reflecting African American and
Hispanic representation in undergraduate classes).

App. 252
demographics have undermined the need for a
race-conscious policy; and to identify the effects, both
positive and negative, of the affirmative-action
measures it deems necessary”). Harvard’s awareness
and consideration of the number of minority students
likely to enroll throughout its annual admissions cycle
is consistent with the fact that there is “some
relationship between numbers and achieving the
benefits to be derived from a diverse student body, and
between numbers and providing a reasonable
environment for those students admitted.” Grutter, 539
U.S. at 336 (quoting Bakke 438 U.S. at 323).
Additionally, Harvard also considers the racial
distribution of its admitted students to assist it in
predicting its yield rate and thereby avoid
overenrolling its freshman class because students from
some racial groups historically matriculate at higher
rates than others. These practices do not violate Title
VI.
As Justice Powell did in 1978, the Court “flatly
reject[s] the argument that Harvard’s program [is] ‘the
functional equivalent of a quota’” system or an
otherwise impermissible means of racial balancing. Id.
at 335 (quoting Bakke 38 U.S. at 317–18). Accordingly,
judgment for Harvard shall enter on Count II, racial
balancing.
F. Count III: Harvard Uses Race as a
Non-Mechanical Plus Factor
Count III alleges that Harvard fails to use race
merely as a “plus” factor in admissions decisions.
Consistent with what is required by Supreme Court
precedent, Harvard has demonstrated that it uses race

App. 253
as a factor that can act as a “plus” or a “tip” in making
admissions decisions, and that its admissions program
is “flexible enough to consider all pertinent elements of
diversity in light of the particular qualifications of each
applicant, and to place them on the same footing for
consideration, although not necessarily according them
the same weight.” Grutter, 539 U.S. at 334 (quoting
Bakke, 438 U.S. at 317). Although race is an important
consideration in deciding to admit many African
American and Hispanic applicants, it remains an
“individualized consideration in the context of
[Harvard’s] race-conscious admissions program” and
never becomes “the defining feature” of applications. Id.
at 337 (citing Bakke, 438 U.S. at 318 n.52).
Admissions policies that fail to use race only as a
plus factor typically either employ a quota system or
assign some specified value to applicants’ racial
identity, and thereby use race in a rigid and
mechanical manner that deprives applicants of the
truly individualized consideration required by the
Supreme Court. See Gratz, 539 U.S. at 270 (finding
unconstitutional “the University [of Michigan]’s . . .
policy, which automatically distribute[d] 20 points, or
one-fifth of the points needed to guarantee admission,
to every single ‘underrepresented minority’ applicant
solely because of race”); Bakke, 438 U.S. at 272
(striking down quota system); Johnson v. Bd. of
Regents of Univ. of Ga., 263 F.3d 1234, 1254 (11th Cir.
2001) (finding University of Georgia’s admissions policy
not narrowly tailored where it employed a rigid,
mechanical approach that awarded “every non-white
applicant [] a 0.5 point bonus, regardless of his or her
background and regardless of whether a white

App. 254
applicant with a far more ‘diverse’ background” was
available). Although the parties’ experts have
estimated the average magnitude of Harvard’s
race-related tips based on past admissions decisions
and the effect those tips have on the diversity of its
classes, the magnitude of the tip for an individual
applicant cannot be precisely determined because race
is considered in a contextual manner as part of
Harvard’s holistic evaluation of each applicant. The
estimated average magnitude of the tips and the
impact of the race-related tips or plus factors on the
racial composition of Harvard’s classes, however, are
comparable to the size and effect of tips that have been
upheld by the Supreme Court.
For example, in Fisher II, the Supreme Court noted
that the proportion of Hispanic and African American
applicants admitted through UT Austin’s holistic
review process in 2007, when race was considered, had
increased 54% and 94%, respectively, relative to 2003,
when the holistic review process had been race-neutral.
Fisher II, 136 S. Ct. at 2212. Those figures showed that
“race has had a meaningful, if still limited, effect on the
diversity of the University’s freshman class.” Id. The
impact of UT Austin’s holistic process is comparable to
the decline in combined African American and Hispanic
enrollment that Harvard would likely experience in the
absence of the consideration of race, which is estimated
to be approximately 45%, absent alternative measures.
In addition, the Supreme Court upheld the
University of Michigan Law School’s admissions
program where “underrepresented minority students
would have constituted 4 percent of the entering class

App. 255
in 2000 instead of the actual figure of 14.5 percent,”
and African American applicants to the law school were
“nearly guaranteed admissions if they score above 155
on the LSAT,” while “[w]hites scoring [below] 167 . . .
on the LSAT [were] routinely rejected.” Grutter, 539
U.S. at 320, 377 (Thomas, J., dissenting). The
plus-factor or tips that Harvard employs to achieve
racial diversity for its educational mission are not
nearly as large. Additionally, the magnitude of
race-based tips is not disproportionate to the
magnitude of other tips applicants may receive. The
effect of African American and Hispanic racial identity
on an applicant’s probability of admission has been
estimated at a significantly lower magnitude than tips
offered to recruited athletes, and is comparable to tips
for legacies, applicants on the dean’s or director’s
interest lists, children of faculty or staff, and strengths
that are reflected by Harvard’s profile ratings.
Finally, the magnitude of race-based tips as
indicated by the relative academic qualifications of
admitted minority students at Harvard is modest.
Every student Harvard admits is academically
prepared for the educational challenges offered at
Harvard, and a majority of admitted applicants from
every major racial group scores in the 2 range on
Harvard’s academic ratings. [PX623].61 In other words,
most Harvard students from every racial group have a
roughly similar level of academic potential, although

61

An academic rating of 2 indicates magna cum laude potential,
superb grades, and mid- to high-700 SAT scores or a score above
33 on the ACT. See supra at Section III.B.3.ii. The “2 range”
includes applicants who were assigned a “2+” or “2-.”

App. 256
the average SAT scores and high school grades of
admitted applicants from each racial group differ
significantly.
Accordingly, judgment for Harvard shall enter on
Count III, using race as a non-mechanical plus factor.
G. Count V: No Adequate, Workable, and
Sufficient Fully Race-Neutral
Alternatives Are Available
Count V alleges that Harvard, in constructing an
admissions process that considers race to ensure a
diverse class, failed to consider and adopt race-neutral
alternatives that would allow it to achieve diversity.
Strict scrutiny requires that the Court “verify that it is
‘necessary’ for a university to use race to achieve the
educational benefits of diversity.” Fisher I, 570 U.S. at
312 (quoting Bakke, 438 U.S. at 305). “This involves a
careful judicial inquiry into whether a university could
achieve sufficient diversity without using racial
classifications. Although ‘[n]arrow tailoring does not
require exhaustion of every conceivable race-neutral
alternative,’” id. (quoting Grutter, 539 U.S. at 339–40),
or choosing “between maintaining a reputation for
excellence or fulfilling a commitment to provide
educational opportunities to members of all racial
groups,” Grutter, 539 U.S. at 339, “strict scrutiny does
require a court to examine with care, and not defer to,
a university’s ‘serious, good faith consideration of
workable race-neutral alternatives,’” Fisher I, 570 U.S.
at 312 (quoting Grutter, 539 U.S. at 339–340).
“Consideration by the university is of course necessary,
but it is not sufficient to satisfy strict scrutiny: The
reviewing court must ultimately be satisfied that no

App. 257
workable race-neutral alternatives would produce the
educational benefits of diversity.” Id. If “‘a nonracial
approach . . . could promote the substantial interest
about as well and at tolerable administrative expense,’
. . . then the university may not consider race.” Id.
(citation omitted). In considering the proffered raceneutral alternatives, the Court is mindful of Justice
Ginsburg’s astute observation that “only an ostrich
could regard the supposedly neutral alternatives as
race unconscious.” Id. at 335 (Ginsburg, J., dissenting).
Here, as more fully discussed in Section VI,
Harvard has demonstrated “that ‘race-neutral
alternatives’ that are both ‘available’ and ‘workable’ ‘do
not suffice.’” Fisher II, 136 S. Ct. at In sum, eliminating
early action and tips for ALDCs, increasing outreach
and community partnerships, offering more financial
aid, or admitting more transfer students are all
“available” and “workable” in some form and at varying
costs, but they would likely have no meaningful impact
on racial diversity. Further, any minimal effect that
these alternative admissions practices might have on
racial diversity, if implemented individually or in
combination, would be offset by the decline in African
American and Hispanic students that would result if
race-conscious admissions practices were eliminated.
Several other conceivable alternatives, such as
admitting only students who rank at top of their high
school class after their junior year or admitting the top
student from each zip code, are not workable for
Harvard because such programs would vastly over
enroll its class. See supra at Section III.A.2; see also
Fisher II, 136 S. Ct. at 2213 (“Class rank is a single
metric, and like any single metric, it will capture

App. 258
certain types of people and miss others. . . .
[P]rivileging one characteristic above all others does
not lead to a diverse student body.”).
SFFA’s expert, Mr. Kahlenberg, proposes a
geographic-based quota system using “neighborhood
clusters” that is seemingly designed to achieve racial
diversity based on socioeconomics rather than attention
to race. This proposal has some of the earmarks of
impermissible racial balancing, albeit without an
explicit, articulated reliance on race. Further, it poses
significant logistical challenges, such as how to form
the clusters, and how to account for wealthy
households in a generally lower income cluster, as well
as difficult institutional and philosophical questions
such as whether economics can fairly be considered a
proxy for race.
These issues aside, although Harvard could
theoretically impose some form of geographic,
place-based quota system, it could not achieve
comparable racial diversity through such a program
without a significant decline in the academic strength
of its class. Further, the legality of the proposed
place-based quota system is uncertain. In Fisher II, the
Supreme Court upheld the constitutionality of UT
Austin’s holistic review program but did not speak to
the overall permissibility of place-based admissions
policies. 136 S. Ct. at 2213–15. Unlike Harvard’s
holistic process which considers every applicant
individually, UT Austin admitted most of its class by
automatically admitting applicants who graduated in
the top 10% of their Texas high school class pursuant
to a state law requiring it to admit those students. Id.

App. 259
at 2209. The plaintiff advocated the expansion of the
automatic admission percentage, claiming it to be a
race-neutral way of increasing diversity. Id. at 2213.
The Supreme Court refused to require the expansion of
the program, stating, “‘It is race consciousness, not
blindness to race, that drives such plans.’
Consequently, petitioner cannot assert simply that
increasing the University’s reliance on a percentage
plan would make its admissions policy more race
neutral.” Id. at 2213 (citation omitted) (quoting Fisher
I, 570 U.S. at 335–36 (Ginsburg, J., dissenting)). Here,
just as in Fisher II, the Court is not persuaded that
such a plan would actually be “more race neutral,” id.
at 2213. Place-based plans therefore do not suffice, pose
complex challenges, and may not even qualify as
available race-neutral alternatives.
Harvard could adopt a more significant tip for
economically disadvantaged students, but every such
proposal presented to the Court would result in a
significant decline in African American representation.
Achieving even roughly comparable levels of combined
African American and Hispanic representation to those
Harvard presently achieves would require Harvard to
sacrifice the academic strength of its class and forgo
other admissions policies from which it derives
financial, reputational, and academic benefits. See
supra at Section III.B.3. As such, Harvard would
compromise some degree of its reputation for academic
excellence and still be less diverse than it is currently.
Title VI does not require such an outcome. See Fisher
II, 136 S. Ct. at 2213 (explaining that the Supreme
“Court’s precedent [makes] clear that the Equal
Protection Clause does not force universities to choose

App. 260
between a diverse student body and a reputation for
academic excellence”).
Harvard has demonstrated that no workable and
available race-neutral alternatives would allow it to
achieve a diverse student body while still maintaining
its standards for academic excellence. Judgment shall
therefore enter in Harvard’s favor on Count IV,
race-neutral alternatives.
H. Count I: Harvard Does Not Intentionally
Discriminate
SFFA’s intentional discrimination claim, Count I,
requires the Court to determine whether Harvard’s
admissions program violates Title VI through
intentional discrimination against Asian Americans
notwithstanding the Court’s conclusion that Harvard
has shown that its admissions program serves its
compelling interest in diversity, that some racial
categorizations are necessary to serve that interest,
that it does not engage in proscribed racial balancing,
and that no workable and available, fully race-neutral
alternatives would suffice to meet Harvard’s goals.
SFFA is not claiming that Harvard excludes Asian
Americans and in fact, Asian Americans are admitted
at virtually the same rate as white applicants. What it
does claim is that, based solely on the quantifiable
aspects of admissions, Asian Americans should be
admitted at an even higher rate and that, if the
personal ratings were not depressed, there would be
more Asian Americans admitted.
In undertaking its analysis, the Court begins with
certain fundamentals. First, “given the important

App. 261
purposes of public education and the expansive
freedoms of speech and thought associated with the
university environment, universities occupy a special
niche in our constitutional tradition.” Grutter 539 U.S.
at 328–29. Second, a university is free to “make its own
judgments as to . . . the selection of its student body.”
Id. at 329 (quoting Bakke, 438 U.S. at 312). And third,
although deference is owed to a university’s decision to
pursue the educational benefits that flow from
diversity, the university must show that its use of race
is narrowly tailored to achieve its permissible goals.
Fisher II, 136 S. Ct. at 2208.
To these, the Court reiterates the following findings
specific to this case:
1. Throughout this trial and after a careful review of
all exhibits and written submissions, there is no
evidence of any racial animus whatsoever or
intentional discrimination on the part of Harvard
beyond its use of a race conscious admissions policy,
nor is there evidence that any particular admissions
decision was negatively affected by Asian American
identity.62
62

The Court notes that under the Title VI standard applicable
outside the higher education admissions context, SFFA’s
intentional discrimination claim would fail because SFFA has not
shown, by a preponderance of the evidence, that (1) Harvard
discriminated on the basis of race, (2) that the discrimination was
intentional, and (3) that the discrimination was a substantial or
motivating factor for admissions decisions. See Goodman v.
Bowdoin Coll., 380 F.3d 33, 43 (1st Cir. 2004) (citing Tolbert v.
Queens Coll., 242 F.3d 58, 69 (2d Cir. 2001)). The requirement for
a “substantial or motivating factor” requires “evidence of racial
animus,” id. at 43, and no racial animus was present here.

App. 262
2. A race-conscious admissions program allows
Harvard to achieve a level of robust diversity that
would not otherwise be possible, at least at this
time.
3. The Court firmly believes that Asian Americans are
not inherently less personable than any other
demographic group, just as it believes that Asian
Americans are not more intelligent or more gifted in
extracurricular pursuits than any other group.
4. There is a statistical difference in the personal
ratings with white applicants faring better that
Asian American applicants. Asian American
applicants, however, do better on the
extracurricular and academic ratings than their
white counterparts. All three ratings incorporate

Further, under the standard articulated in Goodman v. Bowdoin
College, 380 F.3d 33 (1st Cir. 2004), the Court would enter
judgment for Harvard because it has shown that its admissions
program was employed to promote diversity, which is not an
invidious discriminatory purpose. See supra at Section III.D.
Admissions decisions are made only after a careful process that
considers and appreciates the diversity that applicants from
diverse racial backgrounds, including Asian Americans, provide at
Harvard. Harvard’s only intentional consideration of race views
increased racial diversity as a positive attribute of its admitted
class, which it achieves by considering an individual’s race through
an individualized, holistic evaluation of every applicant in the
manner envisioned by the Supreme Court. Further, the Court feels
confident stating that the statistical disparities in personal ratings
and admissions probabilities that have been identified are the
result of some external race-correlated factors and perhaps some
slight implicit biases among some admissions officers that, while
regrettable, cannot be completely eliminated in a process that
must rely on judgments about individuals.

App. 263
subjective and objective elements, and while
implicit biases may be affecting Harvard’s ratings
at the margins, to the extent that the disparities are
the result of race, they are unintentional and would
not be cured by a judicial dictate that Harvard
abandon considerations of race in its admission
process.
5. Harvard’s admissions program is conceptually
narrowly tailored to meet its interest in diversity.
In practice, as more fully discussed above, it does
not seem to unduly burden Asian Americans despite
the fact that some percentage of Asian American
applicants have received lower personal ratings
than white applicants who seem similarly situated.
The reason for these lower scores is unclear, but
they are not the result of intentional discrimination.
They might be the result of qualitative factors that
are harder to quantify, such as teacher and
guidance counselor recommendations, or they may
reflect some implicit biases. Race conscious
admissions will always penalize to some extent the
groups that are not being advantaged by the
process, but this is justified by the compelling
interest in diversity and all the benefits that flow
from a diverse college population. Here, any relative
burden on Asian Americans (and it is not clear that
there is a disproportionate burden) is not enough to
warrant a finding that Harvard’s admissions
process fails to survive strict scrutiny or to require
it to move to an admissions model that foregoes
diversity in favor of parity based solely on
quantifiable metrics.

App. 264
The testimony of the admissions officers that there
was no discrimination against Asian American
applicants with respect to the admissions process as a
whole and the personal ratings in particular was
consistent, unambiguous, and convincing. Not one of
them had seen or heard anything disparaging about an
Asian American applicant despite the fact that
decisions were made collectively and after open
discussion about each applicant in the docket and full
committee meetings. Similarly, there is no credible
evidence that corroborates the improper discrimination
suggested by Professor Arcidiacono’s statistical model.
Asian American applicants are accepted at the same
rate as other applicants and now make up more than
20% of Harvard’s admitted classes, up from 3.4% in
1980. Although Asian Americans can and do bring
important and diverse perspectives to Harvard,
because only about 6% of the United States population
is Asian American compared to nearly a quarter of
Harvard’s class, it is reasonable for Harvard to
determine that students from other minority
backgrounds are more likely to offer perspectives that
are less abundant in its classes and to therefore
primarily offer race-based tips to those students.
Finally, SFFA did not present a single Asian American
applicant who was overtly discriminated against or
who was better qualified than an admitted white
applicant when considering the full range of factors
that Harvard values in its admissions process.
The statistics themselves are alone not enough to
cause the Court to conclude that Harvard has engaged
in improper intentional discrimination where Harvard
has shown that its admissions policy uses race only in

App. 265
a permissible and narrowly tailored way. Further,
although Professor Arcidiacono’s statistics suggest
discrimination against certain subsets of Asian
American applicants, Professor Card’s analysis of this
same data suggests the opposite, thereby leaving the
statistical analyses inconclusive. Even assuming that
there is a statistically significant difference between
how Asian American and white applicants score on the
personal rating, the data does not clearly say what
accounts for that difference. In other words, although
the statistics perhaps tell “what,” they do not tell
“why,” and here the “why” is critically important.
Further, by its very nature, the personal score includes,
and should include, aspects of an applicant and his or
her application that are not easily quantifiable and
therefore cannot be fully captured by the statistical
data.
Harvard’s admissions process survives strict
scrutiny. It serves a compelling, permissible and
substantial interest, and it is necessary and narrowly
tailored to achieve diversity and the academic benefits
that flow from diversity. Consistent with the hallmarks
of a narrowly tailored program, applicants are afforded
a holistic, individualized review, diversity is
understood to embrace a broad range of qualities and
experiences, and race is used as a plus factor, in a
flexible, non-mechanical way. See Fisher, 136 S. Ct. at
2214; Grutter, 539 U.S. at 337–38. The Admissions
program also satisfies the other principles articulated
in Fisher II in that it does not have a quota or use a
fixed percentage and all applicants compete for all
available seats. Further, Harvard has met its burden
of showing that there are not currently any available or

App. 266
workable race-neutral alternatives. Finally, there is
nothing about Harvard’s admissions process that is at
odds with the reason for subjecting racial
classifications to strict scrutiny—to ensure “little or no
possibility that the motive for the classification was
illegitimate racial prejudice or stereotype.” J.A. Croson
Co., 488 U.S. at 493. The use of race benefits certain
racial and ethnic groups that would otherwise be
underrepresented at Harvard and is therefore neither
an illegitimate use of race or reflective of racial
prejudice. Accordingly, judgment for Harvard shall
enter on Count I, intentional discrimination.
VIII. CONCLUSION
Notwithstanding the fact that Harvard’s admissions
program survives strict scrutiny, it is not perfect. The
process would likely benefit from conducting implicit
bias trainings for admissions officers, maintaining
clear guidelines on the use of race in the admissions
process, which were developed during this litigation,
and monitoring and making admissions officers aware
of any significant race-related statistical disparities in
the rating process. That being said, the Court will not
dismantle a very fine admissions program that passes
constitutional muster, solely because it could do better.
There is always the specter of perfection, but strict
scrutiny does not require it and a few identified
imperfections, after years of litigating and sifting
through applications and metrics, do not alone require
a finding that Harvard’s admissions program is not
narrowly tailored.
Further, the Court emphatically repeats what the
Supreme Court said in Fisher II:

App. 267
The University now has at its disposal valuable
data about the manner in which different
approaches to admissions may foster diversity or
instead dilute it. The University must continue
to use this data to scrutinize the fairness of its
admissions program; to assess whether changing
demographics have undermined the need for a
race-conscious policy; and to identify the effects,
both positive and negative, of the affirmativeaction measures it deems necessary.
The Court’s affirmance of the University’s
admissions policy today does not necessarily
mean the University may rely on that same
policy without refinement. It is the University’s
ongoing obligation to engage in constant
deliberation and continued reflection regarding
its admissions policies.
136 S. Ct. at 2213–15.
The Court here stops well short of requiring an
admissions process that is overly data driven. Using
statistics to ensure that the distribution of profile
ratings or any other measure is exact even among
various groups would potentially run afoul of the
prohibition on quotas and, more importantly, defeat the
purpose of a comprehensive, holistic review process
that allows the admission of applicants with virtues
that are not always quantifiable. But now that Harvard
and other schools can see how statistical analyses can
reveal perhaps otherwise imperceptible statistical
anomalies, these sorts of statistics should be used as a
check on the process and as a way to recognize when
implicit bias might be affecting outcomes.

App. 268
It was always intended that affirmative action
programs be limited in duration. In 2003, the Supreme
Court articulated its expectation that in twenty-five
years, it would not be necessary to use racial
preferences to achieve a diverse student body. Grutter,
539 U.S. at 343. As time marches on and the effects of
entrenched racism and unequal opportunity remain
obvious, this goal might be optimistic and may need to
change, but it remains imperative that Harvard and
other schools that make use of racial preferences to
achieve a diverse learning environment ensure,
through data and experience, that “race plays no
greater role than is necessary to meet its compelling
interest” in diversity and to keep in mind that “racial
classifications may sometimes fail to capture diversity
in all of its dimensions.” Fisher II, 136 S. Ct. at 2210.
The wise and esteemed author Toni Morrison
observed, “Race is the least reliable information you
can have about someone. It’s real information, but it
tells you next to nothing.” Emily Langer, From heart of
black America, a voice for the voiceless, Boston Globe,
Aug. 7, 2019, at C11 (quoting Paul Gray, Books:
Paradise Found, Time (Jan. 19, 1998),
http://content.time.com/time/subscriber/article/0,3300
9,987690-5,00.html). Although this has been said, it
must become accepted and understood before we close
the curtain on race conscious admissions policies. The
rich diversity at Harvard and other colleges and
universities and the benefits that flow from that
diversity will foster the tolerance, acceptance and
understanding that will ultimately make race conscious
admissions obsolete.

App. 269
As President Ruth Simmons said from the witness
stand in this case when asked about the importance of
diversity:
It’s very hard for me to overstate my
conviction about the benefits that flow to all of
these areas from a diverse undergraduate
student body. I know something about the lack
of diversity in one’s education. . . . My father was
a janitor, my mother was a maid. They had been
sharecroppers, they had few opportunities. I
lived through that. I remember it. So to me, the
benefits that flow to students is they get a better
education, a deeper education, a truer education
to deal with what they’re going to have to deal
with in life.
To the institution, it makes for not just an
enhanced learning environment but for the
opportunity to be unparalleled in their standing
because they offer something that is so
indispensable for society.
And for society, my goodness, I’ve spoken about
the conflicts in society, how deeply they run, how
they resurface from time to time. How can we
imagine a world in which we are not creating
leaders and citizens who have the capacity to
mediate those differences? I cannot imagine it.
And so it’s with great conviction that I say that
we must continue to offer diverse undergraduate
education to our young people to save our
nation.
[Oct. 30 Tr. 54:11–55:15].

App. 270
That eloquent testimony captures what is important
about diversity in education. For purposes of this case,
at least for now, ensuring diversity at Harvard relies,
in part, on race conscious admissions. Harvard’s
admission program passes constitutional muster in
that it satisfies the dictates of strict scrutiny. The
students who are admitted to Harvard and choose to
attend will live and learn surrounded by all sorts of
people, with all sorts of experiences, beliefs and talents.
They will have the opportunity to know and
understand one another beyond race, as whole
individuals with unique histories and experiences. It is
this, at Harvard and elsewhere that will move us, one
day, to the point where we see that race is a fact, but
not the defining fact and not the fact that tells us what
is important, but we are not there yet. Until we are,
race conscious admissions programs that survive strict
scrutiny will have an important place in society and
help ensure that colleges and universities can offer a
diverse atmosphere that fosters learning, improves
scholarship, and encourages mutual respect and
understanding.
SO ORDERED.
September 30, 2019

/s/ Allison D. Burroughs
ALLISON D. BURROUGHS
U.S. DISTRICT JUDGE

App. 271

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 14-14176-ADB
[Filed: September 30, 2019]
__________________________________________
Students for Fair Admissions, Inc.
)
Plaintiff
)
)
v.
)
)
President and Fellows of Harvard College
)
Defendant
)
__________________________________________)
JUDGMENT IN A CIVIL CASE
Burroughs, D.J.
_____ Jury Verdict. This action came before the court
for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
X

Decision by the Court. This action came to
Bench Trial before the Court. The issues have
been tried or heard and a decision has been ren
dered pursuant to the FINDINGS OF FACT
AND CONCLUSIONS OF LAW entered
September 30, 2019.

App. 272
IT IS ORDERED AND ADJUDGED: Judgment
for the Defendant Preside nt and Fellows of
Harvard College (Harvard Corporation).
ROBERT M. FARRELL
CLERK OF COURT
Dated: September 30, 2019
/s/ Christina McDonagh
By ________________________
Deputy Clerk

App. 273

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No. 14-cv-14176-ADB
[Filed: September 28, 2018]
__________________________________________
STUDENTS FOR FAIR ADMISSIONS,
)
INC.
)
)
Plaintiff,
)
)
v.
)
)
PRESIDENT AND FELLOWS OF
)
HARVARD COLLEGE (HARVARD
)
CORPORATION),
)
)
Defendant.
)
__________________________________________)
MEMORANDUM AND ORDER ON
CROSS-MOTIONS FOR SUMMARY JUDGMENT
BURROUGHS, D.J.
This case involves allegations that Defendant
President and Fellows of Harvard College (“Harvard”)
maintains an undergraduate admissions program that
discriminates against Asian Americans in violation of
Title VI of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000d et seq. (“Title VI”). The remaining claims

App. 274
asserted by Plaintiff Students for Fair Admissions Inc.
(“SFFA”) are: “Intentional Discrimination against
Asian Americans” (Count I); “Racial Balancing” (Count
II); “Failure to Use Race Merely as a ‘Plus’ Factor in
Admissions Decisions” (Count III); and “Race-Neutral
Alternatives” (Count V). [ECF Nos. 1, 325]. On June
15, 2018, the parties filed cross-motions for summary
judgment on all counts. [ECF Nos. 412, 417]. The
motions were opposed on July 27 and July 30, 2018
[ECF Nos. 435, 449], and reply briefs were filed on
August 27 and August 30, 2018. [ECF Nos. 484, 510].
Several interested non-parties have appeared as amici
curiae in support of or in opposition to the summary
judgment motions. A bench trial on the issue of liability
is scheduled to begin on October 15, 2018.1 [ECF No.
405].
For the reasons stated herein, the cross-motions for
summary judgment are denied on all counts without
prejudice to the parties reasserting their arguments at
trial, consistent with this order. The Court will also
further consider the arguments raised in the amicus
briefs at trial.2

1

The parties have agreed to defer any further litigation of the
issue of remedies until after liability is determined. [ECF Nos. 386,
387].
2

Certain organizations that are affiliated with Harvard were
permitted to appear as amici curiae [ECF No. 465] under the same
or similar terms as the individual students who were previously
allowed to participate in dispositive motion practice. [ECF Nos. 52,
244]. SFFA has since sought to strike portions of these
organizations’ amicus briefs and their related sworn declarations.
[ECF Nos. 471, 479]. The Court declines to strike these documents

App. 275
I.

BACKGROUND

In February and April 2018, prior to the June 15
deadline for filing dispositive motions, the Court
suggested to the parties that since the remaining
claims appeared to require a fact- intensive inquiry, as
well as the evaluation of conflicting expert testimony,
summary judgment could be a time-consuming and
duplicative effort for the parties and the Court, and
perhaps not warranted in light of the upcoming bench
trial. [ECF Nos. 384, 402]. Although Harvard agreed,
SFFA contended that some or all of the claims could be
resolved on summary judgment, while acknowledging
that it would be reasonable for the Court to take any
dispositive motions under advisement and proceed to
trial. [ECF No. 384]. See Grutter v. Bollinger, 539 U.S.
306, 317–18 (2013) (district court took cross-motions for
summary judgment under advisement and conducted
15-day bench trial before ruling on the motions). The
Court ultimately permitted the parties to file
dispositive motions [ECF No. 387], but cautioned that
if the motions presented material factual disputes, the
parties should expect a summary order of denial. [ECF
No. 402].
Both parties have now moved for summary
judgment on all counts. SFFA submitted in support of
its motion a 900-paragraph statement of allegedly
undisputed facts [ECF No. 414-2] (“SFFA Facts”),
at this time, as their inclusion in the record does not bear on the
resolution of the summary judgment motions. The Court will
further assess the extent to which the students and other
organizations may participate at trial, if at all. [ECF Nos. 52, 518,
532].

App. 276
approximately 700 of which are at least partially in
dispute [ECF No. 437] (“Harvard Response”). SFFA
disputes [ECF No. 452] (“SFFA Response”)
approximately half of Harvard’s 278-paragraphs of
allegedly undisputed facts [ECF No. 420] (“Harvard
Facts”), and nearly all of Harvard’s 45-paragraph
supplemental statement of material facts that allegedly
preclude summary judgment for SFFA. [ECF Nos. 437,
511]. Further, the parties’ expert witnesses—David
Card [ECF Nos. 419-33, 419-37], Ruth Simmons [ECF
Nos. 419-28, 419-34], Peter S. Arcidiacono [ECF Nos.
415-1, 415-2, 415-3], and Richard D. Kahlenberg [ECF
Nos. 416-1, 416-2, 416-3]—have each produced multiple
expert reports that raise a plethora of conflicting
opinions on key substantive issues in the case.
Except as otherwise noted, the following facts are
not in dispute.
A. Harvard’s Admissions Office
Located in Cambridge, Massachusetts, Harvard is
a liberal arts college and the oldest institution of higher
learning in the United States. SFFA Facts ¶ 4. It
receives federal financial assistance and is therefore
subject to Title VI. SFFA Facts ¶ 9. For the Class of
2019, more than 37,000 people applied for
undergraduate admission to Harvard, 26,000 of whom
were domestic applicants.3 Harvard Facts ¶¶ 1, 5. Over
8,000 domestic applicants had perfect converted GPAs
and over 5,000 domestic applicants achieved a perfect
math or verbal SAT score. Harvard Facts ¶¶ 6-8.
3

SFFA does not challenge Harvard’s undergraduate admissions
program with respect to international applicants.

App. 277
Harvard offered admission to 2,003 applicants for the
Class of 2019. Harvard Facts ¶ 2.
The Office of Admissions and Financial Aid at
Harvard (“Admissions Office”) is tasked with making
admissions decisions. SFFA Facts ¶ 6. This office
employs approximately 40 admissions officers who,
under the guidance of the Admissions Office’s
leadership, handle most of the day-to-day operations of
the admissions program.4 SFFA Facts ¶¶ 6, 13-14.
B. Applying to Harvard
Students apply to Harvard either through the Early
Action program, which typically has a November 1
deadline, or through the Regular Decision program,
which typically has a January 1 deadline, but the same

4

For the purposes of this litigation, the leadership of the
Admissions Office includes William Fitzsimmons as the Dean of
Admissions and Financial Aid, Marlyn McGrath as the Director of
Admissions, and Sally Donahue as the Director of Financial Aid,
although Ms. Donahue retired in July 2018 and Jake Kaufman
now serves as Director of Financial Aid. SFFA Facts ¶¶ 13-15;
Harvard Response ¶ 15. Other members of Harvard’s leadership
include Drew G. Faust, the former President of Harvard from 2007
to June 30, 2018, and Lawrence Bacow, the current President of
Harvard, who were or are responsible for overseeing all of
Harvard’s degree-granting schools; Michael D. Smith, the Dean of
the Faculty of Arts and Sciences, who is responsible for overseeing
the administrative, financial, and human resources aspects of
Harvard’s Faculty of Arts and Sciences and the Admissions Office,
among other schools and departments; and Rakesh Khurana, the
Dean of Harvard College, who reports to Dean Smith and is
responsible for the undergraduate education and residential
experience of Harvard students. SFFA Facts ¶¶ 10-15; Harvard
Response ¶¶ 10-11.

App. 278
procedures for reviewing applications generally apply
regardless of whether a student has applied for Early
Action or Regular Decision. Harvard Facts ¶¶ 11-12.
Students apply by submitting a Common Application,
Universal College Application, or Coalition Application.
Harvard Facts ¶ 13. They must complete a short
supplement to indicate their interest and the strength
of that interest in an academic field, a career, and
extracurricular activities. Harvard Facts ¶ 14.
Applicants may submit scholarly work, artwork, or
recordings of music or dance performances. Harvard
Facts ¶ 15. The Common Application, Universal
College Application, and Coalition Application permit
all students to identify their race (and students may
choose more than one), but Harvard does not require
them to do so. Harvard Facts ¶¶ 16-18, 20. Applicants
may also include information about their race in other
parts of the application, such as in their personal
essay. Harvard Facts ¶ 17. After submitting an
application, most students are interviewed in person by
a Harvard alumnus who reports his or her feedback to
the Admissions Office. Harvard Facts ¶ 21. In sum, a
complete application file typically includes:
1.

The applicant’s name, age, sex, address,
citizenship, place of birth, and race (if disclosed);

2.

Information about the applicant’s family;

3.

The applicant’s standardized test scores;

4.

The applicant’s high school transcripts and
reported grade point average;

5.

Information provided by the applicant’s high
school about the school itself, such as the

App. 279
number of students that attend college, the
available courses, the percentage of students
that receive free or reduced-price lunch, and the
economic and demographic profile of the
community;
6.

One or more essays written by the applicant;

7.

A letter from the applicant’s high school
guidance counselor;

8.

At least two letters of recommendation from
high school teachers, and often additional
recommendation letters from teachers,
supervisors, or others;

9.

In many cases, a detailed, multi-page evaluation
from a Harvard alumni interviewer; and

10.

The applicant’s answers to questions about his
or her intended academic concentration,
extracurricular and athletic participation, and
post-college career.

Harvard Facts ¶ 22.
C. Application Review
Harvard organizes its review of application files into
approximately twenty (eighteen domestic and two
international) geographical regions referred to as
“dockets,” which vary widely in geographic scope but
cover a roughly similar number of applications.
Harvard Facts ¶¶ 36-37; SFFA Facts ¶¶ 65-66. A
subcommittee of admissions officers—usually three to
six “first readers” that are assigned to specific areas
within the docket and a senior admissions officer

App. 280
serving as the “docket chair”—is responsible for the
initial evaluation of all candidates within a particular
docket. Harvard Facts ¶¶ 38-40.
The written guidelines as to how admissions officers
should review application files are contained in the
Admissions Office’s “Reading Procedures,” which are
distributed to the admissions officers each year. SFFA
Facts ¶ 68. The Reading Procedures set forth, among
other things, criteria for assigning numerical ratings to
each application. SFFA Facts ¶ 69. Harvard also
conducts an in-person orientation and training
program for all newly hired admissions officers. SFFA
Facts ¶ 70. After participating in orientation, new
admissions officers are typically required to share the
first 50 to 100 application files that they read with a
more senior admissions officer who provides feedback
on the ratings assigned by the new admissions officer.
Harvard Facts ¶ 30; SFFA Facts ¶ 71. The work of new
admissions officers is closely monitored by more senior
admissions officers during their first few years of
employment. SFFA Facts ¶ 71.
1. First Reader and Docket Chair
To begin the application evaluation process, a first
reader reviews the application files from the high
schools in his or her area within the docket. Harvard
Facts ¶ 41. First readers conduct the review using a
“summary sheet,” which is a two to three-page
document that is prepopulated with information from
a particular student’s application, including that
student’s high school, citizenship, test scores, GPA,
class rank, and race. SFFA Facts ¶ 74. The summary
sheet also contains three blank sections that may be

App. 281
completed by the first reader: “Ratings,” “Notes,” and
“Reader Comments.” SFFA Facts ¶ 74. The Ratings
section contains fourteen boxes representing the
following categories in which an applicant may receive
numerical scores: overall, academic, extracurricular,
athletic, personal, teacher recommendation (up to four
possible), a school support recommendation, two staff
interview ratings (overall and personal), and two
alumni interview ratings (overall and personal).5 SFFA
Facts ¶ 75. The Notes section may be used to briefly
summarize the application or other pertinent
information, and the Comments section may be used to
provide a more extensive discussion of the application.
SFFA Facts ¶¶ 76-77.
After reviewing an application file, the first reader
assigns academic, extracurricular, athletic, personal,
and overall ratings to the applicant, and rates the
strength of the teacher and guidance counselor letters
of recommendation. Harvard Facts ¶¶ 43-45. The
numerical ratings generally range between 1 and 4 in
all categories, with 1 being the best rating. Harvard
Facts ¶¶ 46-47. Admissions officers may add a plus or
a minus to a numerical rating of 2 or 3; a 2+ is better
than a 2 which is better than a 2-. Harvard Facts ¶ 48;
SFFA Response ¶ 48.
The academic rating summarizes the applicant’s
academic achievement and potential based on grades,
test scores, letters of recommendation, academic prizes,

5

Alumni and admissions officers assign ratings following an
interview with an applicant based on criteria similar to the criteria
used by first readers to assign their ratings. SFFA Facts ¶¶ 92-95.

App. 282
and any submitted academic work. Harvard Facts ¶ 49.
The extracurricular rating captures the strength of the
applicant’s involvement in activities during high school
and his or her potential to contribute at Harvard
outside of the classroom. Harvard Facts ¶ 53. The
athletic rating takes into account the strength of the
applicant’s potential contributions to athletics at
Harvard, as well as the applicant’s athletic activity in
high school. Harvard Facts ¶ 57. According to Harvard,
the personal rating “summarizes the applicant’s
personal qualities based on all aspects of the
application, including essays, letters of
recommendation, the alumni interview report, personal
and family hardship, and any other relevant
information in the application,” and admissions officers
assign the personal rating based on their assessment of
the applicant’s “humor, sensitivity, grit, leadership,
integrity, helpfulness, courage, kindness and many
other qualities.”6 Harvard Facts ¶¶ 59-60. The ratings
for recommendations, referred to as “school support,”
are meant to evaluate the strength of counselor and
teacher recommendations. Harvard Facts ¶ 62; SFFA
Response ¶ 62. Finally, the overall rating is intended to
summarize the strength of the application as a whole,
although it is not determined by a formula and does not
involve adding up the other ratings. Harvard Facts
¶¶ 64-65. Harvard instructs first readers to assign the
overall rating by “stepping back and taking all the
factors into account.” SFFA Facts ¶ 99. Admissions
6

SFFA admits that first readers determine the personal rating by
examining a variety of subjective factors, but also contends that
other unlisted factors, such as an applicant’s race, affect the
personal rating. SFFA Response ¶ 60.

App. 283
officers may consider race in assigning the overall
rating, but are not supposed to consider race when
assigning the academic, extracurricular, athletic, and
personal ratings. Harvard Facts ¶ 119; SFFA Facts
¶ 214; Harvard Response ¶ 214.
After the first reader completes his or her
evaluation, the application file may be sent to the
docket chair for further review. Harvard Facts ¶ 67.
The docket chair may assign ratings in the same
categories as the first reader and add written
comments. Harvard Facts ¶¶ 68-69. The first reader
and the docket chair’s scores, as well as any comments
from other readers, are reflected in the application file.
Harvard Facts ¶ 70.
2. Subcommittee
Meetings

and

Full

Committee

After each application has been reviewed by a first
reader, the subcommittees meet to further evaluate the
applications in their dockets. SFFA Facts ¶ 113. The
first reader of an application pending before the
subcommittee summarizes the strengths and
weaknesses of that applicant’s candidacy. Harvard
Facts ¶ 72. Subcommittee members then discuss the
applicant and decide as a group what recommendation
and level of support to convey to the full admissions
committee regarding admission. Harvard Facts ¶¶ 73,
75. Dean Fitzsimmons also allegedly visits the
subcommittee meetings to support applicants on the
“Dean’s Interest List,” which is a list of applicants that
may be of interest to Harvard. SFFA Facts ¶¶ 294-295;
SFFA Response ¶ 73.

App. 284
After all of the subcommittees have decided which
applications to recommend for admission, the full
admissions committee (approximately 40 people) meets
to make the final decisions on those applications.8
Harvard Facts ¶ 76; SFFA Facts ¶ 125. The full
committee includes, among others, all the admissions
officers who read application files, as well as Dean
Fitzsimmons, Director McGrath, and the Director of
Financial Aid. Harvard Facts ¶¶ 77-78.9 At a full
committee meeting, the first reader of the application
being discussed makes a presentation to the committee,
typically emphasizing the applicant’s strengths.
Harvard Facts ¶ 79. After the discussion is complete,
the full committee decides whether to admit, reject, or
waitlist the candidate. Harvard Facts ¶ 80. In both the
subcommittee and full committee meetings, each
admissions officer has one vote, and a majority vote
controls whether a student is admitted, wait-listed, or
rejected. Harvard Facts ¶ 81; SFFA Facts ¶ 128. The
subcommittee and full committee members can

8

The parties dispute whether every application is discussed at the
full committee meetings or only those that the subcommittees
recommend for admission or that are otherwise competitive. See
SFFA Facts ¶¶ 125-26; Harvard Response ¶¶ 125-26.
9

Prior to beginning the full committee process, Dean Fitzsimmons
and Director McGrath receive a document referred to as a
“one-pager” that contains statistics and information about the
to-be admitted class and the prior year’s admitted class, including
information about gender, geographic region, expected
concentration, financial aid, citizenship, race, and other
characteristics. SFFA Facts ¶¶ 130, 239; Harvard Response
¶¶ 130, 239. The parties dispute the extent to which one-pagers
are used in the admissions process.

App. 285
potentially consider race as a factor in deciding which
candidates to recommend or vote to admit, deny, or
waitlist. SFFA Facts ¶¶ 236, 250; Harvard Response
¶¶ 251, 264; [ECF No. 419-1 at 52-53].
Near the end of the full committee meetings, Dean
Fitzsimmons and Director McGrath confirm the final
target number of admitted students and determine
whether any applicants must be “lopped” or removed
from the class of students on the “admit” list to reach
that target. SFFA Facts ¶ 134; Harvard Response
¶ 134.
3. Post-Admission Review
After the admissions decisions are made, Harvard
undertakes certain recruiting efforts to encourage
admitted students to attend Harvard, including
through the Visitas Program which allows admitted
students to visit the campus and learn about Harvard.
SFFA Facts ¶¶ 138-139; Harvard Facts ¶ 142.
Admitted students have until May 1 to accept their
offers of admission. SFFA Facts ¶ 140. If there are
spaces available in the incoming class after May 1, the
full admissions committee meets to fill the remaining
spots with applicants from the waitlist. SFFA Facts
¶ 141. Harvard also offers some applicants deferred
admission for the following class year. SFFA Facts
¶¶ 145-146; Harvard Response ¶¶ 145-146.
D. Harvard’s Stated Mission and Pursuit of
Diversity
Harvard states that its mission “is to educate the
citizens and citizen-leaders for our society . . . through
. . . the transformative power of a liberal arts and

App. 286
sciences education,” and believes that “[t]hrough a
diverse living environment, where students live with
people who are studying different topics, who come
from different walks of life and have evolving
identities, intellectual transformation is deepened and
conditions for social transformation are created.”
Harvard Facts ¶¶ 82-83. “From this [Harvard] hope[s]
that students will begin to fashion their lives by
gaining a sense of what they want to do with their gifts
and talents, assessing their values and interests, and
learning how they can best serve the world.” Harvard
Facts ¶ 83. According to Harvard, to achieve its
educational mission, it “seeks to admit a class with
diverse socioeconomic, geographic, and racial
backgrounds; a broad range of academic, intellectual,
and extracurricular interests and talents; and a variety
of different life experiences that include overcoming
hardship, engaging in public service, and much more.”
Harvard Facts ¶¶ 84-85. In 1996, Harvard’s
then-President, Neil Rudenstine, drafted a report in
which he explained the importance of diversity to
Harvard’s mission:
Our commitment to excellence also means that
we will seek out—in all corners of the nation,
and indeed the world—a diversity of talented
and promising students. Such diversity is not an
end in itself, or a pleasant but dispensable
accessory. It is the substance from which much
human learning, understanding, and wisdom
derive. It offers one of the most powerful ways of
creating the intellectual energy and robustness
that lead to greater knowledge, as well as the

App. 287
tolerance and mutual respect that are so
essential to the maintenance of our civic society.
Harvard Facts ¶ 86; [ECF No. 419-41 at 56]. In 2015,
Harvard established a Committee to Study the
Importance of Student Body Diversity, chaired by Dean
Khurana, which was tasked with examining how
“diversity in the student body helps catalyze the
intellectual, social, and personal transformations that
are central to Harvard’s liberal arts and science
education.” Harvard Facts ¶¶ 87-88.10 The committee
endorsed former President Rudenstine’s report and
“emphatically embrace[d] and reaffirm[ed] [Harvard’s]
long-held view that student body diversity—including
racial diversity—is essential to [Harvard’s] pedagogical
objectives and institutional mission.” Harvard Facts
¶ 89; [ECF No. 419-45 at 3]. The committee’s report
described the ways in which student body diversity
positively impacts the curriculum, residential and
classroom experiences, extra-curricular activities,
athletics, and other learning experiences at Harvard.
[ECF No. 419-45 at 8-18]. The committee ultimately
concluded that student body diversity “enhances the
education of all of our students, it prepares them to
assume leadership roles in the increasingly pluralistic
society into which they will graduate, and it is
10

Harvard also had previously, in June 2014, convened a
university-wide committee chaired by James Ryan, Dean of the
Graduate School of Education, which was charged with examining
the importance of student-body diversity at Harvard and with
evaluating whether Harvard could achieve the educational benefits
of a diverse student body without considering race (the “Ryan
Committee”). Harvard Facts ¶ 145. The Ryan Committee ceased
meeting in late 2014. Harvard Facts ¶ 146; SFFA Response ¶ 146.

App. 288
fundamental to the effective education of the men and
women of Harvard College.” Harvard Facts ¶ 90. The
full Harvard Faculty of Arts and Sciences unanimously
adopted the committee’s report. Harvard Facts ¶ 91.
In 2017, Harvard established a separate committee
to Study Race Neutral Alternatives in Harvard College
Admissions, which was chaired by Dean Smith, with
Dean Fitzsimmons and Dean Khurana serving as the
other committee members (the “Smith Committee”).
Harvard Facts ¶ 147. The Smith Committee was
charged with evaluating whether race-neutral
alternatives are available and workable for achieving
the benefits that flow from student body diversity at
Harvard. Harvard Facts ¶ 151. In April 2018, after
meeting seven times over the course of nine months,
Harvard Facts ¶ 154, the Smith Committee produced
a report explaining that it considered social science and
other literature, the Complaint and the expert reports
produced in this litigation, as well as other information
collected from several offices of Harvard, in reaching
the following conclusions:
(1) If Harvard stopped considering race in the
admissions process, the proportion of African American
and Latin American students in the admitted class
would dramatically decline, notwithstanding all the
other efforts that Harvard makes to enroll a diverse
class, while the proportion of white students would
dramatically increase and the proportion of Asian
American students would slightly increase. Harvard
Facts ¶¶ 156-57.
(2) The “significant decline in racial diversity that
would flow from eliminating the consideration of race

App. 289
in the admissions process would prevent Harvard from
achieving its diversity-related educational objectives”
because “students in a significantly less diverse class
will have diminished opportunities to engage with and
learn from classmates who come from widely different
backgrounds and circumstances . . . [which] would
leave students ill prepared to contribute to and lead in
our diverse and interconnected nation and world.”
Harvard Facts ¶ 159.
(3) No combination of race-neutral practices,11
including broader efforts to recruit a diverse class;
increased financial aid; further emphasis on geographic
diversity; admitting more transfer students;
eliminating Early Action or deferred admission;
affording greater weight to applicants’ modest
socioeconomic background; and ceasing to consider
applicants’ test scores, legacy status, parents’
employment at Harvard, recruited athlete status, or

11

Harvard currently employs certain race-neutral practices to
achieve diversity: (1) mailing materials about Harvard and its
financial aid program to certain applicants of modest economic
backgrounds; (2) holding recruitment events throughout the
United States, including in geographic areas that do not frequently
send students to Harvard; (3) maintaining a First Generation
program to encourage students who are from the first generation
in their families to attend a four-year college to apply to Harvard;
(4) implementing an Undergraduate Minority Recruitment
Program to encourage a racially diverse applicant pool; (5) offering
an entirely need-based financial aid program, and (6) hosting
admitted students for the Visitas program which is designed to
expose admitted students to life at Harvard. Harvard Facts
¶¶ 127-144. SFFA largely disputes the effectiveness of Harvard’s
implementation of these practices. SFFA Response ¶¶ 127-144.

App. 290
inclusion on the Dean’s or Director’s interest list,12
would practicably allow Harvard to achieve the
educational benefits of a diverse student body without
unacceptably sacrificing other important educational
and institutional objectives. Harvard Facts ¶¶ 164-212.
E. Alleged Discrimination against Asian
Americans
The following facts are largely in dispute, but
warrant discussion to provide a more complete view of
the case. In November 2012, Harvard came under
pressure to respond to allegations of perpetuating an
“anti-Asian admissions bias” following the publication
of a magazine article written by a Harvard alumnus,
which described anecdotal and statistical evidence of
prejudice against Asian Americans in Harvard’s
admissions program. SFFA Facts ¶¶ 348-357.
Harvard’s Office of Institutional Research (“OIR”)
conducted an analysis of the article’s allegations of
discrimination. SFFA Facts ¶¶ 362-364.
In February 2013, the OIR produced a report
showing that the admission rate for Asian Americans
was highest in a simulation where the criteria for
admission was academics only, and that the admission
rate for Asian Americans progressively declined as
more variables were added to the simulation, such as

12

Dean Fitzsimmons keeps a list of applicants that may be of
interest to Harvard. SFFA Facts ¶¶ 294-295. Although the parties
refer to a “Director’s Interest List” that also allegedly identifies
candidates of particular interest to Harvard, it is unclear from the
record who creates the Director’s List or how that list compares to
the Dean’s Interest List. [ECF No. 415-1 at 6].

App. 291
extracurricular activities, personal rating, legacy
status, recruited athlete status, gender, and race.
SFFA Facts ¶¶ 399-421. The OIR found that when
adding the consideration of race to the admissions
criteria, “the share of Asian American students . . .
fall[s] by more than 8 percentage points, representing
a 32 percent decrease in their share of the overall class.
This . . . represent[s] the largest drop of any racial
group.” SFFA Facts ¶ 416. Dean Fitzsimmons and
Dean Khurana were apparently presented with the
findings in this report but neither of them requested
additional research from the OIR or discussed the
February 2013 report with anyone else in the
Admissions Office. SFFA Facts ¶¶ 427-431, 537-543.
In a second report completed in 2013, the OIR found
that non-legacy, non-athlete (“NLNA”) Asian American
applicants performed significantly better than NLNA
White applicants in SAT scores, the alumni overall
rating, and the academic rating, as well as slightly
better than NLNA White applicants in the
extracurricular rating, and the same as NLNA White
applicants in the alumni personal rating, the guidance
counselor rating, and teacher ratings. SFFA Facts
¶ 438. The only category in which NLNA White
applicants performed significantly better than NLNA
Asian American applicants was the personal rating,
and the OIR provided no explanation as to why NLNA
White applicants received higher personal ratings than
NLNA Asian American applicants. SFFA Facts ¶¶ 439440. The OIR also found that NLNA White applicants
were admitted at a higher rate than NLNA Asian
American applicants with roughly the same academic
scores, and found a negative association between being

App. 292
admitted to Harvard and being Asian American,
although no similar link was observed with any other
racial group. SFFA Facts ¶¶ 442-446, 450-51. Dean
Fitzsimmons received this second 2013 report, but
again did not request any additional research from the
OIR or discuss the report with anyone in the
Admissions Office. SFFA Facts ¶¶ 466-471. Dean
Fitzsimmons and Dean Khurana were similarly
nonresponsive when the OIR presented them with a
separate memorandum created in May 2013 that found
that being Asian American was negatively associated
with the likelihood of admission to Harvard. SFFA
Facts ¶¶ 504-509, 513-517, 537-543.
In addition to the 2012 and 2013 OIR documents,
SFFA contends that the admissions data produced in
this litigation confirms Harvard’s bias against Asian
Americans. SFFA Facts ¶¶ 581-82. Consistent with
this Court’s orders, Harvard produced applicant-byapplicant admissions data for the Classes of 2014
through 2019, aggregate information on the Classes of
2000 through 2017, and 480 application files and 640
summary sheets from the Classes of 2018 and 2019.
SFFA Facts ¶¶ 582-584. In analyzing this data, SFFA’s
statistical expert, Professor Arcidiacono, concluded that
while Asian American applicants are, as a group,
stronger than applicants of other racial backgrounds in
the academic and extracurricular ratings, SFFA Facts
¶¶ 595-601, and receive personal ratings from alumni
interviewers comparable to White applicants, SFFA
Facts ¶ 610, they have the lowest share of applicants
receiving better than 3+ on the personal ratings given
by admissions officers. SFFA Facts ¶ 609. Further,
Asian Americans at every level of academic

App. 293
achievement receive lower personal ratings than
applicants of all other racial groups. SFFA Facts ¶ 613.
Professor Arcidiacono similarly found bias against
Asian American applicants in the overall ratings
assigned by admissions officers, SFFA Facts ¶¶ 62426, and that Asian Americans were ultimately
admitted into Harvard at rates lower than any other
racial group from the Class of 2000 through the Class
of 2019, even though Asian Americans had higher test
scores than all other racial groups during this period of
time. SFFA Facts ¶¶ 630-632. In short, Professor
Arcidiacono concludes, based on his analysis, that the
assignment of personal ratings and overall ratings is
biased against Asian Americans and that all things
being equal, an Asian American applicant has a lower
chance of admission than a White applicant. SFFA
Facts ¶¶ 656-669.
As discussed further below, SFFA’s assertions are
allegedly supported by other statistics, documents, and
testimonial evidence of Harvard’s discrimination or
impermissible consideration of race in admissions.
II.

PROCEDURAL HISTORY

On November 17, 2014, SFFA filed the operative
complaint asserting six causes of action based on
Harvard’s alleged violation of Title VI: “Intentional
Discrimination against Asian Americans” (Count I);
“Racial Balancing” (Count II); “Failure to Use Race
Merely as a ‘Plus’ Factor in Admissions Decisions”
(Count III); “Failure to Use Race to Merely Fill the Last
‘Few Places’ in the Incoming Freshman Class” (Count
IV); “Race-Neutral Alternatives” (Count V); and “Any
Use of Race as a Factor in Admissions” (Count VI).

App. 294
[ECF No. 1]. On March 11, 2016, the Court stayed this
action pending the Supreme Court’s ruling in Fisher v.
University of Texas at Austin, 136 S. Ct. 2198 (2016).
[ECF No. 146]. After the Supreme Court issued its
ruling on June 23, 2016, Harvard moved to dismiss this
case for lack of standing [ECF No. 187] and separately
moved for judgment on the pleadings as to Counts IV
and VI because those claims were inconsistent with
Supreme Court precedent [ECF No. 185]. On June 2,
2017, the Court denied the motion to dismiss [ECF No.
324] but granted judgment on the pleadings for Counts
IV and VI [ECF No. 325]. The remaining claims
(Counts I, II, III, and V) are the subject of the pending
cross-motions for summary judgment.
III.

LEGAL STANDARD

Neither party has suggested that this Court should
deviate from the ordinary standard of review for
summary judgment. This is also not a case in which
“the parties cross-moved for summary judgment, yet
both agreed that there was no dispute over the basic
facts of the case,” United Paperworkers Int’l Union
Local 14, AFL-CIO-CLC v. Int’l Paper Co., 64 F.3d 28,
31 (1st Cir. 1995), such that the Court may be “entitled
to ‘engage in a certain amount of factfinding, including
the drawing of inferences.’” TLT Constr. Corp. v. RI,
Inc., 484 F.3d 130, 135 n.6 (1st Cir. 2007) (quoting
United Paperworkers, 64 F.3d at 31). Here, the parties
filed summary judgment motions to resolve the case or
to potentially narrow the scope of fact-finding at the
upcoming bench trial. Accordingly, they “have intended
to treat summary judgment as a separate phase,”
before “proceed[ing] to a bench trial.” Jewelers Mut.

App. 295
Ins. Co. v. N. Barquet, Inc., 410 F.3d 2, 10 (1st Cir.
2005). As another district court has suitably described
the interplay between the summary judgment and
bench trial phases of a case:
In ruling on motions for summary judgment, the
Court’s role is limited. “[A]t the summary
judgment stage the judge’s function is not . . . to
weigh the evidence and determine the truth of
the matter but to determine whether there is a
genuine issue for trial.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 249 (1986). “A judge
does not sit as a trier of fact when deciding a
motion for summary judgment even if the case is
scheduled to be heard without a jury.” Med. Inst.
Of Minn. v. Nat’l Ass’n of Trade & Technical
Schs., 817 F.2d 1310, 1315 (8th Cir. 1987).
Furthermore, “even if the facts are undisputed,
summary judgment may not be granted where
there is disagreement over inferences that can
be reasonably be drawn from those facts.” In re
Unisys Sav. Plan Litig., 74 F.3d 420, 433 (3rd
Cir. 1996).
In contrast, after a bench trial, the Court is
required to weigh the evidence and make
credibility determinations. In re French, 499
F.3d 345, 359 (4th Cir.2007). Rather than
deciding whether a genuine issue of material
fact exists, the Court makes findings of fact by
evaluating the persuasiveness of conflicting
evidence and “decid[ing] which is more likely
true.” Kearney v. Standard Ins. Co., 175 F.3d
1084, 1095 (9th Cir. 1999) (en banc).

App. 296
F.T.C. v. Ross, No. 08-cv-3233-RDB, 2012 WL 2126533,
at *4 (D. Md. June 11, 2012) (quoting Waterkeeper
Alliance, Inc. v. Alan & Kristin Hudson Farm, No. 10cv-487-WMN, 2012 WL 13005672, at *1–2 (D. Md. Mar.
1, 2012)). Under the circumstances here, summary
judgment is appropriate “if there is no genuine issue as
to any material fact and the undisputed facts show that
the moving party is entitled to judgment as a matter of
law.” Borges ex rel. S.M.B.W. v. Serrano-Isern, 605
F.3d 1, 4 (1st Cir. 2010) (citing Fed. R. Civ. P. 56(c)(2)).
“An issue is ‘genuine’ if the evidence of record permits
a rational factfinder to resolve it in favor of either
party. A fact is ‘material’ if its existence or
nonexistence has the potential to change the outcome
of the suit.” Id. at 4–5 (citation omitted). The Court
“must view ‘the facts in the light most favorable to the
non-moving party, drawing all reasonable inferences in
that party’s favor.’” Bienkowski v. Northeastern Univ.,
285 F.3d 138, 140 (1st Cir. 2002) (quoting Barbour v.
Dynamics Research Corp., 63 F.3d 32, 36 (1st Cir.
1995)). Given that both parties have moved for
summary judgment, the Court “consider[s] each motion
separately, drawing inferences against each movant in
turn.” United Paperworkers, 64 F.3d at 31 n.2 (quoting
E.E.O.C. v. Steamship Clerks Union, Local 1066, 48
F.3d 594, 603 n.8 (1st Cir. 1995)).
IV.

DISCUSSION
A. Subject Matter Jurisdiction

On June 2, 2017, the Court denied Harvard’s motion
to dismiss for lack of subject matter jurisdiction [ECF
No. 324], concluding that SFFA had the associational
standing necessary to litigate this action. See Students

App. 297
for Fair Admissions, Inc. v. President & Fellows of
Harvard Coll. (Harvard Corp.), 261 F. Supp. 3d 99, 111
(D. Mass. 2017). SFFA filed this lawsuit on behalf of its
membership which included, among others, applicants
and prospective applicants to institutions of higher
education, including at least one Asian American
student who was denied admission to Harvard but
intended to apply to transfer there if Harvard stopped
using its race-conscious admissions policy (the
“Applicant”). Id. at 103. “Following the filing of the
Complaint, SFFA’s membership continued to grow and
it added additional members, including several that it
identifie[d] as ‘Standing Members,’” some of whom
were Asian American applicants that were rejected
from Harvard.13 Id. at 103 n.4. Based on their
affidavits, the Court concluded that these Standing
Members had individual standing to sue Harvard,
which SFFA was required to demonstrate to establish
associational standing. Id. at 109-10. Harvard now
reasserts its Article III challenge on the grounds that
the individual members on whom SFFA’s standing
rests are no longer eligible to transfer to Harvard or
lack “any serious interest in doing so.” [ECF No. 418 at
20]. See Gratz v. Bollinger, 539 U.S. 244, 262–63 (2003)
(holding that rejected applicant “able and ready” to

13

Other than the Applicant’s father, the Applicant was the only
Standing Member at the time that the Complaint was filed.
Harvard Facts ¶ 258; SFFA Response ¶ 258. As the Court
previously stated, “the Court does not address the issue of whether
prospective college students, who have not yet applied, or the
parents of applicants have standing to sue.” Students for Fair
Admissions, Inc. v. President & Fellows of Harvard Coll. (Harvard
Corp.), 261 F. Supp. 3d 99, 110 n.12 (D. Mass. 2017).

App. 298
transfer “has standing to seek prospective relief with
respect to the [u]niversity’s continued use of race in
undergraduate admissions”).
As SFFA recognizes, Harvard’s motion does not
challenge whether SFFA had standing when it
initiated this action but whether the case has become
moot as SFFA’s Standing Members have arguably
become ineligible or disinterested in transferring to
Harvard. Mootness is “the doctrine of standing set in a
time frame: [t]he requisite personal interest that must
exist at the commencement of the litigation (standing)
must continue throughout its existence (mootness).”
Arizonans for Official English v. Arizona, 520 U.S. 43,
68 n.22 (1997) (quoting United States Parole Comm’n
v. Geraghty, 445 U.S. 388, 397 (1980)). “Mootness
usually results when a plaintiff has standing at the
beginning of a case, but, due to intervening events,
loses one of the elements of standing during litigation.”
WildEarth Guardians v. Pub. Serv. Co. of Colorado, 690
F.3d 1174, 1182 (10th Cir. 2012). “Intervening events
must ‘have completely and irrevocably eradicated the
effects’ of the parties’ conduct in order for a case to be
deemed moot.” Town of Barnstable v. O’Connor, 786
F.3d 130, 142 (1st Cir. 2015) (quoting Cnty. of Los
Angeles v. Davis, 440 U.S. 625, 631 (1979)); see
Ramirez v. Sanchez Ramos, 438 F.3d 92, 100 (1st Cir.
2006) (“[I]ntervening events [must] have blotted out
the alleged injury and established that the conduct
complained of cannot reasonably be expected to
recur.”). “The Supreme Court has placed the ‘heavy
burden of persuasion’ with respect to mootness on the
party advocating for it.” Town of Barnstable, 786 F.3d

App. 299
at 142 (quoting United States v. Concentrated
Phosphate Exp. Ass’n, 393 U.S. 199, 203 (1968)).
Harvard asserts, and SFFA does not dispute, that
the Applicant is no longer eligible to transfer to
Harvard. Harvard nonetheless acknowledges that two
Standing Members, who applied and were rejected
from Harvard, remain eligible for transfer admission.
Harvard nonetheless argues that, based on their
deposition testimony, these members have no serious
intention of transferring to Harvard. When asked, “Do
you intend to apply to transfer . . . to any other college
or university,” Standing Member #1 said, “I don’t
anticipate that at the moment, no.” [ECF 419-15 at 4].
Standing Member #2 was asked a similar question and
responded, “I mean . . . this is highly speculative. You
never know what the circumstances are” that would
make him or her willing to transfer. [ECF No. 419-19
at 5]. Standing Member #2 also stated in a deposition
that he or she would consider applying to transfer to
Harvard “[i]f it was not a burden.” Id.
These discrete statements, culled from the
deposition transcripts, do not satisfy Harvard’s heavy
burden. Standing Member #1 also testified that he or
she remains “able and ready to transfer to Harvard
were it to cease the use of race or ethnicity as an
admissions preference and to cease its intentional
discrimination against Asian Americans.” [ECF No.
454-14 at 5–6]. That member explained, “if Harvard
were to stop using its use of race and ethnicity in
admissions, I would think my chances of being
admitted had risen enough, because of that change,
that I would apply again for transfer to see if I could

App. 300
get in under the new system.” Id. at 6. The testimony
that Standing Member #1 did not anticipate
transferring from his or her current enrollment “at the
moment,” while Harvard maintains its race-conscious
admissions policy, presents no inconsistency with being
able and ready to transfer if Harvard’s admissions
policy were to be materially revised.
Standing Member #2 similarly testified, “I’m able
and ready to apply to transfer [to Harvard], were it to
cease the use of race,” and further explained that “were
[Harvard] to cease the use of race or ethnicity, I think
those chances [of admission] would be improved and it
would be worth the effort to apply for a transfer at that
point.” [ECF No. 454-15 at 5–6]. The testimony that he
or she would be willing to transfer to Harvard “[i]f it
was not a burden” and might depend on circumstances
that are “highly speculative” at this point, does not
adequately show that this student does not seriously
intend to transfer. After noting the speculative nature
of the question about his or her willingness to transfer,
Standing Member #2 responded “Yes” when asked “Do
you think you would apply to transfer to Harvard?”
[ECF No. 419-19 at 5].
Accordingly, Harvard has not established that the
case has become moot based on the Standing Members’
alleged disinterest in transferring. Harvard’s other
challenges—(1) that SFFA amended its bylaws after
filing this lawsuit to enlarge the board of directors and
allow its membership to fill just one seat; (2) that only
a fraction of SFFA’s members pay dues in comparison
to the substantial number of unidentified donors that
make contributions; and (3) that SFFA’s founder

App. 301
controls the organization’s daily operations—were
considered at the motion to dismiss stage and
ultimately deemed insufficient to undermine SFFA’s
associational standing under the circumstances.14
Harvard has not presented any evidence that warrants
reconsideration of the Court’s prior conclusion that this
case is not a situation “in which the adequacy of an
organization’s representativeness is so seriously in
doubt” that the Court should consider additional
criteria to evaluate associational standing. Students for
Fair Admissions, Inc., 261 F. Supp. 3d at 110.
Therefore, Harvard’s motion for summary judgment for
lack of subject matter jurisdiction is denied.15
14

Harvard also adds here that the Standing Members “have not
attended any SFFA meetings and refused on counsel’s instructions
to testify about whether they have voted in any SFFA election.”
[ECF No. 418 at 18]. Even assuming that these assertions were
accurate, they do not demonstrate that SFFA fails to adequately
represent its membership or that SFFA members do not
participate in the organization. As the Court stated in its prior
order, the Standing Members’ declarations showed “that SFFA
leadership communicates with members about this litigation and
that the Standing Members have given input concerning the case.”
Students for Fair Admissions, Inc., 261 F. Supp. 3d at 111. For
example, Standing Member #1 testified that he or she participated
in a telephone conference to which all SFFA members were invited
in December 2016 and that SFFA has thoroughly answered
Standing Member #1's questions about the case and afforded
Standing Member #1 the opportunity to have input and provide
direction concerning this litigation. [ECF No. 454-14 at 7-8].
15

The Court need not address at this time the question of whether
the seven new Standing Members identified by SFFA have
standing. SFFA may renew its argument at trial, should Harvard
raise a meritorious jurisdictional challenge to Standing Members
#1 and #2. The Court might also consider under such

App. 302
B. SFFA’s Claims
SFFA’s remaining claims challenge several aspects
of Harvard’s race-conscious admissions program that
allegedly violate Title VI and Supreme Court precedent
on the consideration of race in the higher education
admissions process. Title VI states that “[n]o person in
the United States shall, on the ground of race, color, or
national origin, be excluded from participation in, be
denied the benefits of, or be subjected to discrimination
under any program or activity receiving Federal
financial assistance.” 42 U.S.C. § 2000d. “The statute
allows a private plaintiff to obtain both injunctive relief
and damages when intentionally discriminated against
by a federal-funds recipient on account of race, color, or
national origin.” Branson v. St. Elizabeth Sch. of
Nursing, No. 15-cv-87-TLS, 2017 WL 2418396, at *3
(N.D. Ind. June 5, 2017) (citing Alexander v. Sandoval,
532 U.S. 275, 280 (2001)). Harvard does not dispute
that it receives federal funds and is subject to Title
VI.16 Harvard Response ¶ 9. In the context of Harvard’s
circumstances whether an exception to mootness applies if the
alleged wrongful conduct is reasonably expected to recur.
16

Harvard notes that the Supreme Court has only addressed raceconscious admissions policies of public universities, and suggests
that there are “good reasons to think that” the applicable Supreme
Court precedent does not apply in the same manner to private
universities like Harvard that are subject to Title VI. Because
Harvard does not identify any specific reasons for distinguishing
public universities from federally-funded private universities, or
explain how the analytical framework would differ for private
versus public litigants, the Court at this stage places Harvard on
equal footing with a public university in applying Grutter and its
progeny. See Grutter, 539 U.S. at 343 (“[T]he Equal Protection

App. 303
undergraduate admissions program, “because racial
characteristics so seldom provide a relevant basis for
disparate treatment, . . . [r]ace may not be considered
[by a university] unless the admissions process can
withstand strict scrutiny.” Fisher v. Univ. of Texas at
Austin, 136 S. Ct. 2198, 2207–08 (2016) (“Fisher II”)
(quoting Fisher v. Univ. of Texas at Austin, 570 U.S.
297, 309 (2013) (“Fisher I”)). “Strict scrutiny requires
the university to demonstrate with clarity that its
‘purpose or interest is both constitutionally permissible
and substantial, and that its use of the classification is
necessary . . . to the accomplishment of its purpose.’”
Id. (quoting Fisher I, 570 U.S. at 309).
1. Count I: Intentional Discrimination
To state a claim for intentional discrimination
under Title VI, the plaintiff “must demonstrate, inter
alia, that the defendant discriminated on the basis of
race, the discrimination was intentional, and the
discrimination was a substantial or motivating factor
for the defendant’s actions.” Goodman v. Bowdoin Coll.,
380 F.3d 33, 43 (1st Cir. 2004) (citing Tolbert v. Queens
Coll., 242 F.3d 58, 69 (2d Cir. 2001)); see Scaggs v. New
York Dep’t of Educ., No. 06-cv-0799-JFB-VVP, 2007
WL 1456221, at *11 (E.D.N.Y. May 16, 2007) (same). In

Clause does not prohibit the Law School’s narrowly tailored use of
race in admissions decisions to further a compelling interest in
obtaining the educational benefits that flow from a diverse student
body. Consequently, petitioner’s statutory claims based on Title VI
. . . also fail.”); id. (“Title VI . . . proscribe[s] only those racial
classifications that would violate the Equal Protection Clause or
the Fifth Amendment” (citing Regents of Univ. of California v.
Bakke, 438 U.S. 265, 287 (1978))).

App. 304
reviewing a uniformly applied facially neutral policy,
“[d]etermining whether invidious discriminatory
purpose was a motivating factor [in its adoption]
demands a sensitive inquiry into such circumstantial
and direct evidence of intent as may be available.”
Anderson ex rel. Dowd v. City of Boston, 375 F.3d 71,
83 (1st Cir. 2004) (quoting Vill. of Arlington Heights v.
Metro. Hous. Dev. Corp., 429 U.S. 252, 266 (1977)).
Here, SFFA and Harvard’s cross-motions for summary
judgment on Count I are essentially mirror images of
one another. Each party relies on its own expert
reports to show the presence or absence of a negative
effect of being Asian American on the likelihood of
admission, highlights the purported flaws of its
opponent’s statistical analysis, and claims that there is
substantial—or zero—documentary and testimonial
evidence of discriminatory intent.
Under the circumstances of this case, the parties’
heavy reliance on statistical evidence and expert
testimony precludes summary judgment on Count I.
Each nonmoving party at this stage is “entitled ‘to have
the credibility of [its] evidence as forecast assumed,
[its] version of all that is in [genuine] dispute accepted,
[and] all internal conflicts in [the evidence] resolved
favorably to [it] . . . .’” Blanchard v. Peerless Ins. Co.,
958 F.2d 483, 489 (1st Cir. 1992) (quoting
Rodriguez–Garcia v. Davila, 904 F.2d 90, 94 (1st
Cir.1990)). It is likewise “not the Court’s role on
summary judgment to assess the relative credibility of
expert testimony.” Tamposi v. Denby, 136 F. Supp. 3d
77, 128 (D. Mass. 2015). “At summary judgment, . . .
courts normally assume that the trier of fact would
credit the expert testimony proffered by the

App. 305
nonmovant.” Den Norske Bank AS v. First Nat’l Bank
of Bos., 75 F.3d 49, 58 (1st Cir. 1996). “Even assuming,
arguendo, that this Court were to conclude that ‘the
factual underpinning of [either party’s] expert’s opinion
[was] weak,’” the challenges by SFFA and Harvard
affect “the weight and credibility of the testimony” to be
evaluated at trial when the Court assumes its
fact-finding role. Pac. Indem. Co. Dalla Pola, 65 F.
Supp. 3d 296, 304 (D. Mass. 2014) (quoting Milward v.
Acuity Specialty Prods. Group, Inc., 639 F.3d 11, 22
(1st Cir.2011)); see Casas Office Machines, Inc. v. Mita
Copystar Am., Inc., 42 F.3d 668, 686 (1st Cir. 1994)
(“[w]eighing the evidence” and “assessing the
credibility of the experts” are tasks “that must be left
to the trier of fact” after summary judgment); S. Shore
Hellenic Church, Inc. v. Artech Church Interiors, Inc.,
183 F. Supp. 3d 197, 225 (D. Mass. 2016) (same).
Although competing expert reports alone do not
necessarily preclude summary judgment, where, as
here, SFFA and Harvard’s statistical experts each
present more than “merely conclusory allegations,” City
of Chanute, Kan. v. Williams Nat. Gas Co., 743 F.
Supp. 1437, 1445 (D. Kan. 1990), aff’d, 955 F.2d 641
(10th Cir. 1992), and the “indisputable record facts” at
this stage do not sufficiently “contradict or otherwise
render [either side’s expert] opinion[s] unreasonable,”
summary judgment is not appropriate. Brooke Grp.
Ltd. v. Brown & Williamson Tobacco Corp., 509 U.S.
209, 242 (1993). On behalf of SFFA, Professor
Arcidiacono concluded that the Admissions Office gives
lower personal and overall ratings to Asian Americans
than to any other racial group, despite finding that
Asian American applicants are comparatively strong in

App. 306
the academic and extracurricular ratings, and that
teachers, guidance counselors, and alumni interviewers
score Asian American applicants roughly the same as
White applicants on the personal and overall ratings.
SFFA Facts ¶¶ 595-616, 624-628. He further found that
Asian American applicants were admitted to Harvard
at lower rates than other racial groups, and that among
applicants with the same overall rating, Asian
Americans were the least likely to be admitted. SFFA
Facts ¶¶ 629-647. Dr. Card, on behalf of Harvard,
reviewed the same data but found no negative effect of
being Asian American on the likelihood of admission to
Harvard, and even noted that in certain years and
geographic areas, being Asian American had a positive
effect on the likelihood of admission. Harvard Facts
¶¶ 216-220. To the extent that Asian Americans are
admitted at lower rates or receive lower ratings than
White applicants, SFFA attributes the disparity to
discrimination while Harvard points to, among other
things, Dr. Card’s determination that the applications
of Asian Americans were “slightly less strong than
those submitted by White applicants across a range of
observable non-academic measures” and other
“statistically unobserved factors.” [ECF No. 435 at 10,
17].
These contradictory conclusions are at least in part
the result of the experts’ divergent modeling choices,
including as to (1) whether to pool data across
admissions cycles (Harvard Facts and SFFA Response
¶¶ 233-34); (2) whether to exclude from the regression
analysis the personal rating (Harvard Facts and SFFA
Response ¶¶ 230-232), the applicant’s intended career
(Harvard Facts and SFFA Response ¶¶ 237-38), and

App. 307
the occupation of an applicant’s parents (Harvard Facts
and SFFA Response ¶¶ 235-36); and (3) whether to
include in the data pool recruited athletes, legacy
applicants, children of Harvard faculty and staff
members, and applicants on the Dean or Director’s
Interest Lists (SFFA Facts and Harvard Response
¶¶ 750-58). The parties also disagree over the probative
value of statistically comparing Asian American
applicants to applicants of other races with the same or
similar academic credentials, and whether the personal
and overall ratings from the Admissions Office can be
meaningfully compared against the corresponding
scores assigned by alumni interviewers, teachers, and
guidance counselors. The credibility of the expert
witnesses in making these critical modeling and
analytical choices is best evaluated at the upcoming
bench trial. See also Friends of Merrymeeting Bay v.
NextEra Energy Res., LLC, No. 11-cv-38-GZS, 2013 WL
149641, at *1 (D. Me. Jan. 14, 2013) (“At this point, the
Court believes that Defendants’ arguments are best
addressed at trial with question-specific objections and
‘the adversary process’ of ‘competing expert testimony
and active cross-examination.’” (quoting Ruiz-Troche v.
Pepsi Cola of P.R. Bottling Co., 161 F.3d 77, 85 (1st Cir.
1998))).
For substantially the same reasons, the OIR reports
do not justify granting summary judgment in favor of
SFFA. SFFA contends that in 2013, Harvard’s in-house
research division evaluated the treatment of Asian
Americans in Harvard’s admissions program and
reached conclusions that were consistent with
Professor Arcidiacono’s analysis. SFFA Facts ¶¶ 389390, 399-465, 492-572. Moreover, SFFA argues that

App. 308
Dean Fitzsimmons and Dean Khurana received the
OIR’s reports but took no steps to further investigate
the evidence of an admissions bias against Asian
Americans. SFFA Facts ¶¶ 426-431, 468-471, 525-528.
Determining the appropriate weight to attribute to the
OIR’s findings requires the consideration of opposing
expert testimony. See [ECF No. 435 at 23] (asserting
that Dr. Card’s “far more comprehensive, informed, and
reliable work” contradicts and subverts the conclusions
reached by the OIR). Moreover, while SFFA claims that
Harvard’s inaction in response to the OIR reports
suggests an intent to “bury” the reports and “kill” an
internal investigation, Harvard presents evidence that
no further investigation took place because Harvard
recognized that the OIR reports were preliminary and
incomplete and were therefore insufficient to warrant
additional inquiry. Determining whether Harvard’s
explanation for its response to the OIR reports is
credible, or as SFFA submits, an implausible post-hoc
justification in light of this lawsuit, requires the Court
to assess the credibility of Harvard’s witnesses and to
consider expert testimony regarding the OIR reports.
Drawing all inferences in favor of each non-moving
party, there are disputed material facts based on
Harvard’s fact witnesses, the statistical evidence, and
the expert opinions presented by each side that cannot
be resolved before trial.17

17

Professor Arcidiacono’s analysis of the frequency of the use of
“Standard Strong” to characterize Asian American applicants also
requires consideration of the competing expert testimony at trial.
SFFA Facts ¶¶ 678-686.

App. 309
SFFA’s remaining non-statistical, non-expert
evidence of intentional discrimination, standing alone,
is insufficient to warrant summary judgment. This
evidence, which includes some discrete comments in
the summary sheets (SFFA Facts ¶¶ 678-686), the fact
that admissions officers more often positively
characterized the racial identity of African American
and Latin American applicants than that of Asian
American applicants (SFFA Facts ¶¶ 691-692), and
Harvard’s response to the complaints or comments of
one OIR employee (SFFA Facts ¶ 333), a few alumni
interviewers (SFFA Facts ¶¶ 325, 331), a high-school
student (SFFA Facts ¶¶ 335-336), and one Harvard
alumnus who made racist statements in a letter to
former President Faust (SFFA Facts ¶¶ 341-42), does
not constitute sufficient evidence of discriminatory
intent for summary judgment. To credit SFFA’s view
that Harvard’s inaction in response to complaints from
its employees or alumni, many of which did not directly
relate to any admission decision, would require
drawing premature inferences in SFFA’s favor. Cf.
Gonzalez v. El Dia, Inc., 304 F.3d 63, 69 (1st Cir. 2002)
(“In the first place, ‘stray workplace remarks,’ as well
as statements made either by nondecisionmakers or by
decisionmakers not involved in the decisional process,
normally are insufficient, standing alone, to establish
either pretext or the requisite discriminatory
animus.”); Straughn v. Delta Air Lines, Inc., 250 F.3d
23, 36 (1st Cir. 2001) (probative value of “stray
remarks” is circumscribed “if they were made in a
situation temporally remote from the date of the
employment decision”); Fernandes v. Costa Bros.
Masonry, Inc., 199 F.3d 572, 583 (1st Cir. 1999)
(“statement that plausibly can be interpreted two

App. 310
different ways . . . one discriminatory and the other
benign” is not direct evidence of discriminatory
animus), abrogated on other grounds by Desert Palace,
Inc. v. Costa, 539 U.S. 90 (2003). Harvard presents
evidence that its admissions officers’ comments on the
summary sheets about Asian American applicants were
on par with comments made about applicants of other
races, and that the summary sheets often contained
remarks that referred positively to an applicant’s
identity as Asian American. Moreover, as Harvard
notes, the Admissions Office procedures and training
documents, and the deposition testimony of its current
and former employees, do not appear to suggest any
intent to discriminate against Asian Americans.
In sum, whether SFFA may prove its intentional
discrimination claim requires a close review of the
conflicting expert testimony, the available documents,
and the testimony of the Admissions Office employees
in the context of a trial. See Equal Employment
Opportunity Comm’n v. Texas Roadhouse, Inc., 215 F.
Supp. 3d 140, 172 (D. Mass. 2016) (whether fact finder
finds one party’s expert more persuasive than an
opposing expert “is a question for trial and not for
summary judgment”); Peng-Fei Chang v. Univ. of
Rhode Island, 554 F. Supp. 1203, 1206 (D.R.I. 1983)
(“The Court would be remiss in granting defendants’
motion for summary judgment based solely on [their
expert’s] statistical indices (even in the absence of [the
opposing expert’s] critique thereof) without subjecting
those findings to the in-depth scrutiny given other
types of evidence at a trial on the merits.”). Therefore,

App. 311
the cross-motions for summary judgment are denied on
Count I.18
2. Count II: Racial Balancing
SFFA next contends that Harvard impermissibly
caps the number of Asian Americans in an admitted
class. To maintain a permissible race-conscious
admissions policy, Harvard may not “impose a fixed
quota,” Fisher II, 136 S. Ct. at 2208, or otherwise
“‘assure within its student body some specified
percentage of a particular group merely because of its
race or ethnic origin,’” as such a practice “would
amount to outright racial balancing, which is patently
unconstitutional.” Grutter, 539 U.S. at 329 (quoting
Bakke, 438 U.S. at 307). “Racial balancing is not
transformed from ‘patently unconstitutional’ to a
compelling state interest simply by relabeling it ‘racial
diversity.’” Fisher I, 570 U.S. at 311 (quoting Parents

18

SFFA presents evidence of Harvard’s discrimination against
Jewish students in the early 1920s, almost a century before this
case was filed. At best, the historical background of the admissions
policy at issue “is one evidentiary source” of intent, and this Court
has already ruled in the context of the parties’ discovery disputes
that such evidence has limited relevance, if any, to the claims at
issue. Vill. of Arlington Heights, 429 U.S. at 267. SFFA recognizes
that such evidence from the 1920s “is more distant than in many
cases in which history is used as an Arlington Heights factor.”
[ECF No. 413 at 31]. In accordance with its prior rulings, the Court
is unlikely to admit evidence of Harvard’s admissions policy from
the 1920s, but will reserve a final evidentiary ruling for trial. [See
ECF No. 547]. The Court would also consider taking judicial notice
of past discrimination if the parties did not object, or would accept
a joint stipulation to this effect.

App. 312
Involved in Cmty. Schs. v. Seattle Sch. Dist. No. 1, 551
U.S. 701, 732 (2007)).
SFFA and Harvard again present plausible but
conflicting interpretations of the admissions data and
testimonial evidence concerning whether Harvard uses
a quota system. According to SFFA, Harvard tracks the
representation of racial groups, and uses the statistics
from the prior year’s class as a benchmark against
which the to-be admitted class is matched. During the
full committee phase of the admissions process,
“one-pagers” are distributed to Dean Fitzsimmons and
Director McGrath to make them aware of the present
representation of various racial groups as compared to
the prior year. Harvard allegedly then reconsiders
applications from particular racial groups, if necessary
to align the current class demographics with those of
the prior year. The admissions committee also allegedly
takes into account whether a student is from a racial
group that is currently underrepresented in the
prospective class when trimming the number of offers
of admission during the lopping process.19

19

SFFA accuses of Harvard of engaging in racial balancing
through its alleged practice of purchasing potential applicant
information based on PSAT scores and GPAs that differ by race
and its participation in the conference of the Association of Black
Admissions and Financial Aid Officers of the Ivy League and Sister
Schools. Although the Court may allow SFFA to present evidence
to support these assertions at trial to some extent, there appears
to be little to no connection between the allegations of racial
balancing and Harvard’s purchasing of “potential applicant
information” or its mere attendance and participation in the
conference.

App. 313
Harvard disclaims SFFA’s theory as a skewed
portrayal of its admissions process. According to
Harvard, what SFFA calls racial balancing is better
understood as an ordinary weighing of offers of
admission against available beds, with an eye toward
diversity. Harvard explains that it reviews
demographic information from prior classes to estimate
the likely yield of acceptances from those it offers
admission, which amounts at most to paying “some
attention to numbers” as the Supreme Court found
permissible in Grutter, 539 U.S. at 336. The one-pagers
break down the number of applicants by race, but also
by “gender, geography, intended concentration,
whether the applicant is a recruited athlete, whether
the applicant’s parent attended Harvard, whether
Harvard waived the applicant’s application fee,
whether the applicant was flagged as socioeconomically
‘disadvantaged’ by Harvard’s admissions staff, whether
the applicant applied for financial aid, citizenship,
[and] permanent residency.” [ECF No. 435 at 33].
Rather than using the one-pagers to precisely match
the racial demographics year after year, Harvard
contends that the one-pagers are used “to ascertain
whether there are any significant trends worth noting
and to make sure the Admissions Committee is not
overlooking strong candidates.” Id. The lopping process
is similarly a curative measure applied when, based on
the likely yield rate and the available spaces in the
admitted class, Harvard has an overabundance of
qualified applicants to whom it has tentatively decided
to offer admission.
With respect to the admissions data, SFFA shows
that for the classes of 2014, 2015, 2016, and 2017, the

App. 314
percentage of the admitted class has remained at least
somewhat consistent for each racial group: Asian
Americans comprised 18% of the share of the Class of
2014, 18% of the Class of 2015, 21% of the Class 2016,
and 20% of the Class of 2017. SFFA Facts ¶ 699. A
similar level of consistency was shown for other racial
groups with White students comprising between 48%
and 53% of the class, Native Americans between 2%
and 3%, and Hispanic Americans and African
Americans each between 10% and 12% over that same
time period. SFFA Facts ¶ 699. Harvard does not
dispute these percentages but asserts that they
actually demonstrate significant fluctuations in the
admissions of various racial groups.20 In Harvard’s
view, the increase in the Asian American share of the
class from 18% to 20% is a substantial “11% increase.”
[ECF No. 435 at 30].
The resolution of Count II depends in part on the
credibility of Harvard’s admissions officers and
leadership as to whether its admissions procedures,
including lopping, reviewing one-pagers, and setting
target numbers, were intended to balance the racial
demographics year after year, or to merely pay “some
attention to numbers” in enrolling a diverse student
body. The class share of each racial group has not been
20

SFFA also highlights Professor Arcidiacono’s conclusion that
Harvard “maintained a floor on the admission rate for single-race
African Americans in the classes of 2017, 2018, and 2019,” in
which the admissions rate for single-race African Americans was
“virtually identical” to the admission rate of all other domestic
applicants. Harvard meanwhile notes that Dr. Card considered
these findings to be unremarkable. The experts may address the
significance of the alleged floor at trial.

App. 315
so plainly consistent or varied over time that the Court
can conclude that the numbers alone establish or refute
the presence of a quota. See, e.g., Grutter, 539 U.S. at
336 (noting that variation of 13.5% to 20.1% in the
class shares for African American, Latin, and Native
American students was “a range inconsistent with a
quota”); Smith v. Univ. of Washington, 392 F.3d 367,
375 (9th Cir. 2004) (percentage of minorities varying
each year from a high of 38.5% of admittees and 43.3%
of enrollees to a low of 24.7% of admittees and 24.4% of
enrollees was “inconsistent with the existence of a
quota”). Given the material factual disputes and the
need to make certain credibility determinations, the
cross-motions for summary judgment on Count II are
denied.
3. Count III: Race as a “Plus” Factor
SFFA moves for summary judgment on Count III on
the grounds that Harvard is (1) not using its
race-conscious admissions policy for the specific
purpose of achieving a “critical mass” of
underrepresent ed m i nority students and
(2) considering race as more than a mere “plus” factor
when making admissions decisions. The Supreme
Court has clarified that “‘the decision to pursue ‘the
educational benefits that flow from student body
diversity’ . . . is, in substantial measure, an academic
judgment to which some, but not complete, judicial
deference [to the university] is proper.’” Fisher II, 136
S. Ct. at 2208 (quoting Fisher I, 570 U.S. at 310). Once
a university gives “‘a reasoned, principled explanation’
for its decision” to pursue the educational benefits that
flow from student body diversity, “deference must be

App. 316
given ‘to the [u]niversity’s conclusion, based on its
experience and expertise, that a diverse student body
would serve its educational goals.’” Id. (quoting Fisher
I, 570 U.S. at 310-11). As discussed further below, the
deference owed to the university’s decision to pursue
the educational benefits of a diverse student body does
not carry over when the Court evaluates whether the
use of race in pursuit of such benefits is narrowly
tailored to pass strict scrutiny.
SFFA argues that Harvard’s admissions program
fails the test of strict scrutiny because Harvard does
not expressly tailor its pursuit of the educational
benefits that flow from a diverse student body to the
idea of reaching a “critical mass,” a term that was used
in the University of Michigan Law School’s admission
policy at issue in Grutter and in the University of
Texas at Austin’s policy at issue in Fisher. SFFA notes
that “[t]he words ‘critical mass’ never even appear in
Harvard’s memorandum or statement of facts,” [ECF
No. 449 at 31], and that “Harvard leadership has never
heard the term critical mass used in the context of
admissions,” [ECF No. 413 at 46]. Because Harvard
fails to consider race specifically in pursuit of reaching
a “critical mass,” SFFA argues that its decision to
pursue student body diversity is not well reasoned.
Contrary to SFFA’s claim that the “Supreme Court
has held that critical mass is the only interest
compelling enough to permit the use of race,” [ECF No.
413 at 46], the Fisher II court explained that the
interest that justifies consideration of race in
admissions “is not an interest in enrolling a certain
number of minority students,” but rather a broader

App. 317
interest in “obtaining ‘the educational benefits that
flow from a student body diversity.’” Fisher II, 136 S.
Ct. at 2210 (quoting Fisher I, 570 U.S. at 310).
“[E]nrolling a diverse student body ‘promotes
cross-racial understanding, helps to break down racial
stereotypes, and enables students to better understand
persons of different races.’” Id. (quoting Grutter, 539
U.S. at 330). “Equally important, ‘student better
prepares students for an increasingly diverse workforce
and society.’” Id. (quoting Grutter, 539 U.S. at 330).
Although “[i]ncreasing minority enrollment may be
instrumental to these educational benefits, . . . it is not
. . . a goal that can or should be reduced to pure
numbers.” Id. at 2210. “Critical mass” was a term used
in the specific policies at issue in Grutter and Fisher,
but one that the Supreme Court left undefined. See
Grutter v. Bollinger, 137 F. Supp. 2d 821, 828 (E.D.
Mich. 2001), rev’d, 288 F.3d 732 (6th Cir. 2002), aff’d,
539 U.S. 306 (2003); Grutter, 539 U.S. at 316; Fisher I,
570 U.S. at 301; Fisher II, 136 S. Ct. at 2211; see also
Fisher II, 136 S. Ct. at 2216 (Alito, J. dissenting)
(noting that University of Texas at Austin “never
explained what this term [critical mass] means” and
that the term “remains undefined”). The Supreme
Court has not imbued the phrase “critical mass” with
any special force or meaning that would make it
essential to the survival of a university’s race-conscious
admissions policy under strict scrutiny, and this Court
declines to do so here.21
21

SFFA also asserts that Harvard has taken “irreconcilable”
positions in claiming that it (1) considers race on a case-by-case
basis and targets “no specific number of students” of any racial or
ethnic background, but (2) must use race in its admissions policy

App. 318
SFFA also contends that because Harvard is not
pursuing a “critical mass,” its admissions policy will be
used in perpetuity in violation of the Supreme Court’s
expectation that at some point in time “‘use of racial
preferences will no longer be necessary to further the
interest’ in diversity.” Grutter, 539 U.S. at 343. The
Supreme Court has not held that a “critical mass” or
any specific enrollment number is what obviates the
need for a university to consider race. Although
Harvard “must continually reassess its need for
race-conscious review” and “scrutinize the fairness of
its admissions program; . . . assess whether changing
demographics have undermined the need for a
race-conscious policy; and . . . identify the effects, both
positive and negative, of s necessary,” as part of its
“ongoing obligation to engage ere is no . Fisher II, 136
S. Ct. at 2212, 2214–15. Here, Harvard’s Committee to
Study Race-Neutral Alternatives in Harvard College
Admissions recommended reevaluating the need to
consider race in five years. Harvard’s lack of express
to avoid “a significant decline in African-American and Hispanic
enrollment.” [ECF No. 449 at 33]. It is possible, however, to seek
to enroll a diverse student body without the use of specific target
numbers and in compliance with Grutter and its progeny. As the
Supreme Court explained in Fisher II, 136 S. Ct. at 2210, “since
the [u]niversity is prohibited from seeking a particular number or
quota of minority students, it cannot be faulted for failing to
specify the particular level of minority enrollment at which it
believes the educational benefits of diversity will be obtained.”
Fisher II, 136 S. Ct. at 2210. Whether Harvard’s consideration of
race complies with Grutter and its progeny remains a question for
trial, but summary judgment in favor of SFFA is not warranted
when, reading the facts in the light most favorable to Harvard, its
admissions policy adequately balances the need to avoid using
quotas with permissibly seeking to enroll a diverse student body.

App. 319
focus on achieving a “critical mass” does not mean that
it will not continually assess the need for its
race-conscious admissions policy. There is no basis at
this stage to find that Harvard does not intend to
follow its committee’s recommendation or that
Harvard’s conception of the benefits of student body
diversity is too amorphous to satisfy strict scrutiny.
Accordingly, SFFA’s motion for summary judgment is
denied with respect to SFFA’s arguments that Harvard
fails to seek a “critical mass” or ignores its continuing
obligation to evaluate its admissions policies to satisfy
strict scrutiny.
While Harvard’s decision to pursue the educational
benefits of student body diversity is entitled to
deference, no deference is owed when the Court
evaluates “whether the use of race is narrowly tailored
to achieve the university’s permissible goals.” Fisher II,
136 S. Ct. at 2208 (citing Fisher I, 570 U.S. at 311). To
be narrowly tailored, “[a] university may consider race
or ethnicity only as a ‘plus’ in a particular applicant’s
file,” while “still ensuring that each candidate
‘compete[s] with all other qualified applicants.’”
Grutter, 539 U.S at 334–35 (citations omitted). “In
other words, an admissions program must be ‘flexible
enough to consider all pertinent elements of diversity
in light of the particular qualifications of each
applicant, and to place them on the same footing for
consideration, although not necessarily according them
the same weight.’” Id. at 334 (quoting Bakke, 438 U.S.
at 317). The university must “ensure that each
applicant is evaluated as an individual and not in a
way that makes an applicant’s race or ethnicity the
defining feature of his or her application. The

App. 320
importance of this individualized consideration in the
context of a race-conscious admissions program is
paramount.” Grutter, 539 U.S. at 336–37.
Here, deciding the issue of whether Harvard
considers race only as a plus factor in its admissions
decisions is dependent upon resolving material
questions of fact and credibility. Harvard moves for
summary judgment based on the consistent testimony
of its admissions officers and training documents
showing that Harvard considers race flexibly along
with numerous other factors. Harvard further contends
that its expert, Dr. Card, found that “to be admitted to
Harvard, applicants must have multiple areas of
strength,” and race alone is not a determinative factor.
Harvard Facts ¶¶ 121, 122. Dr. Card also concluded
that an applicant’s academic, athletic, extracurricular,
and personal ratings collectively explain a much larger
proportion of the variability in admissions outcomes
than race. Harvard Facts ¶¶ 123, 124. According to
SFFA, however, Dr. Arcidiacono’s reports and the OIR’s
research show that race plays a predominant role in
the likelihood of admissions for certain groups of
students, that race plays such a decisive role in the
admissions chances of Hispanics and African
Americans, and that “removing all racial preferences
and penalties—treating everyone as though they were
white—would raise the number of Asian Americans by
[40%].” SFFA Facts ¶¶ 417-18, 448, 737-740. Like the
material disputes that preclude summary judgment on
Count I, the issue of whether Harvard considers race as
a plus factor or more turns on the competing expert
testimony regarding Harvard’s admissions data, the
accuracy and reliability of the OIR’s research, and the

App. 321
credibility of the testimony of Admissions Office
employees regarding the weight attributed to an
applicant’s race. The cross-motions for summary
judgment are therefore denied on Count III.
4. Count V: Race-Neutral Alternatives
SFFA asserts in Count V that Harvard has failed to
fulfill its obligation to consider race-neutral
alternatives to a race-conscious admissions policy.
Strict scrutiny requires that the Court fits of diversity.”
Fisher I, 570 U.S. at 312. “This involves a careful
judicial inquiry into whether a university could achieve
sufficient diversity without using racial classifications.
Although ‘[n]arrow tailoring does not require
exhaustion of ever conceivable race-neutral
alternative,’” id. (quoting Grutter, 539 U.S., at
339–340), nor does it require choosing “between
maintaining a reputation for excellence or fulfilling a
commitment to provide educational opportunities to
members of all racial groups,” Grutter, 539 U.S. at 339,
“strict scrutiny does require a court to examine with
care, and not defer to, a university’s ‘serious, good
faith, consideration of workable race-neutral
alternatives.’” Fisher I, 570 U.S. at 312 (quoting
Grutter, 539 U.S., at 339–340). “Consideration by the
university is of course necessary, but it is not sufficient
to satisfy strict scrutiny: The reviewing court must
ultimately be satisfied that no workable race-neutral
alternatives would produce the educational benefits of
diversity.” Id. If “‘a nonracial approach . . . could
promote the substantial interest about as well and at
tolerable administrative expense,’ . . . then the

App. 322
university may not consider race.” Id. (citation
omitted).
Harvard asserts that it satisfied strict scrutiny
through the work of the Smith Committee, which
reviewed published social science literature, the
Comploant and the expert reports in this case, and
“met throughout 2017 and early 2018 to examine the
extensive efforts Harvard already undertakes to attract
and admit a diverse student body, as well as numerous
possible alternatives to considering race in
admissions.” [ECF No. 418 at 31]. The Smith
Committee unanimously concluded that “at present, no
available, workable race-neutral alternatives could
promote Harvard’s diversity-related educational
objectives as well as Harvard’s current whole-person
race-conscious admissions program while also
maintaining the standards of excellence that Harvard
seeks in its student body.” Harvard Facts ¶ 212. Dr.
Card also found that even if Harvard maintained all of
its existing race-neutral efforts to achieve diversity—
financial aid, recruitment of first generation and
economically and racially diverse applicants, and postadmission recruitment efforts—eliminating the
consideration of race would cause “the proportion of
African-American and Hispanic students in the
admitted class [to] decline dramatically.” Harvard
Facts ¶ 156. According to Dr. Card’s simulated models,
if Harvard did not consider race, the proportion of
African American students in the Class of 2019 would
have dropped from 14% to 6%, and the proportion of
Latin American or “Other” students would have
dropped from 14% to 9%. Harvard Facts ¶ 156. At the
same time, the proportion of White students would

App. 323
have dramatically increased from 40% to 48% of the
class, and the proportion of Asian American students
would have slightly increased from 24% to 27% of the
class. Harvard Facts ¶ 157. The Smith Committee and
Dr. Card also found that implementing or eliminating
the following race-neutral measures or existing
admissions practices—(1) increased preference for
modest socioeconomic background; (2) increased
recruiting of socioeconomically disadvantaged students;
(3) increased financial aid; (4) implementing a
place-based preference similar to the top 10% plan in
Fisher; (5) increasing the number of transfer students;
(6) eliminating the Early Action program;
(7) eliminating consideration of legacy; (8) eliminating
deferred admission; and (9) eliminating the
consideration of test scores—would not sufficiently
promote Harvard’s l benefits of diversity.
SFFA’s expert, Mr. Kahlenberg, reached the
opposite conclusion, finding that Harvard can easily
achieve diversity by increasing socioeconomic
preferences; increasing financial aid; reducing or
eliminating preferences for legacies, donors, and
relatives of faculty and staff; adopting policies using
geographic diversity; increasing recruitment efforts;
increasing community college transfers; and/or
eliminating early action. SFFA Facts ¶¶ 858-882.
In addition, SFFA has raised a material issue as to
whether Harvard’s efforts to consider race-neutral
alternatives have been undertaken in serious good
faith, because Harvard apparently did not examine
such alternatives until 2014, after Harvard was aware
of the imminence of this lawsuit. See Fisher I, 570 U.S.

App. 324
at 312 (“Strict scrutiny imposes on the university the
ultimate burden of demonstrating, before turning to
racial classifications, that available, workable raceneutral alternatives do not suffice.”). Indeed, while
Harvard has implemented several race-neutral
alternatives over time, there is little evidence in the
record of Harvard formally evaluating race-neutral
alternatives to its race-conscious policy following the
issuance of Grutter until around the time this case was
filed.22 In light of Harvard’s recent efforts to consider
race-neutral alternatives, which arguably coincided
with the filing of this lawsuit, Harvard’s alleged past
failure to comply with Grutter raises a material
dispute as to whether Harvard’s consideration of
race-neutral alternatives was undertaken seriously and
in good faith. Given this material factual dispute, and
that the experts have reached plausible but conflicting
conclusions based on simulated models of the
effectiveness of numerous race-neutral practices, the
cross- motions for summary judgment are denied on
Count V.
VI.

CONCLUSION

Accordingly, the cross-motions for summary
judgment [ECF Nos. 412, 417] are denied without
prejudice. Consistent with this order, the parties may
renew their arguments at trial.

22

This may be of little relevance given that SFFA is seeking
prospective relief, but “not seeking to impose independent liability
on Harvard for its non-compliance with Grutter between 2003 and
2017.” [ECF No. 510 at 26í27].

App. 325
SO ORDERED.
September 28, 2018

/s/ Allison D. Burroughs
ALLISON D. BURROUGHS
U.S. DISTRICT JUDGE

App. 326

APPENDIX E
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No. 14-cv-14176-ADB
[Filed: June 2, 2017]
__________________________________________
STUDENTS FOR FAIR ADMISSIONS,
)
INC.
)
)
Plaintiff,
)
)
v.
)
)
PRESIDENT AND FELLOWS OF
)
HARVARD COLLEGE (HARVARD
)
CORPORATION),
)
)
Defendant.
)
__________________________________________)
MEMORANDUM AND ORDER
GRANTING MOTION FOR PARTIAL
JUDGMENT ON THE PLEADINGS
BURROUGHS, D.J.
On September 23, 2016, Harvard moved for partial
judgment on the pleadings on Counts IV and VI
pursuant to Fed. R. Civ. P. 12(c) and 12(h)(2). [ECF
Nos. 185, 186]. SFFA opposed the motion on October
21, 2016 [ECF Nos. 202, 203], and Harvard filed its

App. 327
reply brief on November 4, 2016 [ECF NO. 218]. The
intervenors also filed a memorandum in support of
Harvard’s motion on October 19, 2016. [ECF No. 199].
For the reasons set forth below and more fully
articulated by Harvard and the intervenors in their
briefs, the Court grants the motion. The First Circuit
recognizes, at least implicitly, the permissibility of
partial judgments under Fed. R. Civ. P. 12. See, e.g.,
Najas Realty, LLC v. Seekonk Water Dist., 821 F.3d
134, 146 (1st Cir. 2016) (affirming district court’s grant
of motion for partial judgment on pleadings pursuant
to Fed. R. Civ. P. 12(c)). Further, SFFA acknowledges
that ruling on Count VI would require this Court to
overrule Supreme Court precedent, something it
decidedly cannot do, and the Court does not find
persuasive SFFA’s 1 rationale that it should wait to
enter judgment on the Count VI until the close of
discovery simply because discovery will not be
impacted one way or another. Finally, Count IV
presumes a legal requirement for race-conscious
admissions—that Harvard may only consider race for
the “last few places left”—that the case law does not
support.
Accordingly, Harvard’s motion for partial judgment
on the pleadings as to Count IV and VI [ECF No. 185]
is GRANTED.
SO ORDERED.
Dated: June 2, 2017

/s/ Allison D. Burroughs
ALLISON D. BURROUGHS
U.S. DISTRICT JUDGE

App. 328

APPENDIX F
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No. 14-cv-14176-ADB
[Filed: June 2, 2017]
__________________________________________
STUDENTS FOR FAIR ADMISSIONS,
)
INC.
)
)
Plaintiff,
)
)
v.
)
)
PRESIDENT AND FELLOWS OF
)
HARVARD COLLEGE (HARVARD
)
CORPORATION),
)
)
Defendant.
)
__________________________________________)
MEMORANDUM AND ORDER DENYING
MOTION TO DISMISS
BURROUGHS, D.J.
I.

INTRODUCTION

In this action, Students for Fair Admissions, Inc.
(“SFFA”) alleges that Harvard College (“Harvard”)
employs racially and ethnically discriminatory policies
and procedures in administering its undergraduate

App. 329
admissions program, in violation of Title VI of the Civil
Rights Act of 1964 and the Equal Protection Clause of
the Fourteenth Amendment to the United States
Constitution. Presently pending before this Court is
Harvard’s motion to dismiss for lack of standing
pursuant to Federal Rule of Civil Procedure 12(b)(1).
[ECF No. 187]. Harvard filed the instant motion on
September 23, 2016, and SFFA opposed it on October
21, 2016 [ECF No. 204].1 For the reasons stated below,
the motion is DENIED.
II.

RELEVANT BACKGROUND2

SFFA filed its Complaint with this Court on
November 17, 2014 [ECF No. 1], and Harvard filed its
Answer on February 18, 2015 [ECF No. 17]. SFFA’s
Complaint sets forth two types of allegations. First,
SFFA contends that the general manner in which
Harvard considers race in its undergraduate
admissions program violates the Equal Protection
Clause. As opposed to using race as a mere “plus”
factor in admissions decisions, SFFA claims that
Harvard engages in prohibited “racial balancing.”
Second, SFFA alleges that Harvard’s policies
invidiously discriminate against Asian-American
applicants in particular because, by admitting only a

1

Both parties also filed declarations and exhibits in support of
their positions. [ECF Nos. 188, 205].
2

There are other motions pending before this Court, including
Harvard’s motion for judgment on the pleadings pursuant to Rules
12(c) and 12(h)(2) [ECF No. 185]. In this Memorandum and Order,
the Court addresses only the motion to dismiss for lack of
jurisdiction and tailors its discussion accordingly.

App. 330
limited number of Asian-American applicants each
year, Harvard, in effect, forces Asian-American
applicants to compete against each other for those
spots. Consequently, a large number of otherwise
highly-qualified Asian-American applicants are
allegedly denied admission to Harvard on the basis of
their race or ethnicity.
SFFA is an Internal Revenue Code Section 501(c)(3)
organization whose claimed mission is to defend
human and civil rights secured by law, including equal
protection rights, through litigation or other lawful
means.3 SFFA brings this action on behalf of its
members. Its membership is composed of a coalition of
applicants and prospective applicants to institutions of
higher education, along with their parents and other
individuals, including at least one Asian-American
student member who applied for and was denied
admission to Harvard’s 2014 entering class (the
“Applicant”). Complaint ¶¶ 12–24.4 According to SFFA,
this Applicant intends to transfer to Harvard when the
school stops using its race-based discrimination
admissions policy.

3

The Court includes additional facts regarding SFFA’s
membership and organizational structure infra at 6–7.
4

Following the filing of the Complaint, SFFA’s membership
continued to grow and it added additional members, including
several that it identifies as “Standing Members,” who have
submitted signed declarations in connection with this motion. See
Exhibits to [ECF No. 205]. The Standing Members include
Asian-American applicants who were rejected from Harvard,
Asian-American high school students who claim they will apply to
Harvard, and parents of applicants and prospective applicants.

App. 331
The Complaint requests the following relief:
declaratory judgments that Harvard’s admissions
policies and procedures violate Title VI of the Civil
Rights Act of 1964 and that any use of race or ethnicity
in the educational setting violates the Fourteenth
Amendment and Title VI; permanent injunctions
prohibiting Harvard from using race as a factor in
future undergraduate admission decisions and
requiring it to make its admissions decisions in a raceblind manner; attorneys’ fees and costs; and any other
relief this Court finds appropriate.
III.

LEGAL STANDARD

Because Harvard’s Rule 12(b)(1) challenge to
SFFA’s constitutional standing implicates this Court’s
subject matter jurisdiction, see P.R. Tel. Co. v.
T-Mobile P.R. LLC, 678 F.3d 49, 57 (1st Cir. 2012), the
Court is not restricted to the four corners of the
Complaint and “may consider whatever evidence has
been submitted, such as the depositions and exhibits,”
Aversa v. United States, 99 F.3d 1200, 1210 (1st Cir.
1996); see also Torres-Negron v. J & N Records, LLC,
504 F.3d 151, 163 (1st Cir. 2007); Katz v. Pershing,
LLC, 806 F. Supp. 2d 452, 456 (D. Mass. 2011), aff’d,
672 F.3d 64 (1st Cir. 2012) (“A court is permitted to
look beyond the pleadings to determine jurisdiction on
a 12(b)(1) motion, hence the formality of converting the
motion to one for summary judgment need not be
observed.”).

App. 332
IV.

DISCUSSION
A. Associational Standing

The Constitution gives the judiciary power to hear
only “Cases” and “Controversies.” U.S. Const. art. III,
§ 2, cl. 1. The Supreme Court has interpreted this
requirement to mean that courts may decide only
“cases and controversies of the sort traditionally
amenable to, and resolved by, the judicial process.”
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 102
(1998). A plaintiff’s standing to sue is “part of the
common understanding of what it takes to make a
justiciable case.” Id. Therefore, “the absence of standing
sounds the death knell for a case.” Microsystems
Software, Inc.v. Scandinavia Online AB, 226 F.3d 35,
39 (1st Cir. 2000). The standing determination is
“claim-specific,” meaning that an individual plaintiff
“must have standing to bring each and every claim that
[he or] she asserts.” Katz v. Pershing, LLC, 672 F.3d
64, 71 (1st Cir. 2012).
Article III standing requires that three conditions
be satisfied. “First and foremost, there must be alleged
(and ultimately proved) an ‘injury in fact.’” Steel Co.,
523 U.S. at 103 (quoting Whitmore v. Arkansas, 495
U.S. 149, 155 (1990)). This injury “must be concrete in
both a qualitative and temporal sense,” “distinct and
palpable” as opposed to “abstract,” and “actual or
imminent” as opposed to “conjectural or hypothetical.”
Whitmore, 495 U.S. at 155 (internal quotations and
citations omitted). Second, standing requires causation,
defined as a “fairly traceable connection between the
plaintiff’s injury and the complained-of conduct of the
defendant.” Steel Co., 523 U.S. at 103. Finally,

App. 333
standing requires “redressability—a likelihood that the
requested relief will redress the alleged injury.” Id.
“[A]n association may have standing solely as the
representative of its members even in the absence of
injury to itself, in certain circumstances.” Camel Hair
& Cashmere Inst. of Am., Inc. v. Associated Dry Goods
Corp., 799 F.2d 6, 10 (1st Cir. 1986) (citing Warth v.
Seldin, 422 U.S. 490, 511 (1975)). Specifically, “an
association has standing to bring suit on behalf of its
members when: (a) its members would otherwise have
standing to sue in their own right; (b) the interests it
seeks to protect are germane to the organization’s
purpose; and (c) neither the claim asserted nor the
relief requested requires the participation of individual
members in the lawsuit.” Hunt v. Wash. State Apple
Advert. Comm’n, 432 U.S. 333, 343 (1977). The first
two Hunt prongs are constitutional, and the third is
prudential. United Food & Com. Workers Union Local
751 v. Brown Grp., Inc., 517 U.S. 544, 555–57 (1996).
Only one member need have individual standing in
order for an organization to satisfy the first Hunt
factor. See Playboy Enters., Inc. v. Pub. Serv. Comm’n
of P.R., 906 F.2d 25, 34 (1st Cir. 1990) (“[T]he Supreme
Court has never required that every member of an
association have standing before it can sue on behalf of
its members. ‘The association must allege that its
members, or any one of them, are suffering immediate
or threatened injury as a result of the challenged action
of the sort that would make out a justiciable case had
the members themselves brought suit.’” (quoting
Warth, 422 U.S. at 511)).

App. 334
The Hunt Court also held that an organization that
was not “a traditional voluntary membership
organization” because it did not have any formal
members could still have associational standing if its
constituents “possess[ed] all of the indicia of
membership in an organization.” Hunt, 432 U.S. at
344–45.5 Indicia of membership, as identified by the
Hunt Court, include that the purported members
“alone elect the members of the Commission; they alone
may serve on the Commission; they alone finance its
activities, including the costs of this lawsuit, through
assessments levied upon them.” Id. Ultimately, the
Hunt Court found that the Commission at issue in that
case had associational standing even though it was not
a typical membership organization, at least in part
because “[i]n a very real sense . . . the Commission
represents the State’s [apple] growers and dealers and
provides the means by which they express their
collective views and protect their collective interests.”
Id. at 345. Harvard argues that the indicia-ofmembership test articulated in Hunt should be applied
to all organizations, while SFFA argues that it is not
applicable to membership organizations, like the SFFA.

5

The Hunt Court discussed two other reasons justifying its
holding that the organization at issue in that case had
associational standing: that it “serves a specialized segment of the
State’s economic community which is the primary beneficiary of its
activities, including the prosecution of this kind of litigation” and
“the interests of the Commission itself may be adversely affected
by the outcome of this litigation.” Hunt, 432 U.S. at 344–45. Here,
the parties focus only on the indicia-of-membership rationale.

App. 335
B. Nature of the SFFA
The SFFA, a nonstock corporation, was formed
under the laws of Virginia on July 30, 2014. [ECF No.
188, Ex. A (“Blum Tr.”) at 11:23–25]. According to
SFFA’s bylaws, as amended on June 19, 2015
(hereinafter, the “Bylaws”),6 the organization’s purpose
is “to defend human and civil rights secured by law,
including the right of individuals to equal protection
under the law, through litigation and other lawful
means.” [ECF No. 188, Ex. B (“Bylaws”), art. II]. The
Board of Directors, which manages the business and
affairs of SFFA, is composed of four Board-Elected
Directors and one Member-Elected Director. Bylaws,
art. IV, §§ 4.01, 4.02. The Board-Elected Directors are
elected by a majority vote of the directors then in office,
and the Member-Elected Director is elected by a
majority vote of the members. Id. § 4.04. Actions by the
Board of Directors generally require a majority vote of
the Directors present at any given meeting (where
there is a quorum, defined as a majority of all
Directors). Id. § 4.08.
SFFA has formal members, referred to as “General
Members.” According to the SFFA Bylaws, an
individual qualifies as a General Member if he or she
“seeks to support the purposes and mission of the
Corporation, pays membership dues as prescribed by
the Board of Directors, and meets any additional
standards and procedures that may be prescribed from

6

Prior to the June 19, 2015 amendment, SFFA members had no
voting rights and were not required to make any financial
contributions to join.

App. 336
time to time.” Bylaws, art. III, § 3.02. The Bylaws
further specify that General Members are not
“members” within the meaning of the Virginia
Nonstock Corporation Act.7 Bylaws, art. III, § 3.01.
Initially, SFFA did not require a membership fee and
a person became a member by providing their first and
last name and e-mail address through the SFFA
website, Blum Tr. at 130:16–133:22, but SFFA has
since begun requiring an initial, one-time contribution
of ten dollars, see [ECF No. 188, Ex. B at 2].
SFFA now has approximately 20,000 members,
although for present purposes it only asserts
associational standing based on the circumstances of
thirteen of its members, most of whom have submitted
signed declarations in support of SFFA’s opposition to
the motion to dismiss. See [ECF No. 204 at 6]; see also
Exhibits to [ECF No. 205]. Seven of these 13 members
are Asian-American students who applied to and were
rejected from Harvard [ECF Nos. 205-26, 34, 35, 38, 39,
40, 41] and two are Asian-American high school
students who intend to apply to Harvard in the future
[ECF Nos. 205-36, 42]. Their declarations state that
they have voluntarily joined SFFA, support its mission,
have been in contact with SFFA, and had the
opportunity to express their views on the direction of
this litigation.

7

The Virginia Nonstock Corporation Act defines a “member” as
“one having a membership interest in a corporation in accordance
with the provisions of its articles of incorporation or bylaws.” Va.
Code § 13.1-803. “Membership interest” is defined as the “interest
of a member in a domestic or foreign corporation, including voting
and all other rights associated with membership.” Id.

App. 337
C. Applicability
of
the
Membership Test to SFFA

Indicia-of-

The thrust of Harvard’s argument is that SFFA’s
General Members play no meaningful role in the
organization and thus SFFA does not genuinely
represent them such that it has associational standing
to sue on their behalf. Harvard interprets the cases on
associational standing following Hunt to require that
an association’s constituents exhibit “indicia of
membership,” in addition to the three Hunt
prerequisites commonly cited in these cases, in order
for the association to have standing to represent them.8
See, e.g., [ECF Nos. 188 at 8; 220 at 7 n.5]. SFFA
responds that the Court need not undertake an
indicia-of-membership inquiry where an organization
has actual members and satisfies the three Hunt
prerequisites, but that it would nonetheless withstand
such an inquiry.
Generally speaking, the indicia-of-membership test
for associational standing purposes is applied when a
case requires a functional analysis of whether an
association has standing to sue on behalf of its
constituents, often in situations when the organization
does not have any actual members, such as the state
agency involved in Hunt. See Hunt, 432 U.S. at 344
8

“‘Individuals identified for standing purposes by an organization
who are not legally ‘members’ [are] referred to as . . .
‘constituents[.]’” Citizens Coal Council v. Matt Canestrale
Contracting, Inc., 40 F. Supp. 3d 632, 639 (W.D. Pa. 2014) (quoting
See Karl S. Coplan, Is Voting Necessary? Organization Standing
and Non-Voting Members of Environmental Advocacy
Organizations, 14 Southeastern Envtl. L.J. 47, 52 n. 26 (2005)).

App. 338
(“[W]hile the apple growers and dealers are not
‘members’ of the Commission in the traditional trade
association sense, they possess all of the indicia of
membership in an organization.”); see also Funeral
Consumers All., Inc. v. Serv. Corp. Int’l, 695 F.3d 330,
344 n.9 (5th Cir. 2012) (“If the association seeking
standing does not have traditional members, as here,
the association establishes its standing by proving that
it has ‘indicia of membership’. . . .” (citing Hunt, 432
U.S. at 344–45)); Disability Advocates, Inc. v. N.Y.
Coal. for Quality Assisted Living, Inc., 675 F.3d 149,
159 (2d Cir. 2012) (“Hunt held that the Constitution
requires that the constituents of a non-membership
organization manifest the ‘indicia of membership’ for
that organization to have associational standing to sue
on their behalf.”); Ball by Burba v. Kasich, No.
2:16-CV-00282, 2017 WL 1102688, at *13 (S.D. Ohio
Mar. 23, 2017) (“With respect to the first [Hunt] prong,
when an association lacks traditional members, the
association may nonetheless have standing where its
constituents ‘possess all of the indicia of membership in
an organization.’” (quoting Hunt, 432 U.S. at 344));
AARP v. U.S. Equal Emp’t Opportunity Comm’n, No.
CV 16-2113 (JDB), 2016 WL 7646358, at *5 (D.D.C.
Dec. 29, 2016) (“[M]any of the cases that do discuss
indicia of membership are those in which the
organization at issue clearly does not have members.”);
Sylvia’s Haven, Inc. v. Mass. Dev. Fin. Agency, 397 F.
Supp. 2d 202, 207–08 (D. Mass. 2005) (conducting
indicia-of-membership analysis in context of informal
association, but concluding that it did not meet the
other Hunt prerequisites). Thus, Hunt’s indicia-ofmembership test clearly applies in determining the

App. 339
associational standing of organizations that lack actual
members.
It is less clear, however, whether Hunt’s
indicia-of-membership test can or should ever be
undertaken in connection with associations that
actually have identifiable members, such as SFFA,
and, if so, under what circumstances. Several judges
have noted that this issue is unresolved. See Citizens
Coal Council v. Matt Canestrale Contracting, Inc., 40
F. Supp. 3d 632, 643 (W.D. Pa. 2014) (“It is
questionable whether the ‘indicia of membership’ test
applies at all where, as here, the organization is clearly
a volunteer membership organization . . . .”); AARP,
2016 WL 7646358, at *5 (“There appears to be a gap in
the associational standing case law about when or how
the indicia of membership inquiry should be applied.”).
Without expressly addressing it, courts in this Circuit
have routinely not applied the indicia-of-membership
test, and instead simply considered the three
delineated Hunt prerequisites, when the associations
were membership organizations. See, e.g., Merit Const.
All. v. City of Quincy, 759 F.3d 122, 126–27 (1st Cir.
2014) (holding that organization had associational
standing without conducting indicia-of-membership
test); Camel Hair & Cashmere Inst. of Am., Inc., 799
F.2d at 10–12 (same); Sexual Minorities Uganda v.
Lively, 960 F. Supp. 2d 304, 325–28 (D. Mass. 2013)
(same).9 Furthermore, several judges have explicitly

9

Harvard reconciles such cases with its legal position by claiming
that courts can ignore the indicia-of-membership test when the
issue of whether an association is a genuine membership
organization is undisputed. This view, however, is not discussed or

App. 340
noted that Hunt’s indicia-of-membership test applies
only when an organization is a non-membership
organization. See Brady Campaign to Prevent Gun
Violence v. Salazar, 612 F. Supp. 2d 1, 29 (D.D.C. 2009)
(“The inquiry into the ‘indicia of membership’. . . is
necessary only when an organization is not a
‘traditional membership organization.’” (quoting
Gettman v. DEA, 290 F.3d 430, 435 (D.C. Cir. 2002)));
Cal. Sportfishing Prot. All. v. Diablo Grande, 209 F.
Supp. 2d 1059, 1066 (E.D. Ca. 2002) (“[T]he ‘indicia of
membership’ requirement in Hunt applies only to
situations in which an organization is attempting to
bring suit on behalf of individuals who are not
members.”).10
Although Harvard argues that Hunt and its progeny
support the application of an indicia-of-membership
test to all organizations asserting associational
standing, regardless of whether they formally have
members, the Court is not aware of any case that
explicitly stands for this proposition. Under such a
formulation, associational standing would turn on a
subjective evaluation of whether “members” are
“genuine” members or not, with the organization’s view

endorsed in the case law. Further, courts have “an independent
obligation to assure that standing exists, regardless of whether it
is challenged by any of the parties.” Summers v. Earth Island
Inst., 555 U.S. 488, 499 (2009).
10

Harvard argues that both these cases are inapposite because
they do not involve organizations in which members had as little
control as in SFFA’s case. [ECF No. 220 at 5]. Even if factually
distinguishable, however, the legal reasoning is relevant.

App. 341
of its own members being only one factor in the
analysis.
In Hunt, the Supreme Court concluded that the
Washington State Apple Advertising Commission was
“not a traditional voluntary membership organization
such as a trade association, for it ha[d] no members at
all.” Hunt, 432 U.S. at 342. The Commission was
created by statute and was “composed of 13
Washington apple growers and dealers who [we]re
nominated and elected within electoral districts by
their fellow growers and dealers.” Id. at 337. The Hunt
Court nonetheless concluded that, although the
Commission had no members “in the traditional trade
association sense,” its constituents “possess[ed] all the
indicia of membership in an organization,” which
permitted associational standing. Id. at 344–45. There,
the indicia of membership established that “the
Commission represent[ed] the State’s growers and
dealers and provide[d] the means by which they
express[ed] their collective views and protect[ed] their
collective interests.” Id. at 345.
The Court reads Hunt as standing for the following
propositions: (1) a membership organization has
standing to sue on behalf of its members if it satisfies
the three Hunt prerequisites (in short, that at least one
member has a personal injury-in-fact, germaneness,
and no need for individual member participation); and
(2) a non-membership organization might still have
associational standing provided it has sufficient indicia
of membership as more fully set forth in Hunt and its
progeny. In introducing the indicia-of-membership test,

App. 342
Hunt expanded the category of organizations that could
have associational standing, rather than limiting it.
Harvard cites Wash. Legal Found. v. Leavitt, 477 F.
Supp. 2d 202, 208–09 (D.D.C. 2007) and Package Shop,
Inc. v. Anheuser-Busch, Inc., No. 83-513, 1984 WL
6618, at *41 (D.N.J. Sept. 25, 1986) in support of the
proposition that “courts have held that organizations
referring to their supporters as ‘members’ nevertheless
lacked standing to represent those members in
litigation.” Harvard then cites the following cases to
argue that courts have applied the indiciaof-membership test in determining whether
organizations should be allowed “to sue on behalf of
their members:” Friends of the Earth Inc. v. Chevron
Chemical Co., 129 F.3d 826, 829 (5th Cir. 1997);
Playboy Enters., Inc., 906 F. 2d at 25; and Concerned
Citizens Around Murphy v. Murphy Oil USA, Inc., 686
F. Supp. 2d 663, 675–76 (E.D. La. 2010).
None of these cases require or even recommend the
application of the indicia-of-membership test to all
associational standing cases. For example, in
Washington Legal Foundation v. Leavitt, an
organization tried to assert associational standing on
behalf of individuals who were not formally WLF
members, which led the court to undertake a functional
analysis of the organization’s ability to sue on behalf of
those individuals. 477 F. Supp. 2d at 208. Thus, the
court applied the functional indicia-of-membership
analysis in determining whether the organization could
assert associational standing on behalf of
non-members. Here, in contrast, SFFA seeks to
represent individuals who are clearly members as

App. 343
defined by its Bylaws. The other cases similarly do not
hold that the indicia-of-membership test applies to
membership organizations like SFFA and the factual
circumstances triggering the indicia-of-membership
analysis in those cases are not present here.11 See
Package Shop, Inc., 1984 WL 6618, at *39–40 (using
indicia-of-membership analysis to determine whether
organization was truly a membership organization for
purposes of the lawsuit where organization had been
formed long before for another purpose and members
had shown no support for organization’s current
purpose); Friends of the Earth, Inc., 129 F.3d at 829
(“[T]he ‘indicia of membership’ test is the correct one to
apply to determine whether a purported corporation,
despite the failure to meet state law requirements, has
‘members’ whose interests it can represent in federal
court.” (emphasis added)); Concerned Citizens Around
Murphy, 686 F. Supp. 2d at 675–77 (E.D. La. 2010)
(holding that organization lacking some corporate
formalities and formal membership structure had
associational standing because it met Hunt’s
indicia-of-membership test).
Thus, the key cases Harvard relies on to support the
proposition that Hunt’s membership test should be
applied to actual membership organizations all
involved organizations that, unlike SFFA, asserted

11

Playboy Enterprises is inapposite because the First Circuit did
not undertake the indicia-of-membership analysis as outlined in
Hunt. Playboy Enters., Inc., 906 F.2d at 34–35 (rebutting party’s
argument that organization was just an “empty husk” and did not
represent its members’ interests, but without applying the Hunt
indicia-of-membership test).

App. 344
standing on behalf of non-members or had factual
circumstances, not present here, that called for a
functional analysis of its constituents. Further, the
Court’s conclusion—that the indicia-of-membership
inquiry should not be applied to SFFA under the
circumstances of this case—is consistent with the
rationale underlying associational standing. In Int’l
Union, United Auto., Aerospace & Agr. Implement
Workers of Am. v. Brock, the Supreme Court
reaffirmed the principles in Hunt and rejected the
Secretary of Labor’s argument that litigation based on
associational standing would not guarantee adequacy
of representation. 477 U.S. 274, 288–89 (1986). The
Supreme Court noted that “the doctrine of associational
standing recognizes that the primary reason people join
an organization is often to create an effective vehicle
for vindicating interests that they share with others.”
Id. at 290. The circumstances here do not call for a
functional analysis of SFFA’s membership. Where
SFFA has clearly stated its mission in its Bylaws and
website, where it has consistently, and recently, in
highly public ways, pursued efforts to end alleged
racial discrimination in college admissions through
litigation, and where its members voluntarily associate
themselves with the organization, it can be presumed
for the purposes of standing that SFFA adequately
represents the interests of its current members without
needing to test this further based on the
indicia-of-membership factors.
D. Hunt’s Prerequisites
Therefore, it is sufficient, for associational standing
in this case, if SFFA meets the three criteria outlined

App. 345
in Hunt: that “(a) its members would otherwise have
standing to sue in their own right; (b) the interests it
seeks to protect are germane to the organization’s
purpose; and (c) neither the claim asserted nor the
relief requested requires the participation of individual
members in the lawsuit.” Hunt, 432 U.S. at 343.
Because Harvard does not dispute that the three Hunt
prerequisites are met here, apart from the argument
that the indicia-of-membership test should be applied
to determine whether the SFFA is a membership
organization in the first place, the Court addresses
them only briefly.
To satisfy the first Hunt requirement, “an
organization suing as representative [must] include at
least one member with standing to present, in his or
her own right, the claim (or the type of claim) pleaded
by the association.” United Food and Com. Workers
Union Local, 517 U.S. at 555. SFFA has provided the
affidavits of a subset of its members, referred to as
Standing Members, which demonstrate that at least
some of these individuals, the rejected applicants,
would have standing to sue on their own.12 See Gratz v.
Bollinger, 539 U.S. 244, 262–63 (2003) (holding that
rejected applicant “able and ready” to transfer “has
standing to seek prospective relief with respect to the
University’s continued use of race in undergraduate
admissions”).

12

Because it was not raised by the parties and it is sufficient for
associational standing that at least one member have standing to
sue on his own, the Court does not address the issue of whether
prospective college students, who have not yet applied, or the
parents of applicants have standing to sue.

App. 346
Second, the lawsuit is germane to SFFA’s purpose
because, as stated in its Bylaws, SFFA’s mission is “to
defend human and civil rights secured by law,
including the right of individuals to equal protection
under the law.” Pursuing litigation to end alleged racial
discrimination in higher education admission furthers
that purpose.
Finally, SFFA requests only declaratory and
injunctive relief, and obtaining such relief, based on the
claims in this case, would not require individual
participation by its members. See Camel Hair &
Cashmere Inst. of Am., Inc., 799 F.2d at 12 (“Actions
for declaratory, injunctive and other forms of
prospective relief have generally been held particularly
suited to group representation.”); see also Playboy
Enters., 906 F.2d at 35 (“[J]ust because a claim may
require proof specific to individual members of an
association does not mean the members are required to
participate as parties in the lawsuit.”). Here, the
injunctive and declaratory relief requested need not be
tailored to or require any individualized proof from any
particular member.
Although the Court disagrees with Harvard that
Hunt and subsequent cases require that membership
organizations be subjected to an indicia-of-membership
test as a matter of course, it recognizes that there may
be situations in the future in which the adequacy of an
organization’s representativeness is so seriously in
doubt that the Court should consider Hunt’s indicia-ofmembership analysis or some other criteria to further
evaluate the issue of associational standing. See Brock,
477 U.S. at 290 (“Should an association be deficient in

App. 347
this regard [i.e., adequacy of representation], a
judgment won against it might not preclude
subsequent claims by the association’s members
without offending due process principles. And were we
presented with evidence that such a problem existed
either here or in cases of this type, we would have to
consider how it might be alleviated.”); see also Camel
Hair & Cashmere Inst. of Am., Inc., 799 F.2d at 11.
This is, however, not one of those situations. A
substantial part of SFFA’s mission is to end race-based
admissions policies at American universities. Blum Tr.
47:16–25. SFFA clearly communicated its mission,
which has stayed consistent since its founding, to
prospective members through its website and in its
outreach efforts. See, e.g., Blum Tr. 110:2–7. Further,
SFFA’s endeavors—both here and in North Carolina—
are highly public.13 SFFA’s members voluntarily join
the organization, presumably knowing its purpose, by
providing their name and contact information and
paying a small fee.14 See Friends of the Earth, 129 F.3d
13

SFFA also initiated a case against the University of North
Carolina and members of its board of governors, the University of
North Carolina at Chapel Hill and members of its board of trustees
and various school officials, alleging that the university’s
admissions process violates the Fourteenth Amendment of the U.S.
Constitution and Title VI of the Federal Civil Rights Act of 1964.
See Students for Fair Admissions, Inc. v. University of North
Carolina, et al., No. 1:14-cv-00954 (M.D.N.C. Nov. 17, 2014), [ECF
No. 1].
14

The First Circuit has held that “[w]here . . . there are no
allegations of manipulative abuse of the rule, the time-of-filing rule
is inapposite to the federal question context.” U.S. ex rel. Gadbois
v. PharMerica Corp., 809 F.3d 1, 5 (1st Cir. 2015), cert. denied, 136
S. Ct. 2517 (2016). Although Harvard suggests that the

App. 348
at 829. The Bylaws plainly lay out who qualifies as a
member and what a member’s role is and permit
members to vote for one member of the Board of
Directors, who participates in Board decisions, thereby
granting members more direct access to SFFA’s
management. Further, to support the organization,
members can voluntarily donate funds, in addition to
the one-time, ten dollar contribution (required since
June 2015) as a way of influencing the organization.
Moreover, the voluntary nature of SFFA’s membership
constitutes a form of influence by the members that
Harvard seems to underestimate. See Karl S. Coplan,
Is Voting Necessary? Organization Standing and
Non-Voting Members of Environmental Advocacy
Organizations, 14 Southeastern Envtl. L.J. 47, 79
(2005) (“The ability of an organization’s constituents to
join or quit the group would appear to be a very
effective means of ensuring the responsiveness of the
organization’s management—and also ensuring the
‘concrete adverseness’ required for organizational
standing.” (quoting Baker v. Carr, 369 U.S. 186, 204
(1962))). The Court also notes that courts have found
associational standing even in situations where

circumstances surrounding the amendment of the Bylaws might
indicate manipulation, it stops short of actually alleging that it
occurred in this case. The Court notes that the Bylaws were
amended over a year before Harvard filed its motion to dismiss for
lack of standing. Finally, where SFFA could move to dismiss the
lawsuit and possibly re-file it to avoid this issue, dismissal on this
ground would only waste judicial and party resources. Accordingly,
the Court examines SFFA’s current membership structure, rather
than the structure that existed at the time the Complaint was
filed, although it is not at all clear that the structures are so
materially different as to significantly alter the analysis.

App. 349
members had no voting majority. See, e.g., Or.
Advocacy Ctr. v. Mink, 322 F.3d 1101, 1111 (9th Cir.
2003).
Finally, SFFA has submitted declarations of certain
members whom it specifically identifies for standing
purposes. See Exhibits to [ECF No. 205]. Harvard
attempts to minimize the relevance of these
declarations by arguing that assessing the genuineness
of SFFA’s membership should be done with reference
to the entire membership, rather than just a few select
members. The Court has already highlighted certain
general characteristics of SFFA that ensure its
representation of its members as a whole. The
individual declarations, which show that SFFA
leadership communicates with members about this
litigation and that the Standing Members have given
input concerning the case, further bolster SFFA’s claim
that it is representing the interests of its members.
See, e.g., [ECF No. 205-26]. Finally, the Standing
Members each stated that the SFFA does in fact
represent their interests. See, e.g., id.
The Court therefore finds that SFFA meets the
prerequisites laid out in Hunt and has the associational
standing necessary to pursue this litigation.
V.

CONCLUSION

Accordingly, Harvard’s motion to dismiss for lack of
subject matter jurisdiction [ECF No. 187] is DENIED.15

15

For substantially the same reasons presented in this
Memorandum and Order and in light of the standard for a motion
for reconsideration, the Court also denies Harvard’s request to

App. 350
SO ORDERED.
Dated: June 2, 2017

/s/ Allison D. Burroughs
ALLISON D. BURROUGHS
U.S. DISTRICT JUDGE

reconsider [ECF No. 154] its earlier discovery ruling bearing on
SFFA’s standing [ECF No. 151].

